<html>
<title> - H.R. 701 AND H.R. 798</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
                         H.R. 701 AND H.R. 798

=======================================================================

                             FIELD HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

H.R. 701, TO PROVIDE OUTER CONTINENTAL SHELF IMPACT ASSISTANCE TO STATE 
 AND LOCAL GOVERNMENTS, TO AMEND THE LAND AND WATER CONSERVATION FUND 
 ACT OF 1965, THE URBAN PARK AND RECREATION RECOVERY ACT OF 1978, AND 
 THE FEDERAL AID IN WILDLIFE RESTORATION ACT (COMMONLY REFERRED TO AS 
  THE PITTMAN-ROBERTSON ACT) TO ESTABLISH A FUND TO MEET THE OUTDOOR 
CONSERVATION AND RECREATION NEEDS OF THE AMERICAN PEOPLE, AND FOR OTHER 
                                PURPOSES

 H.R. 798, TO PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF 
             THE UNITED STATES IN THE YEAR 2000 AND BEYOND

                               __________

    MARCH 31, 1999 ANCHORAGE, ALASKA AND MAY 3, 1999, NEW ORLEANS, 
                               LOUISIANA

                               __________

                           Serial No. 106-18

                               __________

           Printed for the use of the Committee on Resources

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
56-598 CC <l-ar/r-ar>       WASHINGTON : 1999





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 31, 1999......................................     1

Statement of Members:
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement of....................................     4

Statement of Witnesses:
    Angapak, Nelson, Alaska Federation of Natives, Anchorage, 
      Alaska.....................................................    21
    Bailey, Cindy, Director for Local Governmental Affairs, BP 
      Exploration-Alaska.........................................    26
        Prepared statement of....................................    60
    Borell, Steve, Alaska Miners Association, Anchorage, Alaska..    22
        Prepared statement of....................................    53
    Childers, Dorothy, Executive Director, Alaska Marine 
      Conservation Council.......................................    27
        Prepared statement of....................................    61
    Kreig, Ray, Anchorage, Alaska................................    29
        Prepared statement of....................................   190
    Regelin, Wayne, Director of Division of Wildlife 
      Conservation, Alaska Department of Fish & Game, Juneau.....     8
        Prepared statement of....................................    38
    Rosier, Carl, Board Member, Alaska Outdoor Council, Juneau, 
      Alaska.....................................................    20
        Prepared statement of....................................    53
    Schoen, John, Executive Director, Alaska State Office, 
      National Audubon Society...................................    30
        Prepared statement of....................................    62
    Selby, Jerome, Chairman, OCS Policy Committee, Anchorage, 
      Alaska.....................................................    12
    Shively, John, Commissioner of the Department of Natural 
      Resources, Anchorage, Alaska...............................     6
        Prepared statement of....................................    35
    Taylor, State Senator Robin, Alaska State Legislature, Alaska 
      for State Senate President, Robin Taylor and State Speaker.    10
        Prepared statement of....................................    39

Additional material supplied:
    Briefing Paper on H.R. 701 and H.R. 798......................   364
    Letter to Mr. Young from Myron Ebell, National Policy 
      Director, Frontiers for Freedom, Arlington, Virginia.......   200
    Text of H.R. 701.............................................    66
    Text of H.R. 798.............................................   114

Communications submitted:
    Dennerlein, Chip, Director, Alaska Regional Office of the 
      National Parks and Conservation Association, Anchorage, 
      Alaska, prepared statement of..............................    56
    Further testimony will be kept on file at Committee office in 
      Longworth House Office Building, Washington, DC: H.R. 701, 
      Testimony Submitted from March 31 through May 2, 1999 and 
      May 3 through June 11, 1999................................   363

Hearing held May 3, 1999.........................................   207

Statement of Members:
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................   208
    Jefferson, William J., a Representative in Congress from the 
      State of Louisiana.........................................   213
    John, Hon. Chris, a Representative in Congress from the State 
      of Louisiana...............................................   210
        Prepared statement of....................................   211
    Miller, Hon. George, a Representative in Congress from the 
      State of California, prepared statement of.................   209
    Tauzin, Hon. W.J. (Billy), a Representative in Congress from 
      the State of Louisiana.....................................   207
    Udall, Hon. Thomas, a Representative in Congress from the 
      State of New Mexico........................................   213

Statement of Witnesses:
    Anderson, Ronald, President, Louisiana Farm Bureau, Baton 
      Rouge, Louisiana...........................................   322
        Prepared statement of....................................   325
    Camardelle, Hon. David, Mayor of Grand Isle, Grand Isle, 
      Louisiana..................................................   268
    Davidson, Paul, Executive Director, Black Bear Conservation 
      Committee, Baton Rouge, Louisiana..........................   317
        Prepared statement of....................................   319
    Davis, Mark, Executive Director, Coalition to Restore Coastal 
      Louisiana, Baton Rouge, Louisiana..........................   303
        Prepared statement of....................................   304
    Downer, Hon. Hunt, Speaker of the House of Representatives, 
      President of State Senate, Baton Rouge, Louisiana..........   226
        Prepared statement of....................................   228
    Ewing, Hon. Randy, President of the State Senate, Baton 
      Rouge, Louisiana...........................................   229
        Prepared statement of....................................   231
    Falgout, Ted M., Executive Director, Greater Lafourche Port 
      Commission, Galliano, Louisiana............................   278
        Prepared statement of....................................   281
    Foster, Hon. Mike, Governor, State of Louisiana..............   217
        Prepared statement of....................................   220
    Gay, Patricia H., Executive Director, Preservation Resource 
      Center, New Orleans, Louisiana.............................   325
        Prepared statement of....................................   328
    Kohl, Barry, Director and Past President, Louisiana Audubon 
      Council, New Orleans, Louisiana............................   273
        Prepared statement of....................................   275
    Lanctot, Randy, Executive Director, Louisiana Wildlife 
      Federation, Baton Rouge, Louisiana.........................   341
        Prepared statement of....................................   344
    Morial, Hon. Marc, Mayor, City of New Orleans, Louisiana.....   237
    Mount, Hon. Willie T., Mayor, City of Lake Charles, Louisiana   314
        Prepared statement of....................................   315
    Rousselle, Benny, President, Plaquemines Parish, Belle 
      Chasse, Louisiana..........................................   251
        Prepared statement of....................................   255
    Sarthou, Cynthia M., Executive Director, Gulf Restoration 
      Network, New Orleans, Louisiana............................   294
        Prepared statement of....................................   297
    Smith, William Clifford, President, T. Baker Smith and Son, 
      Houma, Louisiana...........................................   354
        Prepared statement of....................................   355
    Snyder, Daniel, Student, (Oak Lawn) Junior High School.......   215
        Prepared statement of....................................   216
    Wentz, Dr. Alan, Group Manager for Conservation, Ducks 
      Unlimited, Memphis, Tennessee..............................   291
        Prepared statement of....................................   292
    Westphal, Hon. Joseph W., Assistant Secretary of the Army, 
      Washington, DC.............................................   242
        Prepared statement of....................................   245

Additional material supplied:
    Jenkins, James H., Jr., Secretary, Department of Wildlife & 
      Fisheries, Baton Rouge, Louisiana, prepared statement of...   361


H.R. 701, TO PROVIDE OUTER CONTINENTAL SHELF IMPACT ASSISTANCE TO STATE 
 AND LOCAL GOVERNMENTS, TO AMEND THE LAND AND WATER CONSERVATION FUND 
 ACT OF 1965, THE URBAN PARK AND RECREATION RECOVERY ACT OF 1978, AND 
 THE FEDERAL AID IN WILDLIFE RESTORATION ACT (COMMONLY REFERRED TO AS 
  THE PITTMAN-ROBERTSON ACT) TO ESTABLISH A FUND TO MEET THE OUTDOOR 
CONSERVATION AND RECREATION NEEDS OF THE AMERICAN PEOPLE, AND FOR OTHER 
PURPOSES; AND H.R. 798, TO PROVIDE FOR THE PERMANENT PROTECTION OF THE 
       RESOURCES OF THE UNITED STATES IN THE YEAR 2000 AND BEYOND

                              ----------                              


                       WEDNESDAY, MARCH 31, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                  Anchorage, Alaska
    The Committee met, pursuant to call, at 11 a.m. in Z.J. 
Loussac Library, Assembly Chambers, 3600 Denali Street, 
Anchorage, Alaska, Hon. Don Young [chairman of the Committee] 
presiding.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. The hearing will come to order. You notice I'm 
starting right on time, and I try to make a habit of doing 
that. And I do appreciate all of you for coming today and 
taking time from your busy workday for our first Congressional 
field hearing on these two conservation initiatives. Today we 
will be receiving testimony from a variety of witnesses 
covering two bills. This is not the only hearing we will have 
on this legislation process. We have a hearing on Congressman 
George Miller's Permanent Protection for Resources 2000 Act, 
also known as Resources 2000, and my Conservation and 
Reinvestment Act of 1999, which we call CARA.
    This is an official Congressional hearing held by the House 
Resources Committee. Some of you may not be familiar with our 
procedures, so let me take a second to explain. The Committee 
has invited 12 witnesses, representing all areas contained 
within these bills, to testify on the two measures, H.R. 701 
and H.R. 798. Each witness has prepared a written statement and 
will summarize that statement. There are lights on the witness 
table that will turn red when the witness' five minutes expire.
    For those interested in participating in this procedure, I 
will keep the record open for ten days and you may submit 
written testimony. This written testimony will be part of the 
official record, and I sincerely hope many choose to submit 
written comments and suggestions. Your input is very important 
as both bills move through the committee process.
    CARA was first introduced in the 105th Congress, and I 
along with more than 30 other Members of Congress reintroduced 
it on February 10, 1999 for consideration by the 106th 
Congress. CARA is a bipartisan bill with broad geographical 
support. In a few short months, we have reached 70 
Congressional supporters. These members range from the very 
urban members, such as Charlie Rangel of Manhattan, to very 
rural members, such as Saxby Chambliss of southern Georgia. The 
bill is also supported by the Western Governors Association, 
Southern Governors Association, National Governors Association, 
National Association of Counties, and the U.S. Conference of 
Mayors. Most importantly, I have received countless letters of 
support from Alaskans and Alaskan groups.
    The main reason we are finding such broad support for CARA 
is that this bill redistributes Federal reserves created from 
oil and gas production on the Outer Continental Shelf. 
Currently, these revenues go directly to the Federal treasury 
without any revenue sharing with states impacted by 
development. This is unusual as onshore Federal oil and gas 
revenues are shared with the host state. CARA addresses this 
inequity while providing revenue from offshore activity for 
valuable conservation programs. Quite frankly, this revenue, 
which is created by the development of a nonrenewable resource, 
should provide lasting benefit to the coastal states and 
provide for conservation efforts in all the states.
    The first title of CARA will provide direct revenue sharing 
in coastal states and territories; 35 in all, including Alaska. 
CARA gives each state the flexibility to provide the greatest 
benefit to its residents. In Louisiana, the coastal wetlands 
are deteriorating at an alarming rate. At the Committee's 
Washington, DC hearing, we heard from the Secretary of Natural 
Resources from the state of Louisiana, Jack Caldwell. Secretary 
Caldwell informed the Committee that Louisiana loses 35 square 
miles of land every year from erosion. CARA provides funding to 
address what is becoming a national problem.
    In Alaska, CARA funds will be used in meeting the state's 
water and sewer needs, education funding, and other 
conservation, infrastructure and public service needs. In 
total, the state of Alaska is projected to receive 
approximately $100 million or more dollars each year in direct 
revenue sharing. With the state's current billion dollar 
shortfall, CARA will provide a needed shot in the arm, 
especially in the conservation area.
    Title II provides annual and dedicated funding to the Land 
and Water Conservation Fund. CARA will fund both the state and 
Federal components of the Land and Water Conservation Fund and 
also provide for urban parks and recreation. Many folks think 
of the LWCF as a Federal land acquisition slush fund, and that 
is understandable. Each year the LWCF has $900 million 
available for Federal land acquisition through the 
Congressional appropriations process. On average, our 
appropriators provide the administration with $300 million to 
acquire private land. Last year it was nearly $700 million. 
These sums typically have little oversight and few strings. 
CARA changes the nature of this practice by adding sensible 
restrictions to the Federal Government while limiting the total 
amount of funds available each year.
    The Land and Water Conservation Fund was developed to 
reinvest nonrenewable oil and gas revenues into conservation 
and recreation. Congress and the administration have not 
followed this original intent. CARA reforms the current 
practice by providing annual funding and placing sensible 
restrictions on Federal purchases. At the same time, our bill 
funds the state component of the LWCF. The state of Alaska will 
have over $15 million available for conservation and recreation 
projects. These funds are available to meet the state's needs 
established by the priorities.
    This state-based funding has not been available the past 
five years. Without these funds having been available in the 
past, we may not have been able to develop projects like 
Alaskaland in Fairbanks and the coastal trail in Anchorage. My 
legislation would guarantee that we can count on developing 
conservation and recreation areas for our enjoyment and for the 
benefit of the tourism industry in this state. However, these 
big projects are not good examples for the quiet winners who 
stand to benefit by CARA being passed into law. Under Title II, 
CARA will provide soccer fields, state parks for urban areas 
and projects like basketball courts, hockey rinks, and softball 
fields. Each of these small projects provides outdoor 
experiences that can benefit everyone, no matter where they 
live.
    Title III is what we call the wildlife conservation 
component. These funds will be distributed through the Federal 
Aid in Wildlife Restoration Fund, known as Pittman-Robertson. 
Pittman-Robertson has collected and disbursed more than $3 
billion for wildlife conservation and recreation projects 
across America. Made possible entirely through the efforts and 
taxes paid by sportsmen, the funds are derived from an excise 
tax on sporting arms, ammunition, and archery equipment sold 
specifically for bowhunting.
    This component will allow states the flexibility to use 
this new revenue for wildlife conservation through the proven 
mechanisms of Pittman-Robertson. Alaska is expected to receive 
nearly $20 million for state-based wildlife conservation each 
year. CARA is my counterproposal to the Teaming With Wildlife 
Initiative, which wanted to create a broad tax on sporting 
goods ranging from sport utility vehicles to hiking boots. This 
program was one that I could not support, but funding is 
necessary to provide for wildlife, and CARA accomplishes this 
goal without creating a new tax.
    Each year scores of tourists come north to Alaska. Often 
they either do not have the opportunity and access to view 
wildlife. For tourism to remain a strong segment of our 
economy, we must continue to provide new opportunities to our 
visitors. CARA provides needed funding to do that. CARA will 
provide recreational projects to help ensure that our wildlife 
remains abundant. This is good for us as Alaskans and good for 
the tourists we count on.
    Congressman Miller's bill, Resource 2000, is well 
intentioned but contains significant differences from my bill 
CARA. There is no direct revenue sharing component within his 
bill. This is absolutely vital for any legislation which 
ultimately must move through my Committee. While several of the 
programs have similar goals, they come from a federalist 
approach and with many Federal strings. I hope to work with Mr. 
Miller in passing a good state-based bill which includes a 
strong revenue sharing component. The Federal Government should 
have been sharing this offshore revenue for decades and should 
not place the burden of an overwhelming Federal bureaucracy 
while making a reinvestment in sound conservation and 
recreational programs.
    This is only the beginning of the legislative process--and 
I want to stress that--for these bills. I plan to have more 
field hearings, as I mentioned before, from across this nation. 
I look forward to hearing from the diverse witnesses assembled 
here today. It is very important that Alaskans have an 
opportunity to shape this national legislation. With our 
abundance of resources and public lands, Alaskans should have 
the opportunity to voice their concerns so that they can be 
heard here as well as in Washington, DC.
    Our legislation is not complete, and this Committee will 
continue to receive comments and suggestions on these bills. I 
look forward to the insights of my fellow Alaskans which will 
be brought forward today. Ultimately, we must answer the 
question of if we are to make this lasting investment in our 
coastal communities and for sound national conservation. I 
frankly think we should be doing that.
    And I thank you for bearing with me for reading my opening 
statement.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Thank you for coming today and taking time from your busy 
workday for our first Congressional field hearing on these two 
conservation initiatives. Today, we will be receiving testimony 
from a variety of witnesses covering two bills: Congressman 
George Miller's Permanent Protection for Resources 2000 Act 
also known as Resources 2000 and my Conservation and 
Reinvestment Act of 1999 which we call CARA.
    This is an official Congressional hearing, held by the 
House Resources Committee. Some of you may not be familiar with 
our procedures, so let me take a second to explain. The 
Committee has invited 12 witnesses, representing all areas 
contained within these bills, to testify on the two measures--
H.R. 701 and H.R. 798. Each witness has prepared a written 
statement and will summarize that statement. There are lights 
at the witness table that will turn red when the witness's five 
minutes expire.
    For those interested in participating in this procedure, I 
will keep the record open for ten days and you may submit 
written testimony. This written testimony will be a part of the 
official record and I sincerely hope many choose to submit 
written comments and suggestions. Your input is very important 
as both bills move through our Committee process.
    CARA was first introduced in the 105th Congress and I along 
with more than 30 other Members of Congress reintroduced it on 
February 10, 1999, for consideration by the 106th Congress. 
CARA is a bipartisan bill with broad geographical support. In a 
few short months, we have reached 70 Congressional supporters. 
These Members range from the very urban Members, such as 
Charlie Rangel of Manhattan, to very rural, such as Saxby 
Chambliss of southern Georgia. The bill is also supported by 
the Western Governors Association, Southern Governors 
Association, National Governors Association, National 
Association of Counties, and the U.S. Conference of Mayors. 
Most importantly, I have received countless letters of support 
from Alaskans and Alaskan groups.
    The main reason we are finding such broad support for CARA 
is that this bill will redistribute Federal revenue created 
from oil and gas production on the Outer Continental Shelf 
(OCS). Currently, these revenues go directly to the Federal 
treasury without any revenue sharing with states impacted by 
development. This is unusual as onshore Federal oil and gas 
revenues are shared with the host state. CARA addresses this 
inequity while providing revenue from offshore activity for 
valuable conservation programs. Quite frankly, this revenue 
which is created by the development of a nonrenewable resource, 
should provide lasting benefit to the coastal states and 
provide for conservation efforts.
    The first title of CARA will provide direct revenue sharing 
to coastal states and territories, 35 in all--including Alaska. 
CARA gives each state the flexibility to provide the greatest 
benefit to its' residents. In Louisiana, the coastal wetlands 
are deteriorating at an alarming rate. At the Committee's 
Washington, DC hearing, we heard from the Secretary of Natural 
Resources from the State of Louisiana--Jack Caldwell. Secretary 
Caldewell informed the Committee that Louisiana loses 35 square 
miles of land every year from erosion. CARA provides funding to 
address what is a national problem.
    In Alaska, CARA funds will be used in meeting the State's 
water and sewer needs, education funding, and other 
conservation, infrastructure, and public service needs. In 
total, the State of Alaska is projected to receive 
approximately $100 million each year in direct revenue sharing. 
With the State's current billion dollar shortfall, CARA will 
provide a needed shot in the arm to our economy.
    Title Two provides annual and dedicated funding to the Land 
and Water Conservation Fund (LWCF). CARA will fund both the 
state and Federal components of the LWCF and also provide for 
urban parks and recreation. Many folks think of the LWCF as a 
Federal land acquisition slush fund, and that is 
understandable. Each year, the LWCF has $900 million available 
for Federal land acquisition through the Congressional 
appropriations process. On average, our appropriators provide 
the Administration with $300 million dollars to acquire private 
land--last year it was nearly $700 million dollars. These sums 
typically have little oversight and few strings. CARA changes 
the nature of this practice by adding sensible restrictions to 
the Federal Government--while limiting the total amount of 
funds available each year.
    The Land and Water Conservation Fund was developed to 
reinvest nonrenewable oil and gas revenue into conservation and 
recreation--Congress and the Administration have not followed 
this original intent. CARA reforms the current practice by 
providing annual funding and placing sensible restrictions on 
Federal purchases. At the same time, our bill funds the state 
component of the LWCF. The state of Alaska will have over $15 
million available for conservation and recreation projects. 
These funds are available to meet the State's needs established 
by their priorities.
    This state-based funding has not been available in the past 
five years. Without these funds having been available in the 
past, we may not have been able to develop projects like 
Alaskaland in Fairbanks, or the Coastal Trail here in 
Anchorage. My legislation would guarantee that we can count on 
developing conservation and recreation areas for our enjoyment 
and to the benefit of our tourism. However, these big projects 
are not good examples for the quiet winners who stand to 
benefit by CARA being passed into law. Under Title Two, CARA 
will provide soccer fields, city parks for urban areas and 
projects like, basketball courts, hockey rinks, and softball 
fields. Each of these small projects provides outdoor 
experiences that can benefit everyone, no matter where they 
live.
    Title Three is what we call the wildlife conservation 
component. These funds will be distributed through the Federal 
Aid in Wildlife Restoration Fund also known as Pittman-
Robertson (P-R). PR has collected and disbursed more than $3 
billion for wildlife conservation and recreation projects 
across America. Made possible entirely through the efforts and 
taxes paid by sportsmen, the funds are derived from an excise 
tax on sporting arms, ammunition, and archery equipment sold 
specifically for bowhunting.
    This component will allow states to have the flexibility to 
use this new revenue for wildlife conservation through the 
proven mechanisms of PR. Alaska is expected to receive nearly 
$20 million for state-based wildlife conservation each year. 
CARA is my counter proposal to the ``Teaming With Wildlife'' 
initiative which wanted to create a broad tax on sporting goods 
ranging from sport utility vehicles to hiking boots. This 
program was one that I could not support, but funding is 
necessary to provide for wildlife, and CARA accomplishes this 
goal without creating a tax.
    Each year scores of tourists come north to Alaska. Often 
they either did not have the opportunity and access to view 
wildlife. For tourism to remain a strong segment of our 
economy, we must continue to provide new opportunities to our 
visitors. CARA provides needed funding to do just that. CARA 
will provide recreational projects and help ensure that our 
wildlife remains abundant. This is good for us as Alaskans and 
good for the tourism we count on.
    Congressman Miller's bill, ``Resources 2000,'' is well 
intentioned but contains significant differences from CARA. 
There is no direct revenue sharing component within his bill. 
This is absolutely vital to any legislation which ultimately 
must move through my Committee. And while several of the 
programs are directed at similar goals, they come from a 
federalist approach and with many Federal strings. I hope to 
work with Mr. Miller in passing a good state-based bill which 
includes a strong revenue sharing component. The Federal 
Government should have been sharing this OCS revenue for 
decades and should not place the burden of an overwhelming 
Federal bureaucracy while making a reinvestment in sound 
conservation and recreation programs.
    This is only the beginning of the legislative process for 
these bills. I plan to have more field hearings to hear from 
the public on these historic measures. I look forward to 
hearing from the diverse witness assembled here today, is it is 
very important that Alaskans have an opportunity to shape this 
national legislation. With our abundance of resources and 
public lands Alaskans should have the opportunity to voice 
their concerns so that they are heard in Washington, DC.
    Our legislation is not complete and this Committee will 
continue to receive comments and suggestions on these bills. I 
personally look forward to the insights from my fellow Alaskans 
that will be brought forward today. Ultimately, we must answer 
the question of if we are to make this lasting investment in 
our coastal communities and for sound national conservation? I 
think we should.

    Mr. Young. The first panel we have is Mr. John Shively, 
Commissioner of the Department of Natural Resources, Anchorage, 
Alaska; Mr. Wayne Regelin, Director of Division of Wildlife 
Conservation, Alaska Department of Fish & Game, Juneau; Senator 
Robin Taylor, Alaska State Senate, Wrangell, Alaska; and Mr. 
Jerome Selby, Chairman of OCS Policy Committee, Anchorage, 
Alaska.
    For the audience, we will have three panels, and this is 
the first panel. And I hope you have enough room, gentlemen. 
With your permission, we will go right down the line with Mr. 
Shively, Mr. Regelin, Senator Taylor, and Mr. Selby.

 STATEMENT OF JOHN SHIVELY, COMMISSIONER OF THE DEPARTMENT OF 
              NATURAL RESOURCES, ANCHORAGE, ALASKA

    Mr. Shively. Mr. Chairman, thank you very much. And first 
of all, welcome home. We got a little fresh snow for you just 
so you can remember what it looks like.
    Mr. Young. Remember to pull the mike a little closer to 
you, too. Go ahead.
    Mr. Shively. I assume my written statement will be 
submitted for the record, and I'm just going to highlight a 
couple things. We do appreciate you giving the state an 
opportunity to testify, and we are going to testify only on 
H.R. 701 today. I'm going to do Title I and Title II, and Wayne 
will do Title III.
    We strongly support the provisions of this bill. We believe 
it's important that Outer Continental Shelf oil and gas 
revenues be shared with state and local governments. Governor 
Knowles firmly believes that state and local governments 
subjected to the risks of the impacts of OCS development should 
share in some of the benefits and particularly the revenue 
benefits.
    As you know, we have already received some money as a 
result of section 8(g) of the OCS Lands Act. This bill would 
increase the amount of revenues and allow us to have that 
revenue outside the six mile limit.
    Jerome will probably talk about the OCS policy committee. I 
didn't realize he was going to be on my panel. I also sit as an 
alternate on that panel for the governor, and I was there at 
the meeting where a similar proposal was adopted. It's a very 
broad based group to support a proposal like this, and I think 
that your introducing legislation is commendable, and I think 
that what they have to say is an important message.
    Let me talk first a little bit about Title I. This title, 
of course, provides a remedy to a longstanding problem where we 
have not shared in major revenues--a number of states that have 
received impacts from OCS development have not received the 
kind of revenues that I think they need to address as far as 
impact. Alaska is a very diverse place with some particularly 
important social and environmental and economic needs. And I 
think that one of the things that we like most about this bill 
is that you provide the flexibility in terms of how the funds 
are going to come so we can address our particular problems 
which may be a little different than, let's say, Louisiana or 
Texas.
    We think funds here could be used to plan for OCS 
development, review any proposed developments on offshore, 
complete research to important questions relating to 
development, conduct monitoring once development takes place, 
improve oil spill response and training and improve much needed 
community services and infrastructure.
    I think that how funds are distributed between the stated 
communities is an issue that is somewhat complicated, and I 
think there is a variety of proposals--we don't have a specific 
proposal on this at this point, but I think the state later on 
may want to communicate something directly with you. It is 
important to us that the communities that are impacted receive 
the bulk of the funds. We need to put the funds where the 
impact is.
    A little bit on Title II. We also support this title, 
although I think it has been somewhat controversial, as you 
mentioned in your opening statement. We don't have any major 
concerns with the provision of this title. The Land and Water 
Conservation Act funds have been useful in Alaska. We have had 
over $28 million of them. You mentioned a couple projects in 
Anchorage and Fairbanks. Forty-four different communities have 
received funds in the past under the provisions of this fund, 
places as diverse as Klawock, Nondalton and Old Harbor as well 
as some of our major cities. So this is an important fund, and 
we would like to see money go back into it for the state part 
of this.
    We already have a granting procedure that's in place so 
that we could make use of these funds. And we have just 
completed our statewide comprehensive outdoor recreation plan 
which is a requirement to get these funds so we can prepare to 
use them if they are available.
    I recognize some people are concerned with private property 
rights and what effect it might have. We think you provided 
some real protection here, first of all, that lands can't be 
taken by condemnation. And of course, we sort of like the fact 
that you are moving most of the funds east of the 100th 
meridian, which is real close to where my in-laws live, but the 
East Coast could use some larger parks, I'm sure. And we think 
that the Congressional check on major expenditures and on lands 
that aren't part of existing conservation system units are 
important checks that should remain in the legislation. We also 
would like to see some consideration perhaps given to funding 
for historic preservation projects which some people have 
proposed. Also, while we traditionally have not been eligible 
for urban parks funding, we are now big enough to do that, so 
if there is funding available there, that would also be of 
assistance to the state.
    In conclusion, I would like to say that, once again, on 
behalf of Governor Knowles, we strongly support this 
legislation and we commend you for introducing it and trying to 
work in a bipartisan way to get this legislation passed. We 
look forward to working with you and providing any information 
you might need. Thank you very much.
    [The prepared statement of Mr. Shively may be found at the 
end of the hearing.]
    Mr. Young. Thank you, Mr. Shively. And you kept it right 
within the five minutes. I'm not as hard as some members are, 
but I do appreciate that.
    Mr. Shively. I wanted to behave, Mr. Chairman.
    Mr. Young. Wayne, you are up next.

 STATEMENT OF WAYNE REGELIN, DIRECTOR OF DIVISION OF WILDLIFE 
     CONSERVATION, ALASKA DEPARTMENT OF FISH & GAME, JUNEAU

    Mr. Regelin. Thank you, Mr. Chairman. I really appreciate 
the opportunity to testify before your Committee today. It's a 
great pleasure to express our strong support for H.R. 701 and 
to thank you for your foresight and leadership in introducing 
this landmark legislation. I commend you for addressing the 
needs to fund state wildlife management programs and for 
recognizing the critical need for wildlife education programs. 
It's really gratifying to see such strong bipartisan support 
for this bill, and the long list of co-sponsors is really 
impressive. And I know that it's growing every day.
    Many Alaskans have long recognized the need for this bill 
and have worked to support its introduction. Alaska's coalition 
of over 400 groups includes numerous sportman's associations, 
business organizations, and many cities, boroughs and Native 
groups that supported the concepts in the old Teaming With 
Wildlife Initiative. And only two or three of these groups 
dropped their support when the funding sources changed from an 
excise tax to offshore drilling revenue, and several others 
have come on board.
    I'm going to focus my comments on Title III of your bill 
because it provides the greatest benefits to wildlife 
management, but I do recognize that both Titles I and II will 
also benefit wildlife users.
    Title III will provide funds to all 50 states plus our 
territories, and this funding can be used for management of all 
wildlife species, for wildlife education and for wildlife 
related outdoor recreation. In Alaska, this funding is going to 
provide substantial economic benefits in many ways. Knowledge 
about wildlife species can prevent them from becoming listed as 
threatened or endangered through the Federal Endangered Species 
Act. Often groups petition the Fish & Wildlife Service to list 
a species that's not hunted because its population status is 
not well known. And this bill will provide the funding needed 
to help prevent this from occurring and avoiding the tremendous 
economic and social disruptions that an ESA listing causes.
    Over one million tourists visit Alaska each summer, and one 
of their top priorities is to see wildlife. This bill will 
provide the funding to develop a first class watchable wildlife 
program to meet the needs of the growing tourism industry. We 
will build new trails and other types of access that can be 
used by wildlife watchers in the summer and hunters in the 
fall. Wildlife viewing can be done in ways that are compatible 
with hunting through time and space planning and zoning.
    Additionally, millions of dollars can be generated if 
tourists add only a single day to their Alaska vacation. And we 
will develop a watchable wildlife program second to none that 
would attract more tourists and keep them in Alaska longer. One 
of the things that's most important to me is it's vital to the 
long-term continuation of hunting, trapping and effective 
wildlife management that will do more to educate the public 
about wildlife management. This bill will provide the funds for 
the states to develop educational programs that have a balanced 
message about the benefits of wildlife management and 
sustainable development of all of our natural resources. In 
Alaska we have plans to work with local school districts to 
provide such plans to students.
    I'm going to take just a couple minutes to talk about--
address the H.R. 798 that was introduced by Congressman Miller. 
This bill contains some of the same elements in H.R. 701, and 
I'm pleased that he recognizes the need for more funding for 
wildlife management. However, H.R. 789 omits several elements 
that concern me and the other leaders of wildlife agencies 
throughout the United States.
    H.R. 798 would require a new mechanism to administer the 
program and would provide far less funding for wildlife 
management. I see no need to create another bureaucracy to 
distribute funds to states when the existing Federal Aid in 
Wildlife Restoration program can easily accomplish this job at 
little additional cost. In its current form, H.R. 798 would not 
provide any funding for wildlife education or for wildlife 
related recreational programs, and I think funding for both of 
these is very essential.
    In conclusion, I want to reiterate the state of Alaska's 
strong support for H.R. 701. And I'd also like to express my 
sincere appreciation to you as chairman and to your staff for 
your willingness to listen to all points of view during the 
formative stages of this legislation and for their tireless 
efforts to reach consensus with an incredibly wide array of 
interests. Thank you.
    [The prepared statement of Mr. Regelin may be found at the 
end of the hearing.]
    Mr. Young. Thank you, Wayne. Senator Taylor, before you go, 
can anybody hear the witnesses in the back of the room? You can 
hear them all right? Because I'm having a little problem 
hearing you up here. Maybe it's my seniorship. Senator, you are 
up.

    STATEMENT OF SENATOR ROBIN TAYLOR, ALASKA STATE SENATE, 
                        WRANGELL, ALASKA

    Mr. Taylor. Good morning, Mr. Chairman. For the record, I'm 
Senator Robin Taylor, Alaska State Legislature, and I, too, 
want to thank you for coming home and having a chance to talk 
with us about this. I have prepared remarks and I have also 
submitted for the record testimony, or remarks, I should say, 
that represent the majority of the members of the Alaska State 
Senate. And I'm speaking on my own behalf today and submitting 
their testimony on their behalf.
    First I'm going to try to abbreviate some of these comments 
because those that were prepared were a bit longer. The framers 
of our Constitution created three distinct branches, both on 
the Federal level and all 50 states. And I'm doing this for the 
purpose of recommending amendments to you to this legislation.
    First, each of the bills, both two in the House and two in 
the Senate, to date provide for a direct off budget 
appropriation that is perpetual, and the appropriation goes 
directly to a politically appointed Secretary of the Interior, 
and through that office directly to the governor of each state. 
Our Alaska Constitution, just like yours, provides that our 
governor does not have the power to appropriate one thin dime, 
nor does Bill Clinton. Some of us consider that a blessing. Yet 
in all four of these bills, our governor would have the total 
authority to approve all planned expenditures, to write his own 
unilateral plan which would need only the approval of the 
Secretary of the Interior.
    These bills could generate up to a maximum of well over 
$100 million for expenditure by Alaska's governor with, other 
than the matching grant aspects, no control by the legislature. 
And so we recommend strongly to you that the word governor in 
each of the bills be replaced with the word the state 
legislature. It's how we appropriate money up here. I can 
understand why the governors associations, both national and 
southern and western, would support this legislation because 
they get to spend hundreds of millions of dollars and they 
don't have to worry about those pesky legislators. So I would 
recommend that amendment strongly.
    We are concerned, too, about the prioritization that occurs 
within this legislation by going off budget with it. I 
understand that the access to these funds is important, that 
people are anxious to have them, but isn't national defense an 
essential priority of our government? And if national defense 
is an essential priority, why is it national defense has to 
have an annual appropriation and be reviewed by the Congress, 
but these expenditures of what could be well over $1 billion 
will not be reviewed by Congress but this one time? We would 
ask that you think about that prioritization.
    Some of us in Alaska can recall very clearly we are a state 
that was invaded and occupied. We now have the situation going 
on in Kosovo. We are very concerned about that shifting in 
prioritization for the purposes of these bills.
    Wildlife is a concept that we all support. We all are 
concerned about good conservation, but after talking with Mr. 
Henry of your staff yesterday, it became apparent to me that, 
though the term wildlife is often used when we talk about this 
legislation, the public is not aware that this definition will 
now extend wildlife management and fund wildlife management 
down to. It will fund the wildlife management of alleged green 
tree frogs south of Petersburg, Alaska. It will provide funding 
for wildlife management for a subspecies of housefly that today 
prevents the building of a $16 million medical clinic just 
outside of Sacramento. I drove by it a few months ago. That is 
not anything that any Alaskan has ever asked me to appropriate 
monies for.
    And to bring us back to just the impact on Alaska, because 
that's my purpose here, I've provided today a map to the 
membership, and also we have a map here. It's very difficult to 
see from where you are seated, but there is a very thin, pie-
shaped piece of Alaska. That's the total private ownership of 
land in this state. It represents less than one-third of 1 
percent of the total land mass. Now, of course, that little pie 
includes all the residential homes in Anchorage, property we 
are sitting in today which is owned by the municipality. But if 
you look at every single home in Anchorage, Fairbanks, Juneau, 
Ketchikan, Petersburg, Wrangell, they are all right there. So 
let's take them out because this legislation isn't targeted to 
them. And let's talk about what small portion of that less than 
one million acres in Alaska is remote parcels. I actually 
happen to be an inholder. I have 78 acres of fee simple 
property that's an old homestead I acquired on the Stikine 
River. I'm dead center in the middle of the Stikine LeConte 
Wilderness Area.
    Congressman, if only 50 percent of the funds appropriated 
under this legislation is used for the acquisition of property, 
my property would go to the value of $936,000. Since that's the 
purchase of a willing seller of less than one million under 
your bill, Congress would never hear about it. I guarantee you 
that those of us that own remote parcels, as I do, those of us 
who are inholders are very concerned about this legislation, 
and we pray that you would put additional restrictions on it.
    The mere removal of condemnation does not give us much 
comfort because that only takes condemnation out of this bill. 
It doesn't prevent them from condemning and taking our property 
in another. And willing seller, I submit to you that every 
Member of Congress, every home they own, every ranch they own, 
every condominium is available for sale if the price is right. 
Unfortunately, the price might get right on my property, and my 
grandkids will never have a chance to play on it if the 
government truly wants to buy it and run me off of it.
    It's with those concerns I came today. I'm sorry I'm going 
a couple moments over, but I have submitted the bill--the map 
to the Committee, and in addition to that, the amendments that 
have been suggested. But my primary concern is that the impacts 
on our state where we have such a very, very small portion of 
private land ownership could be distorted as opposed to the 
impact of this legislation on other states.
    Congressman, thank you very much.
    [The prepared statement of Mr. Taylor may be found at the 
end of the hearing.]
    Mr. Young. Thank you, Senator. Mr. Selby.

  STATEMENT OF JEROME SELBY, CHAIRMAN, OCS POLICY COMMITTEE, 
                       ANCHORAGE, ALASKA

    Mr. Selby. Thank you, Mr. Chairman. I'm here today 
representing the Outer Continental Shelf Policy Committee. I 
also serve as a chair of the working group that prepared the 
report that came to you folks. And needless to say, we are 
delighted with the amount of material that you folks found to 
have been well thought out and included in the bills from the 
policy committee.
    As Mr. Shively pointed out, the committee is a broad ranged 
group. It represents all of the states on the coastal part of 
the United States as well as the environmental interests on the 
one extreme, of course, and oil companies and other inholders, 
land holders on the other, and a lot of folks in the middle; 
we've got fishing interests, local governments, and those folks 
represented. And so it does represent a broad section of the 
United States in terms of the thinking and the input into what 
was recommended to you.
    Just a couple of points on Title I. The committee discussed 
and was very careful to try to craft something that made sense 
in terms of where impacts are occurring and who have impacts in 
terms of the recommendations. And that's why one-half is based 
on the impact or the cost of actual activity in the oil and gas 
operations, 25 percent based on shoreline and 25 percent based 
on population. And because those are three different groups in 
discussing this, the committee got the input from the various 
states, and that seemed to provide a base for virtually all of 
our coastal states and our coastal communities and counties to 
be able to deal with--If nothing else, there is a fiduciary 
responsibility there to be stewards of that shoreline and that 
Outer Continental Shelf. Whether there is development or not, 
there is impact. And so what we were trying to do is find a way 
for folks to manage to be proactive about looking at that 
portion of the Outer Continental Shelf that's adjacent to their 
political jurisdiction.
    Secondly, the split between the state and local funds was 
very important to us. Our recommendation was a direct payment 
to the local governments, and we strongly support that from the 
committee. We think that has worked well with the PILT program, 
and therefore we would recommend the same approach on this, and 
you have adopted that. We would suggest and request that you 
take another look at the distribution to the local governments. 
And here we would suggest you take a look maybe at the Senate 
language in Senate Bill 25. Right now the way that this is 
crafted, it distributes only to folks with direct impact.
    Having been mayor of a borough that probably wouldn't be 
getting any direct impact monies, we still were responding to 
the five year leasing schedules to proposed lease sales 
offshore of Kodiak Island. So there was a fair amount of 
expense to the Kodiak Island Borough, even though we wouldn't 
be receiving those monies under the way that it is proposed to 
be distributed under the House Bill.
    So we would ask that you take a look because the committee 
had crafted that very carefully with that very idea in mind 
that coastal communities who do need to be responding to things 
that are happening to them need a funding source to help pay 
for that so they can do the job of managing that. So that was 
why that recommendation was there. Again, there are checks and 
balances that are placed in that, and those are, I think, in 
there for good cause.
    Under Title II, the conservation recreation, the Land and 
Water Conservation Fund, the discussion from the states and the 
folks of the committee, we were concerned about the fact that 
there seemed to be very little oversight of Land and Water 
Conservation Fund, and you summed that up very well, Mr. 
Chairman, in your opening comments. For that reason we asked 
for a lot of input from local government and state governments 
in discussion that a public process about selecting what 
parcels are going to be acquired and how that's going to happen 
and really taking a look at that. And you have incorporated 
that, I think, in a very positive way.
    Again, the two-thirds east of the Mississippi or east of 
the 100th parallel is excellent. Removing condemnation--these 
are all things that we felt made this a public process and put 
some emphasis perhaps on where--what is identified by some of 
the states; whereas the problem really lies primarily on the 
eastern half of the country more so than here in the west, as 
you well know, where there is a lot of Federal ownership 
already.
    But there are still some land issues that a lot of us are 
familiar with-- even here in Alaska there are a lot of little 
land issues. That's why I think we were focused more on 
resolving a lot of the little boundary things that are a few 
acres here and there that square up boundaries, that remove 
conflicts on boundaries of existing ownership. And that's what 
we were thinking more of rather than large acquisitions because 
realistically we're only talking $20 million a state. So that's 
not going to be very many large acquisitions obviously with 
that kind of money.
    So again, with the million dollar threshold, Congressional 
oversight and a lot more public oversight, the not more than 25 
percent of a county can go into reserves, trying to make sure 
that there wasn't negative impact. And that's a lot from the 
western states that that particular input came. We felt it was 
a coordinative approach.
    We didn't have the wildlife piece on our recommendation, 
but we think that's a brilliant addition to the bill because it 
takes it from the land management part to the actual management 
on an ongoing basis in operations and the impact on the 
wildlife. Again, a lot of public input into that section and a 
lot of public drive about how those funds and trying to keep 
hunting and fishing open. And that would be our recommendation.
    State parks, represented tourism, development opportunity, 
state parks need a lot of money right now for development, 
cabins for trails, for those sorts of things. And they just 
don't have that funding available to them. This provides a way 
that we can do that. From our perspective, Mr. Chairman, we 
felt that that meant that we would use the public lands that we 
have to better use by the public as opposed to right now a lot 
of the public can't get access. If these funds can be used to 
actually use the public lands we have, we felt that took a lot 
of pressure off the demand to buy yet more public property 
because if we go out and really develop and use to the maximum 
benefit public lands that are already owned by Federal and 
state governments and really do a nice job with that, then we 
could have a place where the public can go out and recreate and 
really enjoy the outdoors without having to buy more and more 
and more land for the future. So it was kind of intended to be 
a stopgap and put to good use.
    I've overrun, Mr. Chairman. I apologize for that. Our view 
is this is an outstanding bill because it shares the revenues 
back to states and local governments. I think it puts the Land 
and Water Conservation Fund in a very public process, and funds 
fish and game enhancement projects. And those are all very 
positive things for the American public.
    Mr. Young. Thank you. I want to thank the panel. I 
appreciate the testimony. Wayne, some groups are suggesting 
that the dollars in Title III should be dedicated only to the 
management of the species that are not hunted, nongame. What is 
your answer to that?
    Mr. Regelin. Mr. Chairman, I feel that the needs of state 
and wildlife agencies--their needs are in the area of nongame 
species, the species that are not hunted. We don't have a real 
problem with state agencies with funding for species that we--
that are hunted because the hunters pay their way through 
license fees and excise tax, but I think that we do need more 
funding for the--most of the--most of the state agencies will 
use their money to collect information on species that aren't 
hunted, but I like the way your bill leaves us the flexibility 
so each state director can dedicate the money to what he feels 
in that state are the highest priorities. So I think that it 
would at this time probably be counterproductive to dedicate it 
just to nongame.
    We don't want to get into this argument about whether it's 
benefiting species that are hunted or species that aren't 
hunted and try to argue about how the money from each 
subaccount should be spent.
    Mr. Young. The bill as written is pretty flexible.
    Mr. Regelin. It's very flexible, and I think that's very 
good for us.
    Mr. Young. One of the things that concerns me the most is 
because we have been dealing with endangered species, and if my 
interpretation of my bill is correct, it would allow the states 
to manage other species other than the hunting game to keep 
them from being endangered, thus really keeping access to 
public lands. One of our biggest problems we have is in the 
Endangered Species Act because of the petition process. And 
once the Federal Fish & Game or other agency identifies a 
species that's threatened, the state is pretty much isolated 
from improving the species habitat. And that's really what I'm 
trying to get at is we want to make sure that the state has the 
ability to avoid listing of a species through activity.
    Mr. Regelin. I'm sure that will happen. Each state will 
have money to look at species that are of concern that we don't 
have any data on. As soon as we start looking and have the 
money to have a program to evaluate and look at the 
distribution and the status of that species, most often you 
don't need to list it. But right now we don't have the funding 
to put those programs in place.
    Mr. Young. Mr. Shively, first I want to thank you for 
supporting the legislation, the administration, and thank 
Governor Knowles. Do you want to expand on some of the projects 
you think that

would benefit from these funds in the state? Do you have any 
concept what you would be spending the money on?
    Mr. Shively. I think, Mr. Chairman, there are several 
things. First of all, in the initial stages of OCS development, 
clearly planning and community development, community input, 
often the smaller communities--take Kaktovik, for instance--
feel they are really under the gun and they have to respond to 
major development projects, so getting them some money so they 
can sort of deal with some of their concerns up front, they 
feel they need to hire independent expertise to get that.
    Once developments take place, monitoring systems 
particularly in this state for subsistence in rural areas is 
important, and I think both the state, our own leases and the 
Federal Government, which is primarily offshore--the Federal 
Government hasn't done much onshore leasing--We hope to change 
that with NPRA, but we think that subsistence--groups that can 
look at subsistence have been a very good model effect of how 
local people are overseeing the subsistence impacts. It gives 
them more confidence in the development.
    Then if you look at other community impacts as people come 
into small communities like Kaktovik, improving even the school 
or other community infrastructure, airports, things like that 
also are projects that we think could be funded.
    Mr. Young. You heard Senator Taylor mention the fact that 
he would like to have the legislature approval of expenditure 
of dollars. I take it the administration would not support 
that?
    Mr. Shively. I'm not sure I would categorically say we 
wouldn't support it. I think in this state, to be perfectly 
frank, as we look at--as the state has become more urban, I 
think there's become less of a recognition by the legislature 
about what's going on in rural Alaska. So I am somewhat 
concerned, since I think most of the impact of OCS development 
is in rural areas, whether the legislature wouldn't find that 
most of the impact was in the Mat Valley and Anchorage and not 
where it really was. I'm not saying the legislature shouldn't 
necessarily have a role, but if you give them a role, I think 
it's perhaps more important that you set pretty stringent 
guidelines on what communities are impacted and how they get 
their funds.
    Mr. Young. I listened to Mr. Selby, and he was talking 
about money going directly to the communities. There may be a 
method here that we can work together because I know--not just 
in the state of Alaska--there is a great deal of mistrust 
between the administration and the legislative branch, and I 
agree with the senator that the appropriation process on the 
state level at least--by the way, Senator, why we are not 
appropriating the money is because the monies were originally 
developed from an offshore development for the investment in 
conservation, and it hasn't done so. It's been going into the 
general treasury and been spent on all kinds of silly programs 
outside of what it was intended for. That's the reason I don't 
trust our appropriators in the Congress.
    It's just the same thing Mr. Shively said; the 
appropriators in Congress are all from big cities and they 
don't have the slightest idea about habitat or reestablishment 
of game or the education of individuals involved in it, so 
that's the reason it was put in it.
    I think we can work out a formative system that would maybe 
make it more equitable. The main thing is to get it into the 
communities without much red tape. That's really what we would 
like to try to do.
    Mr. Selby, you were a former mayor. I think you answered in 
your testimony, but you--what do you see would be the benefits 
with this increased funding as far as state-based conservation 
and recreational purposes in the city of Kodiak?
    Mr. Selby. Well, yes, Mr. Chairman. I tried to address that 
a little bit, but basically it's an opportunity to go out and 
build the enhancements, build the trails and cabins in the 
state parks. Shuyak is a good example where we did--The trustee 
council acquired the entire island that represents an economic 
growth opportunity for the Kodiak community, and that is 
happening as we speak. We are developing a multi-million dollar 
tourism industry based in Kodiak that that park is the focus of 
those folks. The fact that it's going to be there now means 
they can go out and get loans and buy boats, buy kayaks, get a 
base under developing that and turning it into something that's 
really used by the public.
    So it does represent an opportunity for outlying 
communities in particular where things can be enhanced and 
really used to the maximum for the local community.
    Mr. Young. You heard Senator Taylor made a point about the 
amount of control the governor has. What did your committee 
discuss about the distribution of funds? If I interpret it 
correctly, the governor didn't have that much control in your 
recommendation.
    Mr. Selby. There's two pieces, Mr. Chairman. One is a piece 
to the locals. Our feeling is that that goes directly to the 
locals and the locals have their own hearing process, and 
they'll do their own planning process as far as how they use 
the local monies. Similarly, then, for the state there is a 
state plan that has to be developed; the intent being it's not 
just the governor saying I like this, this, this, and don't 
have to listen to anybody, but quite to the opposite is there 
should be a very public process involved in developing that 
state plan and talking about which parcels are going to be 
impacted and how those state monies would be used.
    I guess we were assuming that the legislature would have to 
be involved in that portion of the appropriation of the state 
monies based on that plan, and so we didn't really see it 
necessarily as the governor gets this personal slush fund to go 
out and do things because that's counter to what we were trying 
to do with the whole recommendation on all of those monies, 
which was to make it much more of a public process, and have a 
lot of public input into the planning and a lot of discussion 
about what's going to be done and how those funds could be 
used.
    Mr. Young. My staff just asked me a question about the 
constitutionality of decreasing the control of the governor to 
put it into the local communities. I don't know why that would 
be a problem as long as we define it in the legislation.
    Mr. Shively. Mr. Chairman, there is sort of an existing 
model now with the NPRA funds where the Congress agreed to 
share NPRA funds with the state of Alaska, and they said the 
first shot for those funds goes to the local community, and 
they come up with impact projects and those get funded. And 
anything that's remaining, they spend it. That goes into the 
state treasury and that would, in turn, be appropriated by the 
legislature. So you might want to look a little at that model.
    Mr. Selby. There are two other models. That's the old 
Federal revenue sharing process as well as the PILT program, 
which is an ongoing program that's directly funded to the 
municipalities. And those are both revenue sharing sorts of 
things, just like this one, and that's the model that was used. 
And just as a point, it's not outside of the governor because, 
as you have written into the bill, the governor--there has to 
be a plan developed by the local government and reviewed by the 
governor before any money gets spent. So again, we try to put 
checks and balances into all of these things to assure there is 
a very public process involved in making determination about 
how these monies are going to be spent. So we intentionally 
tried to make sure that no little group could get off and plan 
and scheme and spend the money before anybody else knew what 
was going on.
    Mr. Young. Senator, I do thank you for offering your 
suggestion. The biggest problem I've had with this bill is 
those that are concerning private property. And we have tried 
to write the bill as well as we could concerning private 
property because I happen to agree, the state of Alaska is in a 
serious condition. There is no private property other than 
Native owned land. I would like to see the state relinquish 
some of its property to the citizens of this great state 
because it's not a healthy situation. But I'm willing to listen 
to anything that you put forward, regardless of what my good 
friend says on e-mail.
    I've always been a private property advocate because I 
believe it's the strength of our society, but we have now a 
problem under the present system with condemnation and with the 
appropriation process. We spent $700 million last year through 
the appropriations process that really nobody supported but the 
President of the United States. And this is an attempt to at 
least get it into the legislative branch, into the governors' 
branch and into the Pittman-Robertson fund, which the governor 
doesn't have anything to say about. At least to make it more 
fair and equitable because the present system is being misused, 
and that was the intent of my bill to try to make it more 
equitable for the private property rights. I know people don't 
believe that, but that's really the way the bill has been 
written.
    Mr. Taylor. Thank you for letting me comment on that. I 
agree with you 100 percent on that and I think others would, 
too, that there has been a significant appropriation of Federal 
funds for the acquisition to the government's estate of private 
property. And it's not my philosophy, and I know it isn't 
yours. I do agree with you, there are many salient portions of 
the legislation. I didn't comment on those. I wanted to bring 
to you concerns that I felt you would want to address. It's for 
that reason I was here today.
    I did want to also indicate to you that under Title III, 
the definition of wildlife, as Mr. Regelin has commented, does 
allow them to go in and to do some of the proactive things that 
you and I would support. Unfortunately, we all have to remember 
that's a two-edged sword. Depending upon the attitude within 
the department, they can also utilize those same funds to go in 
and create surrogate species for their friends within the 
environmental community to then shut down corridors of access 
for utilities, to shut down highway projects--and we have seen 
a great deal of that activity with this department.
    That's why my only recommendation was that you provide for 
significant legislative oversight of any funds going to the 
department that are allegedly going to be used for conservation 
purposes. Conservation purposes right now--and I only mention 
this because Mr. Henry asked me to--I wish you could just 
review with me the ``experiment'' done on wolves on the Kenai 
last year where we used helicopters to capture over 30 of them 
up on the 40 Mile, flew them down to the Kenai for purposes of 
finding out whether or not the new wolves introduced would 
acquire lice as fast as the lice infected wolves that live 
there. These wolves were brought into an area where we have a 
very small caribou population struggling to survive. Is that 
good conservation? Is that what you and I would mean by it? I 
don't think so.
    So you see, I have concerns about how the allocation of 
many of those funds have gone on, and the idea of just giving 
them additional Federal funds for additional projects like that 
without some review I think would be--would be inappropriate. 
That's why I wanted to bring that to your attention and say we 
would like to have legislative oversight.
    Mr. Young. Wayne, I know you are chomping to respond.
    Mr. Regelin. All I would say, Mr. Chairman, is that every 
dollar of Federal aid money that the state has gotten since 
it's been a state is appropriated by the legislature. And this 
money that would come to wildlife would be part of the Federal 
Aid in Wildlife Restoration Act. And that money comes to the 
state, and we cannot spend it unless it's appropriated by the 
legislature. And that would not change. And I have no comment 
on the situation on the Kenai, but we didn't move them down 
there for that reason. We moved them to save a caribou herd in 
another place. That's just where we happened to put them.
    Mr. Young. Would you have the same problem with--the 
Pittman-Robertson fund, that's not appropriated money, is it?
    Mr. Regelin. Mr. Chairman, that money comes to the state of 
Alaska as a block grant, and the legislature appropriates it, 
yes.
    Mr. Young. They do appropriate it, but it has to be 
appropriated for fish and wildlife conservation.
    Mr. Regelin. It's restricted and can only be spent on fish 
and wildlife. The current Federal Aid Act allows us to spend it 
on species that aren't hunted. We haven't done that in Alaska, 
but we have--the law allows that.
    Mr. Young. Well, again, my interest isn't in--I'm a big 
supporter in species that are hunted, but I also recognize that 
you can't separate the other species off of those because the 
problem we have now under the Endangered Species Act, the Fish 
& Wildlife, if they identify a species, then the state is 
precluded from trying to rehabilitate that species from being 
threatened or endangered. And under my understanding, the way I 
tried to write this bill is that you would have the money 
available to offset that and take it out of Fish & Wildlife's 
hands and save the species and keep it from being listed 
endangered or threatened, so it does impede other activities.
    And I can very frankly see it down the road with all this 
problem we have of interest down the road that there is a 
possibility that someone will file a petition on a species 
within an area that's used for recreational purposes for 
fishing and hunting, and if the Fish & Wildlife take it up they 
can preclude Alaskans from doing anything, including 
subsistence or sport hunting or sport fishing or snowmobiling 
or anything else because it might disturb that species.
    What I want to do is give the state more latitude to avoid 
that so you have some science behind you and ability to 
understand that really what they are saying is nonsense. And 
come back--a lot of times it's misuse of the Endangered Species 
Act.
    This bill is broader than one might think. It's a chance to 
make the states more actively involved. Any other comments 
before I excuse the panel?
    Mr. Taylor. Let me say this in passing: We do support that 
on your last thought. It's just, as you and I both know, in 
drafting legislation you can't control how that will be 
applied, nor can I control on a day-to-day basis how the funds 
even I appropriate apply through the legislature. So the stated 
purpose, if that can be an additional amendment within the 
legislation giving guidance and direction to both departments 
and legislatures would be beneficial, Congressman, and we 
appreciate that.
    Mr. Selby. Just one point, Mr. Chairman, and that's I did 
want to comment on H.R. 798 since that is actually part of the 
hearing process as well. Just from the committee's perspective, 
I think it's fairly obvious the comments I made that we would 
have some real concerns with H.R. 798 because it's kind of 
opposite of what we were trying to accomplish with our 
recommendations, and that's that you make this much more of a 
local and state government open public process as opposed to 
the very Federal process that's proposed in H.R. 798 or really 
the agencies--Federal agencies are totally in control, don't 
have to answer to anybody, and counter to public process, from 
our perspective. And I realize you are going to have to deal 
with that politically, and we'll leave that in your very 
capable hands. But that's our concern with the other approach.
    Mr. Young. I want to thank the panel and thank you for your 
testimony in answering the questions. We are going to take a 
five minute break and start at 12 p.m. Anybody that eats lunch 
around here, you are in bad shape because I don't eat lunch.
    [Recess.]
    Mr. Young. We have our second panel. Mr. Chip Dennerlein 
cannot make it, will not be on the panel. We have Carl Rosier, 
Board Member, Alaska Outdoor Council, Juneau, Alaska; Mr. 
Nelson Angapak, Alaska Federation of Natives, Anchorage, 
Alaska; Mr. Steve Borrel, Alaska Miners Association, Anchorage, 
Alaska. If each one of you will take the position, all three of 
you, I'd deeply appreciate it. Gentlemen, we will go through 
the way I gave. Mr. Rosier, you will be the first one up.

STATEMENT OF CARL ROSIER, BOARD MEMBER, ALASKA OUTDOOR COUNCIL, 
                         JUNEAU, ALASKA

    Mr. Rosier. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, members of the House Committee on Resources. My name 
is Carl Rosier, and I'm here today testifying on behalf of 
Alaska's fish and wildlife resources, as a retired commissioner 
of the Alaska Department of Fish & Game that's been involved in 
management and development of those resources since 1955. In 
retirement I'm also a board member of the Alaska Outdoor 
Council. The AOC is an umbrella organization representing a 
diverse group of sport and recreational folks. We number 47 
around the state, with an annual membership of approximately 
12,000 individuals.
    Before beginning, I'd like to express my appreciation to 
you, Chairman Young, and the Committee for holding its field 
hearing in Alaska and inviting me to testify.
    I've carefully reviewed both H.R. 701 and H.R. 798, and I 
strongly prefer the approach in H.R. 701. It appears to me that 
endangered species are dealt with after listing in H.R. 798, 
rather than encouraging action before listing occurs. It also 
seems that the absence of an impacted assistance program within 
H.R. 798 conflicts somewhat with the basic concept of sharing 
OCS funding. Further, H.R. 701 appears to give considerably 
more flexibility to the states and their political subdivisions 
to design needed programs and identify priorities. H.R. 798 
appears to be a top down Federal approach to substantially more 
Federal agency involvement.
    For the above reasons, my comments are being confined to 
H.R. 701 and, due to my wildlife background, largely Title III. 
H.R. 701 is landmark legislation. It promotes a wildlife legacy 
for all citizens for many years to come. Sponsors of this bill 
can truly be proud of their efforts. This bill provides for 
stabilizing funding for wildlife, fish, land and water 
conservation programs. H.R. 701 builds on the long-term 
financial support states have received for many years from 
hunters and fishermen.
    The bill utilizes the successful distribution system of the 
existing Federal Aid in Wildlife Restoration program to 
minimize costs. It enables states to take preventative measures 
early on to address needs and habitat requirements of declining 
fish and wildlife species that may be listed under endangered 
species.
    H.R. 701 provides funding for addressing the needs and 
habitat requirements of the so-called nongame species. Little 
funding is directed to these species today. It provides funding 
for increasing public education about fish and wildlife through 
outreach programs that sponsor responsible resource 
stewardship.
    Finally, the bill provides funding to the states cited in 
the Land and Water Conservation Fund program, ensuring improved 
public access to areas used by hunters, anglers, and other 
outdoor interests. There are other positives about H.R. 701, 
but those listed above are my primary reasons for strongly 
supporting this bill.
    Alaskans have a strong commitment to sustainable use of the 
state's fish and wildlife resources. Over 75 percent of Alaska 
voters in a 1994 statewide poll indicated a preference for 
eating wild game. A 1996 study by the U.S. Fish & Wildlife 
Service indicated that Alaskans spent $1.7 billion in 1996 to 
participate in wildlife related activities.
    In addition, I believe the Committee has been supplied with 
the statistics on support from Alaska business organizations, 
individuals, and elected officials for increased funding for 
wildlife under the Teaming With Wildlife proposal in recent 
times.
    Congressman, I believe you have a winner here, and I'm sure 
the wildlife I speak for today will appreciate the additional 
management support provided by H.R. 701. Thank you very much.
    [The prepared statement of Mr. Rosier may be found at the 
end of the hearing.]
    Mr. Young. Thank you Carl, for your testimony. Nelson, you 
are up.

  STATEMENT OF NELSON ANGAPAK, ALASKA FEDERATION OF NATIVES, 
                       ANCHORAGE, ALASKA

    Mr. Angapak. Good afternoon, Mr. Chairman. Members of the 
Committee, thank you very much for coming to Alaska to hold the 
field hearing on this particular--on H.R. 701 and H.R. 798. For 
the record, my name is Nelson Angapak. I'm vice president of 
the Alaska Federation of Natives. We have reviewed H.R. 701, 
and we are finding that it's a fairly complex bill, that it 
addresses a number of bills, number of existing statutes. But I 
think that insofar as establishment of a national policy that 
leads to sharing of offshore Federal funds with the states 
affected and the communities most affected, we feel it's a step 
in the right direction.
    Insofar as an expanded statement, Mr. Chairman, we will be 
reading--submitting our statement.
    Another point that I would like to point out, Mr. Chairman, 
is that the lands that are owned by the Native corporations, 
all 44.5 million acres are private lands. And having stated 
that, we support the concept that those lands would never be 
taken away by condemnation, if my understanding of H.R. 701 is 
right. You know, it took us years to get the 44 million acres. 
And Mr. Chairman, there has been from time to time condemnation 
of ANCSA lands, and I think that that safeguard is a safeguard 
that we welcome.
    Insofar as this bill addresses subsistence, I think that 
it's addressed in Title III in that portion called cultural. 
And we do believe, Mr. Chairman, that when we look at the 
resources that are used for subsistence purposes, those 
resources need protection. And I think that-- you know, you 
know that unemployment in rural Alaska is 60 to about 80 
percent on the average. And they are not working not because 
they don't want to work, but because there is a lack of 
economic and employment opportunities. So subsistence is a 
major portion of life in rural Alaska. And I think that 
protection of those resources is one of the things that we feel 
is paramount in this--in H.R. 701.
    So Mr. Chairman, with that, I want to thank you for coming 
up to Alaska, and I do hope that you will give our membership 
and the state of Alaska an opportunity to make their own 
individual comments on both of these two bills. Thank you very 
much.
    Mr. Young. Thank you, Nelson. And again, we are in the 
process of hearing as many people as we possibly can and for 
constructive suggestions because the philosophy of these bills 
are, I think, in

the right direction, as you mentioned. So the record will be 
open and we will be more than willing to take all comments, 
suggestions, advice, as we try to go forth with this process.
    Mr.--Steve, you are up next.

     STATEMENT OF STEVE BORELL, ALASKA MINERS ASSOCIATION, 
                       ANCHORAGE, ALASKA

    Mr. Borell. Thank you, Mr. Chairman. Thank you for inviting 
us to participate today. My name is Steve Borell. I am 
executive director of the Alaska Miners Association. I am 
testifying on behalf of the association. First, just a couple 
of comments about H.R. 798. We cannot support this bill. This 
bill is not in the best interest, in our opinion, of American 
business, of the mining industry, of private property owners, 
or the general public.
    The rest of my comments will focus on H.R. 701, 
Conservation and Reinvestment Act. We support the primary goal 
of this bill, which is to pass revenues from offshore leasing 
to the state's local communities where revenues are generated. 
Local states and communities are better able to properly 
allocate and use these funds and to do so with significantly 
less administrative overhead than Federal agencies. We do have 
concerns with this bill regarding Title II.
    Specifically we are concerned with any program that gives 
Federal agencies additional funds to purchase private property. 
We recognize that H.R. 701 contains some restrictions and 
limitations, for example, on the amount that can be expended 
without Congressional approval; however, this does not assuage 
our concerns. Alaskan miners are possibly the single group of 
U.S. citizens most severely impacted by Federal agencies intent 
on obtaining and controlling private property.
    Being an inholder has been a terrible problem for many 
miners in this state. Many Alaskan families have lost their 
equipment, their property, their life savings and their 
livelihood because of passage of ANILCA in 1980 that made them 
inholders. ANILCA contained all manner of promises for access 
and protection of valid existing rights. With 18 plus years of 
experience, we can say that those promises have not been 
honored by the Federal agencies and that the relentless efforts 
of the agencies to control the property have made a sham of the 
promises.
    Additionally, harassment by the agencies reduces the value 
of the property so that the owner has no viable alternative 
than to settle at a greatly discounted amount. It is with this 
background that we cannot support Title II of H.R. 701 as 
currently drafted.
    Our concerns with Title II include the following: Title II 
creates a dedicated fund that can be used for purchase of 
private property by government agencies. This fund will become 
an entitlement, and once the entitlement is established, it is 
nearly impossible to change it. Agencies will set up new 
programs to administer and spend the money, lease new office 
space, hire new employees, all of which establishes new 
dependencies on the continued receipt and perpetual increase of 
the amount of money needed.
    This dedicated fund will be off budget, and as a result not 
subject to annual Congressional oversight. The availability of 
huge amounts of money to purchase private lands will provide a 
tremendous motivation for government agencies to use the money 
to buy more private land than is necessary. This will place 
private property owners in jeopardy. For private lands or 
inholdings within Federal conservation system units, agencies 
are able to withhold the issuance of various permits or require 
outrageous amounts of money as ``mitigation,'' thereby 
rendering the private land of little value, forcing the owner 
to sell his property for a song. The existence of a trust fund 
to purchase inholdings will also become an argument for new 
congressionally designated parks and refuges, et cetera, 
because money exists to buy-out inholdings.
    As written, the funds can be used to purchase private 
property within the boundaries of national forests. National 
forest boundaries often encompass huge areas of private hand. 
Every mining claim and operating mine will become a target for 
purchase by the U.S. Forest Service. Farms, ranches, resorts, 
homes, small towns, and private land around these towns will be 
placed in jeopardy. The availability of huge amounts of money 
for purchase of private lands will provide a tremendous 
motivation for government agencies to find new ways to use the 
money. The EVOS (Exxon Valdez Oil Spill) funds have been used 
to separate the Native peoples from their lands and their 
heritage. The Natives have been given promises of continued use 
for subsistence and other traditional purposes; however, if 18 
years from now they believe those promises, we will be 
surprised. Native allotments will also be in jeopardy.
    There are four areas that we feel need to be changed or we 
cannot accept the bill. Number one, require a hard cap on the 
national acreage of land owned by the Federal Government and 
set this at the same acreage as presently owned. This will 
ensure that there is no ``net loss of private land'' for the 
nation.
    Secondly, require that in states where Federal land 
ownership exceeds some threshold--possibly 10 percent--for 
every acre of private land purchased, not less than one acre of 
Federal land be sold into private hands. This will ensure that 
there is ``no net loss of private land'' on a state by state 
basis. Additionally, standards should be established for 
determining valuation so reduction in value brought about by 
agency harassment of inholders will not be effective in 
reducing property values.
    We have various other comments within our letter, and we 
will be submitting all of these for the record. Thank you.
    [The prepared statement of Mr. Borell may be found at the 
end of the hearing.]
    Mr. Young. Thank you, Steve. You were reciting the attack 
on private property. That's under present law. That's occurring 
right now. And there is no safeguards.
    Mr. Borell. We agree.
    Mr. Young. Under my bill, we take away the condemnation 
proceedings where they cannot condemn land. And the intent of 
our bill, frankly, is to put the money in to fish and wildlife. 
That's our biggest intent. The reason we had the idea of 
purchase of inholdings, there are a lot of inholdings that have 
been condemned under present law, and there has been no money 
appropriated to purchase the land from those that have been 
condemned, but there were not willing sellers. Under my bill, 
it has to be a willing seller, willing buyer, and has to be 
also--they cannot condemn the land to require one to sell. So 
I'm hoping that we can write a bill that you can look at and 
say this is a better system than we have now. And because the 
way--what we have now, I agree with you, has been terribly 
misused. But I want you to keep that in the back of your head. 
And hopefully we will have some constructive suggestions out of 
it.
    Carl, how would the Outdoor Council interreact with this 
CARA bill if it became a reality? Would you be directing or 
suggesting to the state how the money should be spent, or is 
there a way that you think there would be more hands-on type 
approach? I'm just running this by you because you have been a 
commissioner and now you are in the Outdoor Council position 
and you are part of the users of our lands in this state, over 
a billion dollars, as you mentioned. Just how do you think the 
benefit would be?
    Mr. Rosier. Well, Mr. Chairman, to begin with, I think the 
Outdoor Council certainly tries to work hand in hand with 
ADF&G. We certainly don't always agree, but on the other hand, 
we make every effort to work through the Department of Fish & 
Game. I think we would certainly make an effort to make our 
views known to the department in terms of what we see as 
priorities on this.
    As you know, one of the great concerns that's associated 
with this is kind of the mix that we come up with, the balance 
that we come up with out of this particular program when we 
have the consumptive user versus the nonconsumptive user versus 
ultimately what I consider to be the far right, the animal 
rights people as far as this is concerned. And the protection 
of the--you know, of the sports community that's, in fact, 
utilizing these fish and wildlife resources, we don't want to 
see that undermined. We want to be sure that the personal use 
fisherman, the sports hunter, the users of that wildlife as 
part of a--of the good management program, we want to be sure 
that that's protected as far as the legislation is concerned.
    As I see it, you know, we would certainly--we would 
certainly benefit. I think you have given the opportunity here 
with the public process that you are trying to build into this 
in terms of that involvement of other interests. I think we 
have to be very careful in terms of the--some of the 
definitions. I think, as I read the bill, there is a couple of 
things that are a little soft in my estimation where we talk 
about definition of conservation. We begin to talk about such 
things as necessary or desirable to sustain healthy 
populations. Those are the kind of fuzzy things that get us 
into a little bit of difficulty down the road in terms of 
people's interpretation exactly what they mean.
    Mr. Young. I happen to agree with you. If you have any 
suggestions how we can tighten it up, I'm more than willing to 
have that submitted to us. Most of the time when we write laws, 
we write them so open-ended that there can be a 
misinterpretation or this is what was meant. I know we didn't 
mean to do that, but then the legal beagle is going to get 
involved and we have all kinds of problems.
    Mr. Rosier. I think you made a good step on it here, Mr. 
Chairman, and you will hear from us on these kinds of concerns 
within the bill. But my way of thinking, these are things that 
will be worked out along the way and I'm fairly confident that 
these are not items that are going to jeopardize the bill as 
far as we are concerned.
    Mr. Young. Nelson, you mentioned subsistence, and that is 
an issue that is very hot. And under this program, I think the 
main thing you have to keep in mind is the abundance of game--
this would be helpful in making sure there is game available 
for whatever use it has to be and not a lack of game. Quite a 
bit of dollars go into the Federal offices fund and the 
legislative branch to make sure that that occurs. Comment, if 
you would like to.
    Mr. Angapak. Mr. Chairman, I think that you put it quite 
broadly. I don't believe any more comments from me will make it 
any more clear. You understand exactly what we mean when we 
talk that, having lived in Fort Yukon and in rural Alaska, you 
know. Thank you very much.
    Mr. Young. I'm not going to argue with you, Steve, at all, 
but I want you to look on the positive side of this bill, what 
it does do. And, you know, my bill funds PILT, for instance, 
which is crucially important. It is, in fact, only Federal 
lands that can be purchased or inholdings within existing 
boundaries. They can't buy land outside of those boundaries. 
And we can make that very clear. It does not preclude the 
states--I will say this: There is some legitimate concern by 
those who don't want any more land taken out of private 
ownership. It does not preclude the states because I will not 
direct the states if they wish to try to pursue that effort 
themselves. And we might be able to tighten that up. And the 
excess of $1 million, that could be discussed. That was a 
figure that we thought would be really the minimum to have to 
come back. You can't buy a lot for a million dollars nowadays, 
and it has to come back to Congress.
    And I want you to know right now the present system isn't 
working correctly for land conservation as far as I'm 
concerned, and it's also being misused for the condemnation of 
private property. So if we work with this as we go through 
this, I'd deeply appreciate it because we are--we have a 
challenge here that I think is badly needed for this country. I 
think we ought to have more private land. I said that up front. 
I don't want to use this vehicle, though, to fight the total 
battle over private and public lands. My ultimate goal is to 
get involved in the fish and wildlife conservation and the 
perpetuation of species instead of decline of species. That to 
me is important after the year 2000. We will work with you.
    I want to thank the panel. Appreciate you being here and 
appreciate your comments. Thank you very much.
    [The prepared statement of Mr. Dennerlein may be found at 
the end of the hearing.]
    Mr. Young. Now we will have panel three. Ms. Cindy Bailey, 
Director for Local Governmental Affairs, BP Exploration-Alaska; 
Ms. Dorothy Childers, Executive Director, Alaska Marine 
Conservation Council; Mr. Ray Kreig, Anchorage, Alaska; and Mr. 
John Schoen, Executive Director, Alaska Office of the National 
Audubon Society, Anchorage, Alaska.
    We'll go right down the line. You're up, Ms. Bailey.

  STATEMENT OF CINDY BAILEY, DIRECTOR FOR LOCAL GOVERNMENTAL 
                 AFFAIRS, BP EXPLORATION-ALASKA

    Ms. Bailey. Good afternoon. My name is Cindy Bailey. I'm 
with BP Exploration. I work as the Director of Local Government 
Affairs with primary responsibility for community relations on 
the North Slope. I'd also like to express my thanks to you for 
this opportunity to be here today and also for having this 
hearing in Alaska.
    I'd like to express congratulations to you, Mr. Chairman, 
for your leadership in developing this bipartisan legislation, 
which will go a long way toward enabling a more equitable 
allocation of revenues from offshore oil and gas development. 
We know that you and your colleagues have worked very hard to 
get to this point, and we are pleased to support this long 
overdue legislation.
    On behalf of BP Exploration, I would like to take this 
opportunity to very briefly comment on Title I, the impact 
assistance provisions of H.R. 701, the Conservation and 
Reinvestment Act of 1999.
    Your legislation creates a mechanism to allocate offshore 
oil and gas revenues to states and local communities. As you 
know, BP Exploration has been operating on the North Slope of 
Alaska for over 20 years, and we hope to continue operating for 
many more years. Our long-term commitment to Alaska is 
demonstrated by our continued investment program and commitment 
to developing a resource base without adverse impact to the 
environment. As you know, we take these responsibilities very 
seriously. We view the people of Alaska and the North Slope 
residents as partners in many of the decisions we make. While 
Alaska does not yet have production from Federal OCS leases on 
the North Slope, we fully expect and hope it will begin when 
Northstar and Liberty become operational after the year 2000.
    To the merits of H.R. 701, Mr. Chairman, you are well aware 
of the immense needs which exist in many of the rural 
communities in Alaska. Many of these communities lack basic 
infrastructure like clean water and sewer systems and safe 
roads on which to travel. Unfortunately, state, local and 
Federal budgets cannot always fully address those needs. That 
is why H.R. 701 is so important. It will provide much needed 
resources and flexibility for the state and local communities 
to deal with these very real problems. Furthermore, this 
legislation will also benefit coastal communities in the Gulf 
of Mexico region where we also operate.
    Finally, there has been discussion about this legislation 
creating incentives for offshore development. And I want to 
state clearly that such statements could not be farther from 
the truth. The fact is, this legislation will in no way provide 
an incentive for BP Exploration or any other company to invest 
in offshore development in Alaska or elsewhere throughout the 
U.S. Our investment decisions are made on environmental and 
economic merits, not on the basis of how Federal revenues will 
be distributed to states and local communities. I hope you will 
share these views with your colleagues who may view this 
differently.
    We stand ready to support you in advancing this legislation 
which will invest Federal OCS revenues to states and local 
communities which play host to offshore operations and 
activity.
    Again, I thank you for this opportunity to present the 
views of BP Exploration before the Committee.
    [The prepared statement of Ms. Bailey may be found at the 
end of the hearing.]
    Mr. Young. Thank you for good testimony. Dorothy.

   STATEMENT OF DOROTHY CHILDERS, EXECUTIVE DIRECTOR, ALASKA 
                  MARINE CONSERVATION COUNCIL

    Ms. Childers. Thank you. My name, for the record, is 
Dorothy Childers. I'm the executive director of the Alaska 
Marine Conservation Council. We are a broad-based, community-
based organization. Our members are over 600 now. They come 
from diverse cultural and economic backgrounds. What we have in 
common is that our livelihoods and ways of life are closely 
tied to coastal and marine resources. Our members include 
commercial fishermen, recreational fishermen, subsistence 
hunters, small business owners, guides, marine biologists, 
fishery observers, parents and tribal leaders. In preparing for 
this hearing, I spoke to one of my members who said to me, ``We 
wouldn't live here and we can't stay here without abundant 
resources. They make us who we are.''
    I would first like to thank you for the important work you 
have done in the past in the protection of Bristol Bay through 
the annual OCS moratorium, and we also want to thank the 
Resources Committee for considering new legislation for funding 
coastal conservation and giving us the opportunity to testify 
today.
    Mr. Chairman, you are well aware of the many changes that 
are occurring in the ocean environment in the north Pacific 
today that are cause for great concern: Seabird die-offs; 
marine mammal and seabird declines; killer whales preying on 
sea otters which was not done before; thinning sea ice, which 
changes the habitat for ice-dependent marine mammals and 
presents dangers for subsistence hunters who travel on ice; new 
algae blooms are taking over large water masses in the Bering 
Sea; and some of our commercially harvested fish stocks are 
lower in abundance at a time when markets are poor and 
fishermen are struggling. In the western Gulf of Alaska, the 
once prized red king crab population collapsed in the early 
'80s. It has yet to show signs of recovery at the same time 
that the bycatch of these crabs goes unchecked. These changes 
in management problems call for a better scientific 
understanding and conservation initiatives to guide long-term 
management of our resources.
    So in looking at these two bills, we find very good 
elements in both of them that we think can help meet some of 
these needs effectively. There are two aspects to the 
legislation that we would like to address. The first is 
dedicated funds for marine conservation, and the second is the 
OCS revenue sharing provisions.
    AMCC believes that OCS legislation would serve our 
communities well by including dedicated funds for the 
conservation of living marine resources and their habitat. For 
this reason, we strongly support the approach taken in H.R. 
798. Title VI of this bill dedicates $300 million for living 
marine resources and their habitat. We realize, Mr. Chairman, 
that your bill H.R. 701 allows for these funds to be spent for 
such purposes, but we believe that OCS legislation should 
include a dedicated permanent fund, if you will, for these 
purposes.
    We think that such a fund would support the state of Alaska 
in the development and execution of plans to meet these 
management challenges both for state managed species and for 
Federal managed species that are deferred to the state. The 
state also has responsibilities related to the essential fish 
habitat and bycatch production requirements in the Magnuson-
Stevens Act and we think this fund can help support those--
implementation of those things. We are not suggesting this 
money be used to fund existing Federal programs, but rather to 
complement efforts for which the state is responsible.
    We feel strongly that without some dedicated fund, 
effective implementation of some of the provisions that you, 
Mr. Chairman, championed--and we thank you--in the last 
reauthorization of the Magnuson Act are in some danger of 
slipping through the cracks, because many of these things are 
going unfunded. So we would like to see a portion of the OCS 
funds focused on maintaining marine fisheries and their habitat 
that are important to our communities, and we urge you to look 
at the approach taken in H.R. 798.
    On the OCS revenue sharing, the second area of interest we 
have in this legislation, AMCC supports the intent in both 
bills to share a percentage of revenues from OCS activities 
with coastal states and communities simply as matter of public 
policy. We recommend, however, that the Committee eliminate 
provisions that function as inducements to local governments to 
choose new OCS leasing. Many of our communities have 
longstanding concerns about offshore oil and gas development 
that may affect valuable fishing grounds and traditional 
subsistence hunting areas. Last week was the Exxon Valdez tenth 
anniversary, was a reminder of the risk that we take and the 
values we have to weigh in our communities when faced with 
potential offshore drilling. We appreciate the stated intent of 
your bill, Mr. Chairman, that it shall not function as an 
incentive to new leasing, but we wish to recommend some changes 
to ensure that this intent is clearly met.
    H.R. 701 currently drafted provides for the amount of 
revenue for communities to be tied to the community's proximity 
to new leases. It is our view that offering financial reward in 
this way for new leasing undermines the ability of our 
communities to participate without bias in the OCS decision 
making process. So we recommend that this link be modified to 
provide for the best process at the community level that does 
not place one industry over another. It is up to each of our 
communities to chart our own future course, but to do so the 
various economic options available to our community need to be 
considered on a level playing field.
    So it's my honor to provide my members' views to you, Mr. 
Chairman, and we are happy to work with you further on the 
development of the bills.
    Mr. Young. Thank you, Dorothy, for your testimony. And we 
will take them into deep consideration.
    [The prepared statement of Ms. Childers may be found at end 
of hearing.]
    Mr. Young. Mr. Kreig.

           STATEMENT OF RAY KREIG, ANCHORAGE, ALASKA

    Mr. Kreig. Thank you, Mr. Chairman. I am Ray Kreig. I came 
to Alaska in 1970. I'm an inholder in four different units. I'm 
chairman of the Kantishna Inholders Association, and I'm 
chairman of the Arkansas Scenic Rivers Landowners Association. 
And today I'm here testifying in an individual capacity, 
however.
    Before proceeding, Mr. Chairman, even though my time before 
you is limited, I want to recognize the three decades' long 
career that you have had in service to the people of Alaska. 
You and your family's roots go deep in our state. You served as 
a boat captain on the mighty rivers of our interior. You know 
the land, and you have used that knowledge to defend the land, 
mining claims, businesses and rights of rural Alaskans that 
have continued to be under siege since the D-2 struggles of the 
'70s. And I thank you. I'm sincere for that.
    What I want to talk to you about today is the 
implementation of ANILCA as a prologue to landowners' future 
under a dedicated off budget land trust. President Carter 
declared national monuments across Alaska in 1979, and the 
conflict raged between those who wanted to lock up as much of 
the state as possible and those who had a more balanced 
perspective that included human habitation and economic 
activity as part of the landscape.
    ANILCA was a grand compromise. No party received everything 
that it wanted, but the deal crafted by Congress incorporated 
guarantees of access and valid existing rights for communities, 
landowners and residents who were enveloped in the new 
conservation system units.
    But Mr. Chairman, as you well know, the intent of Congress 
codified in ANILCA was not followed. Since then you have seen 
how promises made to inholders of the conservation system units 
to preserve our existing rights of access and economic activity 
have been abridged, undermined, and disregarded by the Federal 
Government. You have been a champion for Alaska's rural 
residents, and I think you know very well from this experience 
the difficulties of designing protections in legislation that 
will self execute properly, without unintended consequences, in 
the face of a well-financed and determined bureaucracy working 
with special interest groups that do not agree with the 
objectives embodied in an original legislative compromise.
    Where I'm going with this is that the private property 
protections in H.R. 701 are weak and will be ineffective in 
protecting landowners from these same special interests and 
agencies who really want Congress to give them the unchecked 
condemnation powers under H.R. 798. As long as you supply the 
trust fund money, the ultimate result will be the same as under 
H.R. 798.
    Let me mention just one example of many. Mining. Within 
only seven years of passage of ANILCA, the National Park 
Service acquiesced in a friendly lawsuit filed by environmental 
organizations, and mining in all of Alaska's national parks was 
shut down by injunction. The miners then suffered years of 
flagrant abuse as they were dragged through biased validity 
determinations and ever increasing Park Service demands for 
more and more detailed mining plans of operations, all designed 
to exhaust the resources of claim holders and increase their 
risk and expense, ultimately driving many of them into 
bankruptcy.
    As for my position on the bills, H.R. 798 is similar in 
concept to the massive land acquisition agenda of the American 
Heritage Trust Act of 10 years ago. Both are based on the 
unappropriated trust fund concept, and I don't believe this was 
good public policy in 1988, nor do I believe it is now. It 
should be rejected (as it was by Congress in 1990 after an 
outcry by Americans across the country).
    H.R. 701 has the desirable feature of sharing revenue from 
Outer Continental Shelf leasing funds with affected coastal 
states and communities.
    If enacted and signed into law, Mr. Chairman, you may think 
that H.R. 701 will have the properties of a grand Congressional 
compromise similar to ANILCA. But, also similar to ANILCA there 
will be those powerful interest groups and agencies that will 
not be satisfied with your compromise and that will actively 
start undermining it with confederates in the resource agencies 
the day after it's signed. The trust fund properties of Title 
II will be an open invitation to abuse by those that want to 
thwart and circumvent the will of Congress and you, Mr. 
Chairman, in this legislation. The recent history lessons from 
ANILCA demonstrate that ways have not be perfected to 
effectively manage agencies that are dissatisfied with the 
direction they receive from Congress, and this is going to be 
especially so with funding not subject to annual appropriation 
and review.
    My written comment--I'm running out of time here----will go 
into this in more detail. And I thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Kreig may be found at the 
end of the hearing.]
    Mr. Young. Thank you very much for your testimony.
    Mr.--John, you are up next.

  STATEMENT OF JOHN SCHOEN, EXECUTIVE DIRECTOR, ALASKA STATE 
                OFFICE, NATIONAL AUDUBON SOCIETY

    Mr. Schoen. Mr. Chairman and Committee staff, thank you for 
the invitation to testify today on H.R. 701 and H.R. 798. My 
name is John Schoen. I am the director of the Alaska Office of 
the National Audubon Society. I've worked as a wildlife 
biologist here in Alaska for over 20 years. Before I get 
started, I want to take this opportunity to thank you on behalf 
of the National Audubon Society for sponsoring the Neotropical 
Migratory Bird Conservation Act. We appreciate that.
    Mr. Chairman, I believe that the concepts embodied in H.R. 
701, the Conservation and Reinvestment Act, and H.R. 798, the 
Permanent Protection for America's Resources 2000 Act, can 
bring tremendous benefits to conservation programs throughout 
the United States. There are elements of both bills that 
Audubon strongly supports. Each would establish permanent 
funding mechanisms for the purchase of conservation and 
recreation lands, as well as much needed wildlife conservation 
and outdoor recreation programs.
    We are especially pleased to see the cooperation between 
you and Congressman Miller in looking for the common ground 
between your bills. We encourage you to continue working 
constructively together to craft legislation that will 
significantly enhance fish and wildlife conservation and 
outdoor recreation across America.
    As you know, Mr. Chairman, Alaska assembled the largest 
state coalition supporting the original Teaming With Wildlife 
Initiative. Both of these bills include major funding for 
conservation and recreation programs, which were the foundation 
of the Teaming Initiative, and they have enormous potential for 
benefiting Alaska. As a former state wildlife biologist, I know 
how important this funding is for our state.
    For example, there is little funding currently available in 
Alaska for state nongame conservation or wildlife viewing and 
education programs. An investment in these programs will bring 
important conservation, recreation and economic benefits to the 
state of Alaska.
    As you work to refine and improve this legislation, Mr. 
Chairman, the National Audubon Society believes there are four 
principles that need to be adhered to in a final bill. First, 
this legislation should not provide incentives for new OCS oil 
and gas development. Additionally, funding for coastal impact 
assistance should focus on environmental protection and marine 
conservation while avoiding deleterious environmental impacts.
    Second, new funding for state based conservation should be 
substantially focused on nongame species of fish and wildlife. 
Traditionally, most state conservation funding has been 
directed toward the species that are hunted and fished. This 
legislation needs to fill that missing link in our nation's 
wildlife conservation work. We strongly encourage you and your 
Committee to craft a bill that clearly addresses the 
significant funding needs for nongame wildlife conservation, 
wildlife education, and wildlife related education.
    Third, annual funding should be made available on a 
permanent basis and should not be required to go through the 
normal appropriations process.
    And fourth, the Land and Water Conservation Fund should 
receive a minimum of $900 million each year divided equally 
between Federal and stateside programs. We also recommend 
against geographic restrictions placed on expenditure of 
Federal funds.
    The National Audubon Society has previously endorsed H.R. 
798. However, we recognize and appreciate many of the positive 
elements of your bill H.R. 701 and are interested in working 
constructively with you as this legislation is further 
developed and refined.
    Again, Mr. Chairman, I'm very pleased and heartened that 
you and Congressman Miller have been working hard to find the 
common ground between your two bills. This is good news for the 
American public and the wildlife and wild lands we all enjoy. I 
firmly believe that by working constructively together, you and 
your Committee will succeed in crafting a truly landmark 
legislation benefiting wildlife conservation and outdoor 
recreation across America.
    Thank you for your work on this significant legislation and 
considering our recommendations.
    [The prepared statement of Mr. Schoen may be found at the 
end of the hearing.]
    Mr. Young. Thank you very much, John. Ms. Bailey, in 
Washington, DC we have heard a lot about incentives, and Ms. 
Childers mentioned it, too. But I can't find any incentives in 
the bill. And you have read this legislation. Can you find any 
incentives?
    Ms. Bailey. No, Mr. Chairman, we have not found any 
incentives. And as I stated in my testimony, the cost of 
developing oil and gas reserves are tremendous, and the 
decisions are made on the economics of each project.
    Mr. Young. Okay. And Ms. Childers, there is a relation, 
because you said there was incentives in the bill primarily 
because of the proximity of the production. How could you not 
reward or distribute money according to the proximity of a 
community or village? I mean, what's wrong with that?
    Ms. Childers. Mr. Chairman, my organization supports impact 
aid to communities that are affected by OCS activities. What we 
are concerned about, though, in this bill is how--how the funds 
will be distributed at the lease sale stage, and it's our 
concern that promises of funding at the lease sale stage will 
change how local people in a community and a local government 
participate in the decision making process because they will be 
facing rewards for making a decision that--to accept OCS 
development.
    Mr. Young. The funding in both pieces of legislation are 
directly related to activities already occurred. It is not--
there is no incentives for any future. It's the--the revenue 
being generated right now primarily in the Gulf of Mexico has 
been put in a general fund. We are saying we want to take that 
money and put it into areas that are impacted by that action.
    Ms. Childers. Yes, Mr. Chairman. Our concerns are not--our 
concerns are strictly about incentives to new leasing around 
our communities.
    Mr. Young. That was your concern, too.
    Ms. Childers. Not with regard to existing activities.
    Mr. Young. All right. That's a fair discussion. Mr. Kreig, 
I happen to agree with you 100 percent on the ANILCA. We wrote 
that bill as well as we could, and I voted against it, and I 
worked against it. It had 90 amendments adopted to it. We never 
intended for the agencies to go beyond the intent of the 
Congress. And I can assure you as we go through this bill we 
are going to try to tighten it so there is a definite goal, 
there is water, land, fish and wildlife conservation and 
promotion. And it's not to be used as a sledgehammer as very 
frankly Kantishna, Glacier Gay, aircraft, things that were 
never intended in ANILCA are now being reinterpreted 20 years 
later by the agencies incorrectly. And that's one of the 
responsibilities I have to face up to that we didn't write it 
tight enough. So I'm going to do everything I can to write it 
tight to make sure this works.
    Mr. Kreig. Well, I think that far more effort had gone into 
ANILCA in trying to put forward a compromise that made it 
possible for economic activity to continue, but as long as the 
funding mechanism is there and the money is supplied, it's 
devilishly difficult to control a situation. And I just think 
that far more work has got to be done in this area. And it may 
be insurmountable (as long as that amount of unreviewed money 
is supplied every year) to try to come up with mechanisms to 
ensure that your intent is carried out.
    Mr. Young. One of the things, again--I will repeat what I'm 
saying. The present system isn't working. And my goal is to get 
the monies from offshore development, nonrenewable resources 
into fish and wildlife conservation. That's the ultimate desire 
that I have. And then of course, allowing the states to make 
decisions on how they would like to spend the money on 
ballparks, whatever they want to do. But my goal personally is 
to make sure that we have species that will not endangered and 
that we have species available for hunting, fishing, whatever 
it may be, and there is no shortage. And I think we have to 
address that.
    I've said all along that our society today is in probably 
greater jeopardy because of urban tyranny than anything else. I 
say that with respect to everybody in this room. The lack of 
knowledge about what this life is all about is created because 
there isn't the availability nor the abundance of actually 
experiencing wildlife. It's not there. And if we don't improve 
that, it becomes worse. People become insensitive. That's why 
they got away with ANILCA regulations. People were insensitive 
to its effect upon individuals and not understanding the intent 
of the law. I'm trying to write legislation to achieve that 
goal. It is difficult. But I do not shirk it because it's 
difficult, because I do think this has to be addressed. I just 
want you to know that.
    Mr. Kreig. Mr. Chairman, if I may, I think you have stated 
that very well. There is a couple of questions that are very 
basic, though--Why can't the LWCF funds be freed up to address 
the maintenance backlog to get more flexibility? Why are they 
restricted to the use of land purchases only?
    Mr. Young. I don't think my bill does that. And that's what 
we are going to work--we are going to have maintenance in the 
bill, by the way. That's one of the things that's under H.R. 
798 or whatever it is. We are going to have a maintenance 
provision. We think that is crucial. It was never the intent 
for this bill to be the purchaser of a great body of land. I 
will say, though, you have some inholders that would like to 
sell their land, willing sellers, but there is no money 
available.
    Mr. Kreig. If I might address that, Mr. Chairman, because 
there is this idea that there are a lot of hardships out there 
waiting to be purchased. The trust fund, we feel very strongly, 
is going to create many more new hardship cases than are ever 
bought out, and that the hardships that are there--we feel that 
they are relatively rare--the hardships that are there should 
be bought out through the normal appropriations process. You 
have got the Court of Claims. You have got----
    Mr. Young. It's not happening. It's not happening. That's 
what I'm saying. And it's hard for us to appropriate dollars. 
Again, it goes back to a Congress that does not see the justice 
in appropriating monies to buy someone's private land, ergo 
they have condemned it. That's why I'm trying to rectify that. 
It's a matter of opinion, but I'm trying to solve a problem 
instead of creating a problem. And that's why we have to make 
sure we write it so we see that that happens.
    Mr. Schoen, John, we want to work with you. The Audubon 
Society and I have fought over these years, sometimes on one 
side, sometimes on the other side. But the main thing for 
everybody to understand is we are willing--and I want everybody 
to look at the possibility of drafting legislation that will 
solve most people's concerns, but ultimately achieve the goal 
which I've spoken of, and that is the preservation and 
conservation of species, and for the good of the society. And 
to me that's crucially important.
    Mr. Schoen. If I may, we very much appreciate that. We 
appreciate your hard work, and we see this as a tremendous 
opportunity. We are willing to work quite actively----
    Mr. Young. I will tell you I have to be a little careful 
being complimented about working with Mr. Miller very much. 
What happens when they occur, everybody's eyebrow rises and 
they wonder what kind of devilment are we up to. And the truth 
of the matter is we are trying to achieve a goal. He has to 
give a little. I may have to give a little. And we are going to 
try to do this. But it's going to take a lot of participation 
of people like Mr. Kreig, Ms. Childers, Ms. Bailey--all of you 
have to participate in this program to solve one of the crucial 
things facing society, and that's the lack of awareness about 
real life. You cannot get your direction from that boob tube.
    And the more we become urbanized, the more we are directed 
and the more we are actually brainwashed into thinking in 
certain directions. But if you have access to a fishing pole, 
you have access to a hunting weapon, you have access to 
viewing, you become a self thinker. You are not wedded to that 
what I call propaganda machine that it's becoming now because 
we are not aware of what life is all about. I'm from a rural 
area, and I think I still have my hand on the pulse pretty well 
as far as life goes. This nation as our society as known is in 
direct jeopardy because of the constant concentration of people 
and a lack of accessibility to open spaces and availability to 
participate in fish and wildlife.
    I want to thank the panel. I appreciate you being here. And 
we will continue to work with everybody. I believe that's the 
last of my witnesses.
    And with that we will adjourn this hearing. And it lasted 
two hours. I want you to understand that.
    [Whereupon, at 12:50 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
 Statement of John Shively, Commissioner, Alaska Department of Natural 
                               Resources

    Mr. Chairman, my name is John Shively. I am the 
Commissioner of the Alaska Department of Natural Resources. 
Thank you for the opportunity to testify on The Conservation 
and Reinvestment Act, H.R. 701. On behalf of the State of 
Alaska, I will testify on Titles I and II of the bill. Wayne 
Regelin, Director of the Division of Wildlife Conservation of 
the Alaska Department of Fish and Game, will provide the 
state's testimony on Title III.
    The State of Alaska strongly supports provisions in this 
bill to increase Outer Continental Shelf (OCS) oil and gas 
revenues to state and local governments as well as provisions 
to invest in wildlife and land conservation. Alaska's Governor 
Tony Knowles firmly believes that states and local governments 
subjected to the risks of offshore exploration and development 
should also share the revenues collected from those activities. 
This bill reinvests revenue from oil and gas, a nonrenewable 
resource, into renewable resources. It increases revenues to 
states and communities, provides funding for land-based 
conservation and recreation programs, and establishes a 
wildlife-based conservation and education program.
    Under section 8(g) of the OCS Lands Act, 27 percent of the 
Federal revenues received from oil and gas activities in the 
area three to six miles from shore currently return to the 
state. This bill, however, would provide revenue to the state 
and local governments from activities in the entire OCS. The 
distribution of revenues authorized by section 8(g) has been an 
important source of income to states including Alaska. 
Expansion of this revenue sharing provision to the entire OCS 
will ensure that states and localities that receive or could 
receive the impacts of oil and gas activities share the 
benefits. States and localities have not received any of the 
revenues from activities occurring outside the ``8(g)'' zone.
    Increased revenues to state and local governments will 
provide much-needed funds to plan for upcoming OCS development 
proposals, ensure adequate reviews of proposed developments 
continue, and provide research funds to answer important 
questions about the effects of oil and gas development. In 
addition, these funds will help states and communities respond 
to increased needs for infrastructure resulting from oil and 
gas activities, maintain adequate response equipment and 
readiness, and mitigate for other environmental, social and 
infrastructure impacts of OCS activities.
    We are aware of opposition to this bill by some groups 
because of the perception that it will provide incentives for 
states and local governments to support OCS oil and gas 
development. For Alaska, this legislation would clearly provide 
additional revenues to the state and local governments, but 
rather than providing an incentive for OCS development, it 
would provide a more equitable distribution of the revenues to 
those who face the impacts and risks of development. The State 
of Alaska, local governments, and the people of Alaska will 
continue to demand adequate environmental protection for all 
OCS exploration and development proposals. These protections 
include careful consideration of subsistence resources and 
uses, substantive efforts to prevent oil spills, state-of-the-
art leak detection for pipelines and storage tanks, adequate 
capabilities to respond to an oil spill, prevention of habitat 
damage, adequate control of air contaminants, and proper 
disposal of wastes. Receiving funds from OCS leasing to help 
address these issues seems logical to us.
    My testimony begins with a brief history of efforts to 
expand the distribution of OCS revenues to state and local 
governments. It continues with a description of impacts facing 
states and localities. Then I will present the State of 
Alaska's specific comments on Titles I and II followed by 
concluding remarks.

History

    Since the first lease sales in the OCS, states and local 
governments have consistently requested a greater share of OCS 
revenues. For Alaska, the first OCS sale occurred in 1979 with 
the joint Federal-state Beaufort Sea Sale.
    During the early years of OCS leasing, states focussed 
their energy on retaining the right to review Federal offshore 
lease sales for consistency with state coastal management 
programs. Congress substantiated the rights of states to review 
OCS lease sales in 1990 with the reauthorization of the Federal 
Coastal Zone Management Act.
    Also in 1990, a presidential declaration required 
preparation of a legislative initiative to provide a greater 
share of revenues to communities directly affected by OCS 
development. In response to this declaration, the Department of 
the Interior submitted an impact assistance proposal to the 
102nd Congress. Congress has considered several proposals to 
increase OCS revenue sharing, but none of these bills have been 
passed into law.
    The OCS Policy Committee, a committee of state and private 
members that advises the Secretary of the Interior on OCS 
matters, supported increased revenue sharing with states and 
local communities. The October 1993 report of the OCS Policy 
Committee's Subcommittee on OCS Legislation: The Outer 
Continental Shelf Oil and Gas Program: Moving Beyond Conflict 
to Consensus outlines the Committee's revenue sharing 
recommendations. The OCS Policy Committee includes a 
representative from the State of Alaska as well as 
representatives from other coastal states.
    The OCS Policy Committee continued its support for revenue 
sharing after it approved the 1997 Coastal Impact Assistance 
report to the OCS Policy Committee from the Coastal Impact 
Assistance Working Group. Many of the recommendations in that 
report are reflected in the bill before the Committee today.

Impacts Facing State and Local Governments

    States and communities adjacent to OCS oil and gas 
activities receive many types of impacts both large and small. 
While OCS oil and gas development can provide substantial 
benefits to Alaskans, these benefits do not come without costs.
    During construction, increased demand for infrastructure 
and services occurs throughout the state. An influx of workers 
to an area results in increased demand for facilities and 
municipal services such as housing, schools, roads, water and 
sewer facilities, recreational facilities, and health services. 
Private businesses in local communities and larger urban 
centers that are dependent on oil money, such as restaurants 
and support business, would be affected when construction 
ceases or when fields decline.
    Facilities solely within the OCS, such as production 
islands, escape taxation because they are outside state and 
municipal boundaries. As related onshore facilities age, income 
to communities decreases as depreciation of those facilities 
reduces the local tax base.
    Perhaps one of the most serious impacts of offshore oil and 
gas development is the threat of an oil spill. Proper planning 
and vigilant oversight by Federal and state regulators will 
prevent a major oil spill from occurring. Although the ability 
to prevent and respond to oil spills has greatly improved in 
recent years, the threat of oil spills continues to be an 
important issue for many Alaskans.
    State and local governments need to play active roles in 
oversight of exploration and development activities to minimize 
the likelihood of a major oil spill.
    Other environmental effects of OCS development include 
increased air pollution, short-term water quality problems, 
possible displacement of fish and wildlife, and alteration of 
habitat. Pipelines and associated roads can cover large 
distances and result in impacts from traffic and access to 
areas previously inaccessible.
    A sometimes-overlooked effect of OCS development relates to 
government oversight and monitoring. Local and state 
governments must work closely with applicants during the 
planning process for the development. Once project applications 
have been submitted, government agencies must complete rigorous 
reviews of project proposals. Throughout the life of the 
project, local and state government staff provide oversight and 
monitoring. Even a revenue sharing program will require hiring 
of trained staff to oversee the program.
    Some cultural concerns about OCS oil and gas development 
exist in Alaska. OCS activities could have cultural effects by 
temporarily disrupting subsistence activities or bringing 
additional pressure on fish and wildlife resources because of 
non-local harvesters. Inadvertent damage to cultural, historic 
or archaeological sites could occur including exposure of sites 
that will require further protection.
    Obviously revenue sharing funds could assist the state and 
local governments in mitigating these concerns. This support is 
important because these governments are the front line troops 
in dealing with these risks and opportunities.

Title I: Impact Assistance

    This title of the bill provides a remedy for a long-
standing inequity in distribution of OCS revenues. It increases 
current revenue sharing provisions for activities occurring in 
the area three to six miles from shore to the entire OCS. Other 
than revenues received under the ``8(g)'' provisions of the OCS 
Lands Act, state and local governments have few means to 
recover costs of OCS activities other than taxation of shore-
based facilities. The State of Alaska supports the intent of 
the bill and many of its provisions.
    Considering the wide diversity of needs in Alaska and the 
various types of environmental, social and economic impacts 
facing the people of the state, the State of Alaska supports 
increasing the revenue sharing provisions for oil and gas 
activities in the OCS. We appreciate the flexibility in the 
bill that would enable communities to use the funds for 
purposes that best suit their needs.
    Revenues received from states and local governments from 
this provision could be used to plan for OCS development, 
review proposed developments, complete research to answer 
pertinent questions, and conduct monitoring. Funds could be 
used to improve oil spill response equipment and training and 
improve much needed community services or facilities. For 
example, in his recent comments on the offshore Northstar 
Development Project, Kaktovik Mayor Lon Sonsalla identified a 
number of facilities for his community in the North Slope 
Borough that could be improved using impact assistance funds. 
He noted the need for expansion of the community center and 
improvements to school facilities. These kinds of basic 
facilities could be funded through the revenue sharing 
provisions of the bill.
    Because of the immense size of the State of Alaska and the 
wide geographic areas affected by oil and gas transportation 
systems, many communities either experience or could experience 
impacts from OCS leasing. For the foreseeable future, OCS 
developments in Alaska would likely tie into existing pipeline 
and marine transportation systems in Cook Inlet or in the North 
Slope. Existing oil and gas transportation systems in Alaska 
include pipelines located in and around Cook Inlet, pipelines 
on the North Slope including the network of pipelines from the 
Alpine Development Project to the east to the Badami 
Development in the west, the Trans-Alaska Pipeline System, and 
tanker travel out of Prince William Sound and Cook Inlet.
    The State of Alaska may submit more specific comments about 
the revenue sharing provisions of the bill in the near future. 
Because of Alaska's unique circumstances, we hope to work with 
you and the Committee staff to devise appropriate means to 
identify and target communities impacted by OCS oil and gas 
development.

Title II: Land and Water Conservation

    The State of Alaska supports this title of the bill and has 
no major concern over provisions within this title. The Land 
and Water Conservation Act funds such programs as state and 
local parks, green space expansion and park facilities for 
urban and nonurban areas. It also provides funds for 
acquisition of lands and waters for the National Park System, 
National Wildlife Refuge System, and other land conservation 
units. We support this stable and predictable funding program.
    The Land and Water Conservation Fund Stateside Program has 
provided $28,138,463 to the State of Alaska since the program 
began in 1965. Half of the funds have been granted to 44 local 
Alaskan municipalities and villages and half have been invested 
into 44 different units of the Alaska State Park system. A 
total of 450 different grants were made between 1965 and 1995, 
the last year there was money distributed to the state for this 
program. A number of examples of the uses of these funds 
illustrate how important they are to the State of Alaska.

        <bullet> Chester Creek Park and Greenbelt in Anchorage: 
        $1,272,127 for land acquisition for the trail through town, 
        tennis courts, a hockey and softball complex, a picnic area, 
        and a playground.
        <bullet> Eaglecrest Recreation Area in Juneau: $743,698 for a 
        ski lift, the lodge, a warming hut, trail construction, and 
        facilities such as the maintenance buildings.
        <bullet> Alaskaland in Fairbanks: $400,000 for the marina and 
        theme park.
        <bullet> Klawock Ballfield: $64,900 for construction of the 
        ballfield.
        <bullet> City of Old Harbor/Glacier View Park: $45,056 for 
        playground, basketball/volleyball court, picnic area, and 
        parking.
        <bullet> City of Nondalton Community Park: $61,391 for 
        playground, ballfield, picnic area, and a shelter.
        <bullet> Chugach State Park: $2,352,260 for trails, restrooms, 
        parking, campgrounds, water wells, and land acquisition.
    We note that the State of Alaska has in place a granting procedure 
to administer this program including staff already trained in the Land 
and Water Conservation Fund stateside granting process. Therefore, no 
start-up time is needed to get the funds distributed to municipalities 
and villages. The state has just completed its Statewide Comprehensive 
Outdoor Recreation Plan (SCORP) as required by existing Land and Water 
Conservation Fund regulations. We appreciate the provisions within the 
bill that allow these plans to stand for five years until a new state 
action plan is developed.
    The state appreciates concerns about possible effects of the bill 
to private property rights. Congressman Young recognizes concerns about 
possible abuse of this purchasing authority by Federal agencies by 
including four controls in the bill. First, no lands can be taken 
through condemnation--there must be a willing seller before lands may 
be purchased. Second, two-thirds of the Federal Land and Water 
Conservation Fund money must be spent east of the 100th meridian. 
Third, any expenditure for Federal land acquisition over one million 
dollars must have approval of the Resources Committee. Lastly, no 
Federal purchase outside of CSUs may be made without congressional 
authorization.
    The state supports a provision for funding historic preservation 
projects through the National Historic Preservation Act. This program 
has historically been funded through OCS revenues. We support continued 
use of these revenues to support historic preservation projects and 
respectfully suggest this provision be added to H.R. 701.
    Alaska has historically not been eligible for Urban Parks funding. 
Its population has grown so that it would now be eligible, but funding 
possibilities are extremely low as the program is targeted for inner-
city blight and redevelopment on the eastern seaboard. Therefore, H.R. 
701, which bases 20 percent of the funding on the ratio of a state's 
acreage to the total U.S. acreage, would benefit Alaska.

Conclusion

    In conclusion, the State of Alaska strongly supports this 
legislation. It is only right that the people who receive the impacts 
and risks of OCS oil and gas development also receive an adequate share 
of the rewards. This bill recognizes the importance of providing 
revenue to both state and local governments. Revenues passed through to 
state and local governments could be used for a wide variety of uses 
that would improve the standard of life for Alaska's residents and 
respond to environmental and economic impacts of OCS development.
    We view this legislation not as an incentive to OCS development, 
but as a more equitable distribution of revenues to the people who 
receive the impacts of OCS oil and gas development. Increased revenues 
to the State of Alaska and local governments will not diminish the 
interest of the residents of Alaska to ``do it right.'' We will 
continue our vigilance to ensure that oil and gas development provides 
the maximum benefits to the economy with the least amount of negative 
environmental, social, and economic impacts.
    The State of Alaska supports provisions in the bill to promote 
land-based conservation and recreation programs such as the Land and 
Water Conservation Fund and the urban parks. Also, we support 
provisions in the bill to establish a wildlife-based conservation and 
education program.
    Mr. Chairman, this concludes my testimony on Titles I and Il of 
H.R. 701, the Conservation and Reinvestment Act. As I stated 
previously, Wayne Regelin of the Alaska Department of Fish and Game 
will provide the State of Alaska's testimony on Title III of the bill. 
Thank you again for the opportunity to testify on this important 
legislation. I am prepared at this time to answer any questions the 
Committee may have on my testimony.
                                 ______
                                 
      Statement of Wayne Regelin, Director, Division of Wildlife 
            Conservation, Alaska Department of Fish and Game
    Thank you for the opportunity to testify. My name is Wayne Regelin. 
I am the Director of the Alaska Division of Wildlife Conservation.
    It is a great pleasure to express strong support for H.R. 701 and 
to thank you for your foresight and leadership in introducing this 
landmark legislation.
    I commend you for recognizing the need for greater funding for 
state wildlife management programs. You realize the benefits of 
increasing our knowledge about all wildlife species and recognize the 
need for wildlife education programs that give a balanced message to 
the public, especially to children.
    It is gratifying to see the bipartisan support this bill has 
generated. The large number of congressmen cosponsoring the bill is 
impressive, but it is more impressive to see that the cosponsors are 
divided among Republicans and Democrats.
    Many Alaskans recognize the need for this bill. We have a broad 
coalition of over 400 groups, including businesses, sportsmen's groups, 
environmental organizations, Native associations, and many cities and 
boroughs that supported the concepts in the old Teaming with Wildlife 
initiative. Only 2 or 3 of these groups dropped their support when the 
funding sources changed from an excise tax to offshore oil revenue.
    I will focus my comments on Title III of your bill because it 
provides the greatest benefit to wildlife management, but I do 
recognize that Titles I and II will also benefit wildlife users.
    Title III will provide funds to all 50 states plus our territories 
that can be used for:

    1. management of all wildlife species.
    2. wildlife education and
    3. wild life-related outdoor recreation.
    In Alaska, this funding will provide substantial economic benefit 
in several ways.
    Knowledge about wildlife species can prevent them from being listed 
as threatened or endangered under the Endangered Species Act. Often 
groups petition the FWS to list a species that is not hunted because 
the population status and distribution is not well known or is unknown. 
This bill will provide funding to make sure this does not occur and 
reduce the tremendous economic and social disruption that an ESA 
listing causes.
    In Alaska over 1 million tourists visit each summer and one of 
their priorities is to see wildlife, especially moose and bears. This 
bill will provide funds that will allow us to develop a watchable 
wildlife program to increase viewing opportunities and keep the 
tourists coming. We will build new trails and other types of access 
that can be used by wildlife watchers in the summer and hunters in the 
fall. Wildlife viewing can be done in ways that are compatible with 
hunting through time and space planning and zoning.
    Additional millions of dollars can be generated if tourists add 
only one day to their Alaska vacation. We will develop a watchable 
wildlife program, second to none, that will attract more tourists and 
keep them in Alaska longer.
    It is vital to the long-term continuation of hunting, trapping and 
effective wildlife management that we effectively educate the public 
about wildlife management.
    This bill will provide the funds for the states to develop 
effective educational programs that have a balanced message about the 
benefits of wildlife management and sustainable use of all of our 
natural resources. In Alaska we have plans to work with all of the 
local school districts to provide such a program to students.
    I know that Congressman Miller has introduced H.R. 798 that 
contains some elements in H.R. 701. H.R. 798 omits several elements 
that concern me and other wildlife agencies throughout the U.S.
    H.R. 798 would create an entire new bureaucracy to provide far less 
funding for wildlife management. I see no need to create another 
expensive bureaucracy to distribute funds to states when the existing 
Federal Aid in Wildlife Restoration program can easily accomplish the 
job at little additional cost.
    H.R. 798 would not provide any funding for wildlife education or 
wildlife-related recreation such as wildlife viewing programs. Funding 
for both of these uses is essential. Also, it is unlikely to gain 
enough support to pass Congress without some form of impact assistance 
related to offshore drilling.
    In conclusion, I want to reiterate the State of Alaska's strong 
support for H.R. 701. Thank you
                                 ______
                                 
 Statement of Hon. Robin Taylor, Alaska State Senate, Wrangell, Alaska
    Good Morning, Mr. Chairman and members of the House Resources 
Committee. My name is Robin Taylor and I am here testifying today on 
behalf of State Senate President Drue Pearce and the Alaska State 
Senate and Alaska State House Speaker Brian Porter and the Alaska State 
House. I am a member of the Alaska State Senate from Wrangell, Alaska 
and serve as Chairman of the Senate Judiciary Committee.
    I am here today to talk specifically about the impacts of offshore 
oil and gas development activities on Alaska and its coastal 
communities and provide comments on H.R. 701 and H.R. 798--both of 
which deal with the sharing of Outer Continental Shelf revenues. I want 
to begin, however, by expressing my appreciation to Chairman Young and 
the Committee for holding this field hearing in Alaska.
    Since we have been provided only a brief period for our oral 
presentation, I will summarize our testimony. I do request, however, 
that the entire written testimony be entered into the hearing record.

Introduction

    As you will gather from this testimony, the Alaska Legislature is 
fully supportive of the concept of revenue sharing from Federal 
resource development within or adjacent to our state. That principal is 
embodied in our statehood Act in recognition of anticipated challenges 
in maintaining viable economies in our fledgling state. Quite frankly, 
the challenges are equally as great today considering that our state is 
still struggling to establish many of the basic amenities taken for 
granted in the lower 49 states. We are a state rich in resource, much 
of which are still untapped, unavailable or economically nonviable. We 
suffer from expensive transportation costs, the lack of basic 
infrastructures, near third world living conditions in many rural 
communities and an uncle that is loving us to death.
    We are concerned, however, that the strings attached and the 
potential disadvantages associated with the proposed revenue sharing 
programs could eventually outweigh the benefits. It is difficult for 
us, for instance, to enthusiastically embrace the concept in any 
program which is designed to transfer significant amounts of private 
lands in Alaska into Federal ownership--regardless of the benefits. 
Over 50 percent of our state is already owned by Uncle Sam and the vast 
majority of it contributes very little to the economy of our state and 
that which it used to contribute is dwindling rapidly.
    Mr. Chairman, put simply, we are not interested in expanding the 
amount of Federal land ownership in Alaska. We are not interested in 
giving the Secretary of Interior or the Secretary of Agriculture more 
authority and influence over our lives and the economy of our state. We 
are sympathetic to the cries of abuse by inholders who have been 
harassed unmercifully by the Federal agencies in pursuit of their own 
agendas. It should be no surprise that the Legislature is unalterably 
opposed to continued or expanded authorities of the Federal agencies 
which rob us of our Constitutional and statutory rights to manage our 
own resources, claim title to our statehood grant of lands and waters 
and provide basic services and benefits to our state citizens.
    We are interested in pursuing, however, the true partnership with 
the Federal Government that was envisioned when Alaska became a state 
in 1959. It was our dream that the vast majority of Federal lands in 
Alaska would contribute to the viability of our economies rather than 
provide roadblocks designed to hinder reasonable economic growth. It 
was our dream that this partnership would provide the residents in 
remote areas of our state the same basic life services enjoyed and 
taken for granted everywhere else in America.
    It is our hope that we can still fulfill that dream and one of the 
mechanisms is to encourage the sound and orderly development of some 
portion of the Federal lands and resources in our state and provide 
some form of consistent revenue flow to the state to compensate for the 
associated impacts and to share in any economic benefits. Mr. Chairman, 
we believe that it was this philosophy that you wished to present in 
any proposed OCS revenue sharing bill. With that in mind, we have 
prepared some suggestions that we hope the Committee will seriously 
consider as these bills proceed.

Background

    For the last three decades Alaska has been one of the primary 
sources of this country's domestic energy supply. It is no secret that 
the oil and gas industry has brought many benefits to Alaska. At the 
same time, however, it has also created responsibilities and burdens 
which have economic costs throughout the State.
    Alaska is also one of the several states which has active Federal 
Outer Continental Shelf (OCS) oil and gas development taking place off 
its shores. More importantly, the level of production from Federal OCS 
oil and gas leases in Alaska is likely to increase significantly as new 
development is brought on line. Hundreds of millions of dollars in 
revenues will be produced from Federal OCS development in Alaska. Yet 
unlike Federal onshore activities, Alaska and the individual 
communities which are most proximate to Federal OCS development will 
receive no direct benefits from it even while we shoulder the burdens 
and responsibilities that arises from development.
    As in the case of onshore development, Federal OCS activities are 
major industrial undertakings which inevitably impact the State and 
particularly the communities nearest to them. Federal OCS oil and gas 
activities place increased demands on infrastructures, such as roads, 
ports, airports and not just those in the immediate area. Anchorage, 
our largest city, which is itself a coastal community, feels such 
affects from activities all over the State. In Alaska, much OCS-related 
equipment and facilities must come through the Port of Anchorage 
whether it is destined for the nearby waters of Cook Inlet or those 
much further north. The Anchorage and Fairbanks airports both 
experience significantly higher traffic, both cargo and passengers, as 
a direct results of onshore development and offshore activities will 
bring further increases. Federal OCS activities also place increased 
demands on local public services, such as fire protection, search and 
rescue, and law enforcement, as well as the utility systems of nearby 
communities, such as Barrow, Kaktovik, Kodiak and communities around 
Cook Inlet. Equally important are the increased environmental 
monitoring and regulatory functions that must be performed by the State 
and local governments. Under the current Federal system, however, we 
derive no direct economic benefits from Federal OCS oil and gas 
development to assist us in dealing with the impacts which these same 
activities create.
    Not only is this unfair, it is also at odds with the historical 
practice and policy in the United States of allowing affected states 
and communities to share in the benefits of the development of 
federally-owned resources. The Alaska Statehood Act and, in other 
states, the Mineral Leasing Act, provide that we are entitled to 
receive a significant portion of the revenues derived from Federal oil 
and gas leases on lands within our boundaries. This policy exists both 
as a matter of fairness and in recognition of the very real impacts 
which such activities create. Similarly the Federal payments in lieu of 
taxes or PILT program seeks to account for the economic impacts of 
Federal lands on the local tax base. But the rules suddenly and 
inexplicably change when those very same Federal activities occur right 
off our shores. That, we believe you'll agree, is simply not right and 
makes no sense.
    Nevertheless, this is not simply a matter of sharing the wealth, 
but also about addressing very real needs. As I mentioned earlier, many 
of the smaller coastal communities in Alaska are struggling under what 
can best be described as third world conditions. Most are still trying 
to address basic community needs like education and water and sewer 
service. Many of the residents in these villages exist below the 
poverty line and are forced to rely on subsistence activities for 
survival. I have included as an exhibit to our written testimony a 
chart with income and poverty information for some of our coastal 
communities. The social and cultural problems that accompany poverty 
are often rampant. Money will not solve all of these problems. But 
providing some form of OCS community impact assistance will help 
improve the quality of life for such communities and their residents.
    Allowing Alaska and other coastal states to share in the economic 
benefits of Federal OCS development will also assist us in addressing 
other important needs and functions. As a coastal state Alaska has an 
extensive Coastal Zone Management Plan and Program which is concerned 
not just with OCS oil and gas activities but all activities which 
impact the coastal environment. Federal OCS revenues would better 
enable Alaska and its communities to implement adequate monitoring and 
planning programs. The monitoring and collection of data regarding 
marine species and habitat could be significantly expanded. Local 
communities would be able to participate more fully and address their 
concerns in the extensive Federal and state environmental planning 
process which precedes OCS development.
    With this in mind, Mr. Chairman, we offer the following specific 
comments on H.R. 701 and H.R. 798.

General Comments

    From the perspective of the Alaska Legislature, the general 
approach in H.R. 701 is much preferred over what is in H.R. 798. The 
legislation sponsored by Representative Miller does not recognize the 
need for impact assistance funding--an essential component of any 
revenue sharing concept. H.R. 798 places more emphasis on Federal land 
purchases and environmental protection than on balancing those with 
legitimate human needs of the coastal states. We are seriously 
concerned about the long term economic impacts of the programs being 
promoted in his legislation. For those reasons, our suggested changes 
will be focused on the legislation sponsored by the Chairman.
    From our perspective no OCS revenue sharing bill is acceptable 
unless all funds are subject to legislative appropriation just as now 
exits for onshore oil and gas revenue sharing, Land and Water 
Conservation Funds expenditures and Pittman/Robertson programs. It is 
imperative that such vast amounts of money be subjected to full public 
review and planning processes and legislative prioritization. Bypassing 
the legislative appropriation process in favor of unilateral and 
politically motivated actions by either the Federal or State 
Administrations would violate the intent of our Constitution and create 
major fiscal conflicts. Any other method of allocating funds would be 
inappropriate. We insist that this requirement be incorporated into all 
three titles in H.R. 701.
    The ``no net loss'' conversion program will strike the Alaska 
public as a bad idea. I refer you to our introductory comments about 
the excessive Federal ownership in our state. Perhaps a more palatable 
approach would be to establish a ``no net loss'' policy favoring 
private land ownership in Alaska.

Title I

    The qualification formula for distributing OCS revenues to local 
communities is not clear to us. It appears that very few coastal 
communities in Alaska could qualify and we don't believe that this was 
the intent of the sponsors. Given the wide ranging effects of OCS 
development across Alaska, we would recommend that the community 
qualification criteria be as broad as possible.
    The term ``political subdivisions'' needs to be more clearly 
defined. For example, under the terms of the present legislation, the 
Secretary(s) may have authority to designate any existing or yet to be 
established governmental entity as a qualified ``political 
subdivision'' of the state regardless of what has been established in 
state law. We strongly urge the Committee to require that any eligible 
``political subdivision'' must be specifically recognized in state 
statute.
    The purposes and use of the revenue sharing funds should be broad. 
Although we agree that some of the funds could and should be used for 
planning and mitigating environmental concerns, we strongly recommend 
that providing basic public services and infrastructures should be a 
primary goal of these shared revenues. Certainly, providing public 
education, water, sewers, roads, airports and public protection should 
be justifiable uses of these funds.
    We also recommend that any fiscal planning processes incorporated 
into this proposal be subject to legislative approval. It is 
inconceivable that large sums of Federal funds would be allocated based 
on administrative planning processes without full public disclosure and 
legislative concurrence.
    We also object to the provision that allows the Secretary to 
unilaterally approve or disapprove plans that have been rejected 
through the normal state process.

Title II

    Provisions in this title providing for the acquisition of private 
inholdings within Federal management units are frightening. As we have 
mentioned earlier, we are opposed to an expansion of Federal land 
ownership in Alaska. We would favor a provision which states that no 
additional Federal lands could be purchased in states where over 50 
percent of the state land mass is already owned by the Federal 
Government.
    We are aware that there is some interest amongst Native 
Corporations to sell and the Federal agencies to buy some inholdings 
within Conservation Units in Alaska. Since some of the Native land 
selections were mandated by the provisions of the Native Claims 
Settlement Act rather than being selected for its economic values, it 
is understandable that some Native stockholders would wish to sell 
lands that have national interest values but provide little or no 
profit to the Corporate shareholders. We would recommend that serious 
consideration be given to land exchanges in those instances or the sale 
of Federal holdings elsewhere to maintain at least the existing 
proportion of Federal, state and private lands.
    We are uncomfortable with the provision in Section 203 which 
permits local governments to transfer funds to local non-profit 
organizations without strict criteria being applied as to the use of 
those funds. Formal accountability procedures must be applied as are 
required presently under state law.
    It is imperative that this legislation clearly prohibit 
condemnation of private lands and provide for only purchases from 
willing sellers at fair market value.
    Serious consideration should also be given to using some of these 
funds to compensate inholders who do not wish to sell their lands yet 
suffer the loss of land and resource values due to restrictive 
regulations of the adjacent Federal land manager.

Title III

    Since this Title creates a subaccount in the Pittman/Robertson 
account for distribution to the states, we strongly recommend that 
every effort be made to clearly establish that provision applying to 
this subaccount do not apply to the other portion of the account 
dealing with excise taxes on sporting goods and ammunition.
    The legislature would strongly recommend that Section 307 be 
eliminated. This provision unnecessarily restricts the appropriation 
prerogatives of the legislature. Although it is not anticipated that 
new funds will only replace funding from other sources, the legislature 
must retain some authority to prioritize use of public funds. The 
existing restrictions on use of Pittman/Robertson funds already protect 
those associated Federal and state matching monies from abuse.

Conclusion

    In closing let me emphasize that the Legislature and the citizens 
of Alaska overwhelmingly support responsible OCS development. Alaska 
has been blessed with a wealth of natural resources and their orderly 
development is a crucial element in our economy. At the same time, 
however, it is important that the United States recognize the necessity 
and equity of allowing Alaska and other coastal states to share 
directly in the benefits of the developing OCS resources so as to 
better enable them to deal with the very real impacts and 
responsibilities which they create.
    Most of our suggestions are designed to encourage the concept of 
revenue sharing with the states while at the same time enhancing the 
public benefits by integrating these Federal monies into the planning 
and appropriation processes already in place in our state.
    Thank you again Mr. Chairman and members of the Committee for the 
opportunity to appear here to express the Legislature's concerns and 
offer constructive suggestions.
[GRAPHIC] [TIFF OMITTED] T6598.001

[GRAPHIC] [TIFF OMITTED] T6598.002

[GRAPHIC] [TIFF OMITTED] T6598.003

[GRAPHIC] [TIFF OMITTED] T6598.004

[GRAPHIC] [TIFF OMITTED] T6598.005

[GRAPHIC] [TIFF OMITTED] T6598.006

[GRAPHIC] [TIFF OMITTED] T6598.007

[GRAPHIC] [TIFF OMITTED] T6598.008

[GRAPHIC] [TIFF OMITTED] T6598.009

[GRAPHIC] [TIFF OMITTED] T6598.010

Statement of Carl L. Rosier, Retired Commissioner, Alaska Department of 
         Fish and Game and Alaska Outdoor Council Board Member
    Good morning Mr. Chairman and members of the House Committee on 
Resources. My name is Carl L. Rosier and I am here today testifying on 
behalf of Alaska fish and wildlife resources as a retired Commissioner 
of the Alaska Department of Fish and Game that has been involved with 
management and development of those resources since 1955. In 
retirement, I am also a Board member of the Alaska Outdoor Council. The 
AOC is an umbrella organization representing a diverse group of sport 
and recreation clubs that number 47 and have a membership of 
approximately 12,000 individuals. I am representing the views of AOC in 
my testimony today.
    Before beginning, I would like tu express my appreciation to 
Chairman Young and the Committee for holding this field hearing in 
Alaska and inviting me to testify.
    I have carefully reviewed both H.R. 701 and H.R. 798 and I strongly 
prefer the approach in H.R. 701. It appears to me that endangered 
species are dealt with after listing in H.R. 798 rather than 
encouraging action before listing occurs. It also seems that absence of 
an impact assistance program within H.R. 798 conflicts somewhat with 
the basic concept of sharing OCS funds. Further H.R. 701 appears to 
give considerably more flexibility to the States and their political 
sub-divisions to design needed programs and identify priorities. H.R. 
798 appears to be a top down Federal approach with substantially more 
Federal agency involvement. For the above reasons my comments are being 
confined to H.R. 701 and due to my wildlife back-ground largely Title 
III.
    It is my view that H.R. 701 is ``land mark'' legislation that 
promotes a wildlife legacy for all citizens for many years to come. The 
sponsors of this bill can truly be proud of their efforts as this bill 
provides for increasing and stabilizing funding for wildlife, fish, 
land and water conservation programs.
    Further, H.R. 701 builds on the long term financial support states 
have received for many years from hunters and fishermen and utilizes 
the successful distribution system of the existing Federal Aid in 
Wildlife Restoration program to minimize costs.
    Provision of H.R. 701 that enable States to initiate preventative 
measures early on to address needs and habitat requirements of 
declining fish and wildlife species that may be listed under Endangered 
Species are exceedingly important. This ability to develop information 
about a species, especially non-game species, will help tremendously in 
avoiding listing and design of recovery programs if listing occurs. 
Non-game funding is tough dollars to come by in today's climate of 
tight budgets at all level of government.
    With today's increased urbanization of our population and shrinking 
wildlife habitat the need for providing good balanced public education 
and outreach programs regarding fish and wildlife is exceptionally 
important. Public understanding of management programs to avoid the 
emotional ballot box approach to wildlife issues is essential to 
responsible resource stewardship, H.R. 701 goes a long way toward 
bolstering available funding in this critical area.
    As our population grows, maintenance and creation of access to 
lands and water is critical to the use and enjoyment of fish and 
wildlife resources. H.R. 701 provisions that finally fund the State 
side of the Land and Water Conservation Fund program is a welcome 
provision. This will help insure the improvement of public access to 
areas used by hunters, anglers and other outdoor interests.
    There are numerous other positives within H.R. 701 but those listed 
above are the primary reasons for our support of this bill today.
    At this time, with the bill draft before us there are several 
specific changes we would recommend to H.R. 701  In Title III Section 
301, Findings paragraph (2)(7) and (8) the use of ``fish and wildlife'' 
rather than just ``wildlife'' insures equal consideration for all 
species. We make the same comment on Section 302 paragraph (1).
    Title III Section 303(d), we are concerned with the definition of 
``Conservation'' being somewhat vague. It is suggested that wording be 
inserted in lines 13, 14, and 15 that read ``methods and procedures 
necessary to restore, sustain, and enhance wildlife populations 
including.'' Further, in (d) paragraph, line 20 and 21 insert ``as well 
as the historical harvest levels of individuals within a wildlife 
stock,'' etc. Finally in (d) paragraph the definition of wildlife 
conservation education be enlarged to read on line 21 ``resource 
stewardship among consumptive and non-consumptive users.'' Your 
consideration of these preliminary proposed changes is appreciated.
    Alaskans have a strong commitment to sustainable use of the states 
fish and wildlife resources. Over 75 percent of Alaska voters in a 
statewide poll indicated a preference for eating wild game. A study by 
the U.S. Fish and Wildlife Service indicated that Alaskans spent $1.7 
billion in 1996 to participate in wildlife related activities. In 
addition, I believe the Committee has been supplied with the statistics 
on support from Alaska business, organizations, individuals and elected 
officials for increased funding for wildlife under the Teaming With 
Wildlife proposals of recent times.
    Congressman, I believe you have a winner here and I am sure the 
wildlife I speak for today will appreciate the additional management 
support provided by H.R. 701. We look forward to working with you as 
the bill proceeds through Congress.
    Thank you!
                                 ______
                                 
Statement of Steven C. Borell, P.E., Executive Director, Alaska Miners 
                              Association
    Thank you Mr Chairman.
    My name is Steve Borell, I am the Executive Director of the Alaska 
Miners Association and I am testifying on behalf of the Association.

Regarding H.R. 798, Permanent Protection for America's Resources 2000 
Act

    We cannot support this bill. This bill is not in the best interest 
of American business, the mining industry, private property owners, or 
the general public. This bill expends large sums of money for purchase 
of private lands and does not provide monies to states and communities 
that can better determine how the funds should be spent. The 
expenditures proposed by this bill should not be allowed. We oppose 
this bill.

Regarding H.R. 701, the Conservation and Reinvestment Act

    We support the primary goal of this bill which is to pass revenues 
from off shore leasing to the states and local communities where the 
revenues are generated. Local states and communities are better able to 
properly allocate and use these funds and will do so with significantly 
less administrative overhead than will Federal agencies.
    We do have concerns with this bill and these are with Title II. 
Specifically, we are concerned with any program that gives Federal 
agencies additional funds to purchase private property. We recognize 
that the H.R. 701 contains some restrictions and limitations, for 
example, on the amount that can be expended without Congressional 
approval. However, this does not assuage our concerns.
    Alaskan miners are possibly the single group of U.S. citizens most 
severely impacted by Federal agencies intent on obtaining and 
controlling private property. Being an inholder within national parks, 
preserves, refuges, monuments, wild & scenic rivers, etc. has been a 
terrible problem for many miners in this state. Many Alaskan mining 
families have lost their equipment, their property, their life savings, 
and their livelihoods because the passage of ANILCA in 1980 made them 
inholders. ANILCA contained all manner of promises for access and 
protection of valid existing rights. With 18 plus years of experience 
we can say that those promises have not been honored by the Federal 
agencies and that the relentless efforts of the agencies to control the 
property have made a sham of the promises. Additionally, harassment by 
the agencies reduces the value of the property so the owner has no 
viable alternative but to settle at a greatly discounted amount.
    On several occasions Senator Stevens ensured that funds were 
appropriated to allow the National Park Service to purchase the mining 
claims held by miners at Kantishna. Furthermore, if my memory is 
correct, on at least three occasions Senator Stevens or Senator 
Murkowski wrote specific legislation that would provide relief for 
Kantishna area inholders. About five years ago, while he was Ranking 
Minority Member on the Senate Energy and Natural Resources Committee, 
Senator Murkowski presided over a hearing of that Committee held here 
in Anchorage on the problems faced by inholders and their treatment. 
However, even with all this effort, I am aware of only four instances 
where Kantishna inholders have actually been compensated for their 
property. I am aware of many others, who because of agency delays and 
harassment (both deliberate and incidental) have lost everything they 
had. These are some of the most bitter and hurt Alaskans you would ever 
have the opportunity to meet. Many of them died before receiving any 
compensation or even a small measure of Justice. Money has been 
appropriated but the National Park Service has been unable and/or 
unwilling, to settle with the affected persons at a reasonable value.

Our Opposition to Title II Purchase of Private Land

    It is with this background that we cannot support Title II of H.R. 
701 as currently drafted. We urge that Title II be removed from the 
bill or changed significantly. This Title provides funds for the 
Federal Government to purchase private land. There are some instances 
where this is appropriate but those are exceptions and should be dealt 
with on a case by case basis. Our concerns with Title II include the 
following:

    1. Title II creates a dedicated fund that can be used for purchase 
of private property by government agencies. This fund will become an 
``entitlement'' and once an entitlement is established it becomes 
nearly impossible to change it. Agencies will set up new programs to 
administer and spend the money, lease new office space, and hire new 
employees, all of which establishes new dependencies on the continued 
receipt and perpetual increase in the amount of money needed.
    2. This dedicated fund will be off-budget and as a result, not 
subject to annual Congressional authorization and oversight. Such 
oversight now occurs during the debate over each appropriations bill. 
All expenditures must be weighed against other needs of the nation. 
Even where there is annual oversight, there are numerous instances 
where government agencies have strayed from the intent of Congress. 
When this happens Congress has an extremely difficult task getting the 
agencies back under control. Examples of this problem, even with annual 
Congressional oversight through the appropriations process, can be 
found in every land management agency in the Department of Interior. 
Moneys for purchase of private lands must continue to be tightly 
controlled and be subject to the annual Congressional appropriations 
and oversight process.
    3. The availability of huge amounts of money for purchase of 
private lands will provide a tremendous motivation for government 
agencies to use the money to buy more private land than is necessary. 
This will place private property owners at jeopardy. Where private 
lands are inholdings within Federal conservation system units, agencies 
are able to withhold issuance of various permits or require outrageous 
amounts of money as ``mitigation,'' thereby rendering the private land 
of little value and forcing the owner to sell his property for a song.
    4. The existence of a trust fund to purchase inholdings will become 
an argument to support new Congressionally designated parks, refuges, 
etc.
    5. As written the funds can also be used to purchase private land 
within the boundaries of National Forests. National Forest boundaries 
often encompass huge areas of private land. Every mining claim and 
operating mine will become a target for purchase by the U.S. Forest 
Service. Farms, ranches, resorts, homes, small towns, and private land 
around towns will be placed in jeopardy.
    6. The availability of huge amounts of money for purchase of 
private lands will provide a tremendous motivation for government 
agencies to find new ways to use the money. The Exxon Valdez oil spill 
(EVOS) settlement moneys are a recent example of how large amounts can 
be misspent. EVOS monies have been used to purchase several hundred 
thousand of acres of private land in a state with little private land 
to begin with and place them into restricted set-asides. These lands 
could have been productive. They could have provided on-going revenue 
for their owners, jobs and economic benefit to their communities and 
taxes to local and State governments. But no, the EVOS funds have been 
used to separate the Native peoples from their lands and their 
heritage. The affected Natives have been given promises of continued 
use for subsistence and other traditional uses. However, we have no 
confidence that 18 years from now these promises will have any more 
weight than the promises in ANILCA for protection of valid existing 
rights. Glacier Bay provides an example where the fishermen are being 
driven out of the area simply because the National Park Service does 
not want them there.
    7. These funds will place Native allotments in jeopardy. There are 
now several thousand Native allotments that are inholdings within 
Federal set-asides. Title II funds will be used to place tremendous 
additional pressure for these landowners to sell their property. Access 
and other restrictions can easily make these lands nearly unusable by 
their owners. If a large source of funds is readily available, the 
danger of increased restrictions and pressure on individual Native 
allotment holders is sure to accelerate. The cancerous efforts of the 
Federal agencies to buy up Native allotments is ongoing but a new fund 
of money will be established to remove remaining allotment holders.
    8. Just as EVOS lands have been used to separate lands in Prince 
William Sound from the Native owners, Title II moneys will be used to 
purchase Native Village lands all across the State of Alaska.
    9. Even though ANILCA says ``no more'' parks and preserves, this 
Title II will provide money to do just that--add more land to parks, 
refuges and other set-asides in Alaska.
    10. The compensation for communities and states through PILT 
(payment in lieu of taxes) will not benefit Alaska. Most of the PILT 
lands in Alaska are in the unincorporated borough and/or have not been 
developed so there is no property tax history for them. They do not 
contain taxable businesses, facilities, homes, etc. These lands are not 
presently on the tax rolls. With Federal purchase, they will never 
provide any tax revenues to state or local communities. PILT will not 
be paid either. Native lands under ANCSA are not taxed until they are 
developed and if I am correct, Native allotments are not taxed unless a 
business is developed on them.
    11. Of Alaska's total 365 million acres, approximately 215 million 
acres are already federally owned and will never provide a tax base for 
local and state governments. This fact was the basis of former Governor 
Walter Hickel's $30 billion suit against the Federal Government. There 
is no justification for the Federal Government to own any additional 
land in Alaska. In fact, the Federal Government should be selling land.
    12. The Federal Government can make better use of this money than 
by purchasing private property. If this is not the case, reduce the 
royalty charged on OCS oil & gas production and increase our Nation's 
scarce domestic reserves of oil and gas. Additional tax revenues 
generated may well exceed the lost royalty revenue.

Our Recommendations Regarding Title II:

    We have sought to show why we cannot support H.R. 701 as now 
drafted. If we have not convinced you to remove Title II in total, then 
we urge that major changes be made to it. There are four changes that 
need to be made and without these Title II cannot be made acceptable to 
Alaska miners:

        1. Require a hard cap on the national acreage of land owned by 
        the Federal Government that is the same as the acreage 
        presently owned. This will ensure that there is ``no net loss 
        of private land'' for the nation.
        2. Require that, in states where Federal land ownership exceeds 
        some threshold (possibly 10 percent), for every acre of private 
        land purchased, not less than one acre of Federal land be sold 
        into private hands. This will ensure that there is ``no net 
        loss of private land'' on a state by state basis. Additionally, 
        a standard should be included for determining valuation so the 
        reduction in value brought about by agency harassment of 
        inholders will not be effective in reducing property values.
        3. Extend the prohibition on Federal agency use of condemnation 
        so it applies to state and local governments. This prohibition 
        must apply to funds obtained under any part of the bill.
        4. Remove in total the provision allowing U.S. Forest Service 
        inholdings to be purchased under this bill.
    Other changes that should be made include:

        5. Require that any purchases of more than $250,000 or 5,000 
        acres be approved by Congress through the appropriations 
        process and agreed to by the legislature of the affected state.
        6. Include a prohibition on the purchase of any additional 
        private land within a county, parish or borough where 
        government (Federal plus state plus local) ownership already 
        exceeds 20 percent of the total land area.
        7. Include a prohibition on the purchase of any additional 
        private waterfront footage within a county, parish or borough 
        where government (Federal plus state plus local) ownership 
        already exceeds 20 percent of the total waterfront footage.
        8. Include a prohibition on the purchase of any private land in 
        Alaska.
        9. Provide a guarantee that any lands purchased under this law 
        remain open to hunting, fishing and trapping.
        10. With all the needs that exist across the nation, there is 
        no justification to spend funds strictly on land acquisition or 
        recreational purposes. Each state should be allowed to spend 
        these funds on maintenance or capital improvements if it feels 
        these needs are greater.

Other Changes Needed to H.R. 701.

    There are other important issues in this Act that we feel need to 
be changed and these include the following:

    13. The definition of ``coastal population'' references the Coastal 
Zone Management Program (CZMP) and thereby requires that a state have 
an approved CZMP before it can receive monies under the Act.
    14. The definition of ``coastal population'' will lead states to 
increase the area covered by their CZMPs so they include more people 
and thereby increase their allocation of funds. The rules for defining 
CZMP areas are not clear and there are major differences between CZMPs. 
In some locations the coastal zone is limited to the area of tidal or 
salt water interface. In other locations (in Alaska) CZMPs extend 
several hundred miles inland.
    Recommendation: The definition of ``coastal population'' needs to 
be changed to separate it from the CZMP. For example, the inland extent 
could be specified as extending a set number of miles, say 20 miles, 
from the ``coastline'' which is clearly defined in the Submerged Lands 
Act (43 U.S.C. 1301 et seq.).
    15. Section 105 forces the Federal Government, the states, and the 
local political subdivisions to establish a new bureaucratic agency to 
develop, review, approve, oversee, update, etc. the state plans.
    Recommendation: Allow the states and local political subdivisions 
to determine how the monies will be used and eliminate these agencies. 
Utilize self-policing by allowing the local political subdivisions to 
use the superior court to settle differences with their respective 
states.
    16. The paragraph numbering in Section 202(d)(2) regarding allowed 
uses of monies given to Tribes and Alaska Native Village Corporations 
does not appear to correspond with the referenced paragraphs.
    15. State Action Agendas now require approval of the Federal 
Government. The Federal Government is already involved and controls too 
many activities that should be strictly the purview of the states.
    Recommendation: Remove the phrase ``Federal agencies'' from the 
list of participants required for development of the State Action 
Agendas.
    17. The 4 year update cycle required for State Action Agendas is 
too short. As with the triennial reviews required by the Clean Water 
Act, opposition by environmental groups will result in litigation that 
lengthens the time to carry out such updates.
    Recommendation: Extend the planning horizon to 10 years, require an 
update cycle of every 8 years, and allow updates at shorter intervals.
    18. Federal agencies often find creative ways to divert funds into 
``Initiatives'' that are not authorized by Congress. A recent example 
is the American Heritage Rivers Initiative.
    Recommendation: Include specific language that no funds from this 
Act can be used as a part of any initiative or other activity that is 
not authorized by Congress.

Further General Recommendation: That the entire Act be studied with the 
specific goal and view of removing Federal control and involvement 
wherever possible.
    19. Section 205 involving the Habitat Resource Program contains a 
potential trap for land owners that may jeopardize future use of the 
land. What happens if at the end of the agreement period the Federal 
agency decides that the land must not return to its pre-agreement use 
because of threatened or endangered species?
     Recommendation: Include a guarantee that the property owner may 
return the property to other uses once the agreement period is 
completed.
    20. The findings in Section 301 (5) and (6) should be changed to 
read ``hunting, [and] fishing and trapping'' and ``hunters, [and] 
anglers and trappers'' respectively.
    Thank you for the opportunity to testify on H.R. 798 and H.R. 701. 
It should be clear from our comments on H.R. 701 that we are very 
concerned with some portions of this Act. We look forward to continued 
involvement in these Acts.
                                 ______
                                 
 Statement of Chip Dennerlein, Director, Alaska Regional Office of the 
     National Parks and Conservation Association, Anchorage, Alaska
    Mr. Chairman, and members of the Committee, my name is Chip 
Dennerlein. I am the Alaska Regional Director for the National Parks 
and Conservation Association (NPCA). I appreciate the opportunity to 
present the views of NPCA regarding the ``Conservation and Reinvestment 
Act of 1999'' (H.R. 798) and the ``Permanent Protection for America's 
Resources 2000 Act'' (H.R. 701). NPCA is America's only private non-
profit organization dedicated solely to protecting, preserving and 
enhancing the U.S. National Park System.

The Vital Importance and Legacy of LWCF

    To begin, NPCA wishes to acknowledge and applaud the Committee's 
interest in revitalizing the Land and Water Conservation Fund (LWCF). 
LWCF has served as one of the cornerstones of our nation's conservation 
efforts at the Federal, state and local levels. Since its inception, 
LWCF has been directly responsible for the acquisition of nearly seven 
million acres of public park land, wildlife refuges and open space. 
Through the provision of state matching grants, LWCF has made possible 
more than 37,000 state park and recreation projects, including 
thousands of projects that have contributed to the quality of life of 
families in communities throughout America. If the Committee were to 
spend even a day outside this hearing room to enjoy some of the many 
wonderful outdoor opportunities which Anchorage has to offer, the 
significant contributions which LWCF has made to the lives of those who 
live and work in Alaska's largest city, and to the experiences of those 
who visit Alaska, would be everywhere in evidence.
    Chugach State Park, a magnificent half million acre park of 
mountains, alpine tundra, forested valleys and streams at the city's 
edge, provides habitat for many species of wildlife, including moose, 
bear, Dail sheep and wolves; and a variety of winter and summer 
recreation for more than one million visitors each year. During the 
early 1970s, LWCF provided crucial support for the state's fledgling 
park system. Much of the land included within the legislated boundaries 
of the park at the time of its creation was already public land, but 
key land along lower hillsides and valleys was not. Today, some of the 
park's primary access sites, most widely used winter ski and summer 
hiking trails, and most important winter habitats for wildlife are 
preserved and enjoyed because of LWCF. Anchorage's renowned greenbelts 
which extend along Chester and Campbell Creeks, protecting riparian 
habitats, enabling an extensive bicycle and ski trail system, and 
linking a system of neighborhood pocket parks and recreation facilities 
would not likely have been possible without the partnership of LWCF. My 
family and I currently reside adjacent to downtown. We can walk, 
bicycle or cross-country ski to the University, numerous play fields, 
nearly to my downtown office, across town to visit my mother or my 
sister's family, or up into Chugach State Park. The family of three 
moose that visited our backyard last week can do the same. This is a 
magnificent legacy, which will become even more valuable over time as 
Anchorage grows.
    LWCF has also helped make possible open space along the waterfront 
at Seward, the headquarters of Kenai Fjords National Park, as well as 
open space trails and access which link southeast Alaska communities 
such as Ketchikan with National Forest lands. Alaska is a excellent 
example of the value of LWCF--precisely because of its vast size and 
the existing amount of public lands and open space. Numbers can be 
deceiving. Size does not always tell the true story. In parks or 
refuges just as in commercial real estate, the rules can be location, 
location and location. The value of a thousand acres--for people or 
wildlife--can depend on the fate of ten acres. Even in a frontier state 
of vast reserves and undeveloped land, one often finds that the most 
critical parcel for conservation or access, whether along a shoreline 
or at the confluence of a stream and river, is privately owned. In many 
cases throughout the west and in Alaska, these were some of the 
earliest sites to be homesteaded or sold. The paradox is that even in 
Alaska, the future protection and enjoyment of some of our most 
valuable natural resources--from national parks to neighborhood 
playgrounds--has and will continue to depend on our ability to acquire 
ownership or conservation easements on critical parcels of private 
land.

    The Urgent Need to Revitalize LWCF

    Unfortunately, during the early 1980s, policies and actions by 
Administration officials and others dealt serious blows to the LWCF 
program. This could not have happened at a worse time. Eighty percent 
of everything ever built in America has been built since 1950. The past 
two decades have seen tremendous growth. Much of this growth has been 
economically beneficial, but it has all too often been accompanied by 
environmentally damaging losses of open space and wildlife habitat, and 
by socially damaging losses of local outdoor recreation opportunities, 
or the ability to protect the integrity of our national and state parks 
and refuges. Current trends in national demographics, continuing 
increases in natural and cultural tourism and travel, and expanding 
commercial and residential development in many park adjacent (gateway) 
communities clearly demonstrate the critical need for a comprehensive, 
sustainable program to support the conservation of open space and 
habitat at the national, state and local levels. We have not kept pace. 
And in the case of LWCF, one of our most important tools, we have both 
slipped and failed to recover.
    A decade ago, the Federal budgets for the Departments of Justice 
and Interior were roughly the same. Today, the Department of Justice's 
budget is three times that of Interior's, and the Federal Government 
budgets five times more for people to maintain and operate our prisons 
than for those who maintain and protect our national parks. Directly 
pertinent to the issue at hand, America now spends three times more 
money annually on prison construction than we do on park acquisition. 
At the same time, our nation faces a $10 billion backlog in Federal 
land acquisition. We risk the loss of areas critical to the 
conservation of wetlands, watersheds and wildlife habitat, the loss of 
integrity of our existing parks and refuges, and an inability to 
protect historic and cultural sites, or provide trails and other 
outdoor recreation. Such sobering statistics should do more than give 
us pause. They should compel all of us to find appropriate means to 
increase our national investment in programs which offer a brighter 
social and environmental vision for America's future.
    Citizens in individual states and communities across the country 
have already demonstrated the willingness to do their part. In the last 
election, voters approved nearly two hundred ballot initiatives aimed 
at protecting open space. These significant actions also send a 
significant message. The challenges we face today are more complex than 
ever before. Increasingly, Whether in business or conservation, we 
increasingly discover that only through partnerships can we achieve 
success. Despite the encouraging success of recent ballot initiatives, 
without a strong commitment and partnership on the part of the Federal 
Government, Federal and state land managers, communities and individual 
citizens cannot raise the full investment needed to meet the many 
urgent and growing needs. Moreover, many of our most important 
challenges, such as conserving habitats for migratory species or 
protecting natural and cultural resources of national significance, 
extend beyond local and state boundaries and ballot initiatives. To 
insure both the future quality of our communities and our national 
treasures, we must increase our investment in conservation as a whole 
people. Fully funding LWCF is one of the best ways to invest. It is 
time for Congress to act. NPCA applauds the Committee's leadership in 
revitalizing the LWCF.

Some Key Principles for Success

    To achieve the conservation goals set forth in the proposed bills, 
NPCA believes it is critical that any final legislation address the 
following issues.
    Currently, H.R. 701 requires that: (1) two thirds of Federal land 
acquisition dollars be spent east of the 100th meridian; (2) Federal 
share funds be used to purchase land only within existing National 
Park, National Forest, or National Wildlife Refuge boundaries; and (3) 
Congress approve any Federal acquisition which exceeds $1 million. NPCA 
strongly opposes inclusion of these or similar provisions which would 
serve to constrain the use and effectiveness of LWCF funds for Federal 
land acquisition based on arbitrary requirements that do not match real 
conservation challenges and needs.
    Many areas in the west are experiencing some of the nation's most 
dramatic population growth. This phenomenon is especially acute in 
certain counties and communities adjacent to national park units. If 
the twenty individual counties which surround Yellowstone were all 
located within a single state of the Union, rather than in three 
separate states, that new state would have been one of the nation's 
fastest growing states for the past five years running. The political 
subdivisions fall within three states, but the counties, states, 
national forest and Yellowstone National Park share a geography and 
conservation challenges of local and national significance. Washington 
County in southern Utah encompasses Zion National Park. Several years 
ago, Washington was the second fastest growing county in the state. 
Last year it was first. Katmai National Park and Preserve in Alaska is 
one of the few places in the world where people can observe brown bears 
fishing for salmon. A significant percentage of all the photos and film 
footage that people the world over have seen of bears feeding on 
jumping salmon come from Brooks River. Last year, through the efforts 
of Senator Stevens, the National Park Service was able to use a special 
appropriation to purchase a large private parcel which was located on a 
critical stretch of the river, and included one of the two major bear 
viewing sites. There are many more examples throughout the west and it 
would be tragic for Congress to restrict the use of LWCF funds for some 
of the most important national conservation acquisitions.
    The acquisition of inholdings within existing national conservation 
system units is a logical priority, for park and public land managers 
as well as Congress. But to limit acquisition to such parcels could 
thwart the very ability of LWCF funds to protect the resources values, 
wildlife and public enjoyment of the parks and refuges. As our 
knowledge of conservation biology and individual species has grown, we 
have discovered instances where protection of a key parcel of habitat 
outside a refuge boundary is crucial to the continued health value or 
even viability of a species which the original refuge was established 
to protect. This can be particularly true in the case of migratory 
species such as birds. The protection of critical wildlife corridors, 
which enable species to move between existing park boundaries and the 
boundaries of other Federal or state reserves, has become increasingly 
important. The corridors are especially needed in cases where adjacent 
private lands which long served as adequate travel corridors for 
wildlife face conversion from agricultural or low density residential 
use to more intensive subdivision and development incompatible with the 
needs of wildlife. Just last year, Rocky Mountain National Park 
acquired a critical ranch property outside the park boundary. The long 
time owners were ready to sell, the corridor was crucial for movement 
of elk to lowland habitat, and the property would have been slated for 
development as part of the fast growth along the front range of the 
Colorado Rockies. Moreover, the pressures of increased visitation and 
overcrowding at many national parks can sometimes be most effectively 
solved by acquisition of adjacent lands outside the park boundaries, to 
provide additional service or staging areas for new means of access 
such as transit or shuttle systems which can provide opportunity for 
existing (or sometimes greater) numbers of visitors to access the park, 
while protecting park resources and values. The problem in Zion is not 
that two million people visit each year, but that they visit in one 
million cars. Today, Zion is developing a shuttle system in partnership 
with the adjacent community of Springdale. Federal investment, in both 
transportation systems and sites may be needed for the cooperative plan 
to succeed. Congress must not foreclose these sorts of options.
    The requirement for specific Congressional approval of any Federal 
acquisition exceeding $1 million is not simply burdensome, but 
potentially defeating. The cost of acquisitions today, especially of 
key parcels in prime development areas near parks and refuges makes 
such a limit unrealistic. Moreover, the pace of change and development 
in today's world requires that managers have the ability to act in a 
timely manner, often in the face of competition. Existing Federal law 
and policy provides a number of safeguards against abuse. In today's 
world, it is virtually impossible to imagine any major Federal 
conservation acquisition which would not be the subject of analysis in 
an approved Land Protection Plan, public review and media attention. I 
have been involved in a number of acquisitions over the years at the 
local, state and Federal levels. I can not think of a single instance 
in which a major acquisition was accomplished without public knowledge, 
or the opportunity for legislative oversight if controversy arose. Far 
more common is the complaint from property owners and willing sellers 
that the Federal acquisition process is already far too cumbersome and 
lengthy. Adding a Congressional approval provision, such as the one in 
H.R. 701, would make it even more difficult for public managers and 
private landowners to do reasonable business in a timely manner.

The Relationship of LWCF Legislation to OCS

    NPCA believes it is appropriate to utilize revenues from offshore 
oil and gas development to fund LWCF, but that it would be 
inappropriate and damaging national conservation policy to utilize LWCF 
as a means to encourage or promote an expanded OCS program.
    It is a sound policy that when a decision is made to develop a non-
renewable natural resource, a substantial portion of the receipts 
gained be reinvested in the protection of irreplaceable natural 
resources. It is not sound policy that the potential receipt of funds 
for resource conservation be employed as an incentive or tool to open 
additional coastal and marine areas to industrial development, the 
environmental impacts of which could easily exceed any of the benefits 
from increased conservation funding. Such a policy could result not 
only in a ``zero sum game'' for the protection of locally and 
nationally significant environmental resources, but a net loss, which 
could ultimately prove a tragic reversal of the legislation's 
fundamental purposes and goals. While, the current version of H.R. 701 
demonstrates improvement in addressing this serious concern, the bill 
does not adequately sever the link between conservation funding and 
incentives for additional offshore leasing and drilling. Several 
provisions operate to encourage additional development, including 
providing majority funding to states which expand OCS development, and 
weakening the ability of coastal communities to oppose or significantly 
effect OCS development. NPCA strongly opposes these provisions. NPCA 
supports legislation that contains no incentives for additional 
offshore oil and gas leasing, exploration, or development. NPCA 
believes such decisions should continue to be guided and governed by 
existing law, policy and procedures.
    An additional objection regarding H.R. 701 concerns the bill's 
guidelines and process for expenditure of OCS impact aid. NPCA believes 
the bill's language as currently written could enable impact aid 
recipients to utilize the funds for additional industrial development, 
including construction of oil and gas pipelines and offshore pumping 
stations. Apparently, at least some state and local officials share 
NPCA's interpretation. A recently published article in the Peninsula 
Clarion, the newspaper for the Kenai Peninsula, reported the interest 
of local area officials in using potential impact aid funds to finance 
construction of a major new deep water industrial port facility on the 
western shore of Cook Inlet. NPCA has serious concern that the LWCF 
formula funding and the OCS impact aid provisions in H.R. 701 could 
combine to create a double-barreled impact on sensitive coastal and 
marine resources, by both encouraging and funding additional coastal 
development. It would be even a greater irony if legislation whose 
principle purpose was to provide sustainable funding for the protection 
of environmental resources, was used to not only to encourage resource 
development, but also to provide an additional source of funds for 
further development. NPCA urges the Committee to carefully review the 
proposed bills and craft language, which is certain to avoid such a 
result.

In Closing

    In addition to the comments presented above, NPCA is member of 
``Americans For Our Heritage and Recreation,'' a broad coalition of 
environmental, conservation and outdoor recreation organizations 
concerned with the revitalization of LWCF and other heritage and 
conservation funding programs. The coalition's position on a number of 
aspects of both H.R. 701 and H.R. 798 has been expressed previously in 
writing. To reiterate a few of the central points in that 
correspondence, NPCA strongly supports full funding for LWCF, as well 
as a revived and adequately funded Urban Park and Recreation Recovery 
(UPARR) program.
    In closing, NPCA again thanks the Chairman and Committee members 
for opportunity to testify on these important pieces of legislation. At 
present, NPCA has endorsed H.R. 798. We have strong objection to 
certain provisions in H.R. 701. We applaud the sponsors of both bills 
for their interest and efforts in working to develop national 
legislation which can provide a sustainable, critically needed funding 
base for local, state and national conservation. We urge the sponsors 
to continue to work together to address the concerns which NPCA and 
other conservationists have raised. We hope the Committee will be able 
to bring forward a revised bill which can be supported by the original 
sponsors of both H.R. 701 and H.R. 798, and all in Congress who are 
truly committed to investing in and protecting America's natural and 
cultural heritage. NPCA looks forward to supporting such a bill. We 
believe it would be a great and lasting legacy for current and future 
generations. Thank you.

               William H. (Chip) Dennerlein, Alaska (AK)
    Regional director since 1993, Chip focuses on issues affecting more 
than 53 million acres of national parklands in Alaska including 
transportation and access, tourism, and cooperation with the state of 
Alaska and Alaska Natives--to preserve the wilderness character and 
wildlife of the Alaska parks, while seeking appropriate opportunities 
for people to experience these magnificent areas. Before joining NPCA, 
Chip was a special assistant in the Alaska Department of Natural 
Resources, director of Alaska State Parks, Executive Manager for the 
municipality of Anchorage, and a private natural resources management 
consultant. Chip has written and spoken on park and public land issues 
for several universities, and has worked with the park systems of 
Canada and Australia. He currently serves on a board which oversees 
planning and development of trails and recreation facilities in state 
transportation projects, and is an advisor to the Exxon Valdez Oil 
Spill Trustees and a member of the National Park System Advisory Board. 
Chip is married to Catherine (Bucky) Dennerlein. They have one 
daughter.
                                 ______
                                 
           Statement of Cindy Bailey, BP Exploration (Alaska)
    Mr. Chairman and Members of the Committee:
    My name is Cindy Bailey with BP Exploration (Alaska). I am the 
Director of Local Government Affairs with primary responsibility for 
community relations on the North Slope.
    Thank you for the opportunity to appear before you here today and 
thank you for bringing this hearing to Alaska.
    Congratulations Mr. Chairman on developing bipartisan legislation 
which will go a long way toward enabling a more equitable allocation of 
revenues from offshore oil and gas development. We know you and your 
colleagues have worked hard to get to this point and we are pleased to 
support this long overdue legislation.
    On behalf of BP Exploration, I would like to take the opportunity 
to comment briefly on Title I, the Impact Assistance provisions, of 
H.R. 701--the Conservation and Reinvestment Act of 1999.
    Your legislation creates a mechanism to allocate offshore oil and 
gas revenues to states and local communities. As you know, BP 
Exploration has been operating on the North Slope of Alaska for over 20 
years and we fully expect to be here for many more years. Our long-term 
commitment to Alaska is demonstrated by our continued investment 
program and commitment to developing the resource base without in 
adverse impact to the environment--as you know we take these 
responsibilities very seriously. We view the people of Alaska and North 
Slope residents as our partners. While Alaska does not yet have 
production from Federal OCS leases on the North Slope, we fully expect 
it will begin when Northstar and Liberty become operational after 2000.
    To the merits of H.R. 701. Mr. Chairman, you are well aware of the 
immense needs which exist in many rural communities throughout Alaska. 
Many of these communities lack basic infrastructure, clean water and 
sewer systems, and safe roads on which to travel. Unfortunately, state, 
local and Federal budgets cannot always fully address those needs. That 
is why H.R. 701 is so important. It will provide much needed resources 
and flexibility for the state and local communities to deal with these 
very real priorities. Furthermore, this legislation will also benefit 
coastal communities in the Gulf of Mexico region where we also operate.
    Finally, there has been discussion about this legislation creating 
incentives for offshore development. I want to state very clearly that 
such statements could not be farther, from the truth. Fact is, this 
legislation will in no way provide an incentive for BP Exploration or 
any other company, to invest in offshore developments in Alaska or 
elsewhere throughout the U.S. Our investments dccisions are made on 
environmental and economic merits, not on the basis of how Federal 
revenues will be distributed to states and local communities. I hope 
you will share these views with your colleagues who may view this 
differently.
    Mr. Chairman we stand ready to support you in advancing this 
legislation which will reinvest Federal OCS revenues to states and 
local communities who play host to offshore activity.
    Again, thank you for the opportunity to present the views of BP 
Exploration before the Committee.
                                 ______
                                 
   Statement of Dorothy Childers, Executive Director, Alaska Marine 
                          Conservation Council
    Good morning Mr. Chairman. My name is Dorothy Childers. I am the 
executive director of the Alaska Marine Conservation Council, a broad-
based community organization of over 600 Alaskans, most of whom live 
and work in coastal communities. Thank you for this opportunity to 
testify today on H.R. 701 and H.R. 798, two bills before the Resources 
Committee to use Outer Continental Shelf (OCS) oil and gas revenues to 
serve conservation and coastal communities. We would first like to 
thank you for the important past work you have done for the protection 
of Bristol Bay through the annual OCS moratorium. With regard to these 
two new bills, we find very good elements in both.
    Our members come from diverse cultural and economic backgrounds. 
What we have in common is that our livelihoods and ways of life are 
closely tied to coastal and marine resources. Our members include 
commercial fishermen and recreational fishermen, subsistence hunters 
and fishermen, small business owners, guides, marine biologists, 
fishery observers, parents, and tribal leaders. In preparing for this 
hearing, one fisherman said to me, ``We wouldn't live here and we won't 
be able to stay without abundant resources. They make us who we are.'' 
Although the personal interests in marine resources may vary, we share 
a dependence on and commitment to healthy marine ecosystems.
    We want to thank the House Resources Committee for considering new 
legislation for funding coastal conservation. America's coastal 
environment is in need of careful attention. In Alaska we are 
witnessing disturbing changes in the environment that are cause for 
great concern: coastal people are observing huge seabird die-offs; 
certain marine mammal and seabird populations have declined 
dramatically; killer whales appear to have increased in the Aleutian 
Islands and are preying on new species such as sea otters; sea ice is 
thinner changing the habitat for ice-dependent marine mammals and 
presenting dangers for subsistence hunters who travel on ice; many 
commercially harvested fish stocks are dropping in abundance at a time 
when markets are poor and fishermen are struggling; new algae blooms 
are taking over large water masses. In the western Gulf of Alaska, the 
once prized red king crab population collapsed in the early 1980s and 
has yet to show signs of recovery at the same time that bycatch of 
these crabs goes unchecked. These changes call for better scientific 
understanding and long-term initiatives to guide management of our 
resources. For these reasons we believe dependable funding for ocean 
conservation plans is badly needed and we want to work with you to 
shape legislation that will accomplish this goal most effectively.
    There are two aspects to the legislation before you that we want to 
address: Dedicated funds for marine conservation and OCS revenue 
sharing.

1. Dedicated Funds For Marine Conservation

    AMCC believes any OCS legislation would serve our communities 
better by including dedicated funds for the conservation of living 
marine resources and marine habitat. We strongly support the approach 
taken in H.R. 798. Title VI of this bill, Living Marine Resources 
Conservation, Restoration and Management Assistance, dedicates $300 
million for living marine resources and marine habitat. Mr. Chairman, 
although H.R. 701 allows for funds to be spent for such marine 
conservation purposes, we believe any OCS legislation should include a 
provision that establishes a dedicated permanent fund.
    Such a fund would support the State of Alaska in the development 
and execution of plans to meet these challenges for state managed 
species (such as Gulf of Alaska crab that are in dire need of recovery) 
and for federally-managed species that are deferred to the State (such 
as Bering Sea crab, scallops and salmon). The State also has 
responsibilities related to the essential fish habitat and bycatch 
reduction requirements in the Magnuson- Stevens Act that this fund 
could help support. We are not suggesting this money be used to fund 
existing Federal programs, but rather to support complimentary efforts 
for which the State is responsible.
    Without some dedicated support, effective implementation of these 
important conservation provisions you championed in the 1996 
reauthorization of the Magnuson Act are in some danger of slipping 
through the cracks as a result of so much needed work going unfunded. 
These marine fisheries are what have sustained our coastal communities 
for many years and we should focus available OCS funds on maintaining 
them.
    Our communities and the future of our fisheries will bear the 
burden if conservation needs are not met. We see the approach taken in 
Title VI of H.R. 798 as a way to improve and strengthen our fisheries 
and the ecosystem they need to thrive.

2. OCS Revenue Sharing

    We support the intent in both bills to share a percentage of 
revenues from OCS activities with coastal states and communities as a 
matter of public policy. We recommend, however, that the Committee 
eliminate provisions that function as inducements to local governments 
to choose new OCS leasing. Many of our communities have longstanding 
concerns about offshore oil and gas development in and near valuable 
fishing grounds and traditional subsistence hunting areas. Last week 
Alaskans recognized the 10th anniversary of the Exxon Valdez oil spill, 
a constant reminder of the risks we take and the values we have to 
weigh in our own communities when faced with potential offshore oil and 
gas development. We appreciate the stated intent of H.R. 701 that the 
bill not function as an incentive to new leasing and wish to recommend 
some changes to ensure that this intent is clearly met.
    As H.R. 701 is currently drafted, communities within lease sale 
areas will be eligible for lease sale monies and bonus bids before 
actual drilling occurs. The amount of revenue for communities is tied 
to the community's proximity to new leases. We believe local 
communities should receive assistance when impacts occur from OCS 
activities. However, offering financial reward for new leasing 
undermines the ability of coastal communities to participate in the OCS 
decision-making process without bias. We recommend this link be 
modified to provide for a better process at the community level that 
does not place one industry over another. Mr. Chairman, it is very 
important that each community consider economic growth that is 
compatible with our fisheries of today and the recovery of fisheries 
that are in trouble. The various economic options need to be considered 
on a level playing field.
    We appreciate that H.R. 701 does not directly link revenues to new 
leases in OCS moratoria areas, such as Bristol Bay, but there are many 
other areas potentially facing new lease sales that are not protected 
by the OCS moratorium.
    Again, Mr. Chairman, we want to thank you and Congressman Miller, 
for developing these bills. We very much appreciate your long-standing 
support for the Bristol Bay OCS moratorium and the historic 1996 
Magnuson-Stevens Act conservation provisions. Both of these 
achievements contribute in important ways to a wise long-term approach 
to the management of those resources vital to the fishing industry and 
our communities more broadly. It is a great honor for me to represent 
the concerns of Alaskans who live on the coast and want to leave the 
great marine fisheries legacy to the next generation of coastal 
peoples. We would be happy to work with you and your Committee further 
as the OCS legislation moves forward. Thank you for this opportunity to 
testify.
                                 ______
                                 
   Statement of John Schoen, Executive Director of the Alaska State 
                    Office, National Audubon Society
    Mr. Chairman and Committee members:
    I want to thank you for the invitation to testify today on H.R. 701 
and H.R. 798. My name is John Schoen. I am the Director of the Alaska 
State Office of the National Audubon Society. Prior to my work with 
Audubon, I spent over 20 years as a professional wildlife biologist in 
Alaska working on big game, nongame, and endangered species.
    Mr. Chairman, the introduction of these two bills and their 
companion bills in the Senate highlights conservation opportunities 
that have gone wanting for decades. I am very pleased to see the 
cooperation between you and Congressman Miller in looking for the 
common ground between your two bills. We encourage you to continue 
working constructively together to craft legislation that will 
significantly enhance fish and wildlife conservation and outdoor 
recreation across America.
    I believe that the concepts embodied in H.R. 701, the Conservation 
and Reinvestment Act of 1999 and H.R. 798, the Permanent Protection for 
America's Resources 2000 Act, can bring tremendous benefits to 
conservation programs throughout the United States. There are elements 
of both bills that Audubon strongly supports. Each would establish 
permanent funding mechanisms for the purchase of conservation and 
recreation lands as well as much needed wildlife conservation and 
outdoor recreation programs. Although there are other aspects these 
bill address, I will focus most of my comments on the titles that deal 
with wildlife conservation and lands acquisition. Both these bills, 
their counterparts in the Senate, and the administration's ``Lands 
Legacy Legislation for FY 2000 and Beyond,'' have broad support 
demonstrating substantial public interest for investing in permanent 
protection of our environmental heritage.
    As you know Mr. Chairman, the State of Alaska assembled the largest 
state coalition in the country supporting the original Teaming With 
Wildlife Initiative. Both H.R. 701 and H.R. 798 include major funding 
for state-based wildlife conservation and outdoor recreation that was 
addressed by the Teaming With Wildlife Initiative and they have 
enormous potential for addressing our significant conservation and 
recreation needs here in Alaska. As a former state wildlife biologist, 
I know how important this funding is for our state.
    For example, there is little funding available in Alaska for state 
nongame conservation or wildlife viewing programs. An investment now, 
however, could help us avoid future conservation problems requiring 
costly, reactive management. And funding is necessary for enhancing 
Alaska's wildlife viewing opportunities which is clearly a sound 
investment for the state's valuable visitor industry. There are 
elements in both bills before your Committee that have significant 
potential to bring important conservation, recreation, and economic 
benefits to the State of Alaska.
    As you work to refine and improve this legislation Mr. Chairman, 
the National Audubon Society believes there are four principles that 
need to be adhered to in the final bill.
    First, this legislation should not provide incentives for new Outer 
Continental Shelf oil and gas development. Additionally, funding for 
coastal impact assistance should focus on environmental protection and 
marine conservation and avoid projects that result in environmental 
impacts.
    Second, it must be very clear that new money made available for 
state-based wildlife conservation should be substantially focused on 
non-game species. Traditionally, most state conservation funding has 
been directed toward species that are hunted and fished. This 
legislation needs to fill the missing link in wildlife conservation 
throughout the United States. The original concept of the Teaming With 
Wildlife initiative was to dedicate funding for nongame wildlife 
conservation, wildlife education, and wildlife-related recreation. We 
strongly encourage you and your Committee to craft a bill that clearly 
addresses those significant needs.
    Third, annual funding should be made available on a permanent 
basis. Annual funding should not be required to go through the normal 
appropriations process.
    Fourth, the Land and Water Conservation Fund should receive a 
minimum of $900 million each year split equally between Federal and 
stateside programs. We also recommend against geographic restrictions 
or inholding requirements placed on expenditures of Federal funds. We 
believe these funds should be available for use on all current and 
future national wildlife refuges.
    In addition, both bills would fund incentives for endangered 
species conservation on non-Federal lands. We support incentives to 
landowners who take positive steps to protect endangered and threatened 
species and their habitats. We recommend, however, that such incentives 
be carefully crafted to ensure that funded activities contribute to the 
recovery of imperiled species not just compliance with the law.
    The National Audubon Society has previously endorsed H.R. 798 as 
introduced by Congressman Miller. However, we also recognize and 
appreciate many of the positive elements of your bill, H.R. 701, and 
are interested in working constructively with you and your Committee as 
this legislation is further developed and refined.
    Mr. Chairman, I am very pleased and heartened that you and 
Congressman Miller have been working hard to find the common ground 
between your two bills. This is good news for the American public and 
the wildlife and wildlands we all enjoy. I firmly believe that by 
working constructively together your Committee will succeed in crafting 
truly landmark legislation that will bring incredible benefits to fish 
and wildlife conservation and outdoor recreation across America.
    Finally, I believe this hearing today sets in motion a funding 
process that will ultimately provide billions of dollars for 
conservation. Protecting birds, other wildlife, and their habitats, and 
investing in outdoor recreation and education will leave our nation an 
important legacy for which we can all be proud.
    Thank you for your efforts on this significant legislation.
    [GRAPHIC] [TIFF OMITTED] T6598.011
    
    [GRAPHIC] [TIFF OMITTED] T6598.012
    
    [GRAPHIC] [TIFF OMITTED] T6598.013
    
    [GRAPHIC] [TIFF OMITTED] T6598.014
    
    [GRAPHIC] [TIFF OMITTED] T6598.015
    
    [GRAPHIC] [TIFF OMITTED] T6598.016
    
    [GRAPHIC] [TIFF OMITTED] T6598.017
    
    [GRAPHIC] [TIFF OMITTED] T6598.018
    
    [GRAPHIC] [TIFF OMITTED] T6598.019
    
    [GRAPHIC] [TIFF OMITTED] T6598.020
    
    [GRAPHIC] [TIFF OMITTED] T6598.021
    
    [GRAPHIC] [TIFF OMITTED] T6598.022
    
    [GRAPHIC] [TIFF OMITTED] T6598.023
    
    [GRAPHIC] [TIFF OMITTED] T6598.024
    
    [GRAPHIC] [TIFF OMITTED] T6598.025
    
    [GRAPHIC] [TIFF OMITTED] T6598.026
    
    [GRAPHIC] [TIFF OMITTED] T6598.027
    
    [GRAPHIC] [TIFF OMITTED] T6598.028
    
    [GRAPHIC] [TIFF OMITTED] T6598.029
    
    [GRAPHIC] [TIFF OMITTED] T6598.030
    
    [GRAPHIC] [TIFF OMITTED] T6598.031
    
    [GRAPHIC] [TIFF OMITTED] T6598.032
    
    [GRAPHIC] [TIFF OMITTED] T6598.033
    
    [GRAPHIC] [TIFF OMITTED] T6598.034
    
    [GRAPHIC] [TIFF OMITTED] T6598.035
    
    [GRAPHIC] [TIFF OMITTED] T6598.036
    
    [GRAPHIC] [TIFF OMITTED] T6598.037
    
    [GRAPHIC] [TIFF OMITTED] T6598.038
    
    [GRAPHIC] [TIFF OMITTED] T6598.039
    
    [GRAPHIC] [TIFF OMITTED] T6598.040
    
    [GRAPHIC] [TIFF OMITTED] T6598.041
    
    [GRAPHIC] [TIFF OMITTED] T6598.042
    
    [GRAPHIC] [TIFF OMITTED] T6598.043
    
    [GRAPHIC] [TIFF OMITTED] T6598.044
    
    [GRAPHIC] [TIFF OMITTED] T6598.045
    
    [GRAPHIC] [TIFF OMITTED] T6598.046
    
    [GRAPHIC] [TIFF OMITTED] T6598.047
    
    [GRAPHIC] [TIFF OMITTED] T6598.048
    
    [GRAPHIC] [TIFF OMITTED] T6598.049
    
    [GRAPHIC] [TIFF OMITTED] T6598.050
    
    [GRAPHIC] [TIFF OMITTED] T6598.051
    
    [GRAPHIC] [TIFF OMITTED] T6598.052
    
    [GRAPHIC] [TIFF OMITTED] T6598.053
    
    [GRAPHIC] [TIFF OMITTED] T6598.054
    
    [GRAPHIC] [TIFF OMITTED] T6598.055
    
    [GRAPHIC] [TIFF OMITTED] T6598.056
    
    [GRAPHIC] [TIFF OMITTED] T6598.057
    
    [GRAPHIC] [TIFF OMITTED] T6598.058
    
    [GRAPHIC] [TIFF OMITTED] T6598.059
    
    [GRAPHIC] [TIFF OMITTED] T6598.060
    
    [GRAPHIC] [TIFF OMITTED] T6598.061
    
    [GRAPHIC] [TIFF OMITTED] T6598.062
    
    [GRAPHIC] [TIFF OMITTED] T6598.063
    
    [GRAPHIC] [TIFF OMITTED] T6598.064
    
    [GRAPHIC] [TIFF OMITTED] T6598.065
    
    [GRAPHIC] [TIFF OMITTED] T6598.066
    
    [GRAPHIC] [TIFF OMITTED] T6598.067
    
    [GRAPHIC] [TIFF OMITTED] T6598.068
    
    [GRAPHIC] [TIFF OMITTED] T6598.069
    
    [GRAPHIC] [TIFF OMITTED] T6598.070
    
    [GRAPHIC] [TIFF OMITTED] T6598.071
    
    [GRAPHIC] [TIFF OMITTED] T6598.072
    
    [GRAPHIC] [TIFF OMITTED] T6598.073
    
    [GRAPHIC] [TIFF OMITTED] T6598.074
    
    [GRAPHIC] [TIFF OMITTED] T6598.075
    
    [GRAPHIC] [TIFF OMITTED] T6598.076
    
    [GRAPHIC] [TIFF OMITTED] T6598.077
    
    [GRAPHIC] [TIFF OMITTED] T6598.078
    
    [GRAPHIC] [TIFF OMITTED] T6598.079
    
    [GRAPHIC] [TIFF OMITTED] T6598.080
    
    [GRAPHIC] [TIFF OMITTED] T6598.081
    
    [GRAPHIC] [TIFF OMITTED] T6598.082
    
    [GRAPHIC] [TIFF OMITTED] T6598.083
    
    [GRAPHIC] [TIFF OMITTED] T6598.084
    
    [GRAPHIC] [TIFF OMITTED] T6598.085
    
    [GRAPHIC] [TIFF OMITTED] T6598.086
    
    [GRAPHIC] [TIFF OMITTED] T6598.087
    
    [GRAPHIC] [TIFF OMITTED] T6598.088
    
    [GRAPHIC] [TIFF OMITTED] T6598.089
    
    [GRAPHIC] [TIFF OMITTED] T6598.090
    
    [GRAPHIC] [TIFF OMITTED] T6598.091
    
    [GRAPHIC] [TIFF OMITTED] T6598.092
    
    [GRAPHIC] [TIFF OMITTED] T6598.093
    
    [GRAPHIC] [TIFF OMITTED] T6598.094
    
    [GRAPHIC] [TIFF OMITTED] T6598.095
    
    [GRAPHIC] [TIFF OMITTED] T6598.096
    
    [GRAPHIC] [TIFF OMITTED] T6598.097
    
    [GRAPHIC] [TIFF OMITTED] T6598.098
    
    [GRAPHIC] [TIFF OMITTED] T6598.099
    
    [GRAPHIC] [TIFF OMITTED] T6598.100
    
    [GRAPHIC] [TIFF OMITTED] T6598.101
    
    [GRAPHIC] [TIFF OMITTED] T6598.102
    
    [GRAPHIC] [TIFF OMITTED] T6598.103
    
    [GRAPHIC] [TIFF OMITTED] T6598.104
    
    [GRAPHIC] [TIFF OMITTED] T6598.105
    
    [GRAPHIC] [TIFF OMITTED] T6598.106
    
    [GRAPHIC] [TIFF OMITTED] T6598.107
    
    [GRAPHIC] [TIFF OMITTED] T6598.108
    
    [GRAPHIC] [TIFF OMITTED] T6598.109
    
    [GRAPHIC] [TIFF OMITTED] T6598.110
    
    [GRAPHIC] [TIFF OMITTED] T6598.111
    
    [GRAPHIC] [TIFF OMITTED] T6598.112
    
    [GRAPHIC] [TIFF OMITTED] T6598.113
    
    [GRAPHIC] [TIFF OMITTED] T6598.114
    
    [GRAPHIC] [TIFF OMITTED] T6598.115
    
    [GRAPHIC] [TIFF OMITTED] T6598.116
    
    [GRAPHIC] [TIFF OMITTED] T6598.117
    
    [GRAPHIC] [TIFF OMITTED] T6598.118
    
    [GRAPHIC] [TIFF OMITTED] T6598.119
    
    [GRAPHIC] [TIFF OMITTED] T6598.120
    
    [GRAPHIC] [TIFF OMITTED] T6598.121
    
    [GRAPHIC] [TIFF OMITTED] T6598.122
    
    [GRAPHIC] [TIFF OMITTED] T6598.123
    
    [GRAPHIC] [TIFF OMITTED] T6598.124
    
    [GRAPHIC] [TIFF OMITTED] T6598.125
    
    [GRAPHIC] [TIFF OMITTED] T6598.126
    
    [GRAPHIC] [TIFF OMITTED] T6598.127
    
    [GRAPHIC] [TIFF OMITTED] T6598.128
    
    [GRAPHIC] [TIFF OMITTED] T6598.129
    
    [GRAPHIC] [TIFF OMITTED] T6598.130
    
    [GRAPHIC] [TIFF OMITTED] T6598.131
    
    [GRAPHIC] [TIFF OMITTED] T6598.132
    
    [GRAPHIC] [TIFF OMITTED] T6598.133
    
    [GRAPHIC] [TIFF OMITTED] T6598.134
    
    [GRAPHIC] [TIFF OMITTED] T6598.135
    
    [GRAPHIC] [TIFF OMITTED] T6598.136
    
    [GRAPHIC] [TIFF OMITTED] T6598.137
    
    [GRAPHIC] [TIFF OMITTED] T6598.138
    
    [GRAPHIC] [TIFF OMITTED] T6598.139
    
    [GRAPHIC] [TIFF OMITTED] T6598.140
    
    [GRAPHIC] [TIFF OMITTED] T6598.141
    
    [GRAPHIC] [TIFF OMITTED] T6598.142
    
    [GRAPHIC] [TIFF OMITTED] T6598.143
    
    [GRAPHIC] [TIFF OMITTED] T6598.144
    
    [GRAPHIC] [TIFF OMITTED] T6598.145
    
    [GRAPHIC] [TIFF OMITTED] T6598.146
    
    [GRAPHIC] [TIFF OMITTED] T6598.147
    
    [GRAPHIC] [TIFF OMITTED] T6598.148
    
    [GRAPHIC] [TIFF OMITTED] T6598.149
    
    [GRAPHIC] [TIFF OMITTED] T6598.150
    
    [GRAPHIC] [TIFF OMITTED] T6598.151
    


 FIELD HEARING ON: H.R. 701 TO PROVIDE OUTER CONTINENTAL SHELF IMPACT 
ASSISTANCE TO STATE AND LOCAL GOVERNMENTS, TO AMEND THE LAND AND WATER 
 CONSERVATION FUND ACT OF 1965, THE URBAN PARK AND RECREATION RECOVERY 
    ACT OF 1978, AND THE FEDERAL AID TO WILDLIFE RESTORATION ACT TO 
ESTABLISH A FUND TO MEET THE OUTDOOR CONSERVATION AND RECREATION NEEDS 
   OF THE AMERICAN PEOPLE, AND FOR OTHER PURPOSES, CONSERVATION AND 
                        REINVESTMENT ACT OF 1999



 H.R. 798 TO PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF 
             THE UNITED STATES IN THE YEAR 2000 AND BEYOND

                              ----------                              


                          MONDAY, MAY 3, 1999

                          House of Representatives,
                                    Committee on Resources,
                                            New Orleans, Louisiana.
    The Committee met, pursuant to call, at 8:08 a.m., in the 
Louisiana State Supreme Court, 301 Loyola Avenue, New Orleans, 
Louisiana, Hon. W.J. Tauzin, presiding.

  STATEMENT OF HON. W.J. (BILLY) TAUZIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Tauzin. Let me first welcome you all to the first field 
hearing on this critically important Conservation and 
Reinvestment Act of 1999, House Bill 701, the CARA legislation.
    I am pleased that Chairman Don Young has agreed to host 
this first of our national hearings, field hearings, in New 
Orleans, Louisiana, not only the home of one of the greatest 
wet natural resources in the country, where some 28 percent of 
the nation's seafood is harvested and where almost a quarter of 
the nation's wetlands exist, but also the home of wonderful 
jazz fests that I know my colleagues from Washington had the 
chance to experience this weekend, and sample and taste of 
Louisiana. We are proud of this state and all it represents and 
I am very deeply appreciative of my colleagues for journeying 
here to New Orleans to be with us.
    I am Vice Chairman of the Natural Resources Committee in 
Washington and Don has asked us to begin this series of 
national hearings on the question of whether or not the United 
States Congress should follow suit with the recommendations of 
our own Mineral Management Department, which has recommended a 
sharing program of offshore revenues to the states for the 
purposes of assisting in land and water conservation and 
wildlife and habitat conservation funding for our country.
    I am pleased to see so many of my friends in the audience 
today, who will share with this Committee first-hand 
experiences of their own as officials, as citizens, as 
individuals who live in the coastal Louisiana wetlands where 
incredibly, we are losing as much as 30 square miles a year of 
some of the most invaluable coastal wetlands of this country.
    I am pleased also that, as I said, my colleagues have come 
a long distance to join me. We are going to be as quiet as we 
can and allow our witnesses to have the day today to tell us 
their story about this awful national tragedy of the loss of 
wetlands. You will hear today in great detail, I believe, what 
Randy Newman, the song writer and songstress, summarized in his 
song ``Louisiana,'' they are trying to wash us away. You will 
hear that this state is battered from the north by water that 
provides transportation and drainage for well over half the 
states in our great country, and battered from the south by the 
forces of nature that is incredibly destroying much of what all 
of us grew up appreciating as the most incredibly wonderful 
wetland environment I think our country has to offer in coastal 
Louisiana.
    My friends had a chance this weekend to visit the erosion 
sites, to actually do a fly-over, to visit an offshore platform 
and to experience first-hand the degradation of the Louisiana 
environment as a result of these natural and manmade forces. 
And so I think they came prepared to learn today from you about 
why this is so critical, not just to the state of Louisiana, 
but to the nation, that America recognize its obligation to 
begin repairing and restoring and preventing any further loss 
of these incredible resources.
    I am pleased now to welcome from our Committee a dear 
friend of mine, who works with me in several important areas of 
Congressional work, Congressman Peter DeFazio. Peter.

 STATEMENT OF HON. PETER DEFAZIO, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Billy, I appreciate it. I 
appreciate the hospitality we have been shown and we are glad 
to have brought you some cooler weather for the weekend, so we 
northerners would not be too uncomfortable.
    I represent the State of Oregon, I represent half the 
coastline of the State of Oregon, about 270 miles of the west 
coast of the United States, and am vitally--also represent a 
district that is half--more than half owned by the Federal 
Government, so I have a long-term and abiding interest both in 
coastal and estuarine issues and learned a lot about your 
problems here and also concerns about more landlocked Federal 
concerns which go to the Land-Water Conservation Fund and 
certainly enduring underspending of those resources. So I would 
just note for the record I have brought a statement which I 
would insert into the record without objection from Ranking 
Member Miller, who had to return to the west coast for 
business.
    Mr. Tauzin. Without objection, that statement will be made 
a part of the record and the Chair will note that Mr. Miller, 
who is the Ranking Democrat on our Committee, has himself 
offered legislation, House Bill 798, which is very similar to 
the House Bill 701 offered by Chairman Young. The gentleman's 
request is unanimously granted.
    Mr. DeFazio. I thank the Chairman.
    The Chairman basically got ahead of me there and that is 
what I was going to note, I am a cosponsor of Congressman 
Miller's bill, which addresses the concerns of the Land-Water 
Conservation Funds and the underspending of those resources and 
diversion to other uses in the Federal Government, and does 
take a different approach but we are hopeful that we can work 
out agreement in this important area.
    And with that, Mr. Chairman, I will forego any further 
remarks and defer to my colleague from Louisiana.
    Mr. Tauzin. I thank the gentleman. The Chair now recognizes 
the gentleman from Louisiana, from the other half of the 
Louisiana coastline, and my dear friend, Chris John.
    [The prepared statement of Mr. Miller follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    I regret that district business has prevented me from 
joining my colleagues here today in New Orleans, Louisiana, to 
hear testimony on two legislative proposals that would 
permanently dedicate revenues from Outer Continental Shelf oil 
and gas leasing to the protection of America's public land, 
marine and wildlife resources.
    Together these bills offer the best hope in decades for 
permanent, substantial funding for parks, wildlife 
conservation, ocean and marine protection, open space, and 
urban recreation. Given the added support in the Senate for the 
Landrieu bill along with the President's Lands Legacy 
Initiative, there is a real prospect for action.
    While the bills share certain key principles in common, 
them are equally important differences . . .
    Our bill, H.R. 798--which we call Resources 2000--would 
provide specific dollar amounts each year for land acquisition, 
urban park renewal, historic preservation, wildlife protection, 
coastal and marine and open space conservation expenditures. 
Most importantly, Resources 2000 would guarantee full funding 
for both the Federal and state sides of the Land and Water 
Conservation Fund at $450 million each. Congress established 
the LWCF in 1965 and amended it in 1968 to use Federal offshore 
oil and gas revenues for environmental protection projects. But 
we've been shortchanging the program for 30 years. At that 
time, Congress promised to use $900 million a year to buy open 
space and expand recreation land, but the government has spent 
only about a third of the allotted money for the environment 
and diverted the rest to other purposes. Overall, Resources 
2000 would guarantee that more than $2 billion a year from 
Federal offshore oil and gas royalties would support needed 
environmental, recreational and cultural programs.
    H.R. 701, the Young-Tauzin-John bill--or CARA 99--and the 
Landrieu bill would devote a percentage of gross OCS revenues 
to a broad array of programs, including but not limited to the 
programs targeted by Resources 2000. But, CARA 99 would not 
fully fund the Land and Water Conservation Fund, but instead 
offer a percentage that would vary year to year. In fiscal year 
2000, each side of the fund would receive $270 million, 
according to the Department of the Interior, under CARA 99 
compared to $450 million under Resources 2000.
    Instead of the broad ``coastal impact aid section'' in 
CARA, Resources 2000 would direct about $1.4 billion to a 
series of specified programs, including historic preservation, 
park improvements, open space preservation, endangered species 
management, and coastal conservation. We believe that this more 
focused approach will distribute the funds more evenly across 
the Nation while assuring that specific conservation goals will 
be met in cooperation with the states.
    CARA 99 and the Landrieu bill would divert $1.164 million 
in OCS revenues to coastal states, with Louisiana, Texas, 
California, Alaska and Alabama receiving the lion's share. In 
addition, these five States, plus Mississippi and Florida, 
would continue to receive approximately $105 million annually 
from the OCS program. It should be obvious that this 
maldistribution of Federal assets that belong to all Americans 
will have a very difficult time in the House of 
Representatives.
    Another important distinction between the two proposals is 
the manner in which the funds would be allocated and spent. 
CARA 99 would give states latitude to spend their ``impact 
assistance'' funds with little or no accountability or 
oversight. The bill by no means limits expenditures of the 
funds to environmental and resource initiatives, as does 
Resources 2000, but instead resembles more closely a broad 
revenue sharing plan.
    CARA 99 would restrict acquisition for Federal areas, such 
as national parks, through the Land and Water Conservation Fund 
to existing designated areas with congressional approval 
required for any new purchases more than one million dollars. 
Also, CARA 99 would require that 2/3 of the money be spent East 
of the Mississippi River. Such restrictions represent an unwise 
and unnecessary limitation on the LWCF.
    Finally, there is the question of drilling incentives. 
Resources 2000 would limit the allocation of OCS revenues to 
fund its programs to bonuses, rents and royalties derived from 
leases producing oil and gas in the Central and Western Gulf of 
Mexico. No coastal areas currently under leasing moratoria 
would qualify for funding any of the programs under Resources 
2000. CARA 99 would limit revenue allocation from these leases 
only under its OCS Impact Assistance title. The Senate 
proposals would allow revenues from new leases and other areas 
currently under moratoria to be allocated to their programs.
    As I have consistently said, the similar goals of the two 
bills are more important than the differences between them at 
this point. We will have an opportunity to sit down and craft a 
reasonable compromise between them that assures a balanced 
program and a politically salable vehicle. We should not miss 
the opportunity to enact an environmentally sound funding 
mechanism for the many conservation needs throughout the 
country.

STATEMENT OF HON. CHRIS JOHN, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF LOUISIANA

    Mr. John. Thank you, Mr. Chairman. It is indeed a pleasure 
to have such distinguished people with us today, all coming 
together for such an important issue, including the Secretary 
of Natural Reources, the Governor, the Speaker of the House, my 
friend Hunt Downer, who lives down in the coastal zone where 
the greatest threat exists, and also the President of the 
Senate, Mr. Randy Ewing is here. The Committee thanks you for 
being here. Also, let me recognize the Mayor of Lake Charles, 
which is a big city in my district, for joining us here today 
as a witness.
    This is a very important piece of legislation to Louisiana, 
but it is not just a Louisiana piece of legislation. This is a 
bipartisan issue that affects all Americans and this is a very 
important bill. Let me quickly give you just a little bit of 
history of where H.R. 701 came from.
    The legislation that we are going to be discussing today 
arises from a report from the Coastal Impact Assistance Working 
Group of the Outer Continental Shelf Policy Committee. This is 
a piece of legislation that has been recommended by a committee 
established by the Minerals Management Service on how to 
redistribute some of the monies that we get from offshore oil 
and gas revenues. We had a wonderful day on Saturday taking a 
group of members and staff to look at our problem in Louisiana, 
looking at the vast estuaries and marshes we have. And one of 
the most profound--I think one of the things that impressed 
upon most of the Members of Congress is the fact that this 
delta that we are looking at on this end of the state drains 
about 41 percent of the United States. So this is truly a 
national issue and it has to become a national priority. I have 
worked very hard with all of the members of the House Resources 
Committee, but much credit should go to Don Young, who is the 
Chairman from Alaska because in our first meeting he made this 
piece of legislation, or this concept, a priority in the 
Resources Committee for the 106th Congress.
    So it is a pleasure to be here today and welcome a lot of 
people from all across the country that recognize the 
importance of this issue and this hearing.
    And I will turn it over to my friend, my colleague from the 
great state of New Mexico.
    Mr. Tauzin. The Chair thanks Chris John, who as I said is 
one of the principal cosponsors of this legislation and a 
guiding force in our efforts to get nearly 70 cosponsors in the 
House already on board.
    I am now pleased to welcome from New Mexico one of the 
Udall boys. We have got two new Members of the Congress, both 
Udalls, I think first cousins, Tom is from New Mexico and has 
come a long way. We want to welcome him and thank him again for 
coming such a long way to hear from the citizens of Louisiana. 
Congressman Udall.
    [The prepared statement of Mr. John follows:]

  Statement of Hon. Chris John, a Representative in Congress from the 
                           State of Louisiana

    Good morning, Mr. Chairman. I would like to begin by 
thanking the Committee for conducting this field hearing in New 
Orleans today. I hope the opportunity this weekend to see the 
coastal challenges facing our state has impressed upon members 
of this Committee that immediate and substantial Federal 
resources are needed to prevent the catastrophic loss of 
Louisiana's coast. Words alone cannot do justice to the 
magnitude of land loss, wetlands degradation and destruction 
that is rapidly eroding Louisiana into the Gulf of Mexico. As a 
result, I am particularly grateful to the members and staff who 
took time out of their weekend schedules to tour our coastal 
areas and witness firsthand the adverse and largely unavoidable 
impacts sustained by Louisiana's coast in support of Federal 
Outer Continental Shelf (OCS) production.
    The hearing today will focus on two legislative proposals 
that would reinvest proceeds from Federal OCS activities into 
conservation initiatives: H.R. 701, ``The Conservation and 
Reinvestment Act of 1999'' (CARA), and H.R. 798, ``The 
Permanent Protection for Resources 2000 Act'' (Resources 2000). 
As one of the principle sponsors of H.R. 701, I am looking 
forward to hearing testimony from the witnesses here today 
about the extent to which these bills will assist Louisiana in 
meeting its conservation needs. Of course, I am biased, but I 
believe that H.R. 701 sets-forth the best framework for making 
a long term commitment to enhancing, restoring and conserving 
our nation's precious natural resources such as Louisiana's 
bayous and estuaries. However, I want to commend Ranking Member 
Miller, who was unfortunately unable to join us today, for his 
efforts in putting together an alternative proposal, H.R. 798. 
His active involvement has helped ensure that the issue of 
reinvesting revenues from non-renewable resources into assets 
of lasting value is the top order of business in the House 
Resources Committee during the 106th Congress. And while there 
are significant differences between H.R. 701 and H.R. 798, I 
continue to believe that the similarities of both bills will 
eventually allow us to overcome the differences.
    For the past year, Mr. Chairman, you and I have worked with 
a bipartisan group of members to craft a bill that will create 
a lasting legacy of stewardship and conservation of our natural 
resources. When we began our efforts, few people thought that 
we would get the attention of the Congress and the American 
people. Remarkably, today we find legislative proposals with 
broad support in the House and Senate, and a ``Lands Legacy 
Initiative'' from the Administration. What I believe this 
proves is that you cannot stop the momentum of an idea whose 
time has finally come.
    CARA was first introduced in the 105th Congress following 
the release of a report from the Coastal Impact Assistance 
Working Group to the Outer Continental Shelf Policy Committee. 
The OCS Policy Committee provides advice to the Secretary of 
Interior through the Minerals Management Service and had been 
tasked with developing a formula for distributing a portion of 
Federal OCS revenues with coastal states. The report was 
initially brought to my attention by Mr. Jack Caldwell, the 
Secretary of the Louisiana Department of Natural Resources, who 
serves on the Policy Committee. It recommended Federal 
legislation to share revenues derived from OCS program 
activities with coastal states based on a formula that would 
reflect both need and fairness.
    Following months of extensive discussions between Members 
of Congress, States and the conservation community, a 
comprehensive bill was introduced that reflected the sponsor's 
desire to make a lasting commitment to natural resource 
protection. On February 10th of this year, CARA was 
reintroduced for consideration in the 106th Congress as H.R. 
701 and currently has over 75 cosponsors. The bill enjoys the 
support of members from rural and urban areas, coastal and non-
coastal communities, Democrats and Republicans alike. It has 
also been warmly embraced by many states, local governments and 
conservation groups.
    As I have previously mentioned, the thread that weaves 
through both CARA and Resources 2000 is the belief that a 
portion of revenues from Federal OCS production should be 
reinvested back into the resources that made them available in 
the first place. At this time, all of these revenues go into 
the general treasury to finance recurring expenditures of the 
Federal Government. While this helps ensure that our nation's 
short-term fiscal needs are met, it does so at the expense of 
long-term investments.
    My primary interest in H.R. 701 arises out of great concern 
for the alarming rate of coastal erosion and wetlands loss that 
now jeoparzides our communities, economy, wildlife and 
fisheries habitat and the culturally unique way of life that is 
so closely tied to south Louisiana's environment. While the 
impacts of Louisiana's disappearing coast are being felt the 
hardest by the residents in our coastal zone, this is not 
simply a Louisiana problem that deserves attention from the 
State. Louisiana's coastal ecosystem is a national treasure 
that requires and deserves national attention. Louisiana must 
bear some of the responsibility for the situation we are in, 
but out of fairness, we should not be forced to do it alone. 
Louisiana has played a critical role in meeting the energy 
demands of our nation and many of the pressures on our 
coastline are a byproduct of this activity.
    The Federal Government has long recognized that the 
development of land-based mineral resources impacts states that 
host that activity and has shared revenues with those states. 
However, states that host offshore mineral development do not 
share in mineral revenues, despite the fact that coastal states 
suffer many of the same environmental and infrastructure 
impacts that result from land-based development. This 
difference in treatment is simply not fair and shifts a greater 
burden on state and local governments to remedy these impacts 
out of their own limited budgets. This inequity can no longer 
be ignored--the consequences are too great.
    CARA will remedy this inequity by sharing 27 percent of 
Federal OCS revenues with 35 coastal states and territories--
most important to me being Louisiana. State and local 
governments receiving these funds are provided with flexibility 
so that revenues can be used to meet their most pressing needs. 
Some members and groups who are not from Louisiana have 
expressed concerns that the distribution formula is too 
generous for our state. I think it is important to clarify that 
states with land-based mineral development receive anywhere 
from 50 percent to 90 percent of oil and gas revenues extracted 
from Federal lands; under H.R. 701, Louisiana would share in 
about 10 percent of the Federal mineral revenues extracted 
offshore our state. Put in that perspective, I think the 
Federal Government is getting a bargain.
    CARA also provides critical dedicated funding for the Land 
and Water Conservation Fund (LWCF), the Urban Parks and 
Recreation Recovery Program (UPARR) and wildlife conservation 
and education programs. I have heard from many state and local 
officials about the funding needs of these programs and the 
exponential benefits they will yield for millions of Americans.
    Mr. Chairman, I've spoken long enough today. My views on 
this issue are well known and so is my strong desire to have 
the President sign a bill into law during the 106th Congress. I 
want to conclude by thanking all of the witnesses who are 
testifying here this morning. Your participation is a critical 
part of the legislative process. This is a great opportunity 
for the Congress to hear Louisiana tell its story in the 
context of both H.R. 701 and H.R. 798 and I look forward to 
hearing everyone's testimony. Thank you.

 STATEMENT OF HON. THOMAS UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Udall. Thank you very much, Mr. Tauzin. And let me 
thank first of all Representative Chris John and Representative 
Billy Tauzin for being such great hosts. I think that you have 
shown us all a very good experience here and going out into the 
field and seeing actually what is going on I think is very, 
very important. The hospitality has been wonderful here, the 
food, the people and so let me just first of all thank you for 
that.
    I represent a district in northern New Mexico. Needless to 
say, we do not have any coast land, but I am still very 
interested in these issues and I think the field hearing and 
field visit yesterday and this hearing will show us a lot and 
the need for really protecting wetlands and the loss of 
wetlands.
    As I look through the list here today, I see many of the 
same people that we visited with out in the field and their 
home areas and they are going to be here and I think elaborate 
on some of the things that were said and so at this point, I 
would just waive any further opening statements so that we can 
get right to the heart of the issue here. Thank you both very 
much.
    Mr. Tauzin. Thank you, Congressman Udall.
    Before I introduce the next member of the panel, who is 
also a dear friend here in the local community, part of our 
Louisiana delegation, I thought it fitting that we thank 
Justice Pascal Galiara, who is in the audience today, for the 
use of the facilities of our Supreme Court. Thank you very 
much.
    [Applause.]
    Mr. Tauzin. And now let me welcome my colleague from here 
in the great crescent city, the gentleman from New Orleans, 
Louisiana, Congressman Bill Jefferson.

  STATEMENT OF HON. WILLIAM J. JEFFERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Jefferson. Thank you, Mr. Chairman. It is a pleasure to 
be here with you, sir, and with the other members of this panel 
who traveled from so far to be with us. Those who made the 
field trip visit with you, Billy, I know got a first-hand 
glimpse of the burdens that are borne by Louisianians and of 
the prospects for relief from those burdens that are part of 
this legislation. And also, I hope they had a chance to get a 
glimpse of what local governments are going through as they are 
on the front line of dealing with these issues, and I know they 
also understand the importance of conservation that this bill 
is also going to do a great deal to support.
    I want to say that this has been a measure that has been 
broadly received, as Billy has said, by Members of Congress, as 
Chris John said when I came in, on both sides of the aisle, and 
by members in the--it is an initiative that is going on in the 
House, going on in the Senate. I saw Mary Landrieu here 
earlier, I think she is out there, she has been working hard on 
this and we all have.
    So I am very pleased with the leadership that Bill Tauzin 
is showing, that Chris John is showing, that our delegation is 
showing on this issue and that others have joined with this 
effort and Don Young, who is not here, who I had the pleasure 
of traveling with and talking to about this bill.
    It is important legislation, it is important for Louisiana, 
it is important for coastal regions around the country, it is 
important for our country, important for conservation. It is an 
important recognition at long last that those states that bear 
the brunt of the burden of producing oil and gas and supporting 
the rest of the country and in many cases the rest of the world 
deserves some relief and some support from our Federal 
Government.
    So I thank Bill for what he is doing, I thank him for this 
field hearing and I thank all who have played a role in making 
this possible for us.
    Mr. Tauzin. Thank you, Bill. As Bill said, it is fitting 
that we recognize the presence of one of our two United States 
Senators, who herself is doing a huge and important job on the 
Senate side carrying the legislation for our delegation and for 
the country, Senator Mary Landrieu. I wanted to welcome her.
    [Applause.]
    Senator Landrieu. I just wanted to emphasize I was in town 
for another meeting and thought it just would not be 
appropriate for me not to stop and thank everyone in this room, 
particularly the Governor for his leadership, the legislators 
and all of you who have just been a tremendous help in helping 
us position this bill for a real possibility of passage. Thank 
you so much.
    Mr. Tauzin. Thank you, Mary.
    [Applause.]
    Mr. Tauzin. Thank you very much, Mary.
    The Mayor of the City of New Orleans, Mayor Morial, was 
scheduled to be here to deliver a formal welcome on behalf of 
the City to the Governor and to all our guests, but he has been 
detained. He will be here at 9 a.m. and we will interrupt the 
proceedings at that time to allow the Mayor to welcome you all 
formally.
    But we do have with us a young man who will introduce these 
proceedings to us. We thought it fitting that we begin with 
Daniel Snyder who is from my district in Terrebonne Parish and 
who represents the many students of our coastal regions who 
have joined together in letters that they have sent to the 
President of the United States urging the President to join 
them in the Save our Soil, SOS, effort to protect and preserve 
the invaluable coast lands and wetlands, that they and their 
parents have grown up and feel is so heavily threatened today. 
And so Daniel is here to join us today and to represent the 
many students who have already begun the student crusade to get 
public officials more involved in saving the incredible 
resources of our coastal state.
    And so Daniel Snyder from Oaklawn Junior High representing 
the students of our state is now recognized to make a statement 
to this important field hearing. Daniel, welcome, we deeply 
appreciate the involvement of young people such as yourself and 
frankly, it was your wake-up call that caused us to convene the 
wetlands conference at Nicholas State University that has 
already, I think, begun the effort here in Louisiana to make 
every public official aware of the fact that you young students 
of our state are not going to rest until we do our job and save 
the Louisiana wetlands.
    Welcome, Daniel, and we appreciate your testimony, sir.

  STATEMENT OF DANIEL SNYDER, STUDENT, (OAK LAWN) JUNIOR HIGH 
                             SCHOOL

    Mr. Snyder. Dear Honorable Members of Congress:
    My name is Daniel Snyder, I am a seventh grade student at 
(Oak Lawn) Junior High in coastal Houma, Louisiana. I was 
invited by Representative Billy Tauzin to testify at this 
hearing because of my participation in the National Coastal 
Wetlands Summit where I read a letter in which I asked you to 
support legislation for funding of coastal erosion projects. I 
am speaking to you this morning because I, my friends, my 
family and everyone in coastal Louisiana are in danger of 
losing our home and livelihood to erosion. If nothing is done 
to stop this erosion of the wetlands, then in 50 years, Houma 
an inland cities will become a new port for huge ships, perhaps 
a major port at Port Fourchon in Lafourche Parish.
    In Houma, the Chamber of Commerce, the Terrebonne Parish 
School Board and the Barataria-Terrebonne Estuary have gotten 
together and come up with an SOS campaign, or Save our Soil. 
This year's project was to send letters to all Members of 
Congress to obtain support of H.R. 701 and 798, sponsored by 
Representatives Tauzin and Senate Bill 25, sponsored by 
Senators Landrieu, Lott and others.
    The intent of H.R. 798, Permanent Protection for America's 
Resources, is to fund projects dedicated to this purpose. 
Louisiana loses one football field of land every 15 minutes. 
The residents of coastal Louisiana, especially Terrebonne 
Parish, are in complete support of this bill. Some projects 
like the Atchafalaya Basin Projects have proven to rebuild 
wetland areas. My parish, which is situated on a degenerating 
delta of the Mississippi River, requires protection by our 
barrier islands. These islands are literally washing away. 
Presently, there are several sand and grass restoration 
projects occurring at Wine Island and other barrier islands. 
H.R. 798 would provide continued funding for these initiatives 
and additional future projects. H.R. 701, the Conservation and 
Reinvestment Act of 1999, insures a percentage of revenues 
received from offshore continental shelf drilling will be 
returned to the coastal states. With these monies, projects 
such as the ones I have already mentioned can find state 
funding in addition to Federal funding.
    If this erosion of the wetlands is not stopped, then when 
hurricane season comes, salt water from the gulf will pour into 
the freshwater wetlands and kill most of the immature seafood 
in our marshes, thereby shutting down seafood industries, 
making seafood workers lose their jobs and making a majority of 
people in coastal areas of Louisiana to move elsewhere to look 
for jobs and a place to live.
    My family has lived here for several generations. I would 
like to raise my future family here because I value my 
heritage, culture and lifestyle. This is the only home I know, 
and it sorrows me greatly that it is vanishing before my very 
eyes. I want to know that my children and their children will 
be able to enjoy the same rich culture and lifestyle that I 
have had the privilege to have.
    In conclusion, we do not want to move from this area where 
we have our homes, and our livelihoods, and our culture has 
prospered. Please help us to Save our Soil.
    [The prepared statement of Mr. Snyder follows:]

 Statement of Daniel Snyder, Student, Oaklawn Junior High, Terrebonne 
     Parish School System, Terrebonne Parish Chamber of Commerce, 
                      Terrebonne-Barataria Estuary

    Dear Congressmen:
    My name is Daniel Snyder. I am a seventh grade student at 
Oaklawn Jr. High in coastal Houma, Louisiana. I was invited by 
Representative Billy Tauzin to testify at this hearing because 
of my participation in the National Coastal Wetlands Summit, 
where I read a letter to which asked him to support legislation 
for funding of coastal erosion projects. I am speaking to you 
this morning because I, my friends, my family, and everyone in 
coastal Louisiana is in danger of losing our homes and 
livelihoods to erosion. If nothing is done to stop the erosion 
of the wetlands then in fifty years, Houma, an inland city, 
will become a new port for huge ships, perhaps a major port 
like Port Fouchon in Lafourche parish.
    In Houma, the Chamber of Commerce, the Terrebonne Parish 
School Board, and the Barataria-Terrebonne Estuary have gotten 
together and come up with a S.O.S. campaign, or Save Our Soil. 
This year's project was to send letters to all Members of 
Congress to obtain support of H.R. 701 and 798 sponsored by 
Representative Tauzin and Senate Bill 25 sponsored by Senators 
Landrieu, Lott, and others.
    The intent of H.R. 798, ``Permanent Protection for 
America's Resources'' is to fund projects dedicated to this 
purpose. Since Louisiana loses one football field of land every 
15 minutes, the residents of coastal Louisiana, especially 
Terrebonne Parish, are in complete support of this bill. Some 
projects like the Atchafalaya Basin Projects have proven to 
rebuild wetland areas. My parish, which is situated on a 
degenerating delta of the Mississippi River requires protection 
by our barrier islands. These islands are literally washing 
away. Presently, there are several sand and grass restoration 
projects occurring at Wine Island and other barrier islands. 
H.R. 798 would provide continued funding for these initiatives 
and additional future projects. H.R. 701, ``Conservation and 
Reinvestment Act of 1999'' insures a percentage of revenues 
received from offshore continental shelf drilling would be 
returned to the coastal states. With these monies, projects 
such as the ones I have already mentioned can find state 
funding in addition to Federal funding.
    If this erosion of wetlands is not stopped, then when 
hurricane season comes, salt water from the gulf will pour into 
the freshwater wetlands and kill most of the immature seafood 
in our marshes, thereby shutting down seafood industries, 
making sea-food workers lose their jobs, and making a majority 
of people in coastal areas of Louisiana to move elsewhere to 
look for jobs and a place to live.
    My family has lived here for several generations. I would 
like to raise my future family here because I value my 
heritage, culture, and lifestyle. This is the only home I know, 
and it sorrows me greatly that it is vanishing before my very 
eyes. I want to know that my children and their children will 
be able to enjoy the same rich culture and lifestyle that I 
have had the privilege to have.
    In conclusion, we do not want to move from this area where 
we have our homes, and our livelihoods, and our culture has 
prospered. Please help us to Save Our Soil.

    Mr. Tauzin. Thank you, Daniel. And would you recognize the 
young lady sitting with you? I think it would be important for 
us to know who is accompanying you here today.
    Mr. Snyder. This is my teacher, Ms. Johnson.
    Mr. Tauzin. Ms. Johnson, we wanted to welcome you and thank 
you on behalf of the Congress and our state for the effort I 
know the teachers of our state are making with the young people 
to make this campaign real.
    Daniel, thank you for your statement.
    Let me ask if there are any members of our panel who would 
like to address a question to Daniel.
    [No response.]
    Mr. Tauzin. Well, Daniel, we want to thank you----
    Mr. Jefferson. Except to say how proud we are of how you 
presented yourself here today and what a tribute it is to your 
teachers and to others who have worked with you on this. 
Congratulations.
    Mr. Tauzin. And today in the newspapers across our 
district, we are challenging the other schools of all the 
parishes of coastal Louisiana to join with you in your 
campaign. And if we can help, Daniel, in encouraging other 
teachers and other students to join you in any way, please make 
sure you let us know. We are trying to make sure that the 
President of the United States and everyone in Washington hears 
your voice which is saying simply save our home. This is the 
place where we grew up and we do not want to lose it. And that 
message came through loud and clear this morning, Daniel, thank 
you very much.
    Let us give him a big hand.
    [Applause.]
    Mr. Tauzin. The Chair is now pleased to recognize our first 
panel of government witnesses, and of course the most important 
person in our state who can really make things happen, our own 
Governor Mike Foster, who still enjoys, I am always proud to 
say, the highest approval rating of any Governor of the United 
States and that includes ``The Body'' Ventura in Minnesota. So 
we want to welcome Governor Mike Foster, the Governor of the 
State of Louisiana. He will be joined today by the Speaker of 
the House, Mr. Hunt Downer, a former roommate. We served 
together in the Louisiana legislature. The Honorable Randy 
Ewing, the President of the Louisiana State Senate; the 
Honorable Joe Westphal, the Assistant Secretary of the Army for 
the Corps of Engineers and the Honorable Benny Rousselle, 
President of Plaquemines Parish in Belle Chasse, Louisiana. 
Plaquemines lies to the south--people do not believe me when I 
tell them, Benny, that my district includes 90 miles to the 
south of New Orleans. They think I am talking about Cuba.
    So we want to welcome you all. These, ladies and gentlemen, 
are some of the most important policymakers of the State of 
Louisiana. We are going to hear from them today on what 
Louisiana is doing and hopefully what we might do to assist 
them to save Daniel's home and to save a home for all of us in 
coastal Louisiana.
    Governor, I really want to thank you for taking time out of 
what I know is a busy session in Baton Rouge right now, it is 
ongoing, and particularly Speaker Downer and President Ewing, 
for leaving Baton Rouge at I know a critical time, to be with 
us today. Governor Foster.

  STATEMENT OF HON. MIKE FOSTER, GOVERNOR, STATE OF LOUISIANA

    Governor Foster. Mr. Chairman, members, good morning. It 
makes me feel good to see this many people connected with 
government out this early working so hard on important issues.
    Let me just go through a brief statement that I think makes 
a general overview of what we are talking about here this 
morning.
    Mr. Chairman and honorable members of the Committee, 
welcome to Louisiana. Thank you for taking your time to travel 
here to learn about this important issue from Louisianians. 
They represent a number of interests in our state. To my 
friends, Congressman Billy Tauzin, Chris John, thank you for 
all your efforts on behalf of our state and its people, 
seriously.
    Mr. Chairman, the State of Louisiana strongly supports the 
enactment of the Conservation and Reinvestment Act of 1999, 
H.R. 701. This legislation corrects both an inequity and 
handles a great need for our state.
    First, I will address the inequity. The Federal Government 
has not been fair to the State of Louisiana when it comes to 
the return of Federal mineral revenues to states that are 
impacted directly by Federal mineral development. The problem 
is that the Mineral Leasing Act of 1920 shares 50 percent of 
the onshore Federal mineral receipts with the states, but the 
Outer Continental Shelf Lands Act shares only a fraction of the 
revenues from those Federal offshore leases located closest to 
the adjacent coastal states and has done that only since 1986.
    In fiscal year 1998, five states received from the Federal 
Government more Federal mineral revenues than did Louisiana. 
Yet the Federal mineral receipts from offshore Louisiana were 
over five times greater than the amount of mineral revenues 
from any of these states. For example, from onshore New Mexico 
the Federal Government received $341 million and returned $167 
million to that state. The Federal Government received $489 
million from Wyoming and returned $237 million to that state. 
These funds were distributed automatically with no restriction 
on use and were not subject to any appropriation by Congress.
    Now what about Louisiana? Louisiana provides support for 
$2.7 billion--it is always hard for me to say that ``b'' word--
but $2.7 billion in Federal receipts from oil and gas 
developments on the Louisiana outer continental shelf in fiscal 
year 1998. Louisiana received in return only $21.1 million, 
one-tenth of Wyoming's receipts and one-eighth of New Mexico's 
receipts.
    In addition, these states collected severance tax on the 
production of the Federal minerals that were produced in their 
states, but Louisiana cannot collect severance taxes on the 
Federal oil and gas produced on the Louisiana OCS. H.R. 701 
will partially correct this injustice by sharing with Louisiana 
about 10 percent of the annual revenues from Federal oil and 
gas development from the Louisiana outer continental shelf. Mr. 
Chairman, correcting this current inequity to Louisiana will 
also help us address some major needs for our state and the 
nation.
    On a personal note, I consider myself both a businessman 
and a conservationist. I have and continue to be grateful for 
the economic benefits oil and gas have brought to Louisiana and 
the rest of the nation. However, I have seen the unique price 
this state has for some of these benefits. One of my favorite 
places in the world are the coastal marshes of Louisiana and 
unfortunately I do not get there enough, particularly during 
the session like right now. Often it takes long periods of time 
to notice major changes in the system. However, I can tell you 
that in my lifetime in the limited amount of time I can spend 
in my favorite place, I have noticed dramatic changes, many of 
which have been caused by projects done in the name of the 
national interest.
    Let me just on the side say that I have been going to a 
place called Grande Isle, which is sort of the end of 
Louisiana, since I was that big, since I was a little boy. I 
have been there once this year. There is one point that I have 
fished for the last 10 years, it is a stone's throw from the 
marina. It is gone, it disappeared this year.
    So things are happening quickly. I mean, in my lifetime I 
have seen this coast disappear. We have lost 1,000 square miles 
of our coastline in the last 50 years and are projected to lose 
another 1,000 square miles in the next 50 years. Mr. Chairman, 
is that significant, that little orange light? That means I 
have talked too long?
    Mr. Tauzin. Do not worry about it.
    Governor Foster. I am usually pretty short.
    Our coastal wetlands are unique and cannot be replaced as a 
natural resource to this nation and that is why I have made 
wetlands and barrier island restoration the top priority for 
our administration. Federal oil and gas operations and the 
thousands of miles of pipelines that cut across our coast, not 
to mention the wear and tear on our highways, has contributed 
to our coastal losses and infrastructure damage. Many of those 
roads are not only conduits for our nation's oil and gas and 
related industries, but also serve as the only hurricane 
evacuation routes for many of our citizens. The nation receives 
billions of dollars in revenues at great cost to Louisiana's 
coastal towns and cities and our people and its unique culture.
    The State has a plan called Coast 2050 that will prevent 
much of our projected land loss and will significantly enhance 
our current efforts to save and rebuild our coastline. But the 
plan is expensive, almost $14 billion over the next 50 years. I 
think I saw the other day where that is just a couple of 
bombers, but anyway. The legislation will provide the money to 
help us implement the Coast 2050 program. The cost of not doing 
what needs to be done will be catastrophic to our state and our 
nation. Recognize that this legislation will be good for every 
state in the union, and we in Louisiana are proud of our 
contribution to the nation through the Federal dollars we have 
helped generate.
    I would also like to express my support of both Titles II 
and III in this bill. Louisiana will benefit from these, 
especially Title III, which will go to ensure the conservation 
of non-game species before they become endangered.
    We have gone through the challenge of bringing back the 
brown pelican that almost disappeared and the alligator from 
the Endangered Species List. Both are now thriving in 
Louisiana, thanks in great part to our Department of Wildlife 
and Fisheries. I have asked my Secretary of Wildlife and 
Fisheries to submit additional comments on Titles II and III to 
be included as part of the record.
    Mr. Chairman and members of the Committee, all three Titles 
of this bill are vitally important. Our state has borne the 
brunt of 90 percent of the Federal offshore mineral development 
and it is time to provide relief. Please make the enactment of 
H.R. 701 in 1999 a priority of this Committee and of each of 
you individually. Please be fair to Louisiana in the final 
version of the bill that is enacted by the Congress.
    Thank you very much.
    [The prepared statement of Hon. Foster follows:]

 Statement of Hon. Murphy J. ``Mike'' Foster, Jr., Governor, State of 
                               Louisiana

    Mr. Chairman and Honorable Members of the Committee, 
welcome to Louisiana. Thank you for taking your time to travel 
here to learn about this important issue from Louisianians that 
represent a number of interests in our state.
    To my friends, Congressmen Billy Tauzin and Chris John, 
thank you for all your efforts on behalf of our state and its 
people.
    Mr. Chairman, the State of Louisiana strongly supports the 
enactment of the Conservation and Reinvestment Act of 1999, 
H.R. 701. This legislation addresses both an inequity and a 
great need of our state.
    First, I'll address the inequity. The Federal Government 
has not been fair with the State of Louisiana when it comes to 
the return of Federal mineral revenues to states that are 
impacted directly by Federal mineral development. The problem 
is that the Mineral Leasing Act of 1920 shares 50 percent of 
the onshore Federal mineral receipts with the states, but the 
Outer Continental Shelf Lands Act shares only a fraction of the 
revenues from those Federal offshore leases located closest to 
the adjacent coastal state and has done that only since 1986.
    In fiscal year 1997, five states received from the Federal 
Government more Federal mineral revenues than did Louisiana, 
yet the Federal mineral receipts from offshore Louisiana were 
over five times greater than the amount of mineral revenues 
from any of these five states. For example, from onshore New 
Mexico, the Federal Government received $341 million and 
returned $167 million to the state. The Federal Government 
received $489 million from Wyoming and returned $237 million to 
the state. These funds were distributed automatically, with no 
restriction on use, and were not subject to appropriation by 
Congress.
    Now, what about Louisiana? Louisiana provided the support 
for $2.7 billion in Federal receipts from offshore oil and gas 
development on the Louisiana OCS in fiscal year 1997. Louisiana 
received in return only $21.1 million--one-tenth of Wyoming's 
receipts and one-eighth of New Mexico's receipts. In addition, 
these states collected severance tax on the production of the 
Federal minerals that were produced in their states, but 
Louisiana cannot collect severance taxes on the Federal oil and 
gas produced on the Louisiana OCS.
    If you look at the cummulative numbers since 1920, the 
Federal Government has received from onshore New Mexico $5.4 
billion and returned to the state $2.6 billion. The Federal 
Government has received from onshore Wyoming $7.8 billion and 
returned to the state $3.9 billion. From Louisiana, combining 
onshore revenues since 1920 and offshore revenues since 1953, 
the Federal Government has received $49.9 billion and has 
returned less than $900 thousand to the state. That means that 
New Mexico and Wyoming have received about 50 percent of what 
they have contributed, while Louisiana has received less than 2 
percent. By anyone's count, those numbers represent a great 
inequity.
    H.R. 701 will partially correct this injustice by sharing 
with Louisiana about 10 percent of the annual revenues from 
Federal oil and gas development from the Louisiana OCS.
    Mr. Chairman, correcting this current inequity to Louisiana 
will also help us address some major needs of our state and the 
nation. Number one is the restoration of our coastal wetlands 
and barrier islands. We have lost 1,000 square miles of our 
coastal land in the last 50 years and are projected to lose 
another 1,000 square miles in the next 50 years. Our coastal 
wetlands are unique and cannot be replaced as a natural 
resource of this nation. Federal oil and gas operations and the 
thousands of miles of pipelines that cut across our coast, not 
to mention the wear and tear on our highways, have contributed 
to our coastal losses and infrastructure damage. Many of those 
roads are not only conduits for our nation's oil and gas 
related industries, but also serve as the only hurricane 
evacuation routes for our citizens. The nation receives 
billions of dollars in revenues at great cost to Louisiana's 
coastal towns and cities, our people and their unique culture.
    The State has a plan called Coast 2050 that will prevent 
much of our projected land loss and will significantly enhance 
our current efforts to save and rebuild our coastline. But the 
plan is expensive: almost $14 billion over the next 50 years. 
This legislation will provide the money to help us implement 
the Coast 2050 program. The cost of not doing what needs to be 
done would be catastrophic to our state and nation.
    Recognize that this legislation will be good for every 
state in the Union, and we in Louisiana are proud of our 
contribution to the nation through the Federal dollars we've 
helped generate. I'd also like to express my support of both 
Titles II and III of this bill. Louisiana will benefit from 
these, especially Title III, which will go far to ensure the 
conservation of non-game species before they become endangered. 
We have gone through the challenge of bringing back the Brown 
Pelican and the alligator from the endangered species list. 
Both are now thriving in Louisiana, thanks in great part to our 
Department of Wildlife and Fisheries. I have asked my secretary 
of Wildlife and Fisheries to submit additional comments on 
Titles II and III to be included as part of the record.
    Mr. Chairman and members of the Committee, all three titles 
of this bill are vitally important. Our state has borne the 
brunt of 90 percent of the Federal offshore mineral 
development, and it is time to provide relief. Please make the 
enactment of H.R. 701 in 1999 a priority of this Committee and 
of each of you individually. Please be fair to Louisiana in the 
final version of the bill that is enacted by this Congress.
[GRAPHIC] [TIFF OMITTED] T6598.152

    Mr. Tauzin. Thank you very much Governor.
    Governor, those lights were meant only for when Hunt Downer 
speaks.
    [Laughter.]
    Mr. Tauzin. We are sort of at your disposal here. Would you 
like to remain while other witnesses speak or would you like to 
take questions now, or are you in a rush?
    Governor Foster. I will be glad to take questions, I 
probably need to get out of here in the next 30 or 40 minutes.
    Mr. Tauzin. Why don't we see if any of the members have 
questions for our Governor. Any members?
    [No response.]
    Mr. Tauzin. Well, then let me quickly ask one. Governor, 
the one thing that I think stood out about your relationship to 
Louisiana as you ran for Governor is that your reserved your 
weekends for yourself pretty much, to be at home and to be with 
your family. A lot of us have admired that. And I also know 
that you spent a lot of those weekends hunting and fishing, 
those are big parts of your life. You mentioned how you saw 
points where you fish disappear, actually gone now, and you 
mentioned how quickly this is occurring.
    If this legislation is not adopted, does the State of 
Louisiana have anywhere near the resources it would take to 
begin preventing, halting or at least in large measure, big 
steps, mitigating the damage that is occurring to Louisiana?
    Governor Foster. The truth is that the answer to that 
question is probably not. We have as an administration done 
something that has not been done in the past, we made sure that 
we have matched all the Federal money that we could to do 
coastal projects. We have put more coastal projects as an 
administration in the field in three years than was done in the 
last eight. We take it seriously, we have people that are 
involved in this coastal problem that are very serious, very 
talented, but it does take money.
    We do have the technology to save this coast and I was not 
joking when I said that we had a meeting the other day that 
discussed this, everybody in the state that is interested in 
coastal projects. And the truth is it is probably the cost of 
two B-1 bombers to save this coast, but Louisiana, as I say, 
has the technology to do it. Now we have learned how to do it, 
we have learned how to divert water from the Mississippi River 
and actually create marsh. We have learned all the tricks there 
are to save the coast but it is going to be very, very 
difficult to raise the amount of money. We can match funds, but 
the truth is so much of this has been caused because Louisiana 
is doing something that affects the rest of the nation. I do 
not want to get long-winded here, but you forever hear people 
say that there seems to be a feeling nationally that oil and 
gas is a dangerous thing to have off your coast--people in 
Louisiana do not feel that way, as you well know, because we 
have enjoyed the production of the oil and gas it has taken to 
operate this country, but the truth is we have done it at a 
price and we have accepted that price of canals, of maintaining 
the highways to the coast. Not only that, but from a needs 
standpoint we accept the majority of the water that is drained 
off the country down through the coastal areas. So we are 
unique in that what we serve for the country is the production 
of minerals, the money that is realized by the Federal 
Government from the production of those minerals, the 
acceptance of all the water that comes down the Mississippi and 
Atchafalaya Rivers, and we just feel like at this point in time 
if we are to save the culture that has produced this, we need 
help.
    Mr. Tauzin. And I guess the second question and one equally 
important to members of this panel is if Congress were to 
accept the recommendations of the Mineral Management Service 
and share this money with the 37 coastal states, share the 
money with the 50 states for land acquisition and water 
conservation across America, is there any doubt that the State 
of Louisiana would commit its resources to match those funds, 
to use those funds to do exactly that, save this coast?
    Governor Foster. No, we will not waste it. We have not been 
known as an administration that wastes money. We will spend it 
back into the area that we have been talking about this 
morning, to save the coast, to keep the infrastructure up that 
it takes to bring this material to the rest of the country. So 
no, we will not waste it, I can promise you that.
    Mr. Tauzin. Governor, thank you very much. Any other 
members? Mr. John.
    Mr. John. I have a quick comment and possibly a question. 
You had talked about in your testimony, Governor, about Coast 
2050. In 1988 when I was in the State Legislature, we saw fit 
and moved a Constitutional Amendment that provided a coastal 
restoration trust fund that commits some of the state's oil and 
gas receipts into a trust fund to prioritize some of the 
projects. What we are doing or attempting to do on the Federal 
level is to do something very similar to what the State of 
Louisiana has committed to. Could you give us a little bit more 
about what Coast 2050 is and how that relates to the coastal 
trust fund? And also, Congressman Tauzin said the commitment 
from Louisiana has been there for a long, long time because we 
see how important it is to Louisiana, but now it has become I 
believe a Federal--a United States, an American problem, 
because of the resources that are developed right off of our 
coast.
    Governor Foster. Chris, let me simply say that the details 
of Coast 2050--there are people here that can give you the 
details a lot better than I can--but one of the things that I 
learned when I got into government at this level was that there 
had been very, very little planning in the State of Louisiana. 
In fact, I have a favorite saying, if you do not know where you 
are going, you sure as heck are not going to get there. That 
existed not only economically in this state where there was no 
plan to where we went in the future, it existed--we did not 
have the specifics of a coastal plan, we do now, as I say. That 
plan is a plan that simply tells us how we can get there, what 
will work, and as I say, just recently I have been involved in 
meetings that convince me that the technology is there. The 
technology is there to save the coast, the planning is there, 
there has been a lot of planning put in place and it is a 
monetary thing at this point.
    Mr. John. I think it is important for the other members of 
the Committee to understand that Louisiana has committed 
financial resources to saving our coast and I think now it is 
time to pass a Federal piece of legislation that would continue 
to save the resource, because again, it is not only Louisiana 
that is washing away, it is America that is washing away.
    Governor Foster. I do appreciate, and I understand you all 
took the other members of the Committee to look at the expanse 
of it. You know, you hear about the Everglades, but the 
Everglades are really just a small, small place compared to 
coastal Louisiana and the problems we have here. So I do 
appreciate the fact that you and Billy took other members of 
the Committee and gave them a broad overview of what we have to 
deal with down here, because it is huge.
    Mr. John. Yes, it was a very educational and wonderful 
experience as we flew over and saw some of the diversion 
projects on the Mississippi River that have really replenished 
some marshes, but I guess the highlight is when we flew over 
your favorite fishing spot and told them that if they were to 
go there, that was where the Governor fished, so you know they 
have a lot of fish there; we saw it from the air.
    Governor Foster. The places I went disappeared--I am 
serious. I had a little hole right across from the marina on a 
big point and it has been there for 20 years. I have been to 
Grand Isle once this year and that point is gone.
    Mr. John. I know the Governor and your tenacity to fish, I 
am sure that one of those little global satellites, you have 
got it marked pretty good, so you know where it is.
    Governor Foster. So that the Committee will know how bad it 
is, in my boat, I have a little global map which is a GPS that 
has a map of the land. I find myself most of the time running 
over areas that are marked on the map as land, which makes you 
a little uncomfortable, it shows you are running in areas where 
there was land five years ago.
    Mr. Tauzin. Thank you very much, Chris. Any other members?
    [No response.]
    Mr. Tauzin. Governor, again, we want to thank you. I hope 
you know the importance of this field hearing and I want to 
commit to you again our serious intent to try to get this 
legislation done. Senators Breaux and former Senator Bennett 
Johnson, as you know, have fought for many years to try to 
realize for Louisiana some share of the coastal revenues, that 
we might use them for these purposes. We have had some 
successes from time to time, the 8G monies and in fact the 
Breaux Bill passes or shares the money, with the State of 
Louisiana for some of the coastal projects. The effort that 
Senator Landrieu has engaged in on the Senate side and the fact 
that Chairman Young now, Chairman of the Committee on Natural 
Resources, is the lead sponsor of this legislation on the House 
side. And for the first time, the Federal Government itself is 
recommending, the Executive Branch, is recommending that we 
share with the coastal states to help them deal with these 
problems. I think we have a golden opportunity, Governor, and I 
thank you for taking it so seriously. We are hearing the pleas 
of the young boys and girls like Daniel today and we are going 
to do everything we can to make this real, Governor. Thank you 
for coming.
    Governor Foster. Thank you.
    Mr. Tauzin. We will now hear from--Governor, if you have to 
at any time depart, we understand.
    We will now hear from the Speaker of the Louisiana House, 
the Honorable Hunt Downer, from Houma, Louisiana, who also grew 
up, like Daniel, in Terrebonne Parish in those wetlands that 
are so fast eroding. Mr. Downer.

    STATEMENT OF HON. HUNT DOWNER, SPEAKER OF THE HOUSE OF 
   REPRESENTATIVES, PRESIDENT OF STATE SENATE, BATON ROUGE, 
                           LOUISIANA

    Mr. Downer. Well, thank you, Congressman Tauzin, 
Congressman John, my two former colleagues, one who was my 
former roommate, and of course Congressman Jefferson, who 
served in the legislature with us, Senator Landrieu who served 
in the legislature with us, and to our two guests from out of 
state, welcome to Louisiana and thank you for this weekend 
touring my area of the state, south Louisiana.
    I think as I come here before you today, I bring a unique 
perspective and I would like to just maybe not so much give 
testimony but just talk to you about that unique perspective. I 
grew up as a young boy in south Louisiana, Terrebonne and 
Lafourche Parishes. I fished and I hunted those areas.
    As I grew older, I worked my way through college as a 
roughneck and a roustabout in the oil fields of south Louisiana 
in those very marshes, inland waterways and offshore that you 
flew over last night. In addition to that, while in high 
school, I drove a delivery truck that delivered produce to some 
of the mom and pop grocery stores down the bayous. As that 
young delivery boy, I traveled shell roads that are no longer 
there, they have been washed away or had to have been moved 
further inland because of the erosion.
    And then as a citizen soldier, member of the Louisiana 
National Guard, I have been activated on numerous occasions for 
the hurricanes that came across south Louisiana. In fact, 
Congressman Tauzin was one time for one of the hurricanes, I 
think Juan in the mid 1980s, was assigned as your escort 
officer as you came down there.
    Mr. Tauzin. That is right.
    Mr. Downer. And in all of those situations----
    Mr. Tauzin. Nearly drowned me, by the way.
    Mr. Downer. Well, if you had stayed longer, we would have.
    What you saw yesterday or Saturday as you flew the coast is 
how it is now. What you missed is how it used to be. On one of 
those hurricanes, we actually saw chunks of land, large 
chunks--in fact, we nicknamed them floatons--just floating out 
with the tide, large chunks, because of the water that washed 
in.
    As a young man roughnecking on the rigs, I was out there 
when we moved a rig on location and required the dredge boat to 
go through to cut the location canal. What was then a narrow 
location canal or a slip for a rig has not, because of salt 
water intrusion, coastal erosion, become lakes or large ponds.
    Our land is eroding away. It is a delicate balance, the 
Terrebonne-Barataria Estuary protects not only Louisiana but 
the rest of the nation. I jokingly tell my colleagues in north 
Louisiana, like Senator Ewing--someone said well why would 
someone--and your question was about the money the state is 
committing for coastal restoration--well, why would someone 
from north Louisiana, we all understand the politics of it, 
want to support coastal restoration money set aside for 
projects in your backyard, Hunt, why would they want to do it? 
And I jokingly tell them because if you do not, my legislative 
district will move north and I will be running against you.
    [Laughter.]
    Mr. Downer. That puts it in a perspective sometimes that we 
can understand. While that may be somewhat of an exaggeration, 
in the time we have been here in this room today, we have lost 
in this one half hours between the first panel, Mr. Snyder, and 
this panel, we have lost one acre of land.
    Now the reference was made by the Governor to the B-1 
bomber or the B-2. We can build another bomber, we cannot 
manufacture more land. We can try and save what we have, we can 
try and restore some of it. The Coastal 2050 plan is a plan 
with the right help, with additional funding, that over a 
number of years will get us to where we will stop the land 
loss.
    See, we have done a lot of things to ourselves, not knowing 
it. We have allowed the Mississippi River to be levied, it had 
to be because of the flooding. Now when we did that, we 
channeled the water in a different direction, it no longer 
replenishes our marshes, it no longer gives us that protection. 
And as that saltwater comes in and mixes with the fresh water, 
in the areas that used to be fresh water bays and bayous, there 
is now brackish water. Brackish water kills green vegetation 
that is used to fresh water. And then the next time you have a 
storm without the barrier islands there, that washes it out.
    They always say a picture is worth a thousand words. What 
you saw this weekend is worth 10,000 words. You saw it. What 
really put it into perspective for me, having lived there all 
of my life, having seen it and experienced the hurricanes, 
having seen the ravages of the hurricanes as a legislator, 
being asked to respond in an emergency situation, as a National 
Guard officer prior to and during the evacuation, going out 
during the storm and watching our land wash away. Granted, we 
cannot see that half acre wash away every 15 minutes, but when 
you have a storm you can see it because it is visible.
    Clifford Smith from Houma, with T. Baker Smith & Sons, did 
a little chart. If you just look, everyone in the country ought 
to want Louisiana to remain intact. We are catching all the 
hurricanes. If we are not here, someone else is going to get 
them, but every one of these hurricanes and every time they 
come in, they take part of our soil, part of the United States 
of America is washed away if we do not do something to protect 
it.
    This is what you saw this weekend. Here is a projection of 
where we will be in 100 years if we do not take action. Here is 
the City of Houma surrounded by all of this land. That is my 
legislative district. Here it is surrounded by water. Mr. 
Snyder was correct, we will be a nice port. We will replace the 
Port of New Orleans at the rate we are going. Now someone could 
argue, Congressman Jefferson, that might be good economically. 
We like the land we have got, we would like to keep it.
    Here are just two examples of what has happened. Here is 
the before the hurricane, nice island; here is the after, 
nothing. Same here--island, nothing. It happens and is 
happening as we talk today at the rate of one half acre ever 15 
minutes.
    I would like to thank you all for once again coming, 
seeing, hearing, feeling and experiencing what we are all 
about. Louisiana is the gateway to the rest of the nation 
because of the Mississippi delta and the Mississippi River and 
if we do not protect the gateway to the nation, we will lose in 
the long run as a nation.
    Thank you, sir.
    Mr. Tauzin. Speaker Downer, thank you very much, sir.
    We are pleased now to welcome from north Louisiana, 
President of the Louisiana State Senate. As Hunt Downer has 
pointed out, Louisiana is often talked about as two states, 
north Louisiana and south Louisiana. Randy, on behalf of all of 
us here in south Louisiana, I want to thank you for bringing 
the state together as the presiding officer of the State 
Senate, but more importantly as a big and important leader in 
the state, you have done a great deal to make this one state 
again and I want to thank you, sir, for being a part of this.
    [The prepared statement of Mr. Downer follows:]

      Statement of Hon. Hunt Downer, Speaker, Louisiana House of 
                            Representatives

    Mr. Chairman and Honorable Members of the Committee, I 
would like to welcome you to Louisiana and thank you for the 
opportunity to express my strong support of the Conservation 
and Reinvestment Act of 1999, H.R. 701.
    I would like to thank Congressmen Tauzin and Johns for all 
of their hard work on this legislation in an attempt to correct 
the inequity of the Outer Continental Shelf Lands Act.
    I have lived in coastal South Louisiana my entire life and 
have a unique advantage over many. As a boy growing up I fished 
both onshore and offshore and saw firsthand the beauty of this 
state, saw it as it changed and to my eyes began to disappear. 
As a young adult, working my way through school I worked 
offshore as a roughneck and roustabout on the rigs in the Gulf. 
There, I became more familiar with our coast and the barrier 
islands. As a national guardsman I have assisted with disaster 
relief after hurricanes and floods. And, as an elected public 
official, I have learned more of the intricacies of this 
problem, being called upon by constituents to procure help from 
the state and Federal Governments to fight coastal erosion and 
all that goes with it. So, for my entire life, in one capacity 
or another, I have watched the changes, the disappearance and 
destruction of our coast, our barrier islands, our marshes and 
our wildlife and fisheries. Places where I fished twenty years 
ago no longer support freshwater fish because of the 
encroachment of saltwater and our potable drinking water supply 
is threatened. Birds and animals have become endangered because 
of the destruction of nesting sites and natural habitat along 
the coast and in the marshes. Islands that, in the past helped 
protect us from the destruction of hurricanes, no longer exist. 
I have literally watched the Louisiana coast, its flora and 
fauna wash away and disappear. Once familiar places, gone 
forever.
    Please allow me to put this in perspective. In 15 minutes 
one-half acre of Louisiana coastline is lost. That's two acres 
per hour or 20 square miles in one year. I jokingly tell my 
North Louisiana colleagues in the legislature that they need to 
support coastal restoration because at the rate we're losing 
land it is possible that in the next few years my district will 
be in theirs and we will be running against each other. But all 
joking aside, no other place on Earth is disappearing as 
quickly as the Barataria-Terrebonne Estuary. Yet our coast, one 
of the most fertile wetland ecosystems in the world is not 
receiving the attention it deserves. On the other hand, the 
Federal Government has pledged $8 billion to save the 
Everglades. It is estimated that it will cost approximately $14 
billion to save our coast. And the longer we wait, the worse 
the problem gets. If nothing is done soon, we will lose about 
$150 billion in infrastructure.
    The disappearance of wetlands also contributes to dead 
zones in the Gulf. These are areas of oxygen-depleted water 
sometimes covering 7,000 square miles. Scientists who study the 
problem tell us that this is caused by fertilizer from the 
Midwest that washes down the rivers. Wetlands filter these 
chemicals but as the wetlands disappear, so do the filters. The 
dead zones have doubled since 1992, only six short years.
    And we have given so much for so little. Although the 
Federal mineral revenue from Louisiana to the Federal 
Government exceeds the top six states almost ten fold, the 
return to our state is the lowest of these six states. And none 
of these states has suffered the infrastructural, social or 
economic impact to the extent of Louisiana. We have suffered 
displacement of communities, we have seen displacement of 
offshore workers, and changes and disappearance of the culture 
and way of life for many along the coast. As mentioned before, 
our hunting and fishing have suffered and, therefore, our 
tourism industry. And, please remember, tourism is the second 
largest industry in Louisiana generating over $6 billion.
    Louisiana stands ready to take action through the Coast 
2050 Program and the Coastal Restoration Plan to correct this 
devastation. The passage of this legislation will make these 
plans a reality. I urge you to consider our plight and correct 
the past inequities by giving Louisiana its fair share in the 
final version of this bill.

 STATEMENT OF HON. RANDY EWING, PRESIDENT OF THE STATE SENATE, 
                     BATON ROUGE, LOUISIANA

    Mr. Ewing. Thank you for those kind comments and thank you 
and the other members who have come here on a very important 
mission.
    I have found in the Legislative Branch that those 
committees that do go and take the time and seek the 
information and get the documentation they need become the most 
effective voice in the body. The rest of the members rely on 
them for the information they gain and the expertise they have 
on that issue. So as you leave from here with the knowledge 
that you have and the insight that you have gained and go back 
to Congress, I think that you will be in fact the most 
effective spokesmen for the issue at hand.
    We are one state, not a north and a south Louisiana. 
Sometimes we get caught in the debates and sometimes even in 
some silly comment, but what goes on in south Louisiana, what 
goes on in the Port of New Orleans, is extremely important to 
those of us in north Louisiana as we need ways to export our 
cotton, our corn and our manufactured products. And it is 
equally important that south Louisiana give significant 
attention to the value of north Louisiana and I think we have 
made tremendous progress.
    So we talked today about an issue that is not about south 
Louisiana and about the coastal zone insofar as the interest 
from only those people who can see it or who live there, but we 
talk about it in regard to how all of our state, our 4.5 
million people are affected, but also how everyone in this 
country is affected.
    You know, in a few years, we are going to celebrate the 
Louisiana Purchase, which is probably the most amazing and 
valuable real estate transaction in history. We were purchased 
and the purchase was considered and took place because of the 
value of that property to the Union, the coast, the resources, 
the trade, the river. I was with John Berry Saturday night, who 
wrote Rising Tide and also told the story of your father, Bill, 
working on the levee during the flood of 1927. And he pointed 
out that 33 of our states are drained by the Mississippi River 
and this has been a major factor in our economy, major factor 
to all of the United States over the history of our country. He 
also pointed out the problems that we have had and it has been 
brought to your attention already by previous speakers about 
the erosion that we have or the fact that we are where all 
these waters do drain. I would like to say that the merger of 
the property in the Louisiana Purchase and the Union have been 
good and we have certainly had mutual benefit.
    I think the legislation that we have before us and that you 
have before you is properly directed, because what it says is 
we have had opportunity and we share the richness, but we also 
share the responsibilities of taking care of our coast line and 
we also have shared the great benefit of the mineral resources 
that have come. At one time, Louisiana provided about 640 
million barrels a year of the production that the United States 
used. We now provide about 130 million barrels. We are no 
longer a producer. In north Louisiana, we used to have wells 
all over the place. The east Texas field drifted into Louisiana 
and it was a very big part of our economy and the 55,000 jobs 
that were there, nearly half of the jobs were on land and not 
just offshore. We had our tax base predicated on this with our 
severance tax.
    Today, our contribution to the nation insofar as production 
that comes from under our soil has dwindled to the 135 million 
barrels as opposed to the 600 million we used to. But we are 
still the processor, we are still the area that delivers the 
natural resource to the rest of the nation. It is just that it 
comes from offshore and it comes from foreign markets.
    We deliver a tremendous service to the nation in 
transporting in that we have 40,000 miles of pipeline that cuts 
across our coast, our timberlands and all over Louisiana. They 
cut through our farms, they cut through our communities, they 
cut through our woodlands, they cut through our coast. We are 
tremendously impacted by the infrastructure that we have to 
have to render this service to the rest of the nation. We have 
thousands of waste pits, we have thousands of disposal areas. 
We have in fact provided a service for the nation in providing 
energy for all of these years and now we have legislation that 
says we need to relook at Louisiana's part and their share for 
having made this contribution to the nation.
    I think that we are certainly in line and should be 
considered for proper sharing of not only the responsibility we 
have, but also the gain that is made to the rest of the nation. 
And I do welcome this opportunity to come and present our side. 
There is a lot of technical data that can be provided by 
others, but I can tell you from the standpoint of our people, 
Louisianians are a proud and a caring and a patriotic people. 
We fight in our wars, we provide the goods and services such as 
the Higgins boat, we share our culture, we share our economy, 
we share our service of delivering natural resources to the 
rest of the nation. And we think that it is indeed appropriate 
that we now share in the gain that comes to the rest of the 
nation.
    I compliment those who have brought this legislation, I 
compliment those in our delegation who know so well this issue 
and have brought it to the attention of those others who have 
come here and will hear of this and who represent us in 
Congress from other states.
    I thank you for your part in this, I look forward to 
favorable passage and funding of this very vital piece of 
legislation.
    [The prepared statement of Senator Ewing follows:]

  Statement of Hon. Randy L. Ewing, President, Louisiana State Senate

    Mr. Chairman and Honorable Members of the Committee, thank 
you for this opportunity to express my support for the 
Conservation and Reinvestment Act of 1999, H.R. 701, some of 
the most important conservation legislation Congress has ever 
taken under consideration. Although I support all three titles 
of the bill, I want to specifically address Title I which would 
dedicate 27 percent of the annual Federal offshore oil and gas 
revenues to coastal impact assistance.
    I hail from northern Louisiana, just 50 miles south of the 
Arkansas border, but only 200 miles from the Outer Continental 
Shelf. All of my life, my friends and neighbors have worked 
offshore on the rigs that produce oil and gas from the coastal 
waters. The oil and gas industries employ over 55,000 people in 
Louisiana, and more than 30,000 are employed offshore. Over the 
years, countless right-of-ways have been secured and pipelines 
laid through our timber, farm and residential lands across the 
state.
    From the 1940's through the 1980's, there was much onshore 
exploration across Louisiana. This was a major part of our 
economy. During the last 20 years, however, most of the land 
based oil activity has dwindled. Louisiana is no longer a major 
on-shore producer of oil and natural gas, but rather a major 
processor of these resources. Revenues to fuel the economy 
produced from severance taxes have dwindled, but our cost of 
maintaining support for the state's infrastructure and 
addressing our environmental concerns have increased 
dramatically. Schools, hospitals, roads, education and public 
safety once supported by our mineral production have seen 
revenue support decline from 42-and-a-half percent of our 
budget support to 8 percent. As increased volumes of OCS and 
foreign products took the place of domestic production, we 
simply lost our base. Yet the country is still as well served 
as ever reliable and reasonable sources of energy that 
Louisiana has provided through location, massive infrastructure 
and its people.
    Louisiana people, natural resources and infrastructure make 
it possible for Federal OCS oil and gas exploration to be 
successful and economically developed and for foreign oil to be 
landed, transformed into useful products, and distributed 
throughout the United States. Forty-thousand miles of oil and 
gas pipelines crisscross the state, its sensitive wetlands, 
residential neighborhoods and densely populated areas. These 
activities require thousands of miles of canals, ports for 
barges and ocean-going tankers, roads, hospitals, public works 
structures, fire and police protection, hundreds of plants, 
thousands of waste pits and waste disposal and treatment 
facilities. The processing in Louisiana of OCS and foreign oil 
results in the destruction or degradation of the Louisiana 
environment.
    In 1997, Louisiana provided development of $3.8 billion of 
Federal mineral resources and received only $18.2 million for 
its share of revenues produced in Federal offshore waters. 
Annually, Louisiana handles one-half billion barrels of oil, 
135 million of which are from Louisiana. It handles 6.5 
trillion cubic feet of gas, 1.6 trillion feet of which are from 
Louisiana. Twenty-five years ago, Louisiana's contribution from 
its own production was four times greater, but Louisiana still 
handles the same amount of oil it always has. The major 
difference is that most of the product is foreign, from the 
OCS, or from other states.
    Louisiana's OCS is the most extensively developed territory 
in the United States. It has produced 88.8 percent of the crude 
oil and condensate and 83.2 percent of the natural gas 
extracted from all Federal OCS territories from the beginning 
of oil and gas exploration and development in the United States 
through the end of 1996.
    Eighteen percent of the U.S. oil production originates in, 
is transported through, or is produced in Louisiana. Twenty-
four percent of the United States natural gas production 
originates in or is processed in Louisiana coastal wetlands. 
There are 3,439 platforms in the Gulf off the Louisiana coast.
    The idea of a fair share from our fellow American citizens 
living in the rest of the country is not new, but this renewed 
effort to seek consideration equal to that of any other state 
that provides such a valuable service and contributes so 
meaningfully to our country's well being cannot be ignored.
    In a little less than four years, our nation will celebrate 
the 200th anniversary of the Louisiana Purchase, the most 
amazing and valuable real estate purchase in history. The Union 
and the purchased region merged and, throughout the years, 
enormous mutual benefit has been derived.
    Louisiana is a proud and patriotic people. We fight in our 
wars, we grow great quantities of food and fiber, we share our 
culture, our resources, our labor, our love. We have in the 
past and we always will. We only ask for our fair share. The 
Conservation and Reinvestment Act of 1999 will provide this.

    Mr. Tauzin. Thank you, Senator Ewing.
    I might point out that Don Young, the Chairman of our 
Committee, if he were here he might challenge your argument 
that the Louisiana Purchase was the most important. He after 
all represents Alaska, which is part of Seward's Folly when 
Alaska was brought into the Union. He would claim that that was 
the most important. We would argue with him.
    Mr. Ewing. We surely would.
    Mr. Tauzin. And of course, Bob Livingston's ancestor was a 
person who negotiated that purchase, so we are going to be 
proud to celebrate it here in Louisiana.
    Mr. Downer. And in typical Louisiana fashion, he had 
authority for only a couple million and spent three times that 
and look at the bargain he got.
    [Laughter.]
    Mr. Tauzin. Now we are pleased to welcome--I am sorry.
    Mr. Downer. Mr. Chairman, if we could interrupt and beg 
your leave, Secretary Westphal and our former colleague Parish 
President Rousselle, with the legislature in session, we thank 
you for scheduling this at 8 a.m. in the morning so we could be 
here, all of us, but if we are not back there, you know----
    Mr. Tauzin. Bad things could happen.
    Mr. Downer. Things can happen, and we would like, if you do 
not mind, yield to any questions before we would leave.
    Mr. Tauzin. Congressman DeFazio.
    Mr. DeFazio. Mr. Speaker, you know, I have developed a 
greater understanding of your problem and realize there are 
many, many complexities and some extraordinary projects that 
have to be undertaken, but one thing that struck me in the 
helicopter flights and I asked this question from the people 
accompanying us on Saturday was that part of the problem was 
caused by the ditching for the pipelines. And since you raised 
the issue of having worked on one of those crews, and I 
rather--and they put in these plugs but the plugs frequently 
leak or break or erode away and so I asked the question well 
could we not require that or could it not be required that the 
oil companies go back and do something about those ditches, 
those canals. And the response I got was not entirely adequate 
to my understanding, it was to say well, we did not require it 
at the time. Well, okay, but we did not know it was a problem 
at the time. Couldn't we still require it now, would it not be 
within the power of the State of Louisiana and the legislature 
to require them to go back and begin to repair that problem?
    Mr. Downer. Well, yes and no, sir--good answer from a 
politician. Yes, you could do it from this point forward and 
no, you could not from the point that we passed. One, many of 
those companies are long since gone. At the time they were 
done, we thought that was the way to go, we did not know. We 
thought that is how you did it, we did not realize how delicate 
the balance was and what happens, you reach that margin of no 
return, it is a small canal, it was just wide enough. Once the 
canal is there, what happens? The boat traffic in and out the 
canal further causes the erosion from just the tidal action, 
the wake action from the boat. And it has been compounded not 
just by the original use of digging it as a location canal for 
a rig or for a pipeline canal, it is just gone. And then when 
you complicate that by bringing in salt water intrusion, 
through a hurricane, where you have that massive tidal surge, 
it deposits within that fresh water, that salt water, that 
mixes and becomes brackish and then gradually kills that 
vegetation which is holding the land together, the soil, and 
then when you have that low tide or that tidal action, it 
washes out with it.
    So, sir, we can do some remedial work. Part of the Coastal 
Plan 2050 will address that by putting a barrier island which 
will protect us from some of that salt water incursion and 
intrusion and then with some of the diversion project, the 
Barataria-Terrebonne Estuary Program, the Atchafalaya Basin 
Program, where we will start putting some fresh water back into 
there, which will bring with it deposits of soil as it comes 
down the tributaries of the Mississippi River. We will 
gradually reverse that process. So yes, sir, it can be 
addressed. Can we go back and make those companies who did it? 
Sir, it has been a combination, multiple companies have used 
those canals, they are there, they have become passes for 
vessel traffic, commercial as well as private vessels. It has 
just been compounded. We are now watching it and trying to 
regulate and control it, requiring as part of the permitting 
process to get a location or a leased location within the 
inland waters, some kind of check and balance. Unfortunately, 
what is the old saying, after the horse is out of the barn, why 
close the door. Well, we are closing it, but too many horses 
may have gotten out.
    Mr. DeFazio. Well again, the problems are vast and the 
funds necessary will be vast and I am just looking at the 
possibilities of an ongoing contribution from industry, not 
only in better practices in the future, but in the past. And I 
guess I would look at the Federal black lung program where at 
the time we did not know black lung was a problem, later when 
it became apparent it was a big problem, we adopted a program 
where if there was a still existing responsible operator, that 
they would pay an additional share of the costs and if we 
couldn't identify in the case of a company that has gone out of 
business and there is no successor company, you know, then the 
feds would pay, and I just would suggest that there may be 
something along those lines where there are still some very 
large oil companies operating very profitably, you know, who 
could be identified as being responsible for some of these 
problems and getting them to contribute, in addition to what 
other resources can be brought to bear.
    Mr. Downer. One of the uniquenesses of the situation also, 
sir, is that there is an offshore oil industry beyond our state 
control that comes through Louisiana, of which we cannot 
really, because of the various restrictions, really regulate. 
And that has been a contributing factor, and hence the reason 
for this legislation on the Federal level, because of the 
Federal impact to our coast as it traverses or comes through 
Louisiana.
    Mr. DeFazio. Thank you.
    Mr. Tauzin. Would the gentleman yield a second?
    Mr. DeFazio. Certainly.
    Mr. Tauzin. Let me point out to the gentleman that one of 
the oddities of our situation is that because of resources 
developed in the Federal zone, Louisiana does not realize any 
dollar contribution from the oil today. In fact, the oil and 
gas that is produced offshore Louisiana, is put in for 
processing and then shipped out of state, almost 90 some odd 
percent of it, is more heavily taxed in Massachusetts where it 
is used. The people of Massachusetts have the benefits of those 
taxes on that resource--than it is in Louisiana because we have 
no power to tax that resource from the Federal regime.
    So we have some problems in funding. What we are talking 
about in this bill, of course, is sharing some of the 
royalties, some of the dollars from the oil companies to go 
back and do these repairs, which is very much in line with what 
the gentleman said and certainly the Governor has offered to 
supply the Committee with full details of our 2050 plan which 
includes some very dramatic changes in the way we permit the 
exploration and use of those resources in today's world where 
we understand those consequences.
    So the gentleman is right, we have learned an awful lot.
    Governor Foster. But to respond to that too, sir, it really 
is a small part of the problem. The interesting thing is the 
OCS, the outer continental shelf that is out there is really 
quite close to our coast, three miles. In Texas, I think it is 
10 miles. So that is really very close to us and everything 
that goes on out there is a--the whole infrastructure behind it 
has to be handled by the state that is attached to it. So it is 
not only the canals that have caused a small part of the 
problem, it is the fact that we have had to maintain the roads, 
we have had to accept the pipelines, we have had to educate the 
people that have been involved in that industry. We have had 
to--so it is a very big problem, which that is a small part of. 
And actually if we were not--if we did not have the flood 
control structures that we have in this state, we would still 
have overflow and even these canals would not be a problem 
because we would have water coming into the marsh areas and 
putting silt back there and keeping the water from going too 
salt and keeping it more fresh.
    That is exactly what we are trying to correct through these 
projects where we divert water out of the Mississippi River. 
And it is such a huge problem that, as I say, that is a small, 
very small portion, maybe 3 percent of the total problem.
    Mr. John. If the gentleman would yield just briefly. I 
think the gentleman from Oregon has a very interesting 
question. I think it is a very legitimate question. However, I 
think the danger that we would deal with, Peter, is that 
because of the magnitude of the problem, which has been 
compounded over the years, and of course the Speaker was 
exactly right, some of the companies that actually have used it 
would have originally been responsible for them have since come 
and gone, I think that it would turn into a litigious nightmare 
with litigation as finger pointing because of the financial 
incentives. It would become very much like a Superfund problem 
where a lot of the dollars would be eaten up in litigation 
fighting about who is responsible rather than being spent on 
what the real problem is. And I think Louisiana really could 
not wait for the outcome. But you raise a very legitimate 
question, but I think to get down to the bottom of 
responsibility would really take a lot more money which could 
otherwise be used top rebuild our marshes and coastline.
    Mr. Tauzin. The gentleman from New Orleans.
    Mr. Jefferson. I would offer a small point. I think, as 
Chris has said, Peter is right to the extent that this issue 
can be addressed through funding from private concerns that are 
responsible, I think we ought to pursue it as fully as 
possible, and I think it ought to be part of our endeavor here. 
I think though that what Randy said earlier brings to mind some 
of the real issues here. That is that a large part of what has 
happened to our state has been the result of Federal policies 
rather than just Louisiana policies alone, that our state had 
little if any control over. When he talks about John Berry's 
book, Rising Tide, it ought to be required reading for everyone 
who makes policy about the river, and it is because were it not 
for the decisions made by the Corps back then, which at the 
time were considered to be the best informed decisions, a lot 
of what we are talking about today would not have befallen our 
state and we would be living perhaps a little different way 
than we are, but certainly we would not have the echo system 
issues that we are dealing with now. Those are Federal policies 
and there are many others that are not as obvious as that one.
    But I do not have any problem pursuing what Peter is saying 
so long as we recognize that in the broad context, largely 
Federal policy has driven the problem and Federal policy needs 
come to the rescue of it. And that I think is what this 
approach is all about, that there is a huge Federal 
responsibility here that we must now recognize and do something 
about.
    Thank you, Mr. Chairman.
    Mr. Ewing. Could I just add one thing? One point that I 
would not want us to miss is that at one time, Louisiana was 
the beneficiary of a good revenue source from our severance tax 
because of our own production. Now, since--in the last several 
years, approximately 80 percent of the production that has come 
from the territories developed off the continental shelf have 
come through Louisiana, so Louisiana was able at one time to 
provide for itself through its own severance tax base from the 
oil that came from under our soil. Now we are handling every 
bit as much, if not more, and serving the rest of the nation, 
but we do not have that tax base. And that is one of the 
reasons I think this is a very justifiable approach to allow or 
share the cost that lets us meet responsibilities, whether they 
be offshore or whether they be the degradation that we have had 
with 40,000 miles of pipelines.
    I mean our state, from where we are sitting, I am about 230 
air miles to the north part of our state--40,000 miles of 
pipelines that run through our state to serve the rest of our 
nation, for which we do not enjoy a benefit.
    Mr. Tauzin. Senator Ewing, I might add--the Governor 
pointed this out--a point that everybody needs to note. There 
was a point in Louisiana history when we could have gotten the 
same deal that the interior states have in terms of revenue 
sharing to deal with all these problems, when Governor Earl 
Long was offered a compromise on the Tidelands dispute by 
President Truman. He offered him a deal that would have shared 
the Federal offshore revenues 50/50 with the State of 
Louisiana. Had we taken that deal, Louisiana would be the 
richest most western Arab nation in the world. We would be 
awash with funds to do the kinds of things we are talking 
about. As it is, you know, we lost that Tidelands decision and 
we ended up with only three miles of offshore rights.
    And Senator, you are right, the real production is now 
offshore, we do not have it any more to deal with. And so much 
of what we are talking about here today is sort of catching up 
as a coastal state, deeply impacted by the contribution the 
offshore makes to the country, with an ecological disaster. I 
think Mr Downer, you said it, we cannot wait. Chris John said 
it, if we go to court for five, ten, fifteen years, we will 
have lost this battle already. It is already being lost every 
hour we speak.
    So gentlemen, thank you and----
    Mr. Udall. Will the gentleman yield just a moment?
    Mr. Tauzin. Yes, Mr. Udall.
    Mr. Udall. Thank you.
    Senator Ewing, I just wanted to ask you, because you 
brought up the point that at one point, that you did have the 
revenues coming into the State of New Mexico--excuse me--State 
of Louisiana, which we also have a lot of revenue, as you know, 
from severance taxes. And you had it. Do any of the witnesses 
know what amount of money that you had that was coming in at 
that time that was dedicated to these kinds of issues, coastal 
wetland restoration, restoration on these canals, all of those 
kinds of things, or would you be able to get us that 
information?
    Mr. Ewing. We can get you what information we have, but I 
would suggest that it probably looks very minor because when we 
were the big producer back in the 1940s and 1950s, our learning 
curve on these types of problems was not as great as it is now, 
but we were getting at one time as much as 42 percent of the 
revenues to run our state program, to educate our children, 
build our roads, provide our hospitals, was coming from the oil 
and gas severance tax. Now about 8 percent comes from the oil 
and gas severance tax.
    Mr. Udall. And we have seen that similar thing happen in 
New Mexico also, as domestic production has gone down. So I am 
very aware of that.
    Mr. Ewing. We have turned to apparently cheaper sources of 
oil and gas and that has been--the nation has benefited from 
that, if we can buy it cheaper than we can produce it here, but 
we have still continued to process it and move it to the 
nation, as have you.
    Mr. Downer. Mr. Udall and Mr. DeFazio, thank you, because 
it is obvious you have seen and you saw what was happening to 
the delicate balance out there. Mr. Udall, on your question, 
when Congressman Tauzin left the legislature in 1980, 44 
percent of our state budget dollars came from the oil and gas 
revenues. Senator Ewing just said it, this year, it is 
somewhere between 8 and 11 percent. Now that was our oil and 
gas severance tax and mineral royalties from within our 
boundaries. We are getting nothing whatsoever from anything on 
the OCS or beyond. We had a Tidelands dispute, we finally 
established our line because, you see, we were never part of 
any of that, so our line waxed--I guess or jurisdictional 
limits waxed and waned with the tide and it kept getting 
smaller and further inland. When that boundary comes in, the 
oil and gas minerals that the state was receiving, they are 
lost because they are outside the line on the OCS and go to the 
Federal Government.
    Governor Foster. But all of the infrastructure for that on 
the OCS is borne by the State of Louisiana, has to be.
    Mr. Downer. And the roads, and that is what the Governor 
was saying. And if you were down at Port Fourchon, 6,000 
vehicles--and I know some of those individuals are here today 
and you will get the figures--travel that narrow winding two-
lane road along there. I jokingly say that if they ever drained 
the marshes around there, we would find half the missing 
persons from our area, their car has gone off in there.
    Mr. Tauzin. There is another thing worth noting before we 
dismiss these distinguished colleagues. Have any of you thought 
how many of the oil companies are domiciled in Louisiana? One, 
we have one Fortune 500 company domiciled in Louisiana. There 
is no Louisiana oil and gas company. Texaco, and even that one 
is domiciled in New York.
    The point is that the large companies that have exploited 
the resources generally do not live here, the money is not 
banked here, it is not--does not revolve in the Louisiana 
economy to a large extent. The resources are now being produced 
primarily in the Federal offshore, not on our own lands, and 
now we are left with the problem. It is sort of the boom and 
bust kind of thing. The boom occurred, we did not know all 
these problems were going to result. Now we have got them, now 
we finally are here, and now the money that would be useful to 
solve it is unfortunately being produced in lands that under 
the Tidelands Act, Tidelands decision, we have no control over.
    So we are in this position today, and to solve it is going 
to require this legislation, I think. And the good news is that 
35 other states would share with us in this legislation, 50 
would share in the second title. We have a chance of getting it 
done.
    Thank you, gentlemen, for helping us make the point today.
    Governor Foster. Thank you very much.
    Mr. Tauzin. While these members of the panel are leaving, I 
am going to bring an additional member who has just arrived, to 
do the formal welcome and then we will hear the testimony of 
both Secretary Westphal and President Rousselle.
    The Mayor of New Orleans, the Honorable Marc Morial, has 
arrived and Mayor, we would like you to come forward and to 
address this important field hearing.
    Ladies and gentlemen of the panel and the audience, it is 
my pleasure to introduce the Honorable Mayor of the City of New 
Orleans, Marc Morial.

  STATEMENT OF HON. MARC MORIAL, MAYOR, CITY OF NEW ORLEANS, 
                           LOUISIANA

    Mayor Morial. Good morning. I am so used to coming in here 
and saying may it please the Court--but Mr. Chairman and 
members of the Committee, let me first welcome you to our City. 
I am happy to see everyone up bright and early this morning and 
I hope that the fact-finding that took place over the weekend 
was not too severe.
    Let me just share with you a few thoughts on the issue that 
I know is of importance to all of us. I speak today on behalf 
of not only the people of the City of New Orleans, but also on 
behalf of the United States Conference of Mayors, which as you 
are aware is an organization of both Republican and Democratic 
mayors of cities with 30,000 people or more. We have, for quite 
some time, been a strong advocate of funding for urban parks 
and the opportunity that we have before us with the bills that 
you are going to consider this session, I think give us a 
chance not only to properly fund the Land and Water 
Conservation Fund and address the myriad of issues in that 
area, but also I come to urge a strong stateside component of 
that program and a strong component for urban parks.
    Recently we conducted a survey, along with the National 
Association of Counties, NACO, and in that survey, it was 
revealed that 71 percent of the respondents felt that the 
Federal Government should assist cities and states in the 
development of local parks.
    I think as we approach the new millennium, we see an 
American public that is much more physically active, an 
American public which is more aware than ever before of the 
need for families and children to have wholesome, meaningful 
and affordable recreational pursuits available to them. 
National parks, mostly in the western part of the United 
States, are wonderful and great, great for vacations, great for 
camp outings and long excursions, but the most important park 
to every American is the park in their neighborhood, the park 
closest to them, the park that they can use on a regular basis. 
And we think that there is a strong mandate here for Federal 
support for local parks.
    In our city alone, and I know you have had an opportunity 
to see our city, one of the things we are proud of is the 
abundant green space here in New Orleans, abundant green space 
throughout each and every neighborhood. Since I took office in 
1994, we have made a strong commitment to the development of 
parks and recreational programs for young people and indeed 
have doubled the budget of the City's Recreation Department. 
Not only that, we are working in a number of areas to enhance 
old parks. We have a park known as Lincoln Beach in the eastern 
part of the City, which is a park which is also a brownsfield 
site. In the 1940s, 1950s and 1960s, it was the primary 
amusement park for the City's African-American population 
during the days of segregation. In 1964 when the walls of 
segregation fell, that park closed and all citizens had an 
opportunity to attend Pontchartrain Beach. That park has been 
dormant since 1964 and now we have an effort underway with both 
state money and local money and hopefully if this bill passes, 
perhaps Federal money to return that park, which is also a 
beach along the shores of Pontchartrain, into something that 
people can be so proud of.
    I guess in sum, what we would ask you to do as you debate 
and discuss these very important pieces of legislation is to 
recognize that I think this year we have an opportunity to do 
something on an issue that many of us have talked about for 
many, many years, and that is to do something for the Land and 
Water Conservation Fund, do something for the stateside 
component and do something for urban parks. This is an issue I 
think that creates a great opportunity for some bipartisan 
leadership and some bipartisan action, Mr. Tauzin and Mr. 
Jefferson, and I am hopeful that you will keep in mind as you 
deliberate the call and the request by the mayors of America 
and by the county officials of America for there to be a strong 
urban component.
    And when I say urban, there is a tendency sometimes to 
think that urban means only New Orleans or New York or Chicago 
or Louisville. But urban also means Houma and urban also means 
DeRidder and urban also means many of the smaller communities 
in our nation who could have an opportunity to benefit from 
this.
    So once again, welcome to our City, I hope you will keep 
these thoughts in mind. We appreciate you meeting here and we 
look forward to continuing dialogue with you so that we can be 
successful on this very important initiative.
    Thank you very much.
    Mr. Tauzin. Mayor, thank you so much for coming. Let me 
congratulate you on a most successful jazz fest weekend for New 
Orleans.
    Mayor Morial. Thank you, it was great.
    Mr. Tauzin. And for the job you do for the citizens here in 
New Orleans.
    And also I wanted to thank you on behalf of the members in 
support of this legislation for coming to Washington on behalf 
of the Conference of Mayors and NACO, National Association of 
Counties in our country, for the rally we held on the steps of 
the Congress, along with Senator Landrieu and other members of 
the Senate, in support of this effort. You know, the fact you 
came to Washington to make the point is I hope appreciated by 
the citizens of this community, that you are not only fighting 
here for green space and a better way of life in New Orleans, 
but you are in Washington making a pitch too.
    The Committee heard from mayors, as you know, in our first 
hearing on this bill.
    Mayor Morial. Yes.
    Mr. Tauzin. And what we learned, Mayor, was that so many 
kids today, in many of the early parks in our country, have to 
wait in line just to play soccer, just to play.
    Mayor Morial. Yes.
    Mr. Tauzin. There are just not enough spaces available 
today for many of the activities that would keep kids out of 
the kind of world of violence that we just saw again on 
television so horribly portrayed at Littleton, Colorado. And to 
give them something meaningful to do and some good way of 
expressing all the energy young kids have, rather than to 
suffer the awful consequences of some of their activities.
    You and the other mayors made that case in Washington and I 
want to thank you again for making it here in Louisiana, and 
ask my colleagues if they would like to dialogue with the 
Mayor.
    The gentleman from New Orleans, Mr. Jefferson.
    Mr. Jefferson. Mr. Mayor, I would like to say to our 
Chairman Tauzin and to our Committee how proud we are in our 
community of our Mayor, the contributions he has made on 
virtually every level of city government, and the leadership he 
is now showing throughout the country on this issue of getting 
smart at nonrenewable resources and converting them into 
renewable resources of conservation and recreation. And it is 
important that, as many children used to experience the rural 
areas of our country, have moved into city areas, Billy, and 
they need a chance to participate in the riches of our 
environment.
    This bill does a smart thing, it not only takes care of 
part of the issues of the burden that front line cities and 
coastal areas have to deal with, but it also provides a way to 
address the recreational needs of our citizens and dedicates 
some money specifically to that purpose.
    I think the mayors are telling us that this is an important 
need that needs to be addressed on a national level. This 
legislation addresses it. I know the Mayor probably--and all of 
them when they talk to us, want to see more addressing in this 
area, but I think he and they want to see a foot in the door on 
this that is very substantial this time around. So I think it 
is very creative on the part of those who are the authors of 
this bill. I am an original cosponsor of it, but the 
architecture of it probably rests more in the hands of Tauzin 
and Chris John and Mary Landrieu and others than in my hands. 
But this is a part of it that I will be watching very carefully 
for you, Mr. Mayor.
    Mayor Morial. Thank you very much, Congressman Jefferson.
    Mr. Tauzin. Mr. John.
    Mr. John. Just a quick comment. Thank you, Mayor, for 
hosting this conference. We of course love your city. And thank 
you for becoming actively involved in H.R. 701 from a different 
perspective, that I think is very important to point out to the 
members in the audience and also the members in Congress that 
will be deciding on this legislation.
    We have the National Association of County Officials, or in 
Louisiana, it would be maybe the National Association of Parish 
Officials, we have the National Conference of Mayors, we have 
the National Governors Association, the National League of 
Cities, the list goes on and on and on of the groups from a 
nationwide perspective who are all supporting this bill for a 
lot of reasons. Obviously Title I is about coastal impacts; 
Title II is the UPARR and LWCF section which has brought a lot 
of the major cities along. We had a rally on the steps of the 
Capitol that Congressman Tauzin alluded to, but the impact of 
that rally was incredible. Terrell Davis, the MVP of the 1998 
Super Bowl, was there talking about his experiences in San 
Diego growing up as a boy with Pop Warner football, that if he 
did not have a city that cared about a football field, which 
was funded through the UPARR program, then he may not be here 
today to serve as the kind of role model that he is for some of 
our nation's kids.
    So it is very, very important for you to be here today, 
Mayor; it means a lot to me, speaking for a lot of the small 
and large cities, that this bill is not just about the coast 
line, although it is important.
    Mayor Morial. Very important.
    Mr. John. This legislation it is about the whole concept of 
conservation from coast line to open space to creating the kind 
of environment we want for our kids in the future.
    So thank you very much for being here.
    Mayor Morial. You know, I wanted to interject something, 
and maybe the state officials did, but you know, Congressman 
John, you mentioned the coast line. Last fall, we had a pretty 
turbulent hurricane season and New Orleans was threatened with 
an almost direct hit, 50 miles out Hurricane Georges tilted 
slightly to the east and therefore the eye of the storm missed 
us and we were on the eastern side of the eye, which meant we 
got wind but very little rain. I cannot tell you how much the 
protection of the coast line seems to be one of those natural 
barriers against this large population base in southeastern 
Louisiana from being devastated. It does not completely protect 
you, but all of the experts tell us it is a very important 
thing and it is one of those things that sometimes, I remember 
the first time I heard someone tell me that the coastal area 
would protect us from hurricanes, I said okay, you have got to 
explain this to me a little bit. After steering the City 
through hurricanes and listening to the experts talk, I can 
tell you I have become convinced that it is one of those very 
important components of protecting this entire coastal part of 
the country from the brunt of these very dangerous hurricanes. 
So I appreciate it and I want you to know that, that is also an 
important thing to us.
    Mr. John. You had a double whammy there.
    Mayor Morial. Yeah, right.
    Mr. Tauzin. Any other members?
    [No response.]
    Mr. Tauzin. Then Mayor, we thank you so much for attending 
and you can rest assured that Jeff is going to watch this 
section of the bill and not let it escape.
    Mayor Morial. Great, thank you very much, thank all of you 
all.
    Mr. Tauzin. We are pleased to welcome a man who gave us a 
great deal of time this weekend and who I had the pleasure of 
taking out to the coast and showing him what a Louisiana red 
fish looks like and I want you all to know he out-fished the 
dickens out of me. That is because we gave him the best Cajun 
to work with, a tremendous friend of ours from down the bayou, 
but he comes from Washington, technically, but I want you all 
to know that Secretary Westphal has been a long time friend of 
our Louisiana delegation. He used to work for the Sunbelt 
Caucus in the House of Representative. That is, he worked with 
us as a colleague in a real sense in legislation affecting the 
southern states in the Sunbelt Caucus. We have come to know Dr. 
Westphal for a long and distinguished career in Washington in 
the Congress already. His elevation to the post of Assistant 
Secretary of the Army for the Corps of Engineers, which is a 
tremendous position in which he now guides the Army Corps of 
Engineers in its important work in the country, has been a 
blessing for us in Louisiana because he understands and knows 
the Louisiana problems, not only of the river, but of our 
coastal resources.
    Dr. Westphal, we also want to thank you for being a 
keynoter at our National Wetlands Conference at Nicholas State 
University recently, where you made the personal commitment to 
help us resolve this ecological disaster that again you saw in 
great detail this weekend.
    Again, Secretary Westphal, we welcome you, we appreciate 
the testimony and again, for the members of the panel, I think 
you will also have to leave to attend to some Corps business 
with the Colonel in just a minute, so we will welcome your 
testimony and try to get you out of here as quick as we can. 
Dr. Westphal.

 STATEMENT OF HON. JOSEPH W. WESTPHAL, ASSISTANT SECRETARY OF 
                    THE ARMY, WASHINGTON, DC

    Mr. Westphal. Thank you, Mr. Chairman, and thank you, 
distinguished members of the Committee. I am delighted to be 
here. I do have written testimony which I would like to submit 
for the record, Mr. Chairman.
    Mr. Tauzin. Without objection.
    Mr. Westphal. Let me also thank you and thank the Committee 
for allowing me to be part of your trip here, not only to learn 
more about the issues facing and confronting Louisiana, but how 
your proposed legislation attempts to address those issues, and 
I want to thank your Majority and Minority staff, I think they 
have been terrific in putting all this together.
    We were also accompanied on this trip by your Louisiana 
Department of Natural Resources Secretary, Jack Caldwell, who 
did a great job in briefing us on this, NOAA was there and did 
a great job. I thank the Air Force too for providing 
assistance, and the Corps of Engineers. So we are very grateful 
for the opportunity to visit the coastal area of Louisiana and 
look directly at the stress that it faces.
    You mentioned our long association, over 12 years that we 
have been working on wetlands. I remember we formed the first 
wetlands task force in the House, along with one of your 
colleagues, former colleague that I saw sitting here for a 
little bit, Jimmy Hayes, and Lindsey Thomas of Georgia and 
other members at the time, when most people did not know what a 
wetland was. We were attempting to start dealing with that 
issue. So I know you have had a long association with this 
problem in Louisiana, but also across the country as you have 
faced wetland issues there, and I commend you for it.
    Now I am here today, Mr. Chairman, members, really to 
simply state the case for what I think to be a continued 
vigorous and comprehensive Federal and state partnership in 
working towards the protection and restoration of coastal 
marshes. And much of what I am going to say in this very brief 
summary of my testimony, Mr. Chairman, is simply to state for 
the record, I am going to repeat things probably that a lot of 
you already know and have heard one thousand times here in 
Louisiana, but this is a Committee hearing that will be 
published in the record and the hearing testimony will be 
distributed to people who do not know about these issues, and I 
would like for the record to state how we see some of the 
problems.
    As you know, the losses of coastal wetlands we saw on this 
overflight were really incomprehensible in light of the 
significant risk to life and property, to the ecology of the 
region and to the future of the economic, social and cultural 
aspects of people's lives. When you look at it from a national 
perspective, suffice it to say that coastal waters support 
about 28.3 million jobs and generate about $54 billion in goods 
and services every year. The coastal recreation and tourism 
industry is the second largest employer in the nation, serving 
180 million Americans visiting the coast lines every year. And 
the commercial fish and shellfish industry is also very 
important, contributing about $45 billion to the economy every 
year, while recreational fishing contributes about $30 billion 
to the U.S. economy annually. So we are talking about a very, 
very important resource to the nation.
    Mr. Chairman, members of the Committee, this month is also 
National Wetlands Month and I would like to simply review for 
the record some of the major points regarding wetlands that may 
provide I think a framework for this important hearing.
    As you all know, wetlands are not only aesthetically 
pleasing and provide valuable fish and wildlife habitat, but 
they also provide valuable economic functions. Wetlands slow 
the flow of floodwaters, retain them and gradually release them 
downstream, protecting downstream landowners from flooding 
impacts. Wetland vegetation protects property by reducing 
shoreline erosion through binding loose sediments in their 
network of roots, dampening waves and reducing current 
velocity.
    Near urban areas, wetlands act to recharge groundwater, 
providing sufficient quantities of water for public use. 
Wetlands intercept containments and surface water by trapping 
and filtering waste, sediments and nutrients before the water 
is sent to rivers, bays and the ocean.
    The nation has lost nearly half of the wetland acreage that 
existed in the lower 48 states prior to European settlement. 
Coastal wetlands are valuable resources because they protect 
against flooding, to help maintain water quality and provide 
habitat for a myriad of fish and wildlife species, many of them 
threatened and endangered.
    Coastal environments generate billions of dollars annually, 
as I mentioned earlier, through such industries as tourism, 
sports and commercial fisheries. And coastal wetlands also 
provide infrastructure protection by reducing damage from 
hurricanes and other storms.
    Louisiana's coastal wetlands provide habitat for fisheries, 
water fowl, neotropical birds and furbearers; protection of oil 
and gas exploration and production, and waterborne commerce; 
amenities for recreation, tourism, flood protection; and the 
context for a culture unique to the world. Benefits go well 
beyond the local and state levels by providing positive 
economic impacts to the entire nation.
    Approximately 40 percent of the coastal wetlands of the 
lower 48 states are located here in Louisiana. Over the past 50 
years, Louisiana has lost an average of 40 square miles of 
marsh a year and this represents 80 percent of the nation's 
annual coastal wetlands lost for the same period. If the 
current rate of coastal wetland loss is not slowed, by the year 
2050 an estimated additional 640,000 acres of wetlands will 
disappear from the Louisiana coast. As a result, the Louisiana 
shoreline could advance inland as much as 33 miles in some 
areas. That would have you, Mr. Chairman, representing fish and 
not people, I should like to say.
    Mr. Tauzin. Well, we let fish vote in this state.
    Mr. Westphal. The loss of coastal wetlands is a national 
problem. However, Louisiana is a showcase for this issue. 
Economic losses are estimated to be $4,300 an acre per year, a 
substantial impact to the local and national economy. Extending 
these economic losses over a 50-year period brings the total to 
an estimated $57.8 billion.
    By serving as a buffer to destructive climatic forces and 
the episodic impact storms, Louisiana's coastal wetlands 
provide protection for the people who live and work there and 
the infrastructure that supports them, including 400 million 
tons of waterborne commerce a year, which is the largest in the 
nation, natural gas valued at $7.4 billion per year and 
petroleum products valued at $30 billion per year.
    Concerns for wetland losses have prompted by Louisiana and 
Congress to act. In 1989, Louisiana established a dedicated 
Wetlands Trust Fund for coastal wetland restoration. Congress 
passed the Coastal Wetlands Planning, Protection and 
Restoration Act in 1990, they commonly refer to that as the 
Breaux Act because of the great leadership provided by Senator 
John Breaux as its primary sponsor. In creating the CWPPRA task 
force that provided oversight and develops annually a list of 
high priority projects to focus on marsh creation and 
restoration, protection and enhancement, I think this 
legislation has gone a long way to addressing this very, very 
important issue. Using Federal and state funds, total 
restoration project investment can exceed $40 million per year.
    To date, eight priority project lists have been formulated 
involving 81 active projects, 30 of which have been completed. 
When implemented, these projects will reduce the loss of 
coastal wetlands by 67,726 acres over the next 20 years. In 
addition to CWPPRA, the Corps can use its Section 204, 206 or 
1135 authorities to construct small environmental projects 
where Federal costs are less than $5 million. Considering the 
staggering rate of wetlands loss, the CWPPRA and other Corps 
small project authorities are also a partial solution. 
Projections are that only 23 percent of coastal wetlands losses 
will be offset by gains accomplished under these authorities. 
Therefore, I support reauthorization of the Breaux Act as an 
integral foundation to the implementation of a more 
comprehensive, longer-term solution to the national problem of 
coastal losses.
    There is a critical need to find ways to address coastal 
losses which are comprehensive, large scale and sustainable. 
The recently completed Coast 2050 plan here in Louisiana could 
serve as a foundation for a new consensus-based integrated 
approach to dealing with coastal wetlands losses. Coast 2050 
was developed under the authority of the Breaux Act, it was a 
joint planning initiative by Louisiana Wetland Conservation and 
Restoration Authority and the Breaux Act Task Force and the 
Louisiana Department of Natural Resources.
    The main features of the plan involve the restoration of 
natural processes through water management such as river 
diversions and hydrologic restoration, and watershed structural 
repair such as restoration of barrier islands. Institutional 
processes such as coordinating mitigation planning and 
restoration efforts and implementing best management practices, 
are part of the plan. Also part of the plan are coastwide 
strategies, such as dedicated dredging for wetland creation, 
grazing control, and terracing. Regional strategies are far too 
numerous to mention, but include restoring upper basin swamps, 
barrier island restoration, marsh creation with dredge 
material, river sediment and fresh water distributions, 
shoreline protection and delta building. Construction of the 
plan would cost about $14 billion.
    Mr. Chairman, members of the Committee, the Army is 
committed to a strong ecosystem restoration and protection 
program. As you know, the President in his fiscal year 2000 
budget submission proposed a one billion dollar lands legacy 
initiative. And to the extent that H.R. 701 and 798 provide 
dedicated funds for that purpose, we stand ready to partner 
with the states and the Federal agencies to restore and protect 
the nation's wetlands.
    I did get, Mr. Chairman, a copy of Congressman Miller's 
statement for the record and I want to just point out one of 
the things that he says in there that I think is instructive, 
he ends his statement by saying that the similar goals of the 
two bills are more important than the differences between them 
at this point. And you have an opportunity to sit down and 
craft a reasonable compromise between them that assures a 
balanced program and a politically sellable vehicle. I think 
you have a lot to work with in these pieces of legislation. We 
stand ready to support and help those efforts, along with the 
President's proposal. We look to your leadership, Mr. Chairman, 
and that of the Committee, to help guide this process forward 
and we stand ready to implement whatever decisions are made by 
the Congress.
    [The prepared statement of Mr. Westphal follows:]

 Statement of Dr. Joseph W. Westphal, Assistant Secretary of the Army 
 for Civil Works on Coastal Wetlands and Programs, U.S. Army Corps of 
                               Engineers

    Mr. Chairman and Members of the Committee: Thank you for 
the opportunity to testify on the importance of wetlands to the 
Nation and Army programs which have been successful in 
restoring and protecting those resources. I am Joseph W. 
Westphal, Assistant Secretary of the Army for Civil Works.
    Wetlands can generally be divided into two groups, tidal 
(coastal) wetlands and non-tidal (inland) wetlands. Vegetation, 
hydrology, and soil composition, all contribute to defining a 
wetland. Wetlands are not only aesthetically pleasing and 
provide valuable fish and wildlife habitat, they also provide 
valuable economic functions. Wetlands slow the flow of flood 
waters, retain them, and gradually release them downstream, 
protecting downstream landowners from flooding impacts. Wetland 
vegetation protects property by reducing shoreline erosion 
through binding loose sediments in their network of roots, 
dampening waves, and reducing current velocity. Near urban 
areas, wetlands act to recharge groundwater, providing 
sufficient quantities of water for public use. Wetlands 
intercept contaminants in surface water runoff from streets, 
highways, and parking lots, by trapping and filtering wastes, 
sediments, and nutrients before the waters enter rivers, bays, 
and the ocean.
    The nation has lost nearly half of the wetland acreage that 
existed in the lower 48 States prior to European settlement. 
Based upon a set of important principles the Clinton 
Administration issued, in August 1993, over forty comprehensive 
wetlands reform initiatives in order to begin to reverse the 
historic trend of wetland loss. The initiatives act to improve 
responsiveness to the public, provide a streamlined permit 
process for minor projects, expand partnerships between 
Federal, State, and local agencies, avoid unnecessary 
requirements for the average citizen, and encourage advance 
planning and wetlands restoration activities. These reforms 
support a goal of ``no net loss'' of wetlands and will increase 
the quality and quantity of our nation's wetlands resource base 
in the future.
    Coastal wetlands are valuable resources because they 
protect against flooding, help maintain water quality, and 
provide habitat for myriad fish and wildlife species, many of 
them threatened and endangered. Coastal environments are 
important economically because they generate billions of 
dollars annually through such industries as tourism and sport 
and commercial fisheries. Coastal wetlands also provide 
infrastructure protection by reducing damage from hurricanes 
and other storms.
    Louisiana's coastal wetlands provide habitat for fisheries, 
waterfowl, neotropical birds and furbearers; protection for oil 
and gas exploration and production, and waterborne commerce; 
amenities for recreation, tourism, flood protection; and the 
context for a culture unique to the world. Benefits go well 
beyond the local and state levels by providing positive 
economic impacts to the entire nation.
    Coastal wetland habitats in Louisiana serve as the 
foundation for a $1 billion annual seafood industry, a $200 
million annual sport hunting industry, a $14 million alligator 
industry, valuable fur resources, wild crawfish resources, 
hardwood timber and commercial livestock range lands that 
equate to thousands of jobs critical to the economies of many 
coastal communities.
    More than 1.1 billion pounds of fish and shellfish are 
harvested annually from Louisiana waters. Domestic and 
commercial landing statistics indicate that Louisiana provides 
more fishery landings than any other state in the lower 48. In 
fact, as much as 16 percent of the nation's fisheries harvest, 
including shrimp, crabs, crayfish, oysters and many finfish, 
comes from Louisiana's coast. Over 75 percent of Louisiana's 
commercially harvested fish and shellfish are dependent on 
wetlands.
    Approximately 40 percent of the coastal wetlands of the 
lower 48 states are located in the State of Louisiana. This 
fragile environment is disappearing at an alarming rate--every 
24 minutes Louisiana loses another acre of land. Over the past 
50 years Louisiana has lost an average of 40 square miles of 
marsh a year. This represents 80 percent of the Nation's annual 
coastal wetland loss for the same period. While less in the 
1990s, losses continue at a rate of 25 to 35 square miles per 
year. There are numerous causes for these losses, but the 
leading causes are disruption of natural hydrology (and 
sediment replenishment), development, agricultural and urban 
run-off, shoreline modification, municipal waste disposal, oil/
gas operations and chemical spills. Buffeted by the forces of 
erosion and impacted by the disruption of natural replenishment 
of sediments, marsh subsidence has become a major problem. 
Thousands of acres of marsh are converting to less productive 
open water ponds, often fraught with dissolved oxygen problems. 
If the current rate of coastal wetland loss is not slowed, by 
the year 2050 an estimated additional 640,000 acres of wetlands 
will disappear from the Louisiana coast. As a result, the 
Louisiana shoreline could advance inland as much as 33 miles in 
some areas.
    The loss of coastal wetlands is a national problem. 
However, Louisiana is the prime example and foremost 
battleground. As a result of these losses, there are 
significant decreases in flood protection, hurricane 
protection, and habitat inhabited by myriad fish and wildlife 
species, some threatened and endangered. Water quality is 
adversely impacted because wetlands are no longer available to 
filter contaminants and pollutants. Water supply is affected by 
subsidence and the advance of saline water inland which reduces 
groundwater recharge areas and allows saltwater intrusion into 
the groundwater. Adverse impacts occur to fish and wildlife 
species and habitats, private property, nature based-tourism, 
navigation, oil/gas activities, and agricultural and developed 
areas. In Louisiana, an estimated 70,000 people are directly 
engaged in wetland-dependent fisheries and in subsequent 
processing, wholesaling, and other activities, and licensed 
saltwater sports fishermen spend approximately $181 million 
annually on fishing and have nearly $1 billion invested in 
boats, gear, camps, and other equipment. Estimates indicate 
that economic losses are at $4,300/acre/year, a substantial 
impact to the local and national economy. Extending these 
economic losses over a 50 year period brings the total to an 
estimated $57.8 billion.
    By serving as a buffer to destructive climatic forces and 
the episodic impact of storms, Louisiana's coastal wetlands 
provide protection for the people who live and work there and 
the infrastructure that supports them. More than 400 million 
tons of waterborne commerce (the largest in the nation) move 
within the coastal channels each year. Those wetlands contain 
ten major Federal navigation channels that provide access to 
port facilities across the state. Louisiana's coastal wetlands 
also help to protect nationally significant oil and gas 
facilities. An estimated 21 percent of the nation's natural gas 
supply, valued at $7.4 billion per year, originates from 
Louisiana wetlands. Additionally, petroleum products valued at 
$30 billion per year are produced in Louisiana coastal zone 
refineries.
    Concerns for wetland losses have prompted both Louisiana 
and Congress to act. In 1989, an amendment to the Louisiana 
Constitution established a dedicated Wetlands Trust Fund for 
coastal wetlands restoration. Through this fund, up to $25 
million per year in state oil and gas lease payments, royalties 
and severance tax collections were dedicated to wetlands 
restoration in coastal Louisiana. Congress passed the Coastal 
Wetlands Planning, Protection and Restoration Act (CWPPRA) in 
1990. This Act is commonly referred to as the Breaux Act 
because of the leadership of Senator John Breaux as the primary 
sponsor. It contains two components. The first component, the 
National Coastal Wetlands Conservation Grant Program, 
authorizes the USFWS to provide matching grants for the 
acquisition, restoration, management, or enhancement of coastal 
wetlands (about $6 million annually; excludes Louisiana). Under 
the second component, a CWPPRA Task Force (DA, DOC, DOI, EPA, 
USDA, Louisiana) provides oversight and develops, annually, 
lists of high priority projects focused on marsh creation, 
restoration, protection or enhancement. Under the Breaux Act 
approximately $35 million is provided annually for 
environmental restoration and protection work in the State of 
Louisiana. The Louisiana Wetlands Trust Fund provides the 
State's cost sharing contribution. Total restoration project 
investments can exceed $40 million per year.
    To date eight priority project lists have been formulated 
involving 81 active projects, 30 of which have been completed. 
When implemented, these projects will reduce the loss of 
coastal wetlands by 67,726 acres over the next 20 years. The 
CWPPRA authority limits the size of projects that can be 
implemented. In addition to CWPPRA, the Corps can use its 
Section 204, 206, and 1135 authorities to construct small 
environmental projects where Federal costs are less than $5 
million. However, competition for the limited funds provided by 
these programs is intense and there are many needs across the 
county. Considering the staggering rate of wetland loss, the 
CWPPRA and the other Corps small projects authorities are only 
a partial solution. Projections are that only 23 percent of 
coastal wetland losses will be offset by gains accomplished 
under these authorities.
    There is a critical need to find ways to address coastal 
losses which are comprehensive, large scale, and sustainable. 
The recently completed COAST 2050 plan could serve as the 
foundation for a new consensus-based, integrated approach to 
dealing with coastal wetland losses. COAST 2050 was developed 
under the authority of Breaux Act. It was a joint planning 
initiative by the Louisiana Wetland Conservation and 
Restoration Authority, the Breaux Act (CWPPRA) Task Force, and 
the Louisiana Department of Natural Resources. The goal was to 
develop a strategic plan to protect and sustain the State's 
coastal resources for future generations in a manner that is 
consistent with the welfare of the people. Coastal restoration 
strategies were solicited from regional planning teams and 
their effects were evaluated. Resources and their uses were 
identified and prioritized. This plan should provide the basis 
for a coastal policy that will help coordinate strategies among 
the Federal and State coastal restoration programs and the 
State Coastal Zone Management Program.
    The Coast 2050 process was intended to increase the number 
of implementable projects and improve performance and 
effectiveness of Breaux Act projects. Part of the Coast 2050 
initiative involved communicating to the public the extent of 
the problem and the need for coastal restoration. Each parish 
and local community was asked to describe what they would like 
their region to look like in the year 2050 and to partner with 
the agencies to develop strategies to address those problems 
and needs. In addition, the goal of the Coast 2050 initiative 
was to develop a technically sound strategic plan to sustain 
coastal resources and consider coastal wetland restoration 
needs within the context of needs for transportation, hurricane 
protection and the general welfare of the population.
    The main features of the plan involve the restoration of 
natural processes through watershed management (such as river 
diversions and hydrologic restoration), and watershed 
structural repair (such as restoration of barrier islands). 
Institutional processes, such as coordinating mitigation 
planning with restoration efforts and implementing best 
management practices, are part of the plan. Also part of the 
plan are coastwide strategies, such as dedicated dredging for 
wetland creation, grazing control, and terracing. Regional 
strategies are far too numerous to mention, but include such 
measures as restoring upper basin swamps, barrier island 
restoration, marsh creation with dredge material, river 
sediment and freshwater distributions, shoreline protection, 
and delta building. Construction of the plan would cost about 
$14 billion.
    The Coast 2050 plan is already serving as the basis for 
long term solutions. The Breaux Act agencies are now using 
Coast 2050 strategies to formulate candidate projects for the 
9th priority project list. However, the funding of projects 
selected on the 9th and subsequent lists will depend on the 
reauthorization of the Breaux Act this year. I support that 
reauthorization as an integral foundation to the implementation 
of more comprehensive, longer-term solutions to the National 
problem of coastal losses. Many more projects are needed to 
ensure a sustainable coast that retains the functions and 
values of a natural ecosystem.
    As you know, the President has proposed a Lands Legacy 
Initiative as part of the FY 2000 Budget. This initiative calls 
for permanent funding for many of the same purposes as the 
subject legislation. Specifically, the budget provides 
approximately $1 billion within a balanced budget in FY 2000 
and a permanent funding stream of at least $1 billion/year 
beginning in FY 2001. The principles that underlie the 
Administration's Lands Legacy Initiative are provided as an 
attachment to this testimony.
    Mr. Chairman, thank you for the opportunity to testify on 
the importance of wetlands to the Nation and Army programs 
which have been successful in restoring and protecting those 
resources. This concludes my statement. I will be pleased to 
answer any questions you or other members of the Committee may 
have.

    Mr. Tauzin. Mr. Westphal, we thank you for your 
participation and particularly for your attendance. You have 
engaged with these issues all weekend long, you actually 
attended the tours and visited the sites and we appreciate 
deeply your personal attention.
    Secretary Westphal is accompanied today and I would like to 
recognize the District Engineer, Colonel William Connor, who is 
here along with the Chief Engineer, Mr. Robert Tisdale. We 
thank you all for the enormous work of the Corps of Engineers. 
We beat up on the Corps a lot when it comes to wetland 
permitting and what-have-you, but Secretary Westphal, I would 
like you to share with everyone a compliment you received just 
yesterday. You met one of the most courageous people in our 
state yesterday, you were kind enough to come with me to 
Chadway to visit my mother who just recovered from a third and 
again successful cancer surgery, she has had three killer 
cancers--breast, lung and now uterine cancer--and over the 
course of the last 40 years, she has beat them all. And 
Secretary Westphal came out to Chadway to visit her with me and 
I would like for you to share with the audience what my mother 
had to say about the Corps of Engineers.
    Mr. Westphal. Well, first of all, I think we were 
addressing her as the bionic lady, she and your daddy, who died 
several years ago, I think represent the great values of people 
who come from Louisiana and have lived and worked so hard here. 
She--of course the Corps has been an integral part of life in 
this state and she shared her thoughts about that, which I 
think also I hear from everybody else that I talk to in 
Louisiana. We are an integral part, sometimes I think we are 
more of a state agency than a Federal agency down here.
    Mr. Tauzin. In fact, she had just gone on a river cruise 
before her operation, and she had seen first-hand the great 
work of the Corps in maintaining the river's levee structures 
that protect our state, provide the transportation system on 
that great river and drain 33 states of our nation, and how 
critical the maintenance of those systems are to life here in 
Louisiana, and she was telling Secretary Westphal how much she 
personally--and I think she spoke for all of us in Louisiana--
appreciated the Corps and wanted them to know that sometimes we 
do not say thank you enough.
    And Secretary Westphal, again, we thank you for your help.
    Mr. Westphal. She commented on the good work done on the 
shoreline, on the bank protection that the Corps had done on 
the Mississippi.
    But I do think that the Corps can be part of the solution 
here and throughout the nation. We have tremendous resource 
capability in terms of our experience and as I said to you, Mr. 
Chairman, and to the members of the Committee, we stand ready 
to do whatever Congress directs us to do.
    Mr. Tauzin. Mr. Secretary, thank you so much.
    Mr. Westphal. Thank you.
    Mr. Tauzin. Other members of the Committee? Mr. John.
    Mr. John. I was just going to be very brief because I 
really want to hear from the President also, Mr. Rousselle.
    Mr. Secretary, you and your agency and of course Colonel 
Connor, will play a very important role after the passage of 
this piece of legislation, into implementing the bricks and 
mortar and the sweat, to be able to get the end result of what 
we all want to see and what we have been talking about.
    We flew over a couple of projects that have obviously been 
monitored and maybe even constructed by the Corps and I want to 
get your comment on two in particular. Freshwater diversion 
projects that seem to be working, that seem to be providing 
some of the freshwater out of the Mississippi River and the 
nutrients into our marshes to let them thrive. There is a 
controversy over the amount of those and how much water can be 
taken out as it relates to commerce. Is that a real concern 
that we should have? Because I frankly personally think that 
the freshwater diversion projects out of the Mississippi have 
profound positive impacts, because what it does is, if you have 
read the Rising Tide book, what it does is actually 
redistribute the marshes in a natural setting that it was 
before the channelization of the river.
    Mr. Westphal. Right. It is my understanding, and I am going 
to try as I go back to Washington, to get better information on 
this, but it is my understanding that that is not a problem 
necessarily, unless of course the flows are very, very low when 
we have experienced a very serious drought, but at most times 
of the year the diversions can be made. But I have to tell you 
that it is not something that I was focused on before coming. 
We looked at those projects from the air and in fact, I 
discussed them with your State Director of Natural Resources 
and I am leaving here to go look at additional projects and 
again talk about it.
    Mr. John. Okay.
    Mr. Westphal. I think that that is an important question, 
and of course, as has been pointed out, the sediments that the 
Mississippi brings down are of course escaping into the gulf 
and those are the sediments that could be critical to the 
formation of these marshes and to the development of the 
marshes, that provide the barriers that we need as the Mayor 
pointed out, even the barriers to the city.
    Mr. John. Right, I think it is a two-fold problem. As the 
Mississippi flows down and the nutrients are carried, it 
provides blockages for commerce down around the mouth that you 
guys have to be day in and day out dredging, where we could 
actually divert some of that. And it would seem to me that a 
very calculated set of freshwater diversion projects that are 
relatively inexpensive in the whole mindset of recreating 
marsh, they are really not that expensive when you are talking 
about several pipes that are laid right over the levee.
    I would think that those could be monitored in times of 
drought and in times of flood, you could flush more water 
through. So I think that that is something that this Committee 
I know talked a lot about, that could have a profound, very 
quick impact on restoration and introduction or reintroduction 
of freshwater into some of those marshes.
    Mr. Westphal. Congressman John, you are right, and also, 
you know, we have not really talked about the water quality 
issues associated with some of this. And as you know, we have 
been experiencing over the years this hypoxia phenomenon in the 
gulf with the large amount of nutrients flowing in. Those 
nutrients, if diverted into the marsh, could actually help to 
grow the marsh and of course wetlands are a way of repairing 
that. So we see that as a double benefit. We may be able to 
address the hypoxia problem in the gulf that is affecting the 
fisheries industry in a significant way and at the same time be 
able to provide a positive benefit to the development of 
saltwater marshes.
    Mr. John. And finally--and I know I have probably taken too 
much time--we also flew over extensively not only the marsh and 
the estuaries, but we flew over the actual coast line and saw 
some of the devastation from hurricane Georges and other 
hurricanes. We saw deteriorating barrier islands, Breton Sound 
and the other type of islands, and one of the guides on our 
aircraft talked about one of the solutions to this, which would 
be an ongoing solution, would be to replenish a lot of the 
beaches from the natural sand that is being dumped offshore, I 
think he said over in Ship Shoal, which has lots and lots of 
sand. I mean the hopper dredges are a question. I know you use 
those dredges a lot, but those are the kinds of things that you 
will be engaged in when and if this piece of legislation 
passes, because you will be providing the actual resources to 
recreate some of the barrier islands. Mayor Morial made a great 
point, he said not only do I want parks, I want to save our 
city, and by having a healthy coast line to create that kind of 
barrier, I think it is important.
    Mr. Tauzin. Thank you, Mr. John. Other members of the 
Committee?
    [No response.]
    Mr. Tauzin. Thank you very much. Let me add that, you know, 
there was legislation at one point during the Reagan years, 
Senator Breaux and I pursued to require the Corps to take the 
dredge material that was being dumped, dredged and put on 
barges and just dumped overboard into the--off the continental 
shelf at the mouth of the river, to take it and instead barge 
it over to where it might be useful for barrier island 
restoration. And unfortunately, at that time, there was 
resistance in that effort and in fact, the administration 
threatened to veto the budget bill unless that language was 
removed. Perhaps we ought to revisit those considerations, as 
Mr. John has said, and think about it in terms now of how that 
material which is being wasted off the coast, off the shelf, in 
fact causing--maybe causing some of that hypoxia--might be more 
usefully distributed in the wetland areas.
    We are going to hear from one of the Parish Presidents in 
just a second, former State Legislator and now Parish President 
of Plaquemines Parish, about the real and important benefits of 
some of the siphons in his own parish and the building up land 
along the Mississippi River. But we are also going to learn 
about the fact that if we build these diversion projects, 
Chris, we also have to make sure that we have levee systems 
built and approved by the Corps and EPA and Fish & Wildlife, 
that will also protect our people from flooding, from the 
additional water at the siphons and all this is going to 
produce in the wetland area. So it is a multi-headed dragon 
that we have got to tend to all the elements at one time.
    Secretary Westphal, we thank you again.
    Mr. Westphal. Thank you, Mr. Chairman.
    Mr. Tauzin. Again, on a personal note, let me say how much 
we appreciate having someone who cares enough about these 
problems in this department to spend the time you spent with 
us, Joe. Your secretary is going to fuss at me for calling you 
Joe, but I consider you my friend and Louisiana now considers 
you her friend. Thank you very much.
    Mr. Westphal. Thank you, Mr. Chairman, thank you, members.
    Mr. Tauzin. I know that you and Colonel Connor have to 
attend to your business and we would be pleased to excuse you 
at this time. Thank you again, Colonel Connor, for all you do.
    Let me now introduce the very patient President of 
Plaquemines Parish in Belle Chasse, Louisiana. Benny Rousselle 
is a former of the Louisiana State Legislature and so has seen 
these problems from the state perspective and now from a parish 
perspective, as Parish President. Benny, we appreciate your 
testimony, sir, thank you for being so patient.

 STATEMENT OF BENNY ROUSSELLE, PRESIDENT, PLAQUEMINES PARISH, 
                    BELLE CHASSE, LOUISIANA

    Mr. Rousselle. Thank you, Mr. Chairman, members of the 
Committee. I have submitted written testimony as well.
    Today, I probably will give you testimony on more of a 
local arena than you have seen earlier today.
    Plaquemines Parish is the southernmost parish in Louisiana. 
It extends southeastward for 90 miles from New Orleans into 
deeper waters of the Gulf of Mexico. The southern half of the 
parish is a peninsula surrounded by waters of the Gulf of 
Mexico and bisected by the Mississippi River. The parish is a 
product of the Mississippi River, having been created through 
sediment deposition over a 4,500 year period. Natural levees 
comprise about 8 percent of the parish, while drained swamp and 
marshland adjacent to the parish cover another 6 percent, for a 
total of approximately 60,000 acres. Barrier beaches and spoil 
disposal areas at South Pass and Southwest Pass comprise 
another 6 percent of the parish.
    The vast majority of Plaquemines consists of low lying 
wetlands that are being lost at a rate of nine square miles per 
year, 384 square miles since 1956. This land loss is the result 
of a combination of both natural, but primarily manmade 
factors, including construction of pipeline canals and rig 
access canals, dredging of navigational channels, leveeing of 
the Mississippi River, which you have heard about, saltwater 
intrusion into freshwater habitat, extraction of water and 
hydrocarbons, a decrease in sediment being carried by the 
river, subsidence, a rise in sea level, wave erosion and 
faulting.
    Plaquemines Parish has been a staging platform and support 
base for the outer continental shelf mineral exploration and 
production since the 1950s. Land use activities and facilities 
directly related to OCS activities include ports, shipyards, 
supply/service bases, refineries, pipe coating/storage yards, 
gas processing plants, heliports, deep-draft channels, and 
pipelines. Over 40 OCS pipelines enter Plaquemines Parish, of 
which many traverse the length of the parish to convey 
hydrocarbons to storage areas or processing plants and 
refineries in other parts of the state and nation.
    Approximately 100 companies conduct OCS mineral related 
operations from the Port of Venice and other ports and dock 
facilities located within the parish. Four refineries that 
process oil, gas and sulfur extracted from the OCS are located 
in the parish. Plaquemines Parish also provides landfall from 
the gulf and linear corridors for OCS product pipelines. At 
least 20 interstate pipeline companies have pipeline facilities 
in the parish.
    The achieved success in OCS production has not come without 
a price. It has come at the expense of numerous impacts on the 
natural and human environment to Plaquemines Parish. As a 
result of OCS activities, valuable wetlands have been lost or 
degraded through primary and secondary impacts associated with 
the installation and maintenance of OCS pipelines and booster 
stations, processing, storage and staging facilities and 
associated development.
    Canals constructed for OCS pipelines and navigation removed 
wetlands directly at the time of construction, and secondarily 
through boat wake and wind generation erosion of canal banks. 
Incidental oil spills and release of non-hazardous oilfield 
wastes can degrade or destroy wetlands and submerge aquatic 
habitat. This has had traumatic effects on the commercial 
fishing industries, including oysters, shrimp and finfish.
    Since 1956, Plaquemines Parish has lost approximately 
246,000 acres or 284 square miles of its wetlands and marshes. 
The current disappearance of wetlands and marshes is 5,717 
acres, or nine square miles per year. Much of this loss is 
directly attributable to OCS-related activities. The loss of 
these wetlands adjacent to hurricane protection levees poses a 
threat to populations from approaching storms and tidal surges. 
Wetlands and marshes serve as a first wave of defense to absorb 
and reduce the surge impact upon protection levees. With their 
disappearance, Plaquemines will have to increase the height of 
these levees to ensure the safety of its people.
    Water quality has been and continues to be degraded through 
illegal discharges from marine vessels, point source discharges 
from processing storage and staging facilities, oil spills and 
release of non-hazardous oilfield waste. Loss of wetlands 
flanking the natural levees and developed sites also contribute 
to the degradation of water quality because the vegetation is 
no longer present to filter potential pollutants running off of 
upland and developed sites.
    The human environment of Plaquemines Parish, as related to 
infrastructure, services, socio-economics and general way of 
life, also has experienced impacts from OCS activities and 
facilities. For example, highways which are primarily used by 
local population and serve as hurricane emergency evacuation 
routes have had to be upgraded and require more frequent 
maintenance as a result of increased heavy truck traffic 
associated with the OCS-related activities. The higher truck 
volumes have resulted in traffic congestion and public safety 
concerns with which the parish must contend. Sustaining the 
nationally strategic OCS-related development and support bases 
in Plaquemines requires that the parish expend considerable 
funds on equipment, materials and personnel to maintain 
extensive flood protection levees and drainage districts along 
both sides of the Mississippi River. Support of direct and 
indirect OCS-related facilities and businesses has placed a 
high demand on the parish for potable water, public utilities, 
solid waste disposal sites and non-hazardous oilfield waste 
disposal.
    Increases in local and transient populations associated 
with OCS activities have required the parish to provide 
additional services in the areas of emergency response, police, 
schools, education, recreational areas and activities, 
hospitals, general medical treatment and social services. 
Furthermore, the parish has had to maintain a high level of 
emergency response readiness to evacuate large numbers of OCS 
personnel, equipment and vehicles via the protected Mississippi 
River prior to hurricane landfalls. During cyclical downturns 
in the OCS economy, the parish must still maintain the existing 
services and infrastructure for the local population as well as 
provide additional social services. However, there is hope for 
Plaquemines' future from potential benefits of the legislation 
that you are now considering.
    And how the parish will make use of the funds generated by 
such legislation, I can tell you that Plaquemines Parish will 
be challenged with goals to combat continuing environmental 
impacts from the OCS activities. The potential funding 
available as a result of passage of one or both of the proposed 
bills is crucial to the parish's ability to achieve these 
goals. Under the Conservation and Reinvestment Act of 1999, 
funds would be allocated as follows: Title I, Coastal 
Restoration; Title II, Land Acquisition and Recreation, and 
Title III, Wildlife Conservation and Education, including 
Wetland Habitat, Restoration and Acquisition. In Louisiana, 
Title I funds could be also allocated for mitigating on-shore 
impacts of OCS activities, such as the infrastructure and 
public services. Louisiana's recently released report Coast 
2050, which you have heard about today, toward a sustainable 
coast of Louisiana identified a number of regional ecosystem 
strategies for conserving and restoring wetlands in coastal 
Louisiana. Also recently, Plaquemines Parish formed a Coastal 
Zone Management Program in conjunction with the Louisiana 
Department of Natural Resources Coastal Management Division and 
operates in accordance with the CZM Act created by Congress.
    Within Plaquemines Parish, strategies have been developed 
which include managing outfall of existing diversions at 
Canarvine and Larose and West Pointe-a-la-Hache, which you 
probably saw in your flight; constructing more effective small 
diversions east and west of Empire; continue building and 
maintaining delta splays along the Mississippi River, which the 
Corps is instrumental in their work; using existing locks to 
divert Mississippi River water at Empire; constructing a 
sediment trap in the Mississippi River south of Venice and 
double handle dredged material to create new marsh in the 
Birdsfoot Delta; constructing delta-building diversions in the 
areas of Myrtle Grove/Naomi, Bastion Bay, Benny's Bay, American 
Bay, Quarantine Bay. Another one, preventing loss of bedload 
off the continental shelf by relocating the Mississippi River 
navigational channel south of Venice. Constructing wave 
absorbers at the head of bays such as Lake Washington/Grand 
Ecaille area and upper Breton Sound basin; constructing reef 
zones across bays to enhance estuarine fisheries habitat; 
extending and maintaining barrier shoreline from Sandy Point to 
Southwest Pass.
    Utilizing OCS funds would enable Plaquemines Parish to 
implement or assist the state in implementing some wetland 
conservation and restoration strategies sooner. This would be 
of direct and immediate benefit to the parish. In addition, 
funding could be used to address economic issues related to 
natural resource harvesting, especially oyster growing and 
leased areas that would be impacted by the delta-building and 
freshwater diversion strategies for creating or conserving 
wetlands.
    Funding directed toward restoration and maintenance of 
wetlands and water quality would benefit economic activities 
related to the harvesting of renewable resources such as 
commercial fisheries and trapping. This funding also would 
sustain water-based recreational opportunities including sport 
fishing, crabbing, boating, sightseeing, birdwatching and 
expand new business and educational opportunities related to 
eco-tourism.
    That concludes my formal testimony and I would like to 
thank all of you for coming to Louisiana and especially 
Congressman Tauzin for hosting us as the Chairman today, and I 
would also like to thank Senators Landrieu and Breaux for their 
help in moving this issue forward. And I would be glad to try 
to answer any questions that you may have.
    [The prepared statement of Mr. Rousselle follows:]
    [GRAPHIC] [TIFF OMITTED] T6598.153
    
    [GRAPHIC] [TIFF OMITTED] T6598.154
    
    [GRAPHIC] [TIFF OMITTED] T6598.155
    
    [GRAPHIC] [TIFF OMITTED] T6598.156
    
    [GRAPHIC] [TIFF OMITTED] T6598.157
    
    [GRAPHIC] [TIFF OMITTED] T6598.158
    
    [GRAPHIC] [TIFF OMITTED] T6598.159
    
    [GRAPHIC] [TIFF OMITTED] T6598.160
    
    [GRAPHIC] [TIFF OMITTED] T6598.161
    
    [GRAPHIC] [TIFF OMITTED] T6598.162
    
    [GRAPHIC] [TIFF OMITTED] T6598.163
    
    Mr. Tauzin. Thank you so much, Benny.
    Let me perhaps focus on--going back to Chris John's point 
that he talked about in terms of the siphons and reallocated 
water from the Mississippi River. If we looked a lot on the 
west side of the Mississippi River in terms of our Committee's 
field trip, on the east side of the river, of course, if Junior 
Rodrey was here, he would applaud your call for relocating the 
MRGO. The MRGO, members of the panel, is the Mississippi River 
Gulf Outlet, an artificially created channel for deepwater 
shipments into the Port of New Orleans, that instead of going 
up the river, long and tenuous 90 miles, ships were able to 
come up this very straight but artificial channel. But guess 
what? It introduced more saltwater into the marshes and even 
into Lake Borgne and Pontchartrain and caused great problems, 
and Junior would applaud your comments.
    So the problems of Plaquemines and St. Bernard, the two 
great communities below New Orleans, which are totally coastal 
communities except for this urban interface, you have discussed 
with us today. Tell us how well those siphons are working, how 
well does a water diversion project work and then what problems 
does it cause? You mentioned fishermen, oystermen. There is a 
conflict, is there not? There are real problems with making 
these things effective.
    Mr. Rousselle. Yes, there is a conflict, as you said, but I 
think that we have come a long way in the last several years 
about trying to mesh the oyster and fishing industries with the 
concept that the freshwater diversions are a necessary part of 
restoring our coast line. They basically introduce freshwater 
to retard the saltwater intrusion, to protect the grasses. But 
what we really need, we need coastal restoration of barrier 
islands and some really heavy duty projects.
    Mr. Tauzin. Why is that so important, Benny?
    Mr. Rousselle. Well, because the tidal flow now, as it used 
to come through small bayous that were there when you had 
coastal barrier islands, was not as great. Now you have nothing 
to protect the inflow of the tide and it just washes the marsh 
out at a critical rate, where before it would be--it would rise 
to bayous and natural bays at a lower rate and it would not 
come in and do as much damage as it does now with the wave 
action.
    Mr. Tauzin. I remember a few years ago when the saltwater 
intrusion rates were so high that this great city was 
threatened with saltwater in its water system; is that not 
right?
    Mr. Rousselle. That is true. We also have projects where we 
are now pumping water from the Belle Chasse area 70 miles to 
the southern end of the parish because of saltwater intrusion 
into the river, but on the outside of the levee districts, as 
you heard the Mayor say that he was concerned about his city, 
but we are concerned because we are the buffer that he was 
referring to about protecting his city. So naturally we are in 
the first line of defense and we are as concerned as he is, but 
a little more, since we are there.
    Mr. Tauzin. And I guess you have got to come through the 
city to get out.
    Mr. Rousselle. That is another situation. But we feel that 
the legislation that is being proposed will go a long way in 
trying to re-establish a coast line and we hope to work with 
the Corps of Engineers and that the Corps of Engineers moves in 
the direction of using that beneficial dredge material from the 
river to re-establish coast line. And you mentioned the 
freshwater diversion structures that are in operation now. As a 
local government, before I sent to the legislature, I was a 
council member, and we passed a bond issue and we built those 
with local funds to try to do something about the coastal 
restoration and the state came in and helped fund those after 
we had them on the drawing board.
    Mr. Tauzin. This was a local initiative to start out with.
    Mr. Rousselle. It was actually a bond issue that we made 
available to the public and they voted on it because they 
realized the significant importance of the marshes that 
surround the levees. And even as we were talking about the 
fishermen and how we are going to compromise by relocating the 
fishermen, they realize that if we do not do something, they 
will be fishing oysters on the back levee, which will give them 
a limited amount of space and eventually put them out of 
business.
    Mr. Tauzin. Benny, it would be helpful for our Committee 
members to see Plaquemines Parish. Would you point it out on 
that map there?
    Mr. Rousselle. This area is Plaquemines, I guess that is 
part that washed away, but the rest of it that you see is 
there. It is something that we live with. I was interested in 
the comments that were made earlier about making the oil 
companies fill the canals and so forth. They at one time 
bulkheaded the canals and then when erosion washed away from 
the bulkheads, they were afraid of liability from boaters, so 
they pulled the plugs, which were the bulkheads and they just 
continued to erode. And if we were go back after them as 
Congressman Tauzin said, I do not know how many of them are 
left, but we do not have that type of time.
    Mr. Tauzin. We have another problem too, do we not? I mean, 
I had a long discussion with Secretary Westphal about it, but 
the wetland laws of America are built backwards when it comes 
to coastal wetlands. The wetland laws of America are designed 
to stop you from filling in potholes and hardwood bottoms and 
valuable wetlands in America by filling them in and destroying 
them. In our coastal wetland situation, we very often have to 
fill in, we have to put a barrier up to stop the saltwater or 
an interface to allow the fresh and saltwater to exchange. And 
we have got enormous problems permitting, even if we demanded 
somebody to go do it, it would take years and years for them to 
get permits to do that kind of work, would it not, if they had 
to do it as a private company?
    Mr. Rousselle. Yes, I believe that is correct.
    Mr. Tauzin. And so that getting those things done in the 
face of all those problems may be much more efficient done by 
government agencies through bond issues and state funding and 
Federal assistance, in the long run.
    Benny, one final thought. Our critics in this bill complain 
that we share money directly with you, with the counties, the 
parishes and boroughs of the county, and they claim that that 
is going to create an artificial incentive for more offshore 
development when in many parts of America, as you know, they 
object to offshore development.
    Could you answer that criticism? Why is it important that 
the money be shared directly with you in some of these cases?
    Mr. Rousselle. I believe because the local government is at 
the front line of this fight. If you look at what we are faced 
with, we are out there providing infrastructure for our local 
citizens who bare the impact of all of the OCS operations off 
of our coast. The criticism of encouraging or giving incentives 
for more drilling, I think we are past that stage, I think that 
the local governments now are trying to just recoup what was 
lost over many years.
    Mr. Tauzin. Other members of the panel, questions of Mr. 
Rousselle?
    [No response.]
    Mr. Tauzin. Benny, thanks again for your patience and I 
deeply appreciate it. Know again our commitment to make sure 
that we hold onto those positions that would give you a vital 
play in the solution to these problems.
    Mr. Rousselle. Thank you for the opportunity to testify.
    Mr. Tauzin. Thank you, sir.
    We are now going to call our second panel which will 
consist of folks in Louisiana who are on the front lines, as 
Benny Rousselle pointed out trying to solve these problems. The 
Honorable David Camardelle, Mayor of the grandest island in 
Louisiana, Grand Isle; Barry Kohl, the Director and Past 
President of Louisiana Audubon Council; Ted Falgout, Executive 
Director of Greater Lafourche Port Commission; Alan Wentz, 
Group Manager for Conservation, Ducks Unlimited; Cynthia 
Sarthou, Executive Director of Gulf Restoration Network and 
Mark Davis, Executive Director of Coalition to Restore Coastal 
Louisiana, domiciled in Baton Rouge, Louisiana.
    These, ladies and gentlemen, are folks who have been on the 
front lines of this battle and can tell us the good news and 
the bad news stories. We will start with the Mayor of Grand 
Isle, Mr. Camardelle.

STATEMENT OF HON. DAVID CAMARDELLE, MAYOR OF GRAND ISLE, GRAND 
                        ISLE, LOUISIANA

    Mayor Camardelle. My name is David Camardelle and I am the 
Mayor of Grand Isle. It is truly an honor to come before you 
today to offer some insight into the unique and special part of 
south Louisiana that I have lived in all my life and now have 
the privilege to represent. I am also honored for the 
opportunity to provide my testimony on H.R. 701, the 
Conservation and Reinvestment Act of 1999.
    Before I begin, please allow me a brief moment to do one of 
my favorite things in life and that is to talk about my good 
friend, Billy Tauzin. Considering that I may never have an 
opportunity or an audience like this again, I just cannot miss 
the chance to talk about him. Now the way that we talk about 
someone down here and they way they do in Washington is very 
different.
    You see, I have known Billy for practically all my life. I 
know his family and he knows mine. In fact, we are a family 
some way or another. We have fished together, eaten a lot of 
shrimp and crawfish together and on occasions have played a 
little bouree together. For those of you who do not know about 
bouree, all I am going to tell you is that this is a card game 
and it is still legal in Louisiana. As we coonasses say here, 
we know how to pass a good time and Billy is one of the best at 
doing it.
    I also want you to know that over the years, Billy and I 
have survived floods and hurricanes together. We have watched 
the oil and gas industry rise and fall and then rise again. We 
battled together on turtle devices, wetlands, brown pelicans 
and many other resource issues.
    I have said all of this to simply say that Bill Tauzin is 
always there for his people in the Third Congressional 
District. I know the people of Grand Isle are forever grateful 
for everything Billy has done and continues to do for us.
    Now that I have gotten all these things said about Billy 
that he asked me to say, let us get on.
    [Laughter.]
    Mayor Camardelle. So before offering my comments on H.R. 
701, allow me a few minutes to tell you about Grand Isle and 
the magnificent natural resources we have. I would also like to 
present to you the many challenges we face by virtue of being a 
small coastal community located in the Gulf of Mexico. I say 
that because we are Louisiana's only inhabited island in the 
mainland's first line of defense during the hurricane seasons. 
Please do not misunderstand me, for all the challenges and 
difficulties we face by living where we do, I would not want to 
live anywhere else in the world.
    The municipality of Grand Isle lies within the beginning, 
which is 9.4 miles of Louisiana Highway 1. As far as I am 
concerned, it is the longest street in the state of Louisiana. 
Grand Isle, Louisiana is the only barrier island resort 
positioned to provide hurricane protection to the gulf coast. 
Surrounding Grand Isle, there are 12 recorded archaeological 
sites, two of which have been determined potentially eligible 
for National Register as Historical Places--Manila Village, 
recognized by the Jefferson Parish Historical Society, is in 
close proximity to Grand Isle. The world's largest artificial 
reef donated to the State of Louisiana by Freeport Mac Marine 
is located within seven miles off the coast of Grand Isle. 
Grand Isle provides close and easy access to the above-
mentioned sites.
    There are two distinct population groups. The first is the 
relatively small permanent residence population. The group has 
remained about 1,500 to 2,000 people on the island since 1960. 
Industrial analysts growth expectation is 3,186 residents by 
the year 2020 if the island does not wash away. The second 
group is comprised of tourists, camper owners--Billy's father-
in-law camps on Grand Isle--and the petroleum companies and 
workers. At times, the population reaches upwards of 10,000 
people on weekends.
    Grand Isle is the staging area in offshore for oil 
exploration and production for Shell, Exxon and Conoco. Some 
600 employees transfer a week, traveling through the heliports 
supporting activities from the Port Fourchon facilities. 
Housing personnel, services, food supply and the Coast Guard 
assistance are directly dependent on Grand Isle. The Federal 
Government is currently right now spending $5 million on a face 
lift on the Coast Guard station in Grand Isle on the eastern 
end. Approximately 10 million pounds of Louisiana production of 
shrimp fisheries originate in Grand Isle. This generates about 
$18 million in Louisiana's economy. Figures estimating oysters 
and fish and other shellfish harvests are not available at this 
time.
    The Grand Isle Tarpon Rodeo, which is the oldest and the 
largest competitive sportfishing rodeo in the United States 
held its 77th consecutive rodeo in 1998. Officially there are 
10 sponsored fishing tournaments held each year in Grand Isle. 
With recreation fishing and boating being our greatest tourist 
attraction, we are able to provide 322 rental room facilities 
and 550 boat dock accommodations. Most are at full utilization 
throughout the year. One of the most successful state parks, 
which on some weekends provides entertainment for upward of 
5,400 in out of state vacationers, and the yearly figures 
indicate 101,000 visitors, is comprised of 148 acres on the 
east and 48 acres west of the island.
    The only fishing pier in the Gulf of Mexico waters is 
located in the state park in Grand Isle.
    Grand Isle has been plagued with water shortage for many 
years. Our neighboring parish, Lafourche, furnishes our current 
water supply. Increased construction throughout Lafourche 
Parish, especially at Port Fourchon, places a high demand on 
outdated infrastructure with Grand Isle being at the end of the 
line. Each year, beginning in April through September, our 
residents face the threat of non-potable water. Barging water 
and expensive short-term solutions cost us last year nearly 
$300,000. Six years of coordinating an effort between the 
government and agencies became a reality when the funding was 
approved through all agencies for $18 million to run a 32-mile 
pipeline, 16-inch water line, which will begin at the Lower 
Lafitte and extend through Barataria waterway in Grand Isle. 
Construction will begin sometime in June this year and 
completion early in 2000.
    My family has lived in Grand Isle for many generations. At 
one time, several small islands protected Grand Isle on the 
north side. The one I remember as a boy growing up was Bird 
Island. This island was approximately one mile long, one half 
mile wide. All the coastal species birds--the terns, the 
egrets, the pelicans and others were inhabitants on the island. 
The lushness of the vegetation attracted these birds to nest, 
others to feed as they crossed the gulf on their migratory 
course to the north. This course is still active today; 
however, the birds no longer stop on Bird Island because Bird 
Island no longer exists due to the coastal erosion. There is 
only one remaining island on the north. We named it, it is 
called Tern Island. Tern Island, which is renamed to compliment 
the former Bird Island, is abundant with the native vegetation 
such as the bay leaf and the guava trees that grow wild. This 
island is approximately 500 feet long and a quarter of a mile 
wide, small in comparison to what was once there and 
disappearing at an alarming rate.
    Grand Terre has not been spared for onslaught of storms and 
tidal actions. In October of 1998, my office received a letter 
from Mr. Frank Truesdale, acting Marine Laboratory Director on 
Grand Terre. Mr. Truesdale stated that what beach sand is 
available on the western end is washing over and filling the 
five-acre pond in front of the laboratory. The entire eastern 
portion of this pond which existed in 1980 has now liberated as 
either part of the new beach or part of the gulf. As the sand 
washes over, the new beds of peat are exposed as the surf 
erodes deeply into what had once been marsh, well into the 
beach. After the storms in 1998, eight foot strips of peat have 
been exposed in some places.
    The most vivid measure of how much Grand Terre has eroded 
and continues to erode is the wooden walkway that during the 
1980s crossed the five-acre pond to the beach, ending about 50 
feet above the high tide line. What is left of the gulf end of 
this walkway is now in the Gulf of Mexico about 40 feet seaward 
of the low tide line.
    Grand Terre is not only the home of the Marine Laboratory, 
but for Fort Livingston as well. The fort, completed some time 
in the early 1860s, is a part of Fort Livingston State 
Commemorative Area and has been placed on the National Register 
of Historic Places. It was abandoned in 1866, the state 
eventually took possession in 1923. The western wall now 
extends 75 feet into the Gulf of Mexico.
    In October of 1992, Grand Isle Independent Levee District 
was formed. As President and Director, I have monitored the 
land loss and recorded the data. Various agencies--Louisiana 
Department of Natural Resources, Jefferson Parish and the U.S. 
Corps of Engineers--have helped me complete three projects 
creating a segmented breakwater system. These breakwaters are 
strategically placed to protect LA-1, our only evacuation route 
in and out the island from tidal actions and severe weather 
conditions. To this date, approximately $2.9 million has been 
spent on these projects.
    I have a total of nine permits in my hands trying to find 
the right funding to put these projects to fight coastal 
erosion.
    Grand Isle experienced a very active hurricane season last 
year. I have called mandatory evacuations three times within a 
four week period the whole month of September. Although no such 
orders were issued for tropical storm Frances, this turned into 
a most damaging storm, 21 inches of rain on my island and 
strong winds produced staggering losses. To this date, as a 
result of these four storms, I lost 280 feet of land on the 
north side or the bay side of Grand Isle. The south side of 
Grand Isle in the state park, we have lost 400 feet as of this 
date in overnight camping areas. Our hurricane protection levee 
suffered considerable damage as a result of those storms.
    As I understand the various titles of H.R. 701, the 
proposed distribution the OCS funds would have a significant 
positive impact to communities like Grand Isle in funding much 
needed conservation and recreation programs. While we have been 
recipients of the Federal assistance from the Corps of 
Engineers and other agencies through cost share projects like 
our hurricane protection levee and our waterline, we 
desperately seek additional funding assistance for other what I 
call quality of life projects.
    We in Grand Isle are not wanting to look for a Federal 
handout. In fact, we have always attempted ourselves first from 
the local and state standpoint. When the project's costs have 
been beyond our funding capabilities, we have sought Federal 
assistance, but always provided local dollars to match the 
Federal funds.
    As I stated earlier, Grand Isle's proximity to the gulf 
makes its a natural location for those companies and government 
agencies that support the oil and gas activities in our region. 
With that comes jobs. This is obviously good for our local tax 
base and economy. However, it also comes with a high price to 
our island's infrastructure. It is virtually impossible to know 
what the impacts are from the OCS activities, but they are 
there and are obvious. From the wear and tear of our roads and 
the waterways to the threat of actual pass accidents in the 
gulf, we pay a dear price.
    I believe H.R. 701 would provide valuable funding resources 
to help communities like ours in maintaining and improving our 
various projects and programs. H.R. 701 offers a real balance 
between the oil and gas production and exploration and true 
natural resource conservation. The creation of an Outer 
Continental Shelf Impact Assistance Fund outlined in the bill 
will ensure these funds are properly recovered and distributed. 
This is very important for our future planning and will help 
expedite long-awaited wetland restoration and water quality 
projects, just to name a few. This goes to what we attempt to 
do every day in Grand Isle and throughout Louisiana, 
conservation and reinvestment in our resources.
    While I am a proponent of the oil and gas development, I 
particularly appreciate the fact that the bill will provide 
these important funds without offering or having to create more 
incentives for new oil and gas development. The bill's ability 
to do this will confirm what we have thought for a long time, 
that the State of Louisiana has not been getting its fair share 
of these revenues to help offset the impacts that activities in 
the gulf have on us.
    As I read the bill for the first time several weeks ago, I 
was struck by the recurring theme of how the bill provided for 
guarantees in annual funding. I am sure that I do not have to 
tell all of you that the state and local governments like ours 
with very limited funds, but enormous natural resources that we 
are ultimately responsible for protecting, most have these 
kinds of dedicated source of funding. The Land and Water 
Conservation Fund has provided valuable assistance to Louisiana 
in the past, but like most other programs, it never seems to be 
enough.
    In summary, I believe H.R. 701 is a comprehensive, fair 
approach to assist the state and local governments who have 
long protected, restored and helped manage our most valuable 
natural resources. For these and many other reasons, I am 
pleased to offer my complete support for this bill and applaud 
each of you in the efforts of getting this passed.
    Thank you, sir.
    Mr. DeFazio. Thank you, Mr. Mayor.
    I would just advise the rest of the panel because we have 
another panel to follow, that we want to be able to hear from 
everybody who has prepared testimony today, any prepared 
remarks you have submitted will be made part of the record, so 
it would be best if you could summarize and try and stay within 
the five minutes and the lights will indicate the duration of 
the five minutes, just so that we can hear from everybody. I 
would hate for the Committee to have come here and not to hear 
from everybody on the next panel. So----
    Mayor Camardelle. I apologize.
    Mr. DeFazio. No, that is fine, Mr. Mayor. The Chairman was 
cutting a lot of slack with the Governor and mayors are more 
important than Governors to me, so we had to cut you some slack 
too.
    Mayor Camardelle. Thank you.
    Mr. DeFazio. Mr. Kohl.

STATEMENT OF BARRY KOHL, DIRECTOR AND PAST PRESIDENT, LOUISIANA 
            AUDUBON COUNCIL, NEW ORLEANS, LOUISIANA

    Mr. Kohl. Mr. Chairman and members of the Committee, my 
name is Barry Kohl, I am director and a past president of the 
Louisiana Audubon Council. On behalf of the Council, I would 
like to express our appreciation to the Committee and Chairman 
Young for inviting us to come here today. The Louisiana Audubon 
Council is a not-for-profit organization comprised of local 
Audubon chapters, affiliates and members of the National 
Audubon Society. We are dedicated to the protection and 
restoration of Louisiana's coastal wetlands, bottomland 
hardwood forests and other critical wildlife habitats of the 
Lower Mississippi River.
    We are pleased that the proposals now before this Committee 
and before the Senate will invest in the management of the 
nations natural resources and address the coastal impacts of 
the production of offshore oil and gas.
    Many of the impacts have already been addressed by previous 
panelists, so I will summarize and only mention some of the 
issues that have not been addressed today. The details are in 
my written testimony which has been submitted.
    I would like to discuss the impacts of toxic chemicals. 
According to the most recent EPA Toxic Release Inventory 
Report, Louisiana is the nation's second largest polluter after 
Texas. Most of this pollution is tied to the petrochemical 
industry. Chemical pollution along the Mississippi River is so 
serious that nationally, the section between Baton Rouge and 
New Orleans has become known as cancer alley.
    There are presently 17 state mercury in fish health 
advisories for pregnant women and children under seven years of 
age as a result of past and current mercury pollution in the 
state of Louisiana. The Audubon Council is actively 
investigating these sources of the pollution.
    Permitting. As was mentioned earlier, permitting is very 
important, it controls a lot of the damage that is being done 
in the state of Louisiana and I want to address some of those 
issues.
    The protection afforded by the Clean Water Act has only 
affected oil and gas dredging since 1975. This was largely due 
to numerous lawsuits which increased the Corps' jurisdiction. 
Before that date, there were few Federal controls on dredging 
our marshes and swamps but during the 1980s, dredging permits 
issued to the energy industry were fast-tracked because of 
national priorities. Public notice comment periods were reduced 
to 15 days, giving the public and resource agencies 
insufficient review time. Today's method of reducing the 
effectiveness of the Federal permitting program is to cut the 
budgets of regulatory agencies. A district engineer recently 
wrote that, and I quote, ``the regulatory branch is 
deliberately underfunded each year as part of the grand game of 
give and take between private interests and public oversight.'' 
Political influence is derailing the intent of the Clean Water 
Act and promoting the conversion of wetlands in Louisiana. This 
has to change. I suggest that some of the OCS revenues be given 
to the Federal agencies which have to regulate our coastal 
zone. Those agencies--EPA, Fish & Wildlife Service, the Corps 
and National Marine Fisheries Services. The money should be 
used to adequately staff and fund the Corps of Engineers who 
have over 2,000 permits a year to review.
    In the 1980s, the Federal Government considered setting up 
formal national sacrifice zones which would be used for 
national defense or nuclear waste repositories. The concept 
remains in fact, if not in name and we believe that Louisiana 
has become one of these areas.
    I would like to address specifically the legislation. We 
ask that the bills be strengthened. We support all the 
legislation in part that has been submitted to Congress. We do 
feel it should be strengthened. We are concerned that H.R. 701 
fails to ensure that Federal funds be provided to the states 
under Title III to be used to address the needs of non-game 
species. The Audubon Council has worked hard over the years to 
assure non-game species in Louisiana are properly protected. 
Any new money made available for state level wildlife 
conservation should be substantially dedicated to non-game 
species.
    We request that the Land and Water Conservation Fund be 
fully funded from OCS revenues. The money made available each 
year should be available on a permanent basis and independent 
of the annual appropriation process.
    We are concerned that under H.R. 701, there is not an 
effective Federal oversight over the spending of billions of 
dollars each year by the states. Based on our experience in 
Louisiana, it would be unwise to give money to the states 
without some accountability. Money given to local political 
subdivisions needs to be closely monitored. Louisiana's 
reputation for corruption is founded on fact and we are deeply 
concerned that 50 percent of the state's allocable share of OCS 
funds could be misappropriated or squandered by parish 
officials.
    In conclusion, I would just like to summarize and state 
that our recommendations that the past coastal impacts be used 
in the formula to allocate coastal impact funds; that there be 
oversight of local governments' spending and creation of a 
coastal impact trust fund for each state.
    Money given to the states and local governments should not 
stimulate more destruction of coastal environments, there 
should not be incentives to convert wetlands to developments 
even though they are for recreation.
    Oil and gas impacts should be fully addressed in any 
mitigation program. Toxic wastes present an insidious wildlife, 
human health problem. Cleaning up contaminated water bodies and 
reduction of toxic petrochemical discharges should be supported 
in any future bill.
    Also, funding should be used to expand the national 
wildlife refuge system.
    Since Louisiana has suffered the most coastal environmental 
damage as a result of oil and gas exploration and development 
and since the majority of OCS revenues come from leases off the 
Louisiana coast, it is only fair that Louisiana should be given 
more consideration in sharing these coastal impact funds.
    Thank you.
    Mr. DeFazio. Thank you.
    [The prepared statement of Mr. Kohl follows:]

           Statement of Barry Kohl, Louisiana Audubon Council

    Mr. Chairman and Members of the Committee:
    My name is Barry Kohl and I am a director and a past 
president of the Louisiana Audubon Council. On behalf of the 
Council, I would like to express our appreciation to the 
Committee and Chairman Young for inviting us to come here 
today. The Louisiana Audubon Council is a not-for-profit 
organization comprised of local Audubon chapters, affiliates 
and members of the National Audubon Society. We are dedicated 
to the protection and restoration of Louisiana's coastal 
wetlands, bottomland hardwood forests and other critical 
wildlife habitats of the Lower Mississippi River.
    We are pleased that the proposals now before this Committee 
and before the Senate will invest in the management of this 
nation's natural resources and address the coastal impacts of 
the production of OCS oil and gas.
    We also want to thank the Louisiana Congressional 
delegation for co-sponsoring the Young Bill, H.R. 701. 
Certainly we interpret this action as an affirmation that our 
delegation recognizes the far-reaching adverse impacts of the 
oil and gas industry on our state's waters, coastal zone, 
public lands and wildlife. We hope that members of this 
Committee will have the opportunity to fly over our coastal 
zone to see the damage for themselves.
    Louisiana has historically had the greatest environmental 
impacts from the exploration for oil and gas of any coastal 
state. Presently, the bulk of OCS oil and gas revenues come 
from the area off Louisiana's coast. We therefore believe that 
any bill which is to offset states for environmental losses 
should include, proportionally within its allocation formula, 
the historical environmental losses inflicted on each state.
    I want to begin my presentation by discussing the direct 
and indirect impacts to Louisiana's Coastal Zone from oil and 
gas exploration and production.

Oil and Gas Impacts on the Coastal Zone:

    The first well drilled in a Louisiana coastal Parish was in 
1901. By 1941, over 18,800 wells had been drilled in the 
coastal marshes. By 1993, 32,000 oil and gas wells existed in 
coastal wetlands and there were 790 oil and gas fields. Many 
companies which explored in our swamps and marshes in the first 
half of this century moved offshore into OCS waters after 1947.
    According to the MMS, there are now 35,632 boreholes in the 
Gulf of Mexico OCS. Nearly 85 percent of these were drilled off 
Louisiana's coast. There are 3,973 producing platforms and 87 
percent of these are in OCS waters off Louisiana. These 
platforms producing the bulk of the OCS oil and gas nationwide.

Navigation, pipeline and access canals:

    As of February 1998, 358 pipelines cross the Federal/state 
line from the OCS. There are more than 21,000 miles of 
pipelines in Federal offshore waters and thousands more inland 
criss-crossing our coastal zone. Many of these lie in dredged 
canals and continue to alter coastal hydrology.
    There are, additionally, thousands of oil and gas dredged 
canals onshore to access drill sites. Navigation canals 
authorized by Congress and dredged by the U.S. Army Corps of 
Engineers have added to coastal loss by introducing saltwater 
intrusion and secondary impacts. These navigation projects are 
used primarily by the oil, gas and chemical industries for 
transportation of commodities or for servicing the offshore oil 
industry.
    Though we all benefit from the oil and gas industry, there 
can be no doubt it has been at the expense of our coastal 
environments.

Infrastructure impacts:

    There are 21 supply bases in coastal parishes which support 
OCS activities. One base, Port Fourchon, has converted almost 
2,600 acres of coastal wetlands to industrial use. Residential 
expansion is following this development. I need not remind the 
Committee that this is a hurricane prone area.
    Because of the demand for larger and larger production 
facilities, fabrication yards have been sited near major 
waterways along the Louisiana coast. Thousands of acres of 
wetlands have been cleared near Houma and Morgan City to build 
the giant offshore structures used in the deep water OCS.

Toxic Chemicals:

    According to the most recent EPA Toxic Release Inventory 
report, Louisiana is the nation's second largest polluter after 
Texas. Most of this pollution is tied to the petrochemical 
industry. Chemical pollution along the Mississippi River is so 
serious that nationally the section between Baton Rouge and New 
Orleans has become known as ``cancer alley.''
    Toxic releases from petrochemical industries pollute our 
land, water and air. The Chlor-alkali industry, which produces 
caustic soda and chlorine gas from brine, is emitting two tons 
of mercury into our state's air each year. Two plants are still 
using archaic mercury-cell technology which contributes to the 
pollution of our streams and lakes. One of these sites has been 
polluting continuously since 1945!
    There are presently 17 state mercury-in-fish health 
advisories for pregnant women and children under 7 yrs of age 
as a result of past and current mercury pollution. The Audubon 
Council is actively investigating the sources of this 
pollution.
    EPA has designated the Calcasieu Estuary, in southwestern 
Louisiana, as one of the state's most contaminated waterbodies. 
Saltwater intrusion from the Calcasieu Ship Channel is causing 
additional habitat destruction.

Drilling wastes:

    Because oil drilling wastes cannot be discharged offshore 
they are transported to onshore areas for disposal in open 
pits. In Louisiana, these disposal areas are mostly located in 
wetlands which are prone to hurricane tidal flooding. Leakage 
from these sites has allegedly caused health problems for 
nearby residents.

Permitting:

    The protection afforded by the Clean Water Act has only 
affected oil and gas dredging since 1975. And this was largely 
due to numerous lawsuits which increased the Corps' 
jurisdiction. Before that date, there were few controls on 
dredging our marshes and swamps. But during the 1980's dredging 
permits issued to the energy industry were ``fast-tracked'' 
because of ``national priorities.'' Public notice comment 
periods were reduced to 15 days giving the public and resource 
agencies insufficient review time.
    Today's method of reducing the effectiveness of the Federal 
permitting program is to cut the budgets of regulatory 
agencies. A District Engineer recently wrote that, ``the 
regulatory [branch] is deliberately underfunded each year as 
part of the grand game of give and take between private 
interests and public oversight.'' Political influence is 
derailing the intent of Clean Water Act and promoting the 
conversion of wetlands in Louisiana. This has to change.
    In the 1980's the Federal Government considered setting up 
formal ``National Sacrifice Zones'' which would be used for 
national defense or nuclear waste repositories. The concept 
remains in fact, if not in name, and we believe that Louisiana 
has become one of these areas.

Sharing in Coastal Impact Assistance Funds:

    There is no doubt that the Louisiana environment has paid 
dearly to provide the energy for the rest of the nation for 
almost 100 years. If any state needs Coastal Impact Assistance, 
it is Louisiana. Presently the bulk of all OCS revenues come 
from the Central OCS Sale area off the coast of our state.
    We believe the revenues generated by the Federal Government 
from OCS leases and royalties should be shared by coastal 
states. The money should be allocated to the states based on 
the present OCS production and the known impacts to the states' 
coastal zone. Because of the 50 yrs of impacts from offshore 
oil and gas exploration and production, Louisiana deserves a 
significant portion of these OCS revenues.

Comments on the Proposed Legislation:

    In addressing the bills before the Committee today I would 
like to say thatthe Audubon Council is pleased that there is a 
wildlife habitat preservation component. To the migratory 
waterfowl and neotropical birds which depend on hardwoods and 
wetlands for their survival, the Mississippi flyway and the 
Mississippi Delta are an international resource. We do ask that 
the bills be strengthened as follows:
Wildlife Conservation and Restoration:

    We are concerned that H.R. 701 fails to ensure that Federal 
funds provided to the states under Title III will be used to 
address the needs of non-game species. None of the bills 
provide money for non-game species/habitat. Traditionally, 95 
percent of the money spent on wildlife conservation has gone to 
wildlife that is hunted and fished. This funding disparity must 
be addressed. The Audubon Council has worked hard over the 
years to assure that non-game species in Louisiana are properly 
protected. Any new money made available for state-level 
wildlife conservation should be substantially dedicated to non-
game species.

Land and Water Conservation Fund:

    The Audubon Council requests that the Land and Water 
Conservation Fund (LWCF) be fully funded from OCS revenues. The 
money made available to the LWCF each year must be available on 
a permanent basis and independent of the annual appropriations 
process.
    The LWCF should receive a minimum of $900 million each 
year. At least half of this money should be allocated to 
Federal land acquisition, with the remainder going to the 
stateside matching grant program. Further land purchases with 
LWCF funds should not be restricted to in-holdings and should 
be available on all current and future National Wildlife 
Refuges.

The Need For Oversight:

    We are concerned that under H.R. 701 there is not effective 
Federal oversight over the spending of billions of dollars each 
year by the states. Based on our experience in Louisiana it 
would be unwise to give money to the states without some 
accountability. We have seen the new partnership between state 
and Federal agencies in Louisiana as part of the CWPPRA and 
Coastal 2050 planning process. We would like to see a similar 
partnership with Federal agencies having input on the use of 
OCS funds for land acquisition or any other conservation 
purposes. We ask that there be a strong public component to any 
planning/task force.

Potential Abuse:

    Money given to local political subdivisions needs to be 
closely monitored. Louisiana's reputation for corruption is 
founded on fact. Local sheriffs and assessors consider their 
parishes to be their personal fiefdoms. We are deeply concerned 
that 50 percent of the state's allocable share of OCS funds 
would be misappropriated or squandered by Parish officials.
    We are opposed to the provision under Section 104 of H.R. 
701 which would allow states and local governments to use the 
money for a vast array of purposes, including promoting highway 
construction, golf courses, drainage and levees, and other non-
conservation uses. The money should be used primarily to 
restore and enhance coastal and ocean resources, rather than to 
further environmental degradation.
    We suggest that, since the OCS revenues will decline over 
the next 10 years, the revenues given to the states should be 
placed state trust funds to preserve some of the money for the 
long term. This would also assure a more prudent expenditure of 
the windfall.

New Programs:

    Any new program should build on existing watershed, coastal 
management plans, or restoration plans that are already in 
existence. Considerable time and money have been spent under a 
multitude of authorities such as the Coastal Zone Management 
Act, the National Estuary Program, the Coastal Wetlands 
Planning, Protection and Restoration Act (CWPPRA), and others 
to produce strategies and plans for improving coastal resources 
and waters. It is sensible that the planning provisions of any 
new OCS legislation should build on planning that has already 
been done rather than begin anew.

Allocation Formula:

    Under H.R. 701, 50 percent of the Title I funds are 
allocated to the coastal states on proximity to OCS production. 
The remainder will be distributed by population (25 percent) 
and length of shoreline (25 percent). we ask that there be a 
new allocation formula, one that includes as a major factor, 
the historic oil and gas activities which have degraded or 
destroyed the coastal environments. This is only fair. Neither 
H.R. 701 or H.R. 798 factor in the historic impacts. Louisiana 
has paid dearly by allowing the degradation of its coastal 
ecosystems to maintain the national energy supply. Are we to 
continue to be a ``national sacrifice zone?'' When the non-
renewable OCS resources are gone, how will the damage be 
reversed?
    In considering the bills that are the subject of this 
hearing, this Committee and this Congress are undertaking the 
admirable task of determining how best to invest in the future 
of our invaluable natural heritage--our waters and coasts, our 
wildlife, and our public lands. Both bills, even with their 
differences, represent an important step forward in the 
stewardship of those resources and we commend their authors and 
sponsors for taking up this challenge.

Summary:

    We urge that in any final bill the following 
recommendations be considered:
        <bullet> That past coastal impacts be used in the formula to 
        allocate coastal impact funds.
        <bullet> That there be oversight of local government spending 
        and the creation of a Coastal Impact Trust Fund for each state.
        <bullet> Money given to the states and local governments should 
        not stimulate more destruction of coastal environments. There 
        should not be incentives to convert wetlands to developments 
        even though they are for recreation.
        <bullet> Money made available for the LWCF must be permanent 
        and independent of the appropriation process.
        <bullet> Any new money made available for state-level wildlife 
        conservation should be dedicated equally to non-game/game 
        species.
        <bullet> All oil and gas impacts should be fully addressed in 
        any mitigation program. Toxic wastes present an insidious 
        wildlife/human health problem. Cleaning up contaminated 
        waterbodies and reduction of toxic petrochemical discharges 
        should be supported in any future bill.
        <bullet> Some funding should be used to expand the National 
        Wildlife Refuges.
    Mr. Chairman, we believe that all the bills addressing the 
issuesdiscussed today have merit. We just need to refine the language 
and reconcile the differences between them. I would like to conclude 
with this thought. Since Louisiana has suffered the most coastal 
environmental damage as a result of oil and gas exploration and 
development and since the majority of the OCS revenues come from leases 
off the Louisiana coast it is only fair that Louisiana should be given 
more consideration in sharing these coastal impact funds.
    Thank you

   STATEMENT OF TED M. FALGOUT, EXECUTIVE DIRECTOR, GREATER 
         LAFOURCHE PORT COMMISSION, GALLIANO, LOUISIANA

    Mr. Falgout. Thank you, Mr. DeFazio.
    Mr. DeFazio. Just state your name for recorder.
    Mr. Falgout. I am Ted Falgout, Port Director of Port 
Fourchon. I also have a written presentation that I have 
submitted.
    Port Fourchon is an increasingly significant busy port, 
located on the Gulf of Mexico. Historically, we have 
accommodated the shelf oil and gas activity, commercial 
fishing, Louisiana Offshore Oil Port (LOOP), foreign trade and 
recreational industries.
    Unlike many communities in the country, we have embraced 
the oil and gas industry since its beginning and have withstood 
the roller-coaster boom-bust cycles that are characteristic of 
this industry. We have tried our best to accommodate this 
industry's need and we take pride in our ability to provide 
safe navigation and state-of-the art facilities with little or 
no Federal assistance.
    With the passage of the Royalty Relief Act in 1996 and new 
technological advances, almost overnight the Gulf of Mexico 
changed from what was being called a dead sea to America's new 
frontier, and the rush to deepwater began.
    The post Royalty Relief shift to deepwater is dramatic, it 
is a decision of this nation that has been very rewarding with 
reduced foreign energy dependence, balance of trade and record 
lease sales and fat bonuses. But somehow in this frenzy, we 
have overlooked our responsibility to mitigate these impacts.
    Although the landside impacts are similar, the fiscal 
impacts are quite different. Instead of coastal states 
receiving lease payments

and royalties to help mitigate these impacts, the Federal 
Government is receiving these billions of dollars and not 
supporting the impacted state in dealing with the consequences.
    Nowhere is the impact of OCS activity more evident than in 
Lafourche Parish, where Port Fourchon has become the focal 
point of intermodal transfer for support of nearly 75 percent 
of the deepwater projects in the central gulf. This sudden 
surge of activity has consumed us. Over 90 percent of today's 
business at the port is directly tied to the Federal OCS.
    Our port has doubled in size in just three years. Only five 
years ago, just before the deepwater explosion, we projected 
our existing development to be sufficient until the year 2010. 
Guess what? Last year we reached our 2010 projection and over 
100 companies and 1,000 trucks a day are operating out of our 
port.
    The U.S. Minerals Management Service, the Federal agency 
that administers the OCS drilling program, recently completed a 
study which concludes that as a result of heavy usage resulting 
from increased deepwater oil and gas development, Louisiana-1, 
the only road access to Port Fourchon, will experience 
significant reduction in its ability to provide adequate levels 
of services and will become increasingly strained. This study 
projects an 80 percent increase in truck traffic over the next 
decade and every fully loaded truck has the same impact on the 
highway as 9,600 passenger vehicles.
    This same agency in its most recent environmental impact 
statement describes the impacts on landside infrastructure, 
especially in focal point areas like Port Fourchon. The EIS 
includes statements like ``OCS program activities will continue 
to have a significant impact on infrastructure in south 
Lafourche Parish due to the increase in deepwater activity,'' 
and other statements like, ``The cumulative impact is expected 
to result in potential for increased educational strain, strain 
on deteriorating conditions of existing infrastructure, some 
deleterious impacts to comprehensive land use plans and 
difficulties in delivering satisfactory levels of public 
services.''
    I have always thought that the purpose of an EIS was to 
identify the impacts so they can be properly mitigated. The 
impacts are clear and it is time to do something about them.
    A prime example of impact is the huge demand for high 
quality OCS drilling water. Port Fourchon is using 25 percent 
of south Lafourche's drinking water supply and has less than 1 
percent of its population. In addition, due to extremely low 
water pressure, we must barge water from other parishes. As a 
result of this surge of activity, our school system is 
strained, our law enforcement officials are constantly having 
to deal with transient workers and their impact, our landfills 
must accommodate millions of tons of OCS-generated solid waste. 
This is all in addition to the obvious environmental impacts.
    We strongly support H.R. 701. This bill will allow impacted 
states to share in OCS revenues so that we can sustain our 
landside infrastructure and restore our rapidly vanishing 
coastal wetlands, factors which are increasingly threatening 
our very existence in coastal Louisiana.
    Thank you.
    Mr. DeFazio. Thank you, Mr. Falgout, for a good summary.
    Dr. Wentz.
    [The prepared statement of Mr. Falgout follows:]
    [GRAPHIC] [TIFF OMITTED] T6598.164
    
    [GRAPHIC] [TIFF OMITTED] T6598.165
    
    [GRAPHIC] [TIFF OMITTED] T6598.166
    
    [GRAPHIC] [TIFF OMITTED] T6598.167
    
    [GRAPHIC] [TIFF OMITTED] T6598.168
    
    [GRAPHIC] [TIFF OMITTED] T6598.169
    
    [GRAPHIC] [TIFF OMITTED] T6598.170
    
    [GRAPHIC] [TIFF OMITTED] T6598.171
    
    [GRAPHIC] [TIFF OMITTED] T6598.172
    
    [GRAPHIC] [TIFF OMITTED] T6598.173
    
 STATEMENT OF DR. ALAN WENTZ, GROUP MANAGER FOR CONSERVATION, 
              DUCKS UNLIMITED, MEMPHIS, TENNESSEE

    Dr. Wentz. Thank you very much, Mr. Chairman.
    Mr. DeFazio. Please state your name for the record.
    Dr. Wentz. My name is Alan Wentz of Ducks Unlimited.
    Both versions of this legislation recognize the desire of 
the American people to maintain healthy landscapes for future 
generations and the wildlife that is so much a part of our 
heritage.
    Ducks Unlimited has always recognized the value of habitat-
based conservation to the long-term health of wildlife 
populations and to the well-being of humans. These bills will 
provide substantial amounts of funding to carry out the 
essential habitat conservation work for an array of wildlife 
species in ways that were never feasible before.
    Our state natural resource agencies are our front line for 
conservation. An investment in these programs is an investment 
in locally directed, effective and responsible land and 
wildlife stewardship. Passage of this legislation will build 
upon the support that states have historically received from 
hunters and anglers and will help equip state wildlife agencies 
with new conservation tools. This kind of investment in our 
country's infrastructure for natural resource management is 
absolutely essential to the future.
    State wildlife agencies have been given many new 
responsibilities over the last several decades. It is time for 
us to provide new sources of revenue to pay for these 
responsibilities.
    In addition to land acquisition, which obviously is a 
valuable conservation tool, this legislation will provide the 
resources for states to work with private landowners to find 
incentive-based, non-regulatory answers to conservation 
problems. Landowners are looking for assistance in restoring 
wetlands, native grasslands, forests and other habitats for 
both economic and wildlife benefits. For instance, landowners 
are finding that conservation easements are in many cases the 
best way to secure wildlife habitat and healthy landscapes 
while keeping the land economically productive.
    Our goal should be to keep the wildlife habitat and its 
private stewardship in place whenever possible without annual 
government or private subsidies. To do that, we must recognize 
that the landowner needs to create income from the land. 
Voluntary land protection and management programs where 
landowners are finding ways to preserve the integrity of their 
property while retaining ownership of the land are the wave of 
the future.
    One of the most contentious issues in conservation today is 
what to do about endangered species. Species that are hunted 
and have sufficient management tend to continue in abundance. 
On the other end of the continuum, species that are classed as 
endangered also receive a lot of management attention, but the 
majority of our wildlife species fall between these two groups, 
and we historically have not had sufficient funds to manage 
them. It is sensible to take actions that preclude the need for 
implementing controversial and expensive resource recovery 
plans once a species is listed.
    To paraphrase the motto of Partners in Flight, passage of 
this legislation will help keep common species common.
    DU applauds the authors of H.R. 701 for including 
provisions that make the interest earned from Title III monies 
available to the North American Wetlands Conservation Fund. 
Habitat conservation under the Wetlands Fund has been widely 
acclaimed in the conservation community. Providing additional 
funds to this proven successful program is a wise investment 
since every Federal dollar leverages an average of 2.3 non-
Federal dollars. The Wetlands Act is one of the most successful 
partnership programs ever put into operation and new funds 
invested here will continue that effort and enhance the 
objectives of both of these important Congressional actions. 
These funds are seriously needed since last year only 42 
percent of the wetlands conservation projects submitted under 
the Act were funded.
    Since 1986, the North American Waterfowl Management Plan 
has been one of the great success stories in conservation. 
Through joint venture partnerships, public and private funds 
are combined to achieve results that are much greater than the 
sum of the parts. Following this lead, new partnerships are 
delivering habitat conservation that benefits all birds. Right 
now, there is an unprecedented climate of cooperation among 
bird conservationists. Never before has the conservation 
community been poised to provide for the habitat needs of such 
a large and diverse group of organisms. Science-based, 
landscape driven conservation plans for all song birds, 
waterfowl, shore birds and wading birds are being put into 
place. However, not only are we finalizing solid plans for the 
conservation of hundreds of species, but these plans will be 
integrated through efforts like the North American Bird 
Conservation Initiative which will maximize the effectiveness 
and efficiency of every dollar spent.
    The legislation under consideration here today will 
facilitate the success of these new and important partnerships. 
We hope the Committee will create final legislation that can be 
supported by the broadest group of organizations and 
individuals. We believe it is essential that Title III of H.R. 
701 be part of the final product.
    Thank you for inviting us to testify today. We support the 
concept of these bills because we, like so many other 
Americans, have a deep and abiding desire to see a healthy and 
thriving American landscape that provides for the needs of 
wildlife and people now and for our grandchildren and future 
generations.
    Thank you.
    Mr. DeFazio. Thank you. Your testimony will be given 
particular weight because you finished just before the red 
light went on.
    [Laughter.]
    [The prepared statement of Dr. Wentz follows:]

  Statement of Dr. Alan Wentz, PH.D., Group Manager for Conservation, 
                         Ducks Unlimited, Inc.

    I would like to thank the Chairman, especially you 
Congressman Tauzin, and the other members of the Committee for 
inviting me to testify on behalf of Ducks Unlimited, Inc. 
regarding this important issue.
    Ducks Unlimited, Inc. (DU) is the world's largest, private 
waterfowl habitat conservation organization with over a million 
supporters in the United States. DU's mission is to fulfill the 
annual life cycle needs of North American waterfowl by 
protecting, enhancing, restoring and managing important 
wetlands and associated uplands. Since its founding in 1937, DU 
has conserved more than 8.8 million acres of prime wildlife 
habitat in all 50 states, each of the Canadian provinces and in 
key areas of Mexico. Some 900 species of wildlife, including 
many threatened and endangered species, use DU projects during 
some phase of their life cycles.
    We applaud the proposed reinvestment of Outer Continental 
Shelf oil revenues in the conservation of our natural 
resources. Enactment of this concept will leave a lasting 
legacy on the landscape of America's wild and natural places. 
Both versions of the legislation being heard today recognize 
the desire of the American people to maintain healthy 
landscapes for themselves and the wildlife that is so much a 
part of our heritage.

The Approach is Visionary

    Ducks Unlimited has always recognized the value of habitat-
based conservation to the long-term health of wildlife 
populations, and, in fact, to the well being of human 
populations as well. These bills provide substantial amounts of 
funding to carry out essential habitat conservation for an 
array of wildlife species in a way that has never been feasible 
before.
    State natural resource agencies are on the front line for 
conservation on the landscape level. They manage land and are 
very responsive to the citizenry. The Conservation and 
Reinvestment Act (CARA) provides much needed funds to states to 
bolster their conservation programs. An investment in these 
programs is an investment in locally directed, effective, and 
responsible land and wildlife stewardship. By building upon the 
support that states have historically received from hunters and 
anglers, CARA recognizes that a grand variety of wildlife 
benefits from conservation and the program will help equip 
state wildlife agencies to use a variety of conservation 
strategies. This kind of investment in our country's 
infrastructure for natural resource management is absolutely 
essential to our future. State wildlife agencies have been 
given many new responsibilities over the last few decades. It 
is time for us to provide new sources of revenue to pay for 
these responsibilities.
    In addition to land acquisition, which is a valuable 
conservation tool, CARA will provide the resources for states 
to work with private landowners to find incentive-based, non-
regulatory answers to conservation problems. Ducks Unlimited 
works with landowners across the North American continent and 
we believe strongly in private property rights and values. 
Because of that we work with voluntary land protection and 
management programs where landowners are finding ways to 
preserve the integrity and health of their property, while 
retaining ownership of the land. Our efforts include assistance 
in restoring wetlands, native grasses, and natural forests for 
the benefit of the landowner and wildlife. There is a very high 
demand for these kinds of assistance. One of our beliefs is 
grounded in the fact that when you find land management 
practices that benefit both wildlife and the economic interests 
of the landowner you can expect those practices to continue 
without government or private subsidies.
    One of the tools we at DU increasingly use is the voluntary 
conservation easement. In fact, landowners are finding that 
conservation easements are, in many cases, the best way to 
secure wildlife habitat and healthy landscapes into the future, 
while keeping the land economically productive. DU holds 
conservation easements in many states. Our focus is on 
``working'' lands that produce agricultural crops, timber or 
other products. The goal is to keep the wildlife habitat and 
its private stewardship in place for the future and to do that 
we all must recognize that the landowner needs to create an 
income stream from the land. Hopefully one of the ways state 
wildlife agencies will use a portion of the funds they receive 
under CARA is to facilitate creation of these types of 
easements.
    One of the most contentious issues in conservation today is 
what to do about endangered species. CARA provides resources 
for conservation of habitats before populations become 
perilously low. History has shown that species that are hunted 
and have sufficient management in place tend to be kept in 
abundance. On the other end of the continuum, species that are 
classed as endangered also receive a lot of management 
attention. But the majority of our wildlife species fall 
between these two groups and we historically have not had 
sufficient funds to manage these species. It is sensible to 
take actions that preclude the need for implementing 
controversial and expensive recovery plans once a species is 
listed. To paraphrase the motto of a Neotropical bird 
conservation effort--``Partners in Flight''--CARA will help us 
keep common species common.
    CARA would also provide states with funding for wildlife 
education and nature-based tourism, an important aspect of 
conservation in today's society. Natural resources conservation 
efforts that also educate the public about the values and 
benefits of those resources have the greatest potential for 
long-term success. The American public spends $100 billion each 
year in wildlife-related recreation. CARA will enhance that by 
helping to maintain healthy wildlife populations and provide 
for appropriate access, education, and related services.
    DU applauds the authors of CARA for including provisions 
that make the interest earned from Title III monies available 
to the North American Wetlands Conservation Act program. 
Habitat conservation under NAWCA has been widely acclaimed in 
the conservation community. Providing additional funds to this 
proven, successful program is a wise investment since an 
average of $2.3 non-Federal dollars matches every Federal 
dollar committed. NAWCA is one of the most successful 
partnership programs ever put into operation and new funds 
invested here will continue that effort and enhance the 
objectives of both of these important congressional actions.
    Finally, CARA is visionary in that it recognizes that 
landscapes rejuvenated and enhanced for wildlife help ensure 
the quality of life for Americans today and tomorrow because we 
all depend on the same clean and abundant water, air, and soil.

Action is Timely

    Right now, there is an unprecedented climate of cooperation 
and integration among bird conservation initiatives. Never 
before has the conservation community been poised to provide 
for the habitat needs of such a large and diverse group of 
organisms. Science based, landscape driven conservation plans 
for all songbirds, waterfowl, shorebirds, and wading birds are 
being put into place as we enter the new millenium. However, 
not only are we finalizing solid plans for the conservation of 
hundreds of species, but these plans will be integrated through 
efforts like the North American Bird Conservation Initiative to 
maximize the effectiveness and efficiency of every dollar 
spent.
    Since 1986, the North American Waterfowl Management Plan, 
through partnerships known as joint ventures, has been one of 
the great success stories in conservation history. Through 
these partnerships, public and private funds are combined to 
achieve results that are much greater than the sum of the 
parts. Following this lead, new partnerships are forming to 
deliver habitat conservation that benefits all birds. CARA will 
provide increased public funds to facilitate the success of 
these new and important partnerships.

Cooperation is Important

    It is our hope that the legislation that emerges from 
Congress can respond to the interests of both bills being 
discussed today. We believe it is healthy for the Committee to 
operate in a climate of cooperation to create final legislation 
that can be supported by the broadest group of organizations 
and individuals. We believe it is essential that Title III of 
H.R. 701 should be part of the final product.
    Thank you for inviting Ducks Unlimited to participate 
today. Ducks Unlimited supports the concept of these bills 
because we, like so many others, have a deep and abiding desire 
to see a healthy and thriving American landscape that provides 
for the needs of wildlife and people now and for our 
grandchildren and future generations.

   STATEMENT OF CYNTHIA M. SARTHOU, EXECUTIVE DIRECTOR, GULF 
          RESTORATION NETWORK, NEW ORLEANS, LOUISIANA

    Ms. Sarthou. Hello. My name is Cynthia Sarthou and I am 
Executive Director of the Gulf Restoration Network. We have 
submitted formal written testimony. The GRN is a member of the 
Marine Fish Conservation Network, a network of 80 groups 
nationally who fight for the conservation of marine fish. We 
have submitted a statement on their behalf as well.
    The Gulf Restoration Network is a network of over 40 
environmental, social justice, citizen and labor groups and 
individuals concerned about the long and short-term health of 
the Gulf of Mexico and dedicated to restoring it to a 
sustainable condition. Since 1994, we have striven to raise 
awareness of the need to address the threats to water quality, 
wetlands and coastal shorelines in the Gulf of Mexico.
    To understand our perspective, we must look at the impacts 
which the Gulf states as a whole have suffered as a result of 
oil and gas development. I am not going to go into any detail 
because I think you have heard it pretty extensively today. But 
we would like to note that it is not just Louisiana that 
suffers these impacts. The states of the western and central 
gulf, particularly Louisiana and Texas, support virtually all 
of the existing OCS activity in this country and the impacts on 
those states and their environment is undeniable.
    The communities of Alabama, Mississippi, Louisiana and 
Texas are required to face the increased risks posed by 
continuing wetlands loss, degrading water quality and pollution 
from oil and gas development and the scarcity of funds to 
address those problems. Faced with this predicament in Gulf 
communities, the GRN is very hesitant to support any 
legislation that would provide incentives that could 
potentially inflict a similar fate on other communities of the 
United States. It is within this context that we have analyzed 
H.R. 701 and H.R. 798.
    Looking first at H.R. 701, we appreciate the intent behind 
H.R. 701 and the funds that it would provide to impacted 
states. However, we believe that H.R. 701 provides incentives 
for development in other coastal areas, including sensitive 
frontier areas which are not currently protected by the 
moratorium, and thus are very concerned with this legislation.
    To eliminate these incentives, the exclusion of revenues 
from leased tracts in areas under a moratorium must apply to 
all revenues under all three titles of the bill. Additionally, 
the definition of the term ``qualified outer continental shelf 
revenues'' in section 102 should exclude all revenues from 
bonus bids from leases issued after the date of enactment and 
revenues from new production on existing leases outside the 
western and central gulf.
    We also believe that the definition of ``eligible political 
subdivision'' in section 102.6 and the determination in section 
103(e) of an otherwise eligible local subdivision's share 
should explicitly exclude consideration of tracts leased after 
enactment.
    We are also concerned that the authorized uses in section 
104 of H.R. 701 do not ensure that the revenues will be used to 
restore and enhance coastal and ocean resources which we 
believe is critical. In fact, H.R. 701 would free states and 
localities to use the money for a huge array of purposes, 
including promoting more offshore oil drilling, highway 
construction unrelated to restoration efforts and similar 
activities.
    We prefer an approach such as that taken in Congressman 
Miller's bill, which specifically allocates funds for the 
conservation of coastal and marine environmental resources. At 
a minimum, the use of OCS impact assistance should be 
restricted to the amelioration of adverse environmental impacts 
resulting from siting, construction, expansion or operation of 
OCS facilities; projects and activities, including habitat 
acquisition, that protect or enhance air quality, water 
quality, fish and wildlife habitat or wetlands in the coastal 
zone; the collection of fisheries data and monies for fisheries 
management; protection of essential fish habitat; and 
administrative costs incurred in approving, disapproving or 
permitting OCS development.
    Specific consideration should be given to targeting monies 
to existing under-funded marine and coastal conservation 
programs such as coastal zone management, fisheries management, 
essential fish habitat or marine sanctuaries.
    Finally, under H.R. 701, we believe that there must be 
Federal oversight of the spending of the billions of dollars 
disbursed under that Act. We would also suggest that any 
required plan and all coastal impact assistance provided under 
the bill build upon existing watershed, coastal management or 
restoration plans that may already be in existence.
    Turning to H.R. 798, we are much more comfortable with the 
approach taken by this bill. The bill does not provide 
incentives for new offshore leasing or drilling, excludes from 
the definition of qualified OCS revenues all revenue from new 
leasing and production and requires that Title VI monies be 
spent on conservation of living marine resources.
    Finally, the bill provides significant new funding 
specifically for marine conservation, which we believe is 
important. Our only concern with H.R. 798 is that it fails to 
include a provision which specifically targets substantial 
funding to address the damages to coastal environments 
associated with existing oil and gas activity.
    We believe it is time to take seriously the damage that has 
been suffered by our states, particularly those in the western 
and central gulf, as the result of oil and gas activity. 
Funding to address this damage should be incorporated as an 
integral part of this or any legislation which seeks to refocus 
the use of Federal OCS revenues.
    We thank you for this opportunity to testify and we thank 
the Louisiana delegation for bringing these issues forward for 
discussion.
    Mr. Tauzin. Thank you very much, Ms. Sarthou.
    And finally, Mr. Mark Davis, Executive Director of the 
Coalition to Restore Coastal Louisiana. Mark.
    [The prepared statement of Ms. Sarthou follows:]
    [GRAPHIC] [TIFF OMITTED] T6598.174
    
    [GRAPHIC] [TIFF OMITTED] T6598.175
    
    [GRAPHIC] [TIFF OMITTED] T6598.176
    
    [GRAPHIC] [TIFF OMITTED] T6598.177
    
    [GRAPHIC] [TIFF OMITTED] T6598.178
    
    [GRAPHIC] [TIFF OMITTED] T6598.179
    
   STATEMENT OF MARK DAVIS, EXECUTIVE DIRECTOR, COALITION TO 
       RESTORE COASTAL LOUISIANA, BATON ROUGE, LOUISIANA

    Mr. Davis. Thank you, Mr. Chairman. I would like to thank 
the Committee, particularly yourself and Congressman John for 
your leadership in bringing this issue forward and, of course, 
Chairman Young for allowing this event to take place.
    The Coalition to Restore Coastal Louisiana was founded in 
the mid 1980s expressly to deal with the issues of coastal land 
loss and coastal stewardship in Louisiana. The Coalition is 
made up of a broad array of interests, conservationists, 
fishermen, environmentalists, local governments, just about 
anybody who has a stake in the future of this, you know, 
national treasure.
    I think it is important to take a moment to really commend 
the authors of--and sponsors of both H.R. 701 and H.R. 798 for 
really charting a course that lays out historic opportunity for 
us to take up the stewardship challenge of our marine 
resources, public lands, historic properties and wildlife as we 
enter the next century. We support those initiatives and, you 
know, again think that both bills have much to commend them. 
Obviously there will be some fine tuning to do. However, it is 
the issue of coastal impact assistance that really I would like 
to spend the balance of my testimony on this morning. We also 
have a written statement which we would like the record to 
include.
    Mr. Tauzin. That is automatic. All of your written 
statements are a part of the record.
    Mr. Davis. Thank you, Mr. Chairman.
    Our coasts are in crisis, as you have heard today, and this 
is not just a local problem. I think it has been made clear 
today that it is a combination of local activities and national 
policies that have created a situation in which we have a 
crisis which is both natural, cultural and economic, and that 
there is no easy way of, you know, splitting out a responsible 
party. Much of this started happening in the early part of this 
century before we knew better, while we had different values, 
and while some of the decisions may have been the best at that 
time, they are not necessarily the best decisions or policies 
to continue to pursue. This is a responsibility challenge, not 
necessarily a blame exercise, but it is an induced crisis. I 
think that has been made clear as well. Naturally this coast is 
a dynamic coast. Obviously we would have land loss but we would 
have land building. Since the turn of the century we have lost 
a million acres of our coast and we continue to lose. It is 
going to require a committed national response. I don't mean 
just a Federal response, I mean a national response that 
includes Federal, state, local, private and public because 
interests that affect all are concerned. You heard that from 
Mayor Morial as well.
    We believe that the approach taken by H.R. 701 in at least, 
you know, putting forth the coastal impact issue is preferred 
over H.R. 798, at least as we understand it to be written at 
this time. However, we do believe that it does need to be 
refined, and we understand that efforts, you know, are underway 
and we would support those. Specifically, we believe for this 
initiative to work it must pursue a partnered approach, which 
is again national in scale. We don't believe that this is just 
a program--it is going to involve combining the authorities 
that Mr. Westphal indicated earlier. It is going to require the 
combining of authorities for other agencies and it is going to 
require a commitment of new resources. As Ms. Sarthou just 
pointed out, we believe that instead of creating a whole new 
planning infrastructure, we need to build on those planning 
efforts that have already been undertaken. In Louisiana, we 
have quite a few. We have NEP programs, we have Coast 2050, we 
have things that have involved communities at all levels, and 
more importantly engage Federal partners on a day-to-day basis, 
not merely in a remote, you know, sign-off capacity. That is 
also the case in places like the Everglades and many other 
coastal areas in the country. So we strongly urge that we not 
compete with those works that have been done.
    In order for it to work, we don't believe it can prove new 
incentives for off-shore oil and gas development, not should it 
be a vehicle for expanding moratorium. That is not the purpose 
of this bill. This is not a policy bill, this is a 
responsibility bill. It can't be just a handout. I don't think 
we are asking for a block grant with no oversight or 
accountability. I don't know of a local government that prefers 
that option. We do not want a tobacco settlement situation, we 
want things which can go into problem solving immediately.
    For it to work, it cannot wait. We have a situation where 
we are losing--as Speaker Downer mentioned this morning, we are 
losing as we speak. Even if we were to stop all development, 
all oil activity, all navigation tomorrow, the crisis would 
continue. We would lose, again, a continued 25 square miles 
each year. So the question really is not how to do this--it 
should be how to do this, not should we do this. This is a 
national undertaking, and I believe we will be judged by 
history very, I guess, sternly if we do not take this challenge 
up.
    Thank you.
    [The prepared statement of Mr. Davis follows:]

 Statement of Mark Davis, Executive Director, The Coalition to Restore 
                           Coastal Louisiana

    My name is Mark Davis and I am the executive director of 
the Coalition to Restore Coastal Louisiana. On behalf of the 
Coalition, I would like to express our appreciation to the 
Committee and the Chairman for inviting us to come here today. 
The Coalition to Restore Coastal Louisiana is a broad based 
not-for-profit organization comprised of local governments, 
businesses, environmental and conservation groups, civic 
groups, recreational and commercial fishermen, and concerned 
individuals dedicated to the restoration and stewardship of the 
lower Mississippi River delta and Louisiana's chenier plain.
    We welcome this opportunity because the matters before the 
Committee today are of vital concern to anyone interested in 
the future and stewardship of this nation's waters, coasts, 
wildlife, and public lands. They are certainly of vital concern 
to those of us who live at the southern end of the Mississippi 
River for whom the ability to be better stewards of our coastal 
resources is central to the survival of those things we hold 
most dear. Indeed for years, the Coalition has striven to raise 
awareness of the need to protect and restore the vast but 
threatened system of wetlands and barrier shorelines that 
define coastal Louisiana culturally, ecologically, and 
economically. For that reason we have followed with great hope 
and interest the proposals now before this Committee and before 
the Senate to invest in the stewardship of this nation's 
natural treasures and to address the coast-side impacts of the 
production of OCS oil and gas.
    In considering the bills that are the subject of this 
hearing, this Committee and this Congress are undertaking the 
laudable task of determining how best to invest in the future 
of our invaluable natural heritage--our waters and coasts, our 
wildlife, and our public lands. Both bills, even with their 
differences, represent an important step forward in the 
stewardship of those resources and we commend their authors and 
sponsors for taking up this challenge. There is much hard work 
ahead as the bills are refined and reconciled as they must be 
if they are to deliver on the promise of better stewardship. As 
that work proceeds, we believe it is essential that it be 
guided by clear goals and policies so the end result is 
measured not primarily in dollars devoted to issues and locales 
but to the achievement of positive conservation and stewardship 
results.
    While we strongly support the public lands and wildlife 
initiatives embraced by both Chairman Young's and 
Representative Miller's bills, it is the issue of coastal 
stewardship to which I will direct the bulk of my comments 
today. Specifically, I would like to address the issue of the 
need to ameliorate the damages to coastal environments and 
communities as a result of their hosting the transportation, 
processing, and servicing facilities associated with OCS oil 
and gas activity. Apart from a few dollars provided under the 
Section 8g program, little has been done to recognize those 
impacts, much less to address them. It is time to take them 
seriously and it needs to be an integral part of any legitimate 
effort to refocus the use of Federal OCS revenues.
    Before wading too far into the issues of OCS revenues and 
coastal impact assistance it is important to note a couple of 
points. First, the impacts are very real. To anyone who has 
visited coastal Louisiana--which, along with Texas, supports in 
a logistical sense virtually all of the existing OCS activity 
in this country--those impacts on the natural resources, 
communities, and public infrastructure are undeniable. To 
anyone who hasn't, they are largely unimaginable.
    The second point to be made is that those impacts deserve 
real solutions, not merely promises of money and programs. The 
two great fears we hear from people who live in affected areas 
are (a) that nothing will be done and (b) that the impacts will 
be used to justify large infusions of cash that are not 
sufficiently directed toward effective solutions and that, in 
fact, could further exacerbate the problem. Of course the fear 
of many people who live in states that do not have OCS activity 
off their shores is that the availability of impact assistance 
funds could serve as an incentive to state and local 
governments to acquiesce to new OCS leasing and development. We 
strongly believe the best way of dealing with the incentive 
concern is to ensure that there are no incentives created. This 
initiative is not the place to debate our nation's policies on 
incentives or moratoria. It is the place to craft solutions to 
impacts that have already been loosed as a result of the 
existing and historical mineral development activities and 
policies. The challenge facing those wrestling with the coastal 
impact issue is how to define and address those impacts 
legitimately associated with oil and gas activity while not 
creating more problems elsewhere. We understand that will not 
be easy. You must understand that it must, nonetheless, be 
done.
    Because if it is not, areas of vital natural, cultural, and 
economic importance are destined to be lost forever--areas like 
the great Mississippi River delta and its neighboring coastal 
plain. These areas have already lost more than 1 million acres 
of coastal wetlands and barrier islands this century and they 
continue to disappear at the rate of nearly 30 square miles 
each year. This is serious stuff and it demands serious 
attention. Indeed, a failure to act may well be judged by not 
too distant generations as one of the greatest failures our 
time.
    But knowing that one must act and knowing what to do are 
very different things. Various efforts have been mounted 
before, based on everything from amorphous fairness claims to 
fine spun legal arguments and none have worked. And the 
problems continue to get worse. If this history teaches 
anything it is that solutions to this coastal crisis will 
continue to be elusive until the nature of the problem and the 
nature of the solutions are better explained. Indeed, to 
approach it in any other way would be irresponsible.
    With that in mind, the balance of my testimony will lay out 
in brief terms the range and scope of coastal impacts that the 
coast of Louisiana has incurred as a function of its role in 
serving as a support base for the offshore oil and gas 
industry. Obviously, that oil and gas activity does not occur 
in a vacuum. Other forces have been at play in our coast as 
well and they will also be noted to provide context; Indeed, it 
is probably impossible to pigeon-hole causes and effects. Flood 
control, navigation and oil and gas activity have combined to 
so completely alter the face of coastal Louisiana as to render 
it unsustainable without major corrective action.
    I have chosen to focus on Louisiana for several reasons 
beyond the obvious one of it being the place that I know best. 
First, the vast majority of OCS activity in this country takes 
place off Louisiana's coast and is supported by on shore 
facilities and service providers. Second, as home to the mouth 
of the Mississippi River and its associated coastal plain, 
Louisiana contains the largest expanse of coastal wetlands in 
the lower 48 states, comprising more than 25 percent of the 
nation's coastal wetlands and 40 percent of its salt marshes. 
In short, the area most impacted by the OCS activity is also 
the most unique and productive wetland and estuarine system in 
North America. Any effort to address coastal impacts that does 
not work for this case is fatally flawed, as is any effort to 
earmark a portion of OCS revenues for environmental and 
conservation purposes that fails to address the impacts 
associated with the generation of those revenues.

Nature and Coastal Louisiana

    To understand what is happening in coastal Louisiana it is 
crucial to have some understanding of its natural and geologic 
history. The geology, biology, and culture of coastal Louisiana 
are defined by the Mississippi River and the deltas it has 
built over the years. The eastern half of Louisiana's coastal 
zone is a deltaic plain comprised of deltas created over 
thousands of years of seasonal flooding by the river. The 
western half of the coastal zone, the chenier plain, was built 
in large part by river borne sediments that were transported 
west by Gulf currents and deposited along the coast. The result 
of this process is a vast area of coastal wetlands unmatched in 
size and productivity anywhere in this nation. To put this in 
perspective consider the following:

        <bullet> Coastal Louisiana contains over 25 percent of the 
        nation's coastal wetlands and 40 percent of its salt marshes.
        <bullet> Louisiana's coastal wetlands support the largest 
        fisheries in the lower forty-eight states.
        <bullet> Its coastal wetlands are a vital nursery and feeding 
        area for millions of birds and waterfowl that traverse the 
        Mississippi flyway.
    Even under the best of conditions, land tends to be 
ephemeral stuff in Louisiana's coastal region. Through 
compaction and subsidence it, in essence, sinks. Only through 
the natural process of freshwater influx and deposition of new 
sediment from the Mississippi which would spread in a sheet-
flow manner across the vast swamps and marshes was it possible 
to offset the losses attributable to compaction and subsidence. 
Coastal Louisiana is in fact not so much a place as it is a 
process, a process in which land building must balance land 
loss just to maintain a ``no net loss'' situation.

The Causes of Coastal Impacts on Coastal Louisiana

    The fundamental problem facing the region today is the loss 
of that balance. Human activities such as levee construction, 
and channelization have to a large extent shut down the land 
building part of the process. Millions of tons of land-building 
sediment are now dumped into the deep waters of the Gulf of 
Mexico rather than into the marsh where they could create or 
stabilize land.
    At the same time the land-building process was effectively 
halted, human activities were also altering or stressing 
existing wetlands to the point that, during the twentieth 
century, more than one million acres have been lost. Lost not 
primarily to actual development but to open water. Thousands of 
miles of oil and gas canals and navigation channels have carved 
up the coastal marshes, changing their hydrology and making 
them vulnerable to saltwater intrusion.
    It is critical to highlight these impacts in order to 
counter two widely held misconceptions. First, that land loss 
in coastal Louisiana is primarily a natural phenomenon. It is 
not. The pace and scale of coastal collapse is entirely out of 
synch with the natural cycles of even a geologically dynamic 
area such as the Mississippi River delta. And second, that the 
human induced impacts were largely the doings of local 
residents for their enrichment or benefit. They aren't. The 
vast bulk of navigation, flood control and oil and gas activity 
in the region have been pursued as part of national programs to 
facilitate interstate commerce, develop oil and gas resources, 
and control Mississippi River flooding. To be sure, locals 
benefited to some extent, but, without a doubt, the primary 
beneficiaries of all this activity lay outside of the state of 
Louisiana.
    Nowhere is this more evident than in the area of oil and 
gas activity. Oil and gas exploration and production have been 
part of Louisiana's history for more than a century. It 
developed over the course of many years. It began in an era 
when wetlands were considered ``worthless'' and continues today 
in an era when many now view them as priceless. It saw the very 
first successful OCS rig erected 10 miles off its coast by 
Kerr-McGee in 1947. No one knew how to drill for oil in such 
depths then, much less how to manage the impacts--not that such 
impacts were at that time even really much of a concern. And in 
the 25 years between the first production from that rig and the 
First Earth Day in 1970 (and the Santa Barbara spill that 
preceded it) more than 8,800 wells were in place in the Federal 
OCS waters off Louisiana's coast. By last count, Louisiana had 
more than 30,000 oil and gas wells in its coastal zone with 
another 20,000 in its offshore OCS area. The Federal OCS off 
its shores area are more than 50 percent leased and its coastal 
area is criss-crossed by tens of thousands of miles of 
pipelines that serve coastal and OCS facilities (more than 
20,000 miles of pipelines offshore alone). Pipelines that run 
through its marshes, swamps and barrier islands. Pipelines that 
leave behind canals up to 70 feet wide and run for miles. 
Pipelines whose spoil banks serve as dams that disrupt the 
natural sheet-flow that is essential to the survival of the 
wetlands. Pipelines whose canals serve as conduits for salt 
water to penetrate deep into fresh water habitats. Pipelines 
that, in the case of a 24 inch pipe, can spill 2.5 million 
gallons of oil in an hour if ruptured.
    In many other parts of the country, the effect of this 
scale of activity would be significant but limited in time and 
space. That is not the case in the coastal regions of 
Louisiana. Here they accumulate and magnify. That is why today, 
when the annual direct impacts of newly permitted projects 
measure often only in the hundreds of acres, the overall 
landloss rate continues to exceed 25 square miles per year. 
That is why the risk of major oil spills increases as the coast 
deteriorates thereby exposing literally thousands of older 
wells, pipelines, and production facilities that once were 
protected by miles of buffering marsh and barrier islands to 
open bay and open Gulf conditions. The impact genie is out of 
the bottle.
    And it is critical to emphasize that even with the 
protection afforded by the Clean Water Act and the Coastal Zone 
Management Act the impacts continue. Indeed, new pipelines are 
being laid each day. Crewboats and immense platforms ply the 
dredged bayous and canals to service and expand the OCS 
industry. Waterways that were once fifty feet wide now span 
hundreds of feet from the wakes of these boats. The Calcasieu 
Ship Channel long has been identified as one of the main causes 
of the loss of nearly 80,000 acres of wetlands in southwestern 
Louisiana. And for the residents of the coastal zone, the worst 
part is that they get little or nothing from this OCS related 
activity. It produces relatively few jobs (and even fewer with 
growth potential), it produces no direct revenue for the state 
or local governments although it does require them to support 
the industry with roads, police and emergency services, and--
when the inevitable down times come--to cope with the social 
cost of unemployment and family stress.
    It has also become dramatically clear, as demonstrated 
during the 1998 hurricane season, that the future effects of 
these landscape and community pressures will be worse than in 
the past unless action is taken soon. The combined effects of 
subsidence, sea level rise and coastal wetland loss will 
directly threaten population centers such as New Orleans, 
transportation arteries, and the viability of the greatest 
estuarine fishery in the nation. Tropical Storm Francis, which 
did not even make landfall in Louisiana, left the main east-
west highway in coastal Louisiana--a major evacuation 
corridor--under water for more than a week. Gulf waters that 
once were kept at bay by miles of marsh, lapped at the base of 
levees in towns such as Golden Meadow and Leeville. Indeed, so 
much has changed in recent years that the children of the Isle 
de Jean Charles community now miss as much as two weeks of 
school each year because the road to their town is too flooded 
to pass.

Conclusions and Solutions

    In offering this testimony my purpose is not to sound a 
Cassandra warning, cast blame, or merely stake a claim to a pot 
of money. Rather it is to make the simple point that a coastal 
crisis is at hand as is the opportunity do something 
significant about it. And both deserve very serious attention. 
This is especially true since, for most Americans, the impacts 
to the Louisiana and Gulf coasts are abstractions if they are 
aware of them at all. And one cannot prioritize that which one 
is not aware of.
    Because once one comes to terms with the extent of the 
unremedied impacts to coastal regions that support our nation's 
coastal and offshore petroleum activity, it should become clear 
that delay is not an option and that without prompt action the 
next generation of impacts will only be worse in terms of 
ecological, cultural, and economic consequences.
    It should also become clear that these impacts deserve a 
committed national response--not merely a Federal or state 
response. The impacts resulted from activities that benefited 
the entire nation and that, by and large, reflected national 
priorities and values.
    And finally, it should be clear that responses to the 
problems should be aimed at restoring sustainable function to 
our natural coastal ecosystems and addressing essential storm 
protection, drinking water, and transportation infrastructure 
that is already compromised. Elevating an evacuation route that 
now floods and serves to impede natural water flows is one 
thing, widening a road to allow new development in flood prone 
areas is something else. In sum, any response that puts more 
people in harm's way, encourages more destructive impacts, or 
becomes essentially a general purpose block grant is not a 
solution. While we do not understand either of the bills being 
heard today to intend such an interpretation, additional 
clarification may be necessary. We would urge that the best way 
to ensure that any coastal impact assistance is used in the way 
the drafters intend would be to expressly build upon any 
existing watershed, coastal management plans, or restoration 
plans that may already be in existence. Many hours and taxpayer 
dollars have been spent under a multitude of authorities such 
as the Coastal Zone Management Act, the National Estuary 
Program, the Coastal Wetlands Planning, Protection and 
Restoration Act, and others to produce strategies and plans for 
improving coastal resources and waters. The planning provisions 
of any new legislation should build on that previous work 
rather than competing with it.
    These suggestions are offered in the spirit of advancing 
this historic opportunity to safeguard our posterity. We may 
never have such a good opportunity again. We appreciate the 
efforts of the bills sponsors--we are particularly grateful to 
the Representatives Chris John and Billy Tauzin and the other 
members of Louisiana's delegation--who have taken up this 
cause. The Coalition to Restore Coastal Louisiana pledges to be 
of whatever assistance we can be in this effort.
    Again, we appreciate the opportunity to appear here today 
and share our thoughts with the Committee.

    Mr. Tauzin. Thank you very much, Mr. Davis.
    Let me first ask a general question and get your comments 
on it. It is often said if you don't read about it in the 
Washington Post in Washington it is not really happening, at 
least to Members of Congress, you know, and for that reason, 
when the Chesapeake became a topic of conversation in the 
Washington Post, the Chesapeake suddenly got a lot of 
attention. I am not decrying that, I am glad it did. You know, 
I think the Chesapeake is--I am sure you all agree, is an 
enormous national resource and preserving it and protecting it 
from the damages it was suffering and continues to suffer is 
critical.
    I think it was helpful to have the new head of the EPA come 
out of the state of Florida, that, you know, Florida got such 
attention in the Everglades. I am not saying that is bad. I 
think Carol Browner was an instrument of great, you know, good 
and successful, you know, arguments for the Everglade program.
    If I am right about that, obviously we are at a 
disadvantage. We have a huge ecological disaster occurring off 
the coast of Louisiana that does not get written about in the 
Washington Post frequently. We do not have the head of the EPA, 
you know, daily reminding people about the problems that she 
personally encountered as head of her own state agency with the 
Everglades. How do you help us overcome that? Tell me if you 
think it is a problem, and if it is a problem, how do we 
overcome it? Obviously getting our friends from New Mexico and, 
you know, Oregon to come and see the problems and witness the 
damage as they have today--and I know Tom and Peter have been 
tremendously impressed by what they have seen as part of it. 
What else can we do, and how bad is it, Mark?
    Mr. Davis. I will take a whack at that Congressman. First 
of all, I think we have to continue to work on letting the rest 
of the nation know that again this is not a Louisiana asset or 
a Louisiana crisis. There is not a person in the United States 
who will not be affected in one way or the other as to what we 
do or don't do here.
    Also, I think people need to understand better, and we need 
to do a better job I think of touting the Louisiana Delta and 
coast as unique national treasures. They are. There are as 
unique as the Grand Canyon and we sometimes are maybe more 
parochial than we should be in our outlook.
    I think the other crucial thing that is different now than 
has been in the past is that I think you have to have a 
governor and state legislature who are prepared to lead and put 
their--I guess their bid on the table. You cannot wait for the 
national government to come and solve your problem. You have to 
recognize you have one to begin with before anyone else will 
come. That is what has happened in places like the Everglades. 
That is what happens in the Chesapeake.
    Mr. Tauzin. Is that beginning to happen here?
    Mr. Davis. Yes. I think that is one of the good signs of 
having Governor Foster here this morning.
    Mr. Tauzin. And Jack Caldwell, too.
    Mr. Davis. Jack Caldwell having the Coast 2050 plan. Again, 
I believe we have--you know, if not turned the corner, we can 
see the corner. And again, hearings like this today. But again, 
it is not a press conference kind of awareness. I think it is 
really going to require, you know, an actual campaign to show 
why this is an investment not merely an entitlement.
    Mr. Tauzin. Some of you are associated with national 
organizations, the Audubon Society.
    Mr. Kohl. The National Audubon Society is focusing on 
Louisiana from the standpoint of the Atchafalaya Basin and we 
are very impressed that the--of the state's master plan for the 
Atchafalaya Basin and it has become a national priority for the 
National Audubon Society in giving support.
    Mr. Tauzin. If it just had a name that people could 
pronounce it might have gotten better attention.
    [Laughter]
    Mr. Davis. A lot of people do mispronounce it, but I think 
it does get attention. It is a large enough area. It is an area 
that a lot of people have come to Louisiana to see. It is, I 
think, appreciated by people outside the state. But I think 
mainly it shows that the state and the Federal Government is 
working together on an issue in a particular area to try to 
increase the conservation, the productivity in the area, et 
cetera. That, I think is a mechanism to get Louisiana back on 
the map, the national map. Take a unique area like the 
Atchafalaya----
    Mr. Tauzin. And highlight it.
    Mr. Davis. [continuing] and highlight it, get it in 
national articles, show what the state is doing, all of the 
positive aspects.
    Mr. Tauzin. Keep that up. It is very important.
    Let us talk about--before my time is up, I want to focus on 
something. We hear a lot about concern that--the proximity to 
production element in the current formula, it might encourage 
production. How can we on the one hand recognize that because 
of all of the pipelines, because of all the support activities, 
canals, the other transportation corridors we have built, and 
all of the use we have put to those facilities, which is, you 
know, not just building them, but as many witnesses pointed 
out, it is all the use you put to a canal system that 
eventually creates a lot of erosion and saltwater problems. How 
can you on the one hand ask the country to recognize that we 
have helped--at least accelerated, not cause a lot of this 
damage by being so open in terms of our willingness to develop 
the Gulf of Mexico for our nation's energy needs and at the 
same time not have that part of the formula so that the money 
goes to where the needs are? If the needs--the damage is 
related to proximity to production and you want to direct the 
money to the place where the needs are greatest, how can you do 
that without connecting the two? If you do not, theoretically 
at least, the money goes to places where it is not really 
needed because there is not as much damage. How do you answer 
that?
    Ms. Sarthou. Well the concern is not that it not be linked 
to the historical uses of oil and gas. In fact, it is my 
understanding and from our prospective there is no objection to 
it being linked to the historical perspective of how much 
production has been done historically. The question and the 
incentive is created when you, in fact, link part of it to 
anything that may be leased or developed after the date of 
enactment.
    Mr. Tauzin. So you are more concerned prospectively----
    Ms. Sarthou. Yes.
    Mr. Tauzin. [continuing] as to how it functions?
    Ms. Sarthou. Yes.
    Mr. Tauzin. That is the concern we heard in Washington as 
well.
    Ms. Sarthou. That is the concern because historically--I 
mean we agree with everyone that the states that have taken the 
biggest brunt of the industry need to get some monies to 
affect----
    Mr. Tauzin. You have got to stay close to it, you cannot 
avoid that.
    Ms. Sarthou. Right. But it is a historical issue, it is not 
a perspective issue.
    Mr. Tauzin. You cannot leave, by the way, without 
mentioning--I know, Mr. Kohl, you mentioned--somebody said I 
should make the point about corruption in local governments. I 
can assure you I--I always thought we had a lot in Louisiana 
until I have gone around the country. We have got a lot all 
over America. We are not unique in that.
    [Laughter.]
    Mr. Tauzin. We are unique in a lot of things but we are not 
unique in that respect. Those problems exist everywhere in 
America and I don't think we have any more or any less than 
Chicago or some other places.
    Mr. Kohl. Well it is a point well taken. That is one of the 
reasons that I felt that there needed to be built into the 
bills accountability not only for the state of Louisiana but 
for other states. I thought----
    Mr. Tauzin. I understand that point. I just didn't want us 
to get a rap that wasn't due to all quarters of this country.
    Mr. Kohl. I've lived here long enough that I've seen 
everything first hand here.
    Mr. Tauzin. Other members of the Committee. Mr. John.
    Mr. John. Yeah, just a couple of brief comments, Ms. 
Sarthou, to talk about--to expand on what Congressman Tauzin 
was talking about. I guess working on this piece of legislation 
from the national perspective and looking at the historic 
avenues that similar pieces of legislation have taken in the 
past a recurring poison pill has been drilling incentives. 
Those have really killed these types of legislation. So we took 
a calculated--calculated approach to this particular 
legislation to make sure that we went over and above to ensure 
that drilling incentives were not part of this bill. So I think 
that anyone who looks at this piece of legislation and uses 
that argument really reaches, because we have gone way, way out 
and beyond to try to make sure that the incentives were not 
there. And to be totally honest with you, when Shell Oil is 
contemplating a billion dollar investment offshore, I really do 
not think that a small part of OCS/CARA 1999 enters into their 
decision as to whether they are going to drill that well and 
Plaquemines Parish might get $17,000 from that particular piece 
of legislation. So that troubles me that that issue continues 
to surface time and time again, where I believe that you have 
to agree that we have gone over and above to try to squash that 
issue because we understand that historically that has been a 
problem. Could you comment a little bit about that?
    Ms. Sarthou. Yeah. In reading the legislation--in fact, the 
wording is rather broad. It talks about any revenues from 
leasing in many instances and specifically under the second two 
titles in relation to proximity. If you take certain 
situations, such as there is the fight now over whether Florida 
will remain in the moratorium. There are 65 leases already held 
in the offshore waters off of Florida. The citizens of Florida 
are very concerned that the titles of this bill could be used 
by persons already holding leases in the waters off of Florida 
as a basis to pressure coastal cities or communities to support 
what they would otherwise resist because the resistance in 
Florida to oil and gas drilling has always been that they get 
no revenues, therefore why should they risk their coast when in 
fact they would get no income source to offset anything 
attributable----
    Mr. John. I think that is a big reach.
    Ms. Sarthou. Well, I mean, I have read the legislation and 
I feel that that is the way it is written.
    Mr. Tauzin. I can solve this quickly. The authors have 
already agreed to use the Title I language in Title II and III. 
That will solve your problem.
    Ms. Sarthou. Right, that would solve the problem.
    Mr. Tauzin. Mary Landrieu was quoted in the Times Picayune 
yesterday as saying the same thing, that the Senate bill, as 
well as our bill, we have really tried hard to make it neutral 
on that question and the concerns raised in Washington, that 
the language was not used in Title II and III have been taken 
seriously. Mr. John, Don Young and I have already agreed to use 
the same language in the other two titles. That may solve the 
problem for you.
    Ms. Sarthou. I think that would probably solve largely the 
problem.
    Mr. Tauzin. Thank the gentleman for yielding.
    Mr. John. Okay.
    Finally, I need to ask Ms. Sarthou one more question. You 
mentioned in your testimony that the revenues should be limited 
to the leases in the Gulf of Mexico. Do you believe that that 
is fair, first, and second; why should the revenues that will 
be generated to fund nationwide programs be limited in origin 
only to the Gulf of Mexico?
    Ms. Sarthou. That is not what I meant by my testimony. What 
I meant by my testimony was any revenues from existing drills. 
In other words, existing oil and gas production is fine. The 
problem is prospective oil and gas development risks other 
communities or coastal communities and their environment and 
that troubles us. But as Mr. Tauzin has said, that may in fact 
be solved by the language that you are now proposing to add to 
your bill.
    Mr. John. Right.
    Ms. Sarthou. I don't believe, and I never have, that the 
oil and gas developed in the state of Louisiana and in Texas 
should go to other states to fund what they are doing. I mean, 
I really believe that we need coastal impact----
    Mr. John. I am glad you clarified that because there are 
four different proposals out there and this legislation has a 
long way to go. We are going to integrate these pieces of 
legislation in this.
    Finally, if I may, Mr. Kohl, I am glad you had the little 
conversation with Congressman Tauzin because I found your 
comments a little offensive about the corruption of Louisiana 
government and local governments. I am glad that you recognize 
that this is just not unique to us because I did find that very 
offensive.
    Mr. Kohl. Well, I made the point mainly because of my 
experience with Federal revenue sharing funds here in the 
coastal parishes and the abuse that was--during the--those--at 
that time.
    Mr. John. And that in your eyes was unique to Louisiana, 
that that did not happen amongst other states and local 
communities?
    Mr. Kohl. I have lived in Louisiana now for 35 years, so I 
have observed mostly locally. I have not traveled that 
thoroughly and lived in other areas to know whether or not the 
abuses are of the same standard that we have here in Louisiana. 
All I am asking is that we recognize that abuses could take 
place and build into the bills a way of making sure that the 
money, the 50 percent that would be allocated to the local 
governments, that there be some accountability. I would even 
suggest putting that money in a trust fund since we are looking 
at only--probably only 10 years worth of money coming from the 
OCS. That money then hopefully would last longer than 10 years, 
be stretched out, because--as the decline in production takes 
place. But in that process, there could be accountability built 
in. I am just afraid that the windfalls, no matter what state, 
when it is--millions of dollars given to a local parish, that 
there is going to be abuse. I think in forming these bills that 
that should be built in. If it is, I withdraw my criticisms.
    Mr. John. Thank you, Mr. Chairman.
    Mr. Tauzin. Any other member of the Committee?
    [No response.]
    Mr. Tauzin. Let me conclude by thanking you and urging you 
to do that thing I tried to focus on at the beginning. If we 
are going to be successful, we have to obviously work out any, 
you know, lasting concerns that we have and we are going to try 
to do that. I think I made that clear. But we also have to 
bring together an awful lot of people in this country from a 
lot of different perspectives. We are getting criticized on the 
right because our bill in the eyes of some does not protect 
private property enough, allows for too much acquisition of 
lands in western states, which 80 percent are already owned by 
the Federal Government in many cases. And we are being 
criticized somewhat on the left by not being environmental 
enough in the bill or, you know, careful enough to make sure 
the money is used for the purpose it--we are getting a lot of 
heat from both sides and if we are going to have a critical 
mass at the center that is going to pass this, we need two 
things. First of all, we need to resolve these outstanding 
concerns you have. Chairman Young has asked me to ask you all 
again to be as open minded as you can and respect the fact that 
we have got to balance a lot of votes before we get a critical 
mass to pass this and to find the money to fund it, which is 
going to be the second critical mass. So please work with him 
and his staff and with us and see if we cannot resolve lasting 
concerns to bring our bills together because Mr. Miller is an 
important player here and we want him on board. We want to have 
a bill that we can all support at the end.
    Finally, and probably the most important thing, everything 
you can do to make this into a national issue for us is 
critical. Everything you can do to make Americans recognize and 
wake up to the fact that this is, as you said, Mark, is not a 
Louisiana ecological disaster, this is a world disaster. This 
is the biggest land loss occurring anywhere in the world, on 
any coast of any country in the world, right here in Louisiana. 
And unless Americans recognize how awful it is--because they 
don't read about it in the Wall Street--I mean in the 
Washington Post every day, we are going to have a hard time 
getting this through. The good news I want to tell us is, the 
President has expressed some very positive things for our 
effort. When he came down to Louisiana to visit Ft. Polk, he 
had some very good comments to make to our delegation members 
on board with him. The bad news is this Kosovo thing. Finding 
the money is going to be tough. If we are divided it is not 
going to happen. We all have to be part of this plan.
    Again, thank you. My compliments to your testimony. As I 
have said, all of it is part of our record and I think it will 
enhance the progress of the bill. Thank you very much.
    Our last panel will be assembled. They will include the 
Honorable Willie Mount, Mayor of the City of Lake Charles, 
Louisiana which is a major community in Chris John's district; 
Mr. Paul Davidson, Executive Director of the Black Bear 
Conservation Committee out of Baton Rogue who, by the way, is 
doing a fabulous job of bringing the black bear back in 
Louisiana. I want to thank you for that. Mr. Ronald Anderson, 
President of Louisiana Farm Bureau; Ms. Patricia Gay, Executive 
Director of the Preservation Resource Center; Randy Lanctot of 
the Louisiana Wildlife Federation, Baton Rouge and Mr. Clifford 
Smith, President of T. Baker Smith and Son of Houma, Louisiana. 
Clifford, what is your official title so I can have it in the 
record?
    Mr. Smith. Member of the Mississippi River Commission.
    Mr. Tauzin. Member of the Mississippi River Commission. A 
presidential appointment to that very important commission.
    Ladies and gentlemen, thank you for your patience today. We 
are going to give you again instruction that your written 
testimony is part of our record. You don't have to read it. If 
you would engage in a conversational discussion of your 
concerns and issues and comments. We will start with Mayor 
Mount. We welcome you all. Again, your testimony is welcome.

STATEMENT OF HON. WILLIE T. MOUNT, MAYOR, CITY OF LAKE CHARLES, 
                           LOUISIANA

    Ms. Mount. Thank you.
    Congressman Tauzin, members of the Committee on Resources, 
honored guests, ladies and gentlemen. It is my great privilege 
and honor to speak to you today as a representative of local 
government in a coastal area about the importance of the 
Conservation and Reinvestment Act of 1999 to coastal 
communities throughout our state and our nation.
    The erosion of our fragile coastline is a national threat 
which is occurring incrementally and with deafening silence. As 
observed by Mark Davis in No Time to Lose, The Future of 
Louisiana, ``Louisianians will face disastrous consequences as 
communities, jobs and entire industries are reconfigured and 
abandoned. Commerce and communities throughout the U.S. will 
incur billions in unforeseen costs.''
    Coastal communities, better than anyone, understand the 
serious consequences of the loss of the wetlands. While 
challenged with these effects to land mass, fisheries, wildlife 
and tourism, to mention only a few, coastal communities have 
been called upon to focus their resources on roads and other 
infrastructure to service the exploration industry because that 
industry has been so important to the economies of those areas.
    This challenge points to the need for the assistance of the 
Conservation and Reinvestment Act. By resolving the oil and gas 
revenue distribution inequity nationally, the Conservation and 
Reinvestment Act provides for programs to address coastal 
restoration, provides funds to local governments to mitigate 
the impact of the offshore exploration and supports funding for 
the development of additional recreation to improve the quality 
of life in our cities and in our parishes.
    The experts will be presenting to you today great detail 
about the economic and statistical effect of the loss of our 
coastline. They will tell you about the staggering amounts of 
infrastructure that we stand to lose as a result of wetlands 
loss. They will tell you about the economic effects of coastal 
erosion on fisheries, on wildlife, on tourism and on hurricane 
and storm impact and more. Allow me to add a human face to 
those statistics.
    One of the most unique features of our great state is our 
marshes, wetlands and coast. Generations of local residents 
join people who take up temporary residency to enjoy fishing, 
hunting, bird watching and other recreational activities in a 
habitat that is unlike any other. Louisiana truly boasts a 
natural setting unlike virtually anywhere in this nation or the 
world.
    Yet the communities of our wetlands are seriously 
threatened by coastal erosion. For example, the residents of 
the Holly Beach area along Highway 82 in southwest Louisiana 
have the shoreline of the Gulf of Mexico at the highway as a 
result of coastal erosion. Let me say that again, despite the 
relocation of the highway and much reinforcement to protect its 
position, the edge of the highway is the shoreline of the Gulf 
of Mexico. That means that the highway is buffeted by every 
weather event that stirs up the Gulf of Mexico. Because the 
highway is the last natural ridge, or chenier as we call it, 
before the marsh, loss of the highway would lead to interior 
marsh loss. As a result, the communities are facing relocation 
because their hurricane evacuation route as well as their means 
of conducting everyday business will be lost with the loss of 
the highway. While the economic loss of communities is 
overwhelming, the human loss is even more calamitous.
    Let us look at another part of the state. The village of 
Cocodrie in Terrebonne Parish is entirely surrounded by marsh 
and there is no hurricane protection for the area. Home to 
recreational and commercial fishing alike, Cocodrie is also the 
home to the Louisiana Universities Marine Consortium, a 75,000 
square foot marine center with a replacement value of $24 
million. Cocodrie has a valuable and unique contribution to 
make to our state, our nation and our world. The experts 
predict that by 2050 over 55 percent of the marsh north of 
Cocodrie will be gone along with 65 percent of the marsh to the 
east; 35 percent of the marsh to the west and south will have 
turned to open waters. Should the community have to relocate, 
the economic impact of the infrastructure loss would cost up to 
$53 million according to the Coast 2050 study. But even more 
importantly, our people, our state and our nation will have 
lost a precious and unique area forever.
    Add to those communities the risk to numerous other areas 
in our state such as New Orleans and South Lafourche Parish, 
and you see the potential economic, social and human toll to 
communities at immediate risk as well as neighboring parishes, 
our entire state and nation.
    And the looming concern is that the human loss in the 
coastal parishes may be repeated over and over again, inching 
further and further inland, if the loss of coastline is not 
reversed. The effects are progressive and already are impacting 
areas some 100 miles inland. Neighboring communities such as 
ours are currently experiencing the effects on such features as 
transportation and flood and drainage capacity which depend 
heavily on the existence of the wetlands.
    Or as the Coast 2050 report states. ``The opportunity now 
exists to slow the loss of the wetlands, which will preserve 
the natural system while at the same time help these 
communities to continue to exist. It is a wiser decision to 
save wetlands rather than to move communities or replace that 
infrastructure.'' The experts are telling us what we know 
intuitively, that sustaining and preserving our wetlands is 
crucial to the future of all our communities in Louisiana.
    Ladies and gentlemen, the Conservation and Reinvestment Act 
of 1999 is about fairness. It is about fairness to our coastal 
communities and parishes; it is about fairness to our state and 
other states to receive a fair share of the offshore revenues; 
it is about fairness to our people; and it is about fairness to 
the continuation of a way of life that is unique and precious 
to our state and our country. Thank you for your favorable 
consideration of this Act.
    [The prepared statement of Ms. Mount follows:]

    Statement of Hon. Willie L. Mount, Mayor, City of Lake Charles, 
                               Louisiana

    Congressman Tauzin, members of the Committee on Resources, 
honored guests, ladies and gentlemen. It is my great privilege 
and honor to speak to you today as a representative of local 
government in a coastal area about the importance of the 
Conservation and Reinvestment Act of 1999 to coastal 
communities throughout our State and our nation.
    The erosion of our fragile coastline is a national threat 
which is occurring incrementally and with deafening silence. As 
observed by Mark Davis in No Time to Lose: The Future of 
Louisiana, ``Louisianians will face disastrous consequences as 
communities, jobs, and entire industries are reconfigured and 
abandoned. Commerce and communities throughout the U.S. will 
incur billions in unforeseen costs.''
    Coastal communities, better than anyone, understand the 
serious consequences of the loss of the wetlands. While 
challenged with these effects to land mass, fisheries, 
wildlife, and tourism, to mention only a few, coastal 
communities have been called upon to focus their resources on 
roads and other infrastructure to service the exploration 
industry because that industry has been so important to the 
economies of those areas.
    This challenge points to the need for the assistance of the 
Conservation and Reinvestment Act. By resolving the oil and gas 
revenue distribution inequity nationally, the Conservation and 
Reinvestment Act provides for programs to address coastal 
restoration, provides funds to local governments to mitigate 
the impacts of offshore exploration, and supports funding for 
the development of additional recreation to improve the quality 
of life in our cities and parishes.
    The experts will be presenting to you today great detail 
about the economic and statistical effect of the loss of our 
coastline. They will tell you about the staggering amounts of 
infrastructure that we stand to lose as a result of wetlands 
loss. They will tell you about the economic effects of coastal 
erosion on fisheries, on wildlife, on tourism, and on hurricane 
and storm impact and more. Allow me to add a human face to 
those statistics.
    One of the most unique features of our great state is our 
marshes, wetlands, and coast. Generations of local residents 
join people who take up temporary residency to enjoy fishing, 
hunting, bird watching and other recreational activities in a 
habitat that is unlike any other. Louisiana truly boasts a 
natural setting unlike virtually anywhere in the nation or the 
world.
    Yet the communities of our wetlands are seriously 
threatened by coastal erosion. For example, the residents of 
the Holly Beach area along Highway 82 in Southwest Louisiana 
have the shoreline of the Gulf of Mexico at the highway as a 
result of coastal erosion. Let me say that again, despite the 
relocation of the highway and much reinforcement to protect its 
position, the edge of the highway is the shoreline of the Gulf 
of Mexico. That means that the highway is buffeted by every 
weather event that stirs up the Gulf of Mexico. Because the 
highway is on the last natural ridge, or chenier as we call it, 
before the marsh, loss of the highway would lead to interior 
marsh loss. As a result, the communities are facing relocation 
because their hurricane evacuation route as well as their means 
of conducting everyday business will be lost with the loss of 
the highway. While the economic loss of communities is 
overwhelming, the human loss is even more calamitous.
    Let's look at another part of the state. The village of 
Cocodrie in Terrebonne Parish is entirely surrounded by marsh 
and there is no hurricane protection for the area. Home to 
recreational and commercial fishermen alike, Cocodrie is also 
the home to the Louisiana University's Marine Consortium, a 
75,000 square foot marine center with a replacement value of 
$24 million. Cocodrie has a valuable and unique contribution to 
make to our state, our nation, and our world. The experts 
project that by 2050, over 55 percent of the marsh north of 
Cocodrie will be gone along with 65 percent of the marsh to the 
east; 35 percent of the marsh to the west and south will have 
turned to open waters. Should the community have to relocate, 
the economic impact of the infrastructure loss would cost up to 
$53 million according to the Coast 2050 study. But even more 
importantly, our people, our State, our nation will have lost a 
precious and unique area forever.
    Add to those communities the risks to numerous other areas 
in our state such as New Orleans and South Lafourche parish, 
and you see the potential economic, social and human toll to 
communities at immediate risk as well as neighboring parishes, 
our entire state and nation.
    And the looming concern is that the human loss in the 
coastal parishes may be repeated over and over again, inching 
further and further inland, if the loss of coastline is not 
reversed. The effects are progressive and already are impacting 
areas some 100 miles inland. Neighboring communities such as 
ours are currently experiencing the effects on such features as 
transportation and flood and drainage capacity which depend 
heavily on the existence of the wetlands.
    Or as the Coast 2050 report states, ``The opportunity now 
exists to slow the loss of the wetlands, which will preserve 
the natural system while at the same time help these 
communities to continue to exist. It is a wiser decision to 
save the wetlands rather than to move communities or replace 
the infrastructure.'' The experts are telling us what we know 
intuitively, that sustaining and preserving our wetlands is 
crucial to the future of all communities in Louisiana.
    Ladies and gentlemen, the Conservation and Reinvestment Act 
of 1999 is about fairness. It is about fairness to our coastal 
communities and parishes; it is about fairness to our State and 
other states to receive a fair share of the offshore revenues; 
it is about fairness to our people; and it is about fairness to 
the continuation of a way of life that is unique and precious 
to our State and our country. Thank you for your favorable 
consideration of this Act.

    Mr. Tauzin. Thank you very much, Mayor Mount. I know that 
you have a schedule to keep and I am going to interrupt and 
allow members who would like to dialogue with you----
    Ms. Mount. Thank you.
    Mr. Tauzin. [continuing] and I know your own Congressman, 
Chris John, would like to do so. I am going to recognize him 
right now.
    Ms. Mount. Thank you.
    Mr. John. I am going to be very brief. Thank you for your 
patience, Mayor, and thank you for putting a human face, as you 
mentioned, on to this testimony with the mention of Highway 82. 
Let me say it to reinforce it one more time. LA 82 is the 
barrier island, the last defense from between the Gulf of 
Mexico and a huge resource, a marsh resource that is home to 
birds and bird watchers and alligators and ducks and fish and 
everything else. So it is a real critical situation down there. 
Thank you very much for coming and sharing those thoughts with 
us.
    Ms. Mount. Thank you Congressman John.
    Mr. Tauzin. Any other member of the Committee?
    [No response.)
    Mr. Tauzin. Mayor, we thank you very much. I know you have 
to keep a schedule. We appreciate your testimony, and as I 
said, it is all part of the record now.
    Ms. Mount. Thank you. I appreciate the opportunity.
    Mr. Tauzin. We are pleased to welcome our black bear man, 
Mr. Davidson, to the Committee. By the way, I just saw a 
program on CNN on Teddy Roosevelt. I learned the teddy bear was 
named after the black bear here in Louisiana.
    Mr. Davidson. That's right.
    Mr. Tauzin. A little cub bear that he spared on a hunting 
trip or something. Mr. Davidson.
    Mr. Davidson. Maybe we will hear more about Teddy Roosevelt 
coming back down to go bear hunting, but it is a different kind 
of hunting, in a few months. We will see how that works out.
    Mr. Tauzin. That is right.

  STATEMENT OF PAUL DAVIDSON, EXECUTIVE DIRECTOR, BLACK BEAR 
         CONSERVATION COMMITTEE, BATON ROUGE, LOUISIANA

    Mr. Davidson. I would like to express my thanks to this 
Committee for allowing me to give my thoughts on these very 
important legislative initiatives and thank Chairman Young and 
Congressman Miller for their leadership in working to find a 
mechanism to conserve our nation's natural heritage.
    My name is Paul Davidson and I am Executive Director of the 
Black Bear Conservation Committee which is a diverse coalition 
of interest representing conservation organizations, timber and 
agricultural interest, state and Federal agencies and several 
universities working to restore the threatened Louisiana black 
bear to its historic range in Louisiana, Mississippi, southern 
Arkansas and east Texas. Both H.R. 701, the Conservation and 
Reinvestment Act of 1999 and H.R. 798, the Permanent Protection 
for America's Resources 2000 Act have the potential to rank 
with the most important conservation initiatives in America's 
history.
    I will start by stating that I have never seen the natural 
resource management community as excited about any proposed 
legislation as they seem to be about these. The possibility of 
a stable funding mechanism for the land and water conservation 
fund is a sound initiative that is long overdue. As a native of 
this great and beautiful state of Louisiana, I am tired of 
dealing with the negative environmental impacts of outer 
continental shelf oil and gas without any compensation. We 
deserve compensation and mitigation for these adverse impacts. 
It is only fitting that some of this money be used to mitigate 
the damages to our coast.
    I am concerned about some of the possible restrictions 
associated with the funding for Land and Water Conservation 
Fund. Prioritization of land acquisition should be based on 
sound science, both biological and social, not politics. To 
restrict acquisition to land in and around existing Federal 
properties will mean that many biologically, socially and 
economically significant areas cannot be protected. Flexibility 
is essential.
    Based on my experience with the federally listed Louisiana 
black bear, I am excited that we are finally looking at 
incentives for private landowners willing to manage for listed 
species. Incentives, especially in the South, where 90 percent 
of the forested habitat is privately owned, can go a long way 
in taking the conflict and controversy out of endangered 
species. When Congress established the Wetland Reserve Program 
in the 1990 Farm Bill it created an incentive for farmers to 
protect and restore farmed wetlands. Over 100,000 acres--a 
little over 113,000 to be exact--of nonproductive farm land has 
been enrolled in WRP in Louisiana since 1992. In northeast 
Louisiana where there exists a population of black bears, 
landowners wishing to enroll their property in the Wetlands 
Reserve Program are given extra points toward their ranking if 
their property is near occupied habitat of black bears. The 
bear, even though it is federally listed, is perceived as an 
asset to the property owner. Landowners in that part of the 
state embrace our efforts to restore bear populations and are 
actively involved in our work. By contrast, in south central 
Louisiana in Congressman Tauzin's district where another bear 
population exists there is no real need or incentive to enroll 
in WRP, so we have not been able to create a positive attitude 
associated with bears. Landowners have fears, and legitimate 
ones, of government regulation and have a total lack of trust 
in the Fish and Wildlife Service.
    This is a great example of an incentive that has worked. 
The Wetland Reserve Program is the perfect example. If we can 
mimic that with the Endangered Species, we are going to do it 
and we are going to do it right. I have in my written testimony 
some other examples but I will forgo those to try to expedite 
this.
    The prospect of sending more money to the states for fish 
and wildlife conservation has agencies buzzing. State wildlife 
agencies currently get the bulk of their Federal funding from 
Pittman/Robertson and Dingle/Johnson programs. These are 
dollars based on the sale of hunting and fishing licenses and 
are generally used to fund programs to improve hunting and 
fishing opportunities. This new source of money comes from a 
broader base of taxpayers, so should be used in ways to work 
for all the stakeholders. For efficiency and accountability we 
need a comprehensive plan from each state that shows how these 
monies will be spent. Those states with strong science-based 
landscape scale plans can identify areas that need protection 
and then can effectively prioritize projects and fund them in 
ways that give the taxpayer the most for their money. I think 
that each state agency needs a coordinator for this funding and 
that there be a network--a national network in place where 
these coordinators can communicate with one another. There are 
many opportunities for major projects that cross political 
boundaries. Cooperative projects among two or more states 
should be promoted and pooling resources should make for a 
bigger and hopefully better project.
    Dr. Wentz mentioned some of the projects that are ongoing 
involving state, Federal agencies, private landowners, Partners 
in Flight, some other organizations. There are some 
conservation initiatives going on right now--Ducks Unlimited is 
a major partner in those--to look at neotropical migratory 
birds priority conservation areas and we have met with these 
people. We have now put the highlighter on the maps on the wall 
to tie these priority areas together to provide corridors for 
bears to move back and forth. So we believe that there are some 
major conservation projects and some major initiatives in this 
region that are as progressive as any conservation initiative 
in the world right now. Ten years ago, you know, if you would 
have said it could work I would say no, but right now we have 
enough people working together, private landowners, large and 
small, are major partners in this and that is the key. Like Dr. 
Wentz said, the private landowner is the key to success in 
conservation in the South.
    Mr. Tauzin. What happened to that Florida bear that visited 
Baton Rouge, Paul?
    Mr. Davidson. He went back home.
    Mr. Tauzin. He went back home?
    Mr. Davidson. I think they took the collar off him when 
they got him back to Florida so they would not know where he 
went.
    [Laughter.]
    Mr. Tauzin. I am pleased to welcome Mr. Ronald Anderson, 
President of the Louisiana Farm Bureau.
    [The prepared statement of Mr. Davidson follows:]

     Statement of Paul L. Davidson, Executive Director, Black Bear 
                         Conservation Committee

    I would like to express my thanks to this Committee for 
allowing me to express my thoughts on these very important 
legislative initiatives and thank Chairman Young and 
Congressman Miller for their leadership in working to find a 
mechanism to conserve our nations natural heritage. My name is 
Paul Davidson and I will give the perspective of a biologist 
and conservationist that has for the past twenty years worked 
on natural resource management issues.
    I have had the privilege of working for an organization 
called the Black Bear Conservation Committee for the past seven 
and a half years. The Committee is a diverse coalition of 
interests representing conservation organizations, timber and 
agricultural interests, state and Federal agencies, and several 
universities working to restore the threatened Louisiana black 
bear to its historic range in Louisiana, Mississippi, southern 
Arkansas, and east Texas. Our experience in working with the 
diverse stakeholders in the natural resource arena will 
influence my statements this morning.
    Both H.R. 701, the ``Conservation and Reinvestment Act of 
1999'' and H.R. 798, the ``Permanent Protection for America's 
Resources 2000 Act'' have the potential to rank with the most 
important conservation initiatives in America's history.
    I will start by stating that I have never seen the natural 
resource management community as excited about any proposed 
legislation as they seem to be about these. The possibility of 
a stable funding mechanism for the Land and Water Conservation 
Fund is a sound initiative that is long overdue. And as a 
native of Louisiana, I, as well as many others from this 
beautiful state, are tired of dealing with the negative 
environmental impacts of Outer Continental Shelf oil and gas 
operations so that places like Disneyworld can stay lit up like 
a Christmas tree. We deserve compensation and mitigation for 
these adverse impacts.
    I am concerned about some of the possible restrictions 
associated with this funding. Prioritization of land 
acquisitions should be based on sound science, both biological 
and social, not politics. To restrict acquisition to land in 
and around existing Federal properties will mean that many 
biologically, socially, and economically significant areas 
cannot be protected. We should work to get the most for our 
money, but with these restrictions, we will miss countless 
opportunities to get the best deals and protect the best 
habitat. Flexibility is essential, not restrictions.
    We also need to be able to respond quickly when 
opportunities become available. We see numerous potential 
acquisition opportunities missed because the landowners are not 
able to wait two or three years for Congress to appropriate the 
money to buy their property.
    Based on my experience with the federally listed Louisiana 
black bear, I am excited that we are finally looking at 
incentives for private landowners willing to manage for listed 
species. I think that we should also look at a mechanism to 
support those willing to enhance populations of ``candidate 
species'' as well. If we can do a better job of managing these 
species, populations will never get so low that they have to be 
listed. The lower the population, the more perilous the 
situation, and the less chance of recovery. The solution is to 
never allow the populations to get so low as to require 
listing. Incentives, especially in the South where 90 percent 
of the forested habitat is privately owned, can go a long way 
in taking the conflict and controversy out of endangered 
species issues.
    In Northeast Louisiana, where there exists a population of 
black bears, landowners wishing to enroll their property in the 
Wetlands Reserve Program (WRP) are given extra points toward 
their ranking if their property is near habitat occupied by 
bears. The bear, even though it is federally listed, is 
perceived as an asset to the property owner. Landowners in that 
part of the state embrace our efforts to restore bear 
populations and are actively involved in our work.
    By contrast, in south-central Louisiana, where another bear 
population exists, there is no real need or incentive to enroll 
in WRP, so we have not been able to create a positive attitude 
associated with bears. Landowners have fears, and legitimate 
ones, of government regulation and have a total lack of trust 
in the U.S. Fish and Wildlife Service. Much of this lack of 
trust can be attributed to poor communication between agency 
personnel and the local communities.
    Common sense should tell us that landowners are not going 
to protect something on their property if it is not in there 
best interest to do so. If there are incentives that make 
managing for a given species an asset to the individual 
landowners, I think that we will see attitudes change very 
quickly.
    When Congress established the Wetland Reserve Program in 
the 1990 Farm Bill, it created an incentive for farmers to 
protect and restore farmed wetlands. Over 100,000 acres of non-
productive farmland has been enrolled in WRP in Louisiana since 
1992. This has all been planted back to trees. This acreage 
will serve the needs of wildlife, but will also have positive 
implications on water quality, groundwater recharge, will 
reduce soil erosion and non-point source runoff, and reduce 
maintenance costs for drainage projects. These young forests 
will become economically viable in the future and can be a 
source of sustainable income for the landowner. Taking this 
acreage out of agricultural production also gives greater 
stability to farm prices.
    This is a great example of an incentive that has worked. It 
is popular with landowners, conservation and environmental 
interests, as well as financial institutions. It is a win-win 
scenario.
    The same can be done with endangered and threatened 
species. We just need to provide the incentives for private 
landowners so that it is in their best interest to protect 
these species. This will be a habitat issue. For example, the 
federally listed red-cockaded woodpecker prefers longleaf pine 
forests with mature trees that are 80 years old or older. Less 
than 4 percent of the historic longleaf pine ecosystem remains, 
so it is easy to understand why the woodpeckers are in trouble. 
Conversion of historic longleaf pine stands to faster growing 
slash and loblolly pines have eliminated woodpecker habitat. 
Incentives for landowners to plant and maintain longleaf pine 
stands will have a beneficial impact on woodpeckers, as well as 
other plants and animals indigenous to the longleaf pine 
ecosystem. This can also be economically advantageous to the 
landowner as longleaf pine timber is some of the most valuable 
in the southeastern United States.
    The incentives can be in the form of tax breaks, mitigation 
points, cash payments or any other mechanism that provides the 
necessary incentive. I think that flexibility is the key. A 
wealthy individual may be more inclined to participate for a 
tax break. Others may want cash. Some may want to form a 
mitigation bank for the species and collect money from others 
who want to convert habitat elsewhere.
    With the proper incentives, I believe that the controversy 
over endangered and threatened species can be turned around. 
But the program has to be properly designed and, of course, 
funded appropriately.
    The prospect of sending more money to the states for fish 
and wildlife conservation has agencies buzzing. It is exciting 
for all of us in the wildlife management business. But we need 
to be very careful in how this is done. In other words, I think 
a plan is needed.
    State wildlife agencies currently get the bulk of their 
Federal funding from Pittman-Robertson and Dingall-Johnson/
Wallup-Breaux programs. These are dollars based on the sale of 
hunting and fishing licenses and are generally used to fund 
programs to improve hunting and fishing opportunities. This is 
as it should be.
    But this new source of money comes from a broader base of 
taxpayers so should be used in ways to work for all the 
stakeholders. Many Americans spend millions of dollars annually 
in pursuit of non-consumptive outdoor experiences like bird 
watching, camping, hiking, canoeing, and other wildlife 
viewing. Their needs should be addressed as well.
    One of the realities of dealing with state agencies is that 
every four years or so the leadership changes, depending on who 
gets elected governor. So the direction and leadership during 
one administration can change 180 degrees when a new 
administrator take charge. Programs initiated by one 
administration, which may have consumed millions of taxpayer 
dollars, can be completely derailed by the next administration 
focused in a different direction. This is not efficient use of 
taxpayers money.
    For efficiency and accountability, we need a comprehensive 
plan from each state that shows how these monies will be spent. 
Those states with strong science-based, landscape scale plans, 
can identify areas that need protection and then can 
effectively prioritize projects and fund them in a way that 
gives the taxpayer the most for their money.
    I think that each state agency needs a coordinator for this 
funding and that there needs to be a national network of these 
coordinators so that they can communicate with each other. 
There are many opportunities for major projects that cross 
political boundaries. Cooperative projects among two or more 
states should be promoted. Pooling resources should make for 
bigger and hopefully better projects.
    There are ongoing programs in the Lower Mississippi River 
Valley that are focusing on the habitat needs of neo-tropical 
migratory birds and black bears and developing plans to enhance 
populations of both by partnering to promote habitat protection 
and enhancement, corridor development, reduction of 
fragmentation, and coordinating activities over the entire 
ecosystem. Bears and songbirds require expansive areas of 
suitable habitat to thrive. Biologists can use them as a tool 
to focus on the landscape and address habitat needs throughout 
the ecosystem. All other species, game and non-game, plants and 
animals, as well as humans, are the beneficiaries. The needs of 
local communities are addressed as well as the needs of the 
species of focus. No plan will work without the human dimension 
factored into the equation.
    State and Federal agencies, conservation organizations, the 
academic community, as well as private landowners are all 
active participants. These pro-active efforts will bear fruit 
because the resources are being pooled and input is solicited 
from all the stakeholders. These types of projects should be 
encouraged with this new funding. This will require 
coordination and cooperation among the different state agencies 
but the potential rewards will be worth the effort.
    There might even develop a sense of competition from the 
various regions of the country where partners in one region 
work to develop better and more beneficial projects than those 
in other regions. Cooperative projects in the South like the 
bear and songbird initiatives are cutting edge conservation 
biology, efforts that are as progressive as any conservation 
program in the world.
    In conclusion, I believe that we have a historic 
opportunity in the 106th Congress to pass legislation to fund 
programs that will help protect our treasured natural heritage 
into the next century. If there is anything that I or my 
organization can do to work with Committee staff to help move 
this process forward, please let us know.
    Thank you again for your efforts and the opportunity to 
speak to you today.

STATEMENT OF RONALD ANDERSON, PRESIDENT, LOUISIANA FARM BUREAU, 
                     BATON ROUGE, LOUISIANA

    Mr. Anderson. Thank you.
    Good morning, I am Ronnie Anderson and I am a farmer from 
Ethel, Louisiana and I serve as President of the Louisiana Farm 
Bureau Federation. I would like to express our appreciation for 
the opportunity to provide your Committee with some of our 
comments.
    From a general Louisiana perspective it is important that 
adequate resources are provided to mitigate the various impacts 
of outer continental shelf activities and to support 
sustainable development of renewable resources. Farmers are not 
only interested in the stewardship of natural resources but 
practice it every day. Farmers in our coastal area have even 
more interest and concerns with the loss of these resources. 
Simply put, coastal resources are vital to their survival. The 
bills provide the means for addressing many concerns related to 
coastal resource losses. Coastal wetland deterioration in 
Louisiana has been caused primarily by secondary effects of 
various channelizing projects. We believe Federal policy must 
address this issue and provide adequate long-term remedy to 
this significant cause of loss. Assistance to private 
landowners through incentives such as cost-share and technical 
assistance programs is preferred to the sometimes adversarial 
role of agencies that can discourage private wetlands 
enhancement programs. Hopefully, in part, these funds can be 
used in this manner to help the enhancement, restoration and 
maintenance of viable coastal wetlands. We have long felt that 
Federal policy should clearly establish that major losses of 
wetlands in coastal Louisiana are attributable to human 
activities benefiting national interests.
    Both of these bills provide dedicated sources of funding 
for revenues derived from OCS lease and a variety of programs 
other than OCS impact assistance such as land acquisition, 
payment in lieu of taxes, urban parks, recreational development 
and wildlife enhancement.
    Because farmers and ranchers own much of the remaining 
privately owned open spaces in the country, they are natural 
targets for having their land appropriated by government 
entities and various--for various purposes.
    We are pleased that H.R. 701 contains such safeguards with 
respect to Federal--to the Federal component of Land and Water 
Conservation Fund amendments by limiting Federal purchases only 
to existing inholdings and to willing sellers. The bill 
prevents the runaway and uncontrolled acquisition of Federal 
lands that many people fear.
    We believe the provisions that seek to further the 
partnership between private landowners and the government to 
enhance wildlife and its habitat are very important. The Farm 
Bureau believes that an appropriate balance between the needs 
of species and the needs of people can be struck.
    This whole program would enhance the conservation of 
species because it provides for their active on-the-ground 
management by affected landowners instead of current passive 
government management practices of easement and land use 
restrictions. At the same time it provides landowners with 
flexible management of their property. The HRP thus provides 
benefits to both species and landowner. This is the type of 
win-win scenario that is needed.
    Farm Bureau policy supports addressing a number of natural 
resource issues through voluntary non-regulatory strategy that 
balances the cost benefits of regulations, economic growth and 
environmental quality.
    I just skipped through and summarized some of these 
comments. The details are in the comments that are there. We 
appreciate the opportunity to be here. Our staff will be 
monitoring the progress and will be available to give you any 
more support information or anything that we might could do to 
assist in the formation of the legislation. Again, thank you.
    Mr. Tauzin. Ronnie, thank you. We have appreciated the 
enormous help your organization has given us in this process. 
We certainly continue a dialogue.
    Ms. Patricia Gay, the Executive Director of Preservation 
Resource Center, New Orleans, Louisiana.
    [The prepared statement of Mr. Anderson follows:]

    Statement of Ronald Anderson, President, Louisiana Farm Bureau 
                               Federation

    Good morning, my name is Ronald Anderson. I am a farmer 
from Ethel, Louisiana, and serve as President of the Louisiana 
Farm Bureau Federation. I would like to express our 
appreciation for providing this opportunity to provide your 
Committee with our views on the Conservation and Reinvestment 
Act and the Resources 2000 Act. I am appearing today on behalf 
of the Louisiana Farm Bureau Federation. Farm Bureau is an 
independent, nongovernmental, voluntary organization of farm 
and ranch families united for the purpose of analyzing their 
problems and formulating actions for solutions.
    From a general Louisiana perspective, it is important that 
adequate resources are provided to mitigate the various impacts 
of Outer Continental Shelf (OCS) activities and to support 
sustainable development of nonrenewable resources. Farmers are 
not only interested in the stewardship of natural resources but 
practice it everyday. Farmers in our coastal areas have even 
more interest and concerns with the loss of these resources. 
Simply put, coastal resources are vital to their survival. The 
bills provide the means of addressing many concerns related to 
coastal resource losses. Coastal wetland deterioration in 
Louisiana has been caused primarily by the secondary effects of 
various channelization projects. We believe Federal policy must 
address this issue and provide an adequate long-term remedy to 
this significant cause of loss. Assistance to private 
landowners through incentives such as cost-share and technical 
assistance programs is preferred to the sometimes-adversarial 
role of agencies that can discourage private wetlands 
enhancement programs. Hopefully, in part, these funds can be 
used in this manner to help the enhancement, restoration, and 
maintenance of viable coastal wetlands. We have long felt that 
Federal policy should clearly establish that major losses of 
wetlands in coastal Louisiana are attributable to human 
activity benefiting national interests.
    Both bills provide a dedicated source of funding from 
revenues derived from OCS leases for a variety of programs 
other than the OCS impact assistance such as land acquisition, 
payment in lieu of taxes, urban parks and recreational 
development, and wildlife enhancement. We will direct our 
remaining comments to those programs that involve land 
acquisition and wildlife habitat enhancement.
    One section of the respective bills provides a dedicated 
source of funding to the Land and Water Conservation Fund which 
has been used primarily for the purchase of land by state and 
Federal Government agencies. This Fund has a Federal component 
which provides money directly to Federal agencies, as well as a 
state component which provides matching funds for use by state 
agencies.
    If funding is to be provided for Federal and state lands, 
we strongly urge that any such funds be first earmarked for 
repair and maintenance of existing lands before being 
authorized to purchase additional land. The Federal land 
management agencies have a significant backlog of repairs and 
maintenance to their lands that total billions of dollars. For 
example, the U.S. Forest Service issued a moratorium on further 
road building in the national forests because it could not keep 
up with maintenance of existing roads.
    We should first use any funds to take care of the lands 
that we have. If our national parks are truly to be considered 
``American jewels,'' we would all be better served to have 
fewer jewels that are high quality and polished, rather than 
more lower quality, unpolished, and imperfect ones.
    Because farmers and ranchers own much of the remaining 
privately owned open space in the country, they are natural 
targets for having their land appropriated by governmental 
entities for various purposes. In addition, condemnation of 
private lands by governmental entities results in the removal 
of those lands from the tax rolls, thereby increasing the tax 
burden for the remaining private landowners in the area. 
Farmers and ranchers have experienced numerous problems with 
different levels of government condemning their property for 
whatever purpose. We are naturally skeptical, therefore, about 
any bill or action that involves or authorizes the acquisition 
of land by government. We carefully review such proposals to 
ensure that there are adequate safeguards for private 
landowners.
    We are pleased that H.R. 701 contains such safeguards with 
respect to the Federal component of the Land and Water 
Conservation Fund amendments (LWCA). By limiting Federal 
purchases only to existing inholdings and to willing sellers, 
the bill prevents the runaway and uncontrolled acquisition of 
Federal lands that many people fear. Individuals other than 
landowners are often affected and should be considered when 
acquisitions are being planned. Other bills such as H.R. 798 do 
not contain these safeguards. Unlike similar provisions in H.R. 
798 and other bills, we feel that the conditions placed on the 
expenditure of Federal LWCA funds in H.R. 701 adequately 
protect private property interests.
    The state component of the bill contains no such 
safeguards. Possibly the bill should be amended to incorporate 
the same conditions on the use of Federal matching funds for 
state purchases as exist for Federal acquisitions.
    Also unlike H.R. 798 and similar bills, H.R. 701 provides 
that for any money collected above the maximum authorized for 
the LWCA, the excess shall be applied to the ``Payment In Lieu 
of Taxes'' program. This Farm Bureau-supported program, which 
seeks to make up for lost local tax base resulting from the 
presence of Federal lands by making payments for use in local 
areas, has been traditionally underfunded. We support the 
effort of H.R. 701 to give this program a needed shot in the 
arm. It is also important to recognize the impact of Federal 
acquisitions on adjacent landowners and agricultural interest 
in a given region. In many instances the Payment in Lieu of 
Taxes program has not made up the losses in tax receipts by 
local governing bodies and does not begin to replace the losses 
in economic activity.
    We believe the provisions that seek to further the 
partnership between private landowners and the government to 
enhance wildlife and its habitat are very important. Privately 
owned farm and ranch lands provide a significant amount of the 
food and habitat for our nation's wildlife. The agencies must 
have the cooperation of farmers, ranchers and private property 
owners if the Endangered Species Act is going to work. Private 
landowners are clearly the key to the Act's success.
    The Farm Bureau believes that an appropriate balance 
between the needs of a species and the needs of people can be 
struck. We agree with the basic goals of wildlife enhancement. 
No one wants to see species become extinct yet, at the same 
time, no one wants to see people lose the capacity to produce 
food or to be without essential human services. Given the 
proper assurances, farmers and ranchers can play a significant 
role in management of species on their property.
    We are therefore very pleased that both H.R. 701 and H.R. 
798 contain programs that acknowledge and seek to implement 
this partnership. Both of these programs contain positive 
elements. Both programs provide for agreements between agency 
and landowner to benefit species on their property. H.R. 798 
provides a definite source of funding for its program, whereas 
H.R. 701 does not.
    H.R. 701 would create the Habitat Reserve Program (HRP). 
The HRP is the type of program that provides those assurances 
and achieves that balance between species and landowner that is 
necessary for the well-being of both. Farm Bureau is committed 
to making this type of program work.
    Under this section, farmers and ranchers would enter into 
contracts for the protection of habitat for listed species. The 
private landowner would be paid for managing and protecting 
species habitat similar to the way that the Conservation 
Reserve Program works. This program effectively recognizes the 
public benefit that private landowners provide for listed 
species and responds in an appropriate manner. It also provides 
that the owner and the operator must enter into the agreement 
in cases where the operator of the affected land is not the 
owner. It encourages landowners to voluntarily provide needed 
management for species and habitat while at the same time 
allowing the landowner to productively use the land through 
payments received through the program.
    This program will enhance the conservation of species 
because it provides for their active on-the-ground management 
by affected landowners instead of the current passive 
government management practices of easements and land use 
restrictions. At the same time, it provides landowners with 
flexibility to manage their property. The HRP thus provides 
benefits for both the species and the landowner--the type of 
``win-win'' scenario that is needed.
    In conclusion, we believe that H.R. 701 provides more 
overall balance than H.R. 798 and similar bills thus far 
introduced. We also believe that it offers the best chance of 
achieving any sort of consensus on the issues contained 
therein, so long as appropriate amendments as suggested in our 
testimony are incorporated. Farm Bureau policy supports 
addressing a number of natural resource issues through a 
voluntary non-regulatory strategy that balances the cost/
benefits of regulations, economic growth, and environmental 
quality.
    Again, we appreciate the opportunity to appear here today 
and provide our views. We look forward to working with the 
Committee on the issues we have addressed.

STATEMENT OF PATRICIA H. GAY, EXECUTIVE DIRECTOR, PRESERVATION 
            RESOURCE CENTER, NEW ORLEANS, LOUISIANA

    Ms. Gay. Thank you for the opportunity to speak to this 
important Committee today. I have been active in historic 
preservation for many years as a volunteer and professionally 
at the local, state and Federal levels. On behalf of the 
Preservation Resource Center of New Orleans and the Louisiana 
Preservation Alliance I urge you to include the Historic 
Preservation Fund at the level of $150 million as a critical 
element in any resource initiative. The National Preservation 
Program, which this fund makes possible, has been 
extraordinarily effective. In addition to preserving historic 
resources throughout our country, this modest program has also 
had an impact on the tragic sociological, economic and 
environmental problems that have plagued our country for 
several decades as a result of urban decline and suburban 
sprawl. Only H.R. 798 currently includes it. We are optimistic 
that the final bill will include the Historic Preservation 
Fund.
    Today, I would like for you to think not only of historic 
and natural resources, I urge you to think of our towns and 
cities as an important national resource as well.
    First, our appreciation to Congressman Tauzin and others 
for their efforts to establish funding for the protection of 
our natural resources, especially for the coastal wetlands of 
Louisiana. We support these efforts.
    Just as we have been losing wetlands, we have been losing 
our towns and cities. This decline is a major factor also in 
the decline of wildlife, forest, wetlands and other components 
of our natural environment. Given the impressive effectiveness 
of preservation programs and given the problems that we have 
lived with for several decades now as a result of increasingly 
dysfunctional towns and cities, I have been astounded year 
after year that preservation programs are often overlooked, 
even ignored. For example, the National Town Meetings for a 
Sustainable America currently taking place do not include the 
tried and proven programs such as Main Street, the Federal 
rehabilitation tax credit, historic district commissions. Even 
the relatively young city of Phoenix uses this strategy to 
maintain stability or sustainability, if you will, in older 
neighborhoods and many other preservation programs which have 
had so much success in reversing decline and creating 
sustainable communities.
    Preservation programs have succeeded in spite of negligible 
funding primarily because they involve an irreplaceable 
resource that has substantial value because of the dedication 
of the volunteers and staff and because partnerships at the 
local, state and Federal levels that preservation programs 
involve. Perhaps most importantly, they succeed because these 
programs attract private sector investments. Please remember 
however that the problems still exists. These successful 
programs must be strengthened, not ignored.
    Consider: Over $19 billion in private dollars has been 
invested in deteriorated and predominately abandoned historic 
properties and neighborhoods through the Federal tax credit for 
historic rehabilitation. Decline has been reversed in many 
urban centers across the country by private dollars stimulated 
by the Federal tax credit, the implementation of which this 
fund makes possible.
    Consider: Over $8.6 billion private dollars invested in 
1,400 towns and urban neighborhoods has brought them back to 
life through the National Main Street Program. In Louisiana the 
ratio of private dollars is 1 to 62. Since initiated in 1984 
over $97 million has been invested in 24 Louisiana towns under 
50,000 in population. The Historic Preservation Fund makes Main 
Street an exemplary local, state and Federal partnership 
possible throughout the country.
    Consider: Over 2,500 local historic districts have been 
established throughout the United States creating a better 
quality of life and more stabilized environment for investment 
in historic districts by home buyers and business. In New 
Orleans many once declining neighborhoods that have been 
designated local historic districts are now thriving and have 
never looked better reflecting a greatly improved quality of 
life and economy. The historic preservation fund has been a 
support and a catalyst for local historic districts throughout 
the country. Recently suburban sprawl has begun to attract 
attention, even of Congress. Regardless of the findings of the 
recently released Congressional report on the subject, I submit 
to you that the significant resource of the towns and cities of 
America merit as much attention as suburban sprawl and urge you 
to take action by establishing annual funding for the Historic 
Preservation Fund which has made possible programs that have so 
effectively reversed their decline and that could be an 
effective tool for alleviating the problems of suburban sprawl.
    We also submit an additional recommendation for your 
consideration. The creation of a new subcommittee of your 
Committee for an overlooked, invaluable and endangered national 
resource: the towns and cities of America. Such a subcommittee 
need not regulate or fund programs but would serve every 
constituency by providing coordination and utilization of 
existing Federal programs in

order to address more effectively the alarming decline of our 
towns and cities and the problems this has generated in 
communities everywhere. Thank you.
    [The prepared statement of Ms. Gay follows:]
    [GRAPHIC] [TIFF OMITTED] T6598.180
    
    [GRAPHIC] [TIFF OMITTED] T6598.181
    
    [GRAPHIC] [TIFF OMITTED] T6598.182
    
    [GRAPHIC] [TIFF OMITTED] T6598.183
    
    [GRAPHIC] [TIFF OMITTED] T6598.184
    
    [GRAPHIC] [TIFF OMITTED] T6598.185
    
    [GRAPHIC] [TIFF OMITTED] T6598.186
    
    [GRAPHIC] [TIFF OMITTED] T6598.187
    
    [GRAPHIC] [TIFF OMITTED] T6598.188
    
    [GRAPHIC] [TIFF OMITTED] T6598.189
    
    [GRAPHIC] [TIFF OMITTED] T6598.190
    
    [GRAPHIC] [TIFF OMITTED] T6598.191
    
    [GRAPHIC] [TIFF OMITTED] T6598.192
    
    Mr. Tauzin. You didn't mention the termite, I am going to 
ask you about that later on. It is a big problem for all of us.
    Ms. Gay. It certainly is.
    Mr. Tauzin. Randy Lanctot, Executive Director of the 
Louisiana Wildlife Federation. Welcome, Randy.

   STATEMENT OF RANDY LANCTOT, EXECUTIVE DIRECTOR, LOUISIANA 
          WILDLIFE FEDERATION, BATON ROUGE, LOUISIANA

    Mr. Lanctot. Thank you, Mr. Tauzin. I want to say that I 
have had the great opportunity over the years to visit the 
states of Oregon and New Mexico, the wilderness areas like the 
Gila, Pecos and Aldo Leopold, and the beautiful, wonderful 
coast of the state of Oregon. It certainly is a wonderful and 
gorgeous country that we all live in. I hope you gentlemen will 
appreciate the finer natural resources we have here in our 
state as well.
    My name is Randy Lanctot and I have served as Executive 
Director of the Louisiana Wildlife Federation since 1980. The 
Federation is 60 years old with a long and proud tradition of 
defending habitat and winning advances for conservation and the 
environment. It represents a broad constituency of hunters, 
fishers, campers, birders and others that enjoy the great 
outdoors in the Bayou State. We have over 14,000 members and 35 
local affiliated clubs. We were a founding member of the 
Coalition to Restore Coastal Louisiana and we are the state 
affiliate of the National Wildlife Federation.
    I want to thank Chairman Young and members of the Committee 
for coming to Louisiana and inviting us to appear before you to 
testify on legislation that we believe is the most significant 
proposal ever for conservation funding. It is a big one that we 
can't afford to let get away.
    As I am sure you have heard in testimony to the Committee 
by others there is a great need and strong support throughout 
the nation for investing in the conservation of renewable 
natural resources. Although a few discordant voices have been 
raised with regard to the effects these proposals may have on 
private property rights, we feel that those concerns are 
adequately met with provisions in the bills that restrict 
acquisitions to willing seller only agreements and agency 
policies that are already in place to ensure public input to 
Federal land acquisition proposals. Particularly in Louisiana, 
the need to restore our coastal habitats for both people and 
wildlife is urgent. Our coast is sustaining a loss of more than 
30 square miles a year.
    The concept of using revenue from the depletion of non-
renewable public trust natural resources to secure, sustain and 
restore renewable natural resources for the benefit of present 
and future generations, as embodied in both of these bills and 
the companion bills introduced in the Senate is fundamentally 
sound, infinitely wise and we urge conservationists from 
throughout America to join us in commending the bill's authors, 
sponsors and supporters.
    Thank you, gentlemen. By now, you have learned at least a 
little about Louisiana's vast productive and rapidly 
disappearing coastal wetlands. They are important gulf-wide as 
nursery for living marine resources and internationally as 
habitat for migratory birds. In addition, to us here at ground 
zero, they are essential to keep the sea at bay and they are 
the fiber from which so much of our unique and colorful culture 
is knit.
    The environmental cost of providing shoreside support for 
mineral development on the outer continental shelf have been 
immense and have been described to you by Mark Davis of the 
Coalition to Restore Coastal Louisiana and others. We hope that 
all of you and your other colleagues in Congress will accept 
and embrace the concept of sharing OCS revenue to restore 
coastal environments and ensure their future sustainability in 
Louisiana and elsewhere. They are among the most valuable, 
productive and challenged ecosystems in the world.
    For the record, I have submitted or appended copies of 
resolutions that the Louisiana Wildlife Federation has adopted 
regarding this issue, for you to look at, at your convenience.
    Of course, H.R. 701 and 798 propose to do more than provide 
funds for coastal restoration and conservation of marine 
resources. As an organization with a diverse membership and 
broad interests in all aspects of conservation, we have a lot 
to say, briefly, about both bills. As I have already mentioned 
regarding Coastal Energy Impact Assistance, we believe in 
sharing OCS revenue with coastal states that bear the impacts 
of offshore mineral development, and that in any fund 
distribution scenario, those producing states should have a 
greater claim on those dollars than other coastal states. 
However, like many of our colleagues in the national 
environmental community, we feel that the revenue sharing 
formula that is ultimately adopted and the realm of allowable 
uses of the fund should not be incentive for more offshore 
drilling.
    What motivates OCS mineral activity now is the economics of 
discovery and production. I think Representative John said that 
a little while ago. Pure and simple--things like the 
availability of a lease with a promising formation, the 
technology to get to it and produce it, the feasibility of 
operating within the regulatory climate which is likely to get 
more rigorous in the future, and the market price of a barrel 
or thousand cubic feet. These factors far outweigh any stimulus 
that might be associated with the OCS Impact Assistance Title 
of H.R. 701.
    But as a precaution and to allay the concerns of many, it 
would be reasonable to incorporate a few safeguards in addition 
to the provision of the bill honoring leasing moratoria. One 
safeguard would be to base the production-based part of the 
allocation formula on production previous to enactment of this 
legislation on a fair snapshot of past production. Another, as 
Representative Tauzin just mentioned, apply the moratoria 
provision to all titles of the bill--that is another good 
thing. And another would be to more clearly restrict the realm 
of purposes for which the dollars can be used so that they 
promote sustainability of coastal regions and avoid further 
degradation.
    We strongly concur with the requirement of section 105 to 
have a state plan developed, with public participation, for use 
of the funds. We recommend that this section also require that 
all pertinent state natural resource management and protection 
agencies participate in plan development and that all pertinent 
Federal natural resource management agencies provide input to 
the plan. Further, every project within the plan should have a 
clearly described objective and outcome and be monitored by the 
applicant, and that should apply to the wildlife funding and, 
as pertinent, to the land and water conservation funding.
    I will summarize the rest of my remarks, you have my 
testimony.
    We strongly support the full funding of the Land and Water 
Conservation Fund, and although Governor Foster did not mention 
it earlier when he was here, he is focusing on development of 
our state park system. We have one of the smallest in the 
nation and this funding is vitally important for that.
    We support the habitat reserve concept in H.R. 701, it 
needs further development perhaps.
    Title III, we are very enthusiastic about that aspect of 
the legislation and it covers most of the bases. But short of 
micro-management, additional language may be prudent to make 
sure the wildlife conservation funds provided for in this title 
are equitably apportioned among all state wildlife agency 
programs and responsibilities directly related to fish and 
wildlife conservation and education. For example, a census of 
swallow-tailed kites should be able to compete for these funds 
on equal footing with an urban wildlife education outreach 
program, which should receive no less consideration than a 
coastal fisheries enforcement patrol, development of a canoe 
trail or the conduct of a deer browse survey.
    One issue that has not been discussed much, but you did 
mention Bosnia a little while ago. Obviously the Federal budget 
is a big concern here. That is in your court, we do not know--
it is a little too complicated for us to address, but obviously 
that has to be dealt with.
    We are concerned with H.R. 798. I know that bill was not 
addressed too much here today, but we do not believe that all 
new leasing should be eliminated from providing funds for this 
cause. And a very serious concern that we have with respect to 
H.R. 798 is its failure to recognize the disproportionate 
impact of OCS development on those coastal states like 
Louisiana that provide onshore support for this industry, one 
that energizes this nation. And we urge the bill's sponsors to 
work with Congressman Young and Louisiana members to address 
the needs of those impacted states.
    There are some other good portions of both bills that can 
be knit together quite easily. We are happy to offer 
recommendations in that regard if you would like to have them, 
as far as specific wording, but in closing, on behalf of the 
Louisiana Wildlife Federation, I want to thank Congressman 
Young and members of the Resources Committee for advocating 
these bold and timely conservation funding proposals and I want 
to especially thank Congressmen John and Tauzin and Senators 
Landrieu and Breaux for their leadership in this cause that is 
critically important to Louisiana, her coast, her people and 
the wild lands and people of America.
    Thank you.
    [The prepared statement of Mr. Lanctot follows:]
    [GRAPHIC] [TIFF OMITTED] T6598.193
    
    [GRAPHIC] [TIFF OMITTED] T6598.194
    
    [GRAPHIC] [TIFF OMITTED] T6598.195
    
    [GRAPHIC] [TIFF OMITTED] T6598.196
    
    [GRAPHIC] [TIFF OMITTED] T6598.197
    
    [GRAPHIC] [TIFF OMITTED] T6598.198
    
    [GRAPHIC] [TIFF OMITTED] T6598.199
    
    [GRAPHIC] [TIFF OMITTED] T6598.200
    
    [GRAPHIC] [TIFF OMITTED] T6598.201
    
    [GRAPHIC] [TIFF OMITTED] T6598.202
    
    Mr. Tauzin. Thank you, Randy.
    Finally, Mr. Clifford Smith, President of T. Baker Smith 
and Son, our river commissioner. I want you all to know that 
whenever I am really feeling too good, I call Clifford, he 
usually brings me back down to earth. Are you feeling 
pessimistic or optimistic today?
    Mr. Smith. I will try to be a little more optimistic today.
    Mr. Tauzin. We welcome your testimony, sir.

STATEMENT OF WILLIAM CLIFFORD SMITH, PRESIDENT, T. BAKER SMITH 
                   AND SON, HOUMA, LOUISIANA

    Mr. Smith. Mr. Chairman and members of the Resources 
Committee, I am William Clifford Smith, I am a civil engineer 
and land surveyor in Houma, Terrebonne Parish, Louisiana. I 
have lived in this area all of my life. This is the same area, 
by the way, that Mr. Snyder and Mr. Downer earlier than me, 
were from.
    My community is 65 miles southwest of New Orleans, 30 miles 
north of the Gulf of Mexico and two inches above the water and 
the water is rising. I often say that I am the only person that 
comes up to the meetings in New Orleans, it just so happens 
today they had four or five people that came up to the meeting, 
from where I live to the meetings in New Orleans. So we live 
between the mouth of the Atchafalaya and the Mississippi River. 
We truly live in the delta. The Mississippi and its tributaries 
provide drainage and navigation improvements for 41 percent of 
the surface areas of the United States, of which all the water 
and navigation flows through Louisiana to the Gulf of Mexico.
    Over the last approximately 100 years, the United States 
Government has leveed and controlled the Mississippi River and 
tributaries for flood control and navigation improvements. It 
is estimated that 70 percent of the grain exported from the 
United States traverses the Mississippi River through Louisiana 
to international markets. For the benefit of the nation, these 
flood control and navigation improvements have had some 
protection to our area, but it has also been a major cause of 
coastal deterioration of our lands.
    In my community over the last 60 years, we have lost 
approximately 400,000 acres of surface area to the Gulf of 
Mexico. This has primarily been caused by the controlling of 
the rivers and the cutting off of the delta building process. 
At the same time the exploration for oil and gas in coastal and 
offshore Louisiana has been accelerating; and the navigation 
and access canals for pipelines and other transportation needs 
have intensified this deterioration.
    Not only has our area provided vast amounts of oil and gas 
for consumption by the United States economy, but we are also 
the major port of embarkation for foreign oil coming into our 
nation. It is now estimated that 70 percent of the energy 
consumed in the United States originates from the Gulf Coast.
    I believe that H.R. 701 is a proper way to allow funds to 
flow from the United States Treasury to areas such as ours for 
truly mitigation benefits for the improvements necessary to 
reverse the environmental impacts that are being affected in 
this region. Because of the sacrifices our region has made for 
energy resources, flood control and navigation, it certainly 
seems reasonable that some direct wealth that our area 
contributes to the national treasury should be used to 
mitigate, control, manage the recurring natural resources that 
we have remaining.
    Our fragile coastal area is still truly a national treasure 
and probably the most productive ecological area in the whole 
nation. We provide vast amounts of seafood to this nation, and 
if the alarming coastal erosion problem is not properly 
managed, this vast resource for our nation will be lost 
forever.
    Surely we in Louisiana cannot afford and should not be 
expected to provide all the funds for the resource management 
necessary to reverse some of these drastic environmental and 
ecological changes that are happening to us.
    Since we have now documented that we are losing in 
Louisiana approximately 35 square miles to coastal erosion a 
year, we humbly request that H.R. 701 be approved by this 
Committee and enacted by Congress as quickly as possible.
    I might mention that I believe while we have been meeting 
here this morning for about four hours, we have lost at least 
12 acres of land. And since you all have been so kind to be in 
our state for the last three days, we have lost about 200 
acres. I also might mention that----
    Mr. Tauzin. You are not blaming that on these members?
    Mr. Smith. No, no, no, just pointing out the importance of 
the problem.
    Another point is that Congressman DeFazio had asked about 
the severance taxes and if we had been spending any money for 
coastal restoration. In the last 10 years, through a 
constitutional amendment, we have spent about $170 million in 
Louisiana of Louisiana money for coastal restoration projects. 
We have also instituted a program for permitting in the state 
which requires mitigation benefits for any new projects that 
are built in the coastal areas. And we frankly in Louisiana did 
the funding and did the permitting process even before the 
Federal Government began to look at those different types of 
projects.
    So we do think we have taken even a lead to try to reverse 
some of the things that have happened to us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith follows:]

Statement of William Clifford Smith, President, T. Baker Smith and Son, 
                            Houma, Louisiana

    Mr. Chairman, members of the Committee on Resources, I am 
William Clifford Smith, a Civil Engineer and Land Surveyor from 
Houma, Terrebonne Parish, Louisiana. I have lived in this area 
all of my life.
    The community in which I live is 65 miles southwest of New 
Orleans and 30 miles north of the Gulf of Mexico. This area is 
between the mouth of the Mississippi and Atchafalaya Rivers. We 
truly live in the Delta area. The Mississippi and its 
tributaries provide drainage and navigation improvements for 41 
percent of the surface area of the United States, of which all 
of this water and navigation flows through Louisiana to the 
Gulf of Mexico.
    Over the last approximately 100 years, the United States 
Government has leveed and controlled the Mississippi River and 
tributaries for flood control and navigation improvements. It 
is estimated that approximately 70 percent of the grain 
exported from the United States traverses the Mississippi River 
through Louisiana to international markets. For the benefit of 
the nation, these flood control and navigation improvements 
have had some protection to our area, but it has also been a 
major cause of the coastal deterioration of our lands.
    In my community, over the last 60 years, we have lost 
approximately 400,000 acres of surface area to the Gulf of 
Mexico. This has primarily been caused by the controlling of 
the rivers and the cutting off of the delta building process. 
At the same time, the exploration for oil and gas in coastal 
and offshore Louisiana has been accelerating; and the 
navigation and access canals for pipelines and other 
transportation needs have intensified this deterioration.
    Not only has our area provided vast amounts of oil and gas 
for consumption by the United States economy, but we are also 
the major port of embarkation for foreign oil coming into our 
nation. It has been estimated that 70 percent of the energy 
consumed in the United States originates from the Gulf Coast.
    I believe that H.R. 701 is a proper way to allow funds to 
flow from the United States Treasury to areas such as ours for 
truly mitigation benefits for the improvements necessary to 
reverse the environmental impacts that are being affected in 
this region. Because of the sacrifices our region has made for 
energy resources, flood control, and navigation, it certainly 
seems reasonable that some of the direct wealth that our area 
contributes to the national treasury should be used to 
mitigate, control and manage the recurring natural resources 
that we have remaining.
    Our fragile coastal area is still truly a national treasure 
and probably is the most productive ecological area in the 
whole nation. We provide vast amounts of seafood to this 
nation, and if the alarming coastal erosion problem is not 
properly managed this vast resource for our nation will be lost 
forever.
    Surely we in Louisiana cannot afford, and should not be 
expected, to provide all the funds necessary for the resource 
management necessary to reverse some of these drastic 
environmental and ecological changes that are happening to us.
    Since we now have documented that we are losing, in 
Louisiana, approximately 35 square miles a year to coastal 
erosion, we humbly request that H.R. 701 be approved by this 
Committee and enacted by Congress as quickly as possible.

    Mr. Tauzin. Thank you very much, Mr. Smith.
    Let me first recognize myself and then other members. Mr. 
Anderson and Mr. Davidson, I think you present some of the 
conflicts we have with our bill. Obviously we are trying to 
write a bill that answers the concerns of private property 
owners and when you fund land and water conservation, you are 
funding the acquisition of more private property for, in this 
case, preservation purposes. In any event, you see the 
conflict. And we are delicately trying to balance those by 
ensuring that the bill does not in any way take away private 
property rights. That is why the willing seller provisions are 
in. We have had to deal with westerners who do not want to see 
a great deal more land acquisition, that is why the in-holding 
provisions. We have another provision that says that most of 
the acquisitions have to occur east of the river in an effort 
to tilt the acquisition of more Federal land away from the 
western states. You know, I think you can understand why they 
have a sincere concern about over-abundant state, local and 
Federal control of their properties. In fact, in those states 
where that occurs, we have formulas to share money with the 
states to help them, because they lose property taxes when the 
government owns the land, very similar to what we are talking 
about here, mitigating the damages of the Federal activity.
    So I just want to point out that in your testimony, you 
made a very clear and concise argument on the two sides of the 
equation, which we have to balance. And my only plea to you is 
to understand that we have to balance that. We cannot write a 
bill which will lose support because it does not protect 
property rights. On the other hand, we cannot write a bill that 
funds Federal land and water acquisition for preservation 
purposes without some acquisition occurring. We have to balance 
those concerns and we are trying to do that. I just want you to 
understand and know that as we go through it.
    I also wanted to point out to all of you with the 
preservation effort, the Wildlife Federation effort in 
Louisiana, that you said it, Randy, this is our best shot in a 
long time. You know, these shots do not come along too often. 
This is the first time the Federal Government is recommending a 
revenue sharing and if we do not tap into it, we are very 
foolish. You mentioned it, let me state again, the Kosovo 
funding requirements are beginning to loom as very, very large. 
We are up to a $6 billion request from the President, we are 
likely to up that a great deal because of the concerns we have 
that is drawing down other security forces for our country in 
other parts of the world. We are looking at a $12 billion bill 
coming out of Committee. And when you talk about the scale of 
those appropriations, you understand why we are going to be 
hard-pressed to find money. We may win, as you did in this 
case, win in an authorization for funding for historic 
preservation, only to find no money was ever appropriated to 
the program. That would be a hollow victory for us and we want 
to encourage you, please, to understand how we are delicately 
balancing this so that we have enough support not only to 
authorize the programs, but to get funding, Randy, and make 
sure that each of these preservations work.
    I want to say one final thought on that and then go to the 
termites.
    [Laughter.]
    Mr. Tauzin. The point of our bill, Title III, is designed 
to keep species from ever getting on an endangered or 
threatened list. It is awfully critical and I see, Paul, you 
shaking your head--that is so critical. The last thing we ought 
to have to worry about is listing these species and going 
through the awful problems we have with landowners, Mr. 
Anderson, trying to protect a specie when to do so comes in 
conflict again very seriously with private property interests, 
et cetera. If we can intercede early and make sure the black 
bear is never threatened, never endangered, and other species 
like him never reach that list, we do more to protect private 
property rights in the end than any other thing I think we 
could do, and we are accomplishing our purpose of preventing 
the demise of species on the planet.
    The termites, which is a species we have to worry about 
getting rid of.
    Ms. Gay. It came through the port also.
    Mr. Tauzin. The Naval Station brought them here, the 
Federal Government brought us a new termite. And if you do not 
know about it, learn about it, please. And Peter and Tom, you 
are going to learn a lot more about it as Jefferson, Bill 
Jefferson, makes his case in Congress because New Orleans is 
most heavily infested, but many coastal states are. The problem 
with this termite is not just that it infests homes and 
buildings and historic sites, it infests live trees. And here 
is the point I want to make today, I think not only with this 
bill but in the efforts that Bill is going to make to attack 
this problem, there is a connection. If the live trees along 
our coast are as heavily infested with these termites as we are 
told they are, then $300 million annually is being done to 
properties and trees along coastal Louisiana. And we get that 
next storm and that next storm and the land is washing away and 
now the trees become fragile because they are eaten up from the 
inside by a new termite infestation, you can see how this 
begins to relate, how it begins to connect. Dealing with this 
termite is going to be a serious problem for us if we are going 
to protect the trees and the barriers they provide for us not 
only in terms of holding the soil together but the barriers to 
wind damage and wave damage when the storms come into Louisiana 
and rip away our coast line.
    I want everybody to focus on that, please, as we leave this 
hearing and join with us in that effort as well because Bill 
Jefferson and the Louisiana delegation is going to be trying to 
make the case on the Federal level to begin dealing with that 
awful problem as it relates to historic preservation as well.
    I have used up all my time. Let me ask other members if 
they have comments or dialogue.
    Peter?
    Mr. DeFazio. No.
    Mr. Tauzin. Chris?
    Mr. John. Very brief. I want to just thank everyone for 
participating in this hearing. Not a particular question for 
any of the folks at the table here, but this as truly been a 
remarkable hearing, it has been a remarkable three days, to try 
to really add to the momentum of a piece of legislation whose 
time has come.
    The Legacy in Lands initiative by the President, the George 
Miller bill H.R. 798, the CARA 701 and Landrieu's bill on the 
Senate side, all have a commonality and a common thread that 
weaves them together and this is a vital and important part of 
the process that we exercised today, to make sure that the 
commonality is about conservation. We are going to have a 
particular bill come out of this Congress and you are an 
important part in mending and weaving that bill. So thank you 
very much for coming.
    I also want to thank the staff of the Resources Committee 
on both sides of the aisle, the Democrats and the Republicans, 
who really have worked very hard at making this all possible, 
and also the City of New Orleans and also special thanks to the 
gentleman from Oregon and also the gentleman from New Mexico 
for taking time out of their schedule. As a Member of Congress, 
I understand that there could be 100 other places to be, 
including in your homes with your families, so it means much to 
me and to Congressman Tauzin that you would take this weekend, 
irrespective of jazz fest, and come be with us today.
    Mr. Tauzin. Thank you, Chris.
    Let me wrap up by first of all recognizing the presence of 
a former colleague. As Secretary Westphal pointed out----
    Mr. John. Do we have to?
    [Laughter.]
    Mr. Tauzin. [continuing] one of the founders of the 
Congressional Wetlands Caucus, who has been a leader in this 
effort, Jimmy Hayes. We recognize you, Jimmy, for all your past 
efforts for Louisiana.
    And finally, as Chris did, to thank the two gentlemen who 
came such a long distance to be with us. I was outside, Peter, 
with a reporter just a little while ago and one of them 
jokingly said that we were putting him to sleep in here. Let me 
first not apologize for that, this is not a very exciting and 
titillating subject, it really is not, we understand that.
    Ms. Gay. To me it is.
    Mr. Tauzin. Is exciting to the witnesses that are here, but 
I am talking about in terms of the television audience, we 
understand that. This may be boring for a lot of people, but 
let me say it I guess as succinctly as I can, perhaps in the 
words of young Daniel Snyder, this is our home and we are about 
to lose it. And when we lose our home, not just Louisiana but 
America loses something precious along this coast. And I cannot 
think of anything much more serious than that when you think 
about it. Cajuns got displaced, Peter, Tom, by the British a 
long time ago and New Orleans is a home for all kinds of 
displaced populations, from Africa, from Europe and from Asia 
and South America--we did not just get termites, we got all 
kinds of folks from all over the globe to settle in Louisiana. 
It is a wonderful multi-cultured community. And as I said, some 
of us came here less than voluntarily. But this is our home now 
and we share it together and we love it together and we honor 
it together and those of us who serve it, serve it in Congress 
together with a great deal of enthusiasm and seriousness of 
purpose. This is a most serious hearing today. I hope you have 
appreciated that it came to New Orleans, that the Natural 
Resource Committee respected the fact that this community and 
the Louisiana coastline is the most impacted, but that 
coastlines all over this country could have similar hearings 
and similar discussions and threatened and endangered 
wilderness and resource areas and urban parks are hurting all 
over this country and historic areas are not receiving the 
protection they should these days.
    These are concerns you would hear all over America, but I 
hope you appreciate that Chairman Young first consented to 
bringing it to Louisiana and finally, I hope you give these two 
gentlemen who came from that beautiful state of Oregon and that 
fantastic community of New Mexico--I have spent a lot of time 
in both of those great states and I will tell you, I would find 
it hard to leave it if I represented them, to come even to new 
Orleans. They are just great places to be. I hope you give Tom 
Udall and Peter DeFazio a big hand of appreciation for coming 
here.
    [Applause.]
    Mr. Tauzin. Any closing comments, Peter, Tom?
    Mr. DeFazio. Well, Mr. Chairman, I think that, you know, 
this has been a tremendous weekend in terms of accelerating my 
knowledge of the coastal problems you have here. Coming from a 
coastal state, you know, I am sympathetic, I believe that as a 
cosponsor of Congressman Miller's bill, that we can work out 
our differences and come to something that will be mutually 
acceptable and I am hopeful we will do that because otherwise 
the appropriators are going to keep stealing the money that 
could be applied to better purposes than just sending it off 
somewhere into the ether of the Federal budget. So I hope we 
can make that common cause and get it done.
    Mr. Tauzin. Thank you, Peter. Tom.
    Mr. Udall. Thank you very much. And let me first thank the 
panel. I think this final panel was a very good one and I think 
laid out really the ground we need to cover in order to get 
this done. I also want to thank our hosts here. I mean Billy 
and Chris have just been really wonderful in terms of making 
sure that we got around and saw all of the local sites and 
things along with doing quite a bit of work. And they told us I 
think yesterday or day before when we were flying over these 
coastal wetlands that we probably had seen more wetlands than 
almost anybody in Louisiana. So we are very familiar with the 
wetlands after this trip and I think it is clear that the 
President's proposal for a land legacy fund, the bill 
introduced by the Louisianians and Chairman Young, Miller's 
bill, all of this is an effort to do something in terms of all 
the areas we have talked about here--endangered species, 
historic preservation, trying to make sure that we have money 
available for states to do the kinds of things they want with 
land acquisition and also if there are additional things that 
need to be done in terms of Federal land acquisition.
    So let me just say that this has been and we do not take 
the opportunity that much to either leave our home districts 
and learn about national issues like this, but this has been a 
wonderful opportunity and I really want to thank the panel and 
thank our hosts.
    Mr. Tauzin. Thank you, Tom; thank you, Peter. Thank you all 
for coming, the hearing stands adjourned.
    [Whereupon, at 12:12 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
Statement of James H. Jenkins, Jr.,Secretary, Department of Wildlife & 
                   Fisheries, Baton Rouge, Louisiana

Dear Mr. Chairman:
    The Department of Wildlife and Fisheries strongly supports 
H.R. 701 known as the Conservation and Reinvestment Act of 1999 
(CARA). With respect to it's conservation impact, CARA is 
certain to take a position beside its models, the Pittman-
Robertson and Dingell-Johnson/Wallop-Breaux Acts as the most 
important conservation legislation this century. It is 
appropriate for it to come as we enter the next century, for it 
will usher in a new conservation era; one which will provide 
long-term funding for all plant and animal species. The level 
of support for CARA throughout the nation is unprecedented, and 
reflects a genuine interest by the public in conserving our 
native flora and fauna.
    Interest in wild areas has been a part of our heritage for 
generations. Theodore Roosevelt was certainly an advocate when 
in 1904 he sat on our largest coastal barrier island, 
Chandeleur Island, and recognized its significance, calling it 
a ``national treasure.'' Indeed, his interest in preserving it 
led to its becoming the nation's 2nd National Wildlife Refuge 
(known today as Breton National Wildlife Refuge). In recent 
years, the refuge has served as habitat for thousands of 
nesting terns and gulls.
    Birds continue to attract broad attention in Louisiana. Our 
wetland communities draw millions of ducks and geese every 
autumn, and serve as critical overwintering areas for these 
groups of birds. The Mississippi River alluvial valley serves 
as a flyway channeling these birds to areas where hunters as 
well as non-hunters may enjoy them. The river also funnels 
millions of other birds down its corridor during their fall 
migration to lands south of our borders. And in the spring, the 
birds return. These neotropical migrants depend on our habitats 
to refurbish their energy resources that they have depleted 
from their long flights across the Gulf of Mexico. Of 
particular importance are the cheniers, remnant beaches now 
wooded with live oaks and other species of hardwoods along the 
coast. During poor weather conditions, they serve as refuge for 
numerous species of birds and butterflies to alight, rest, and 
feed, before continuing their journey northward.
    CARA will provide monies to improve the management of 
existing public wildlife management areas and refuges and allow 
us to work with private landowners to protect these critical 
migration routes and develop wildlife viewing areas throughout 
the state, thus providing increased opportunities for the 
public to actively pursue its wildlife interests.
    For years hunters have provided the lion's share of the 
funding for wildlife conservation, management and research 
programs. Revenue from the sale of hunting licenses coupled 
with Pittman-Robertson funds have been used to manage and 
conserve a wide array of wildlife and their habitats. However, 
those funding sources have not increased in recent years, 
despite the growing demand for wildlife associated recreation 
and increasing responsibility of state wildlife agencies. As a 
result, urgent needs go unmet under present funding levels.
    Research indicates that our songbirds are in trouble. More 
than 40 percent of the neotropical migrant species are 
declining. In the United States alone, it is estimated that 
some 40 percent of migratory bird habitat was lost during the 
last three decades. The time to act is now. To wait would 
increase the likelihood that many of these species will 
continue to experience declines, which may lead to listing them 
as threatened under the U.S. Endangered Species Act. CARA will 
immediately provide necessary support to tackle current 
conservation issues that have no geopolitical boundaries for 
which funding is currently grossly lacking.
    Habitat loss is a real threat to our wildlife resources. 
Coastal erosion, a tremendous problem in Louisiana, contributes 
to habitat loss for many species of wildlife. Habitat loss also 
occurs with conversion of our native forests, prairies, and 
marshes to urban, agricultural, and other uses. Certain Federal 
programs, such as the Wetland Reserve Program, have been 
paramount in reforesting less productive farmlands. The list of 
programs beneficial to wildlife is certainly numerous, but land 
acquisition, when performed in cooperation with willing 
sellers, remains a key tool in wildlife conservation. These 
sellers often want to act quickly, however. H.R. 701, as 
proposed, would place the unnecessary restriction of having 
Congress approve projects over $1 million. This would, in our 
opinion, slow the process, and may discourage a willing seller 
to enter into a deal. Limiting acquisitions to within and 
around existing Federal properties is also very restrictive. 
The states, through their knowledge of gaps in what fauna and 
flora are protected on government and privately maintained 
lands, are better positioned to determine what protection needs 
exist to complete their site portfolios. This authority needs 
to be left with the states, and not limited to or dictated by 
where Federal properties currently exist.
    The threat of exotic species on our native wildlife may 
become one of the most pressing issues of the 21st century. The 
nutria, a semi-aquatic rodent, was accidentally introduced into 
the states coastal wetlands in 1937. They not only feed on 
grasses that are essential for trapping sediment during the 
marsh building process, but they also consume the plant root 
system, destroying the plants that hold this fragile land 
together.
    Between 1962 and the mid 1980's, a good fur price to 
trappers maintained an adequate harvest and control of the 
population. During the late 1980's low fur prices resulted in 
less than adequate harvest and very serious vegetative damage 
in coastal wetlands.
    An aerial herbivory damage survey conducted in 1998 
indicated that over 80,000 acres of coastal wetlands had been 
damaged by over population of nutria. Only 9 percent of these 
sites showed sign of recovery. Vegetative damage caused by 
nutria was documented in at least 11 CWPPRA project sites.
    Since nutria herbivory damage is so closely tied to coastal 
restoration efforts, funds for incentive payments, to increase 
the annual harvest and reduce vegetative loss, should obviously 
come from Title 1.
    Recreational and commercial fishing is an important 
component of the economic, social and cultural fabric of 
Louisiana supporting over 49,000 jobs and nearly $2.9 billion 
in retail sales. The benefits derived from fishing are 
sustainable if we wisely invest in the proper stewardship of 
these fish resources.
    Title I, Section 104 lists the authorized uses for Impact 
Assistance funds. Although research on marine fish is 
mentioned, the language is not clear that other important data 
gathering activities are allowable. Specifically, gathering 
harvest data, economic data, and other information from 
fishermen and other user groups is vitally important in 
determining the impact of OCS activities on the user groups; 
gathering this type of information should be specifically 
provided for in this Title.
    Also, we suggest it is appropriate to provide funds to the 
Secretary of Commerce for rejuvenation of the 
Interjurisdictional Fisheries Act of 1986, which provides for 
grants by the Secretary of Commerce to States for management of 
interjurisdictional commercial fishery resources. Funding for 
this Act has been decreasing in recent years, which has 
adversely impacted the ability of the coastal states to manage 
their coastal fisheries resources. Likewise, consideration 
should be given to provide more funding to implement the 
management plans of the eight regional Fishery Management 
Councils, which were established by the Magnuson-Stevens 
Fishery Conservation and Management Act. The Councils prepare 
fishery plans which are designed to manage fishery resources 
from where state waters end out to the 200-mile limit of the 
Exclusive Economic Zone.
    The Urban Wildlife Program addresses issues associated with 
cities, such as nuisance wildlife concerns and urban wildlife 
education/viewing/inventory issues. The public demands that 
such programs be available, with interest in improved 
endangered species and urban programs growing annually. Funding 
is grossly inadequate to meet even the current needs. CARA will 
provide funding to strengthen these programs.
    In Louisiana today there is a vital demand for ``non-
consumptive or non-game'' educational programs and activities. 
Public links to the environment have diminished, caused in part 
by the population shift from rural to urban and the increase in 
single-parent households. Accumulated environmental problems 
over past decades have placed pressure and stress on 
Louisiana's wildlife resources. The management and conservation 
of the rich and bountiful non-game populations cry out for 
increased awareness through educational programs. As wildlife 
management practices have changed from single species 
management to entire ecosystem management, wildlife education 
must transcend teaching only hunting safety to educating the 
public about natural resource issues, trends and management 
decisions. The public needs to understand the importance of 
biodiversity, interdependence and other essential concepts and 
how these concepts are personally relevant to public well-
being. Louisiana citizens should have the opportunity to 
understand, enjoy and derive benefits from all of our diverse 
wildlife resources. The challenge is providing the long term 
funds necessary to meet this vacuum. The wildlife resource 
funding initiative known as CARA can fill that vacuum by 
providing financial resources to enable the state wildlife 
agencies to become full service agencies benefiting all 
citizens.
    All these unmet needs require substantial and consistent 
funding sources. In light of these needs, we support the 10 
percent funding level as recommended in H.R. 701, and strongly 
urge that you adopt this level funding as a minimum. The urgent 
nature of this need dictates that funding be provided at this 
level.
    We are standing at the door of a new millennium and at a 
new frontier. As the idea of sending men and women into space 
captivated the American audience over the last four decades, 
the idea of conserving our native game and non-game species has 
tremendous support nationwide today. Our native plants and 
wildlife are national treasures, much like the barrier islands 
of which Theodore Roosevelt spoke in 1904. And much like 
America's space program, considerable funds will be required to 
reach our goals. CARA will provide the funds to begin this 
process.
                                ------                                


Further testimony submitted by the following people: H.R. 701 Testimony 
               Submitted from March 31 through May 2,1999

Poulson, Barbara
Connell, WA

Naphy, Yolada
Vinemont, AL

Appel, Steve
Washington State Farm Bureau

Miller, Pamela
Arctic Connections

Warner, Richard
Association for Biodiversity Information

Baker, Michael A.
Arizona Association of Learning

Bailey, Mark H.
Bellingham, WA

Olson, Carl
State Department Watch

Beyer, LaVerne A.
Stockton, IL

James, Jerry
Hobart, IL

Mangham, C.H.
Mineral Wells, TX

Morton, Robert M.
The Wildlife Society, The Kentucky Chapter

Schmidt, George
Anchorage, AK

Trippet, Larie
Incline Village, NV

 Further testimony submitted by the following people: H.R. 701 Hearing 
                   Record From May 3 through June 11

Wentz, Alan
Ducks Unlimited, Inc.

Gordon, Gerald E.
Utah Wildlife Federation

Carpenter, L. Steven
Utah Recreation & Parks Association

Montana Department of Fish, Wildlife and Parks

Pfeiffer, Donald G.
Washington, IA
[GRAPHIC] [TIFF OMITTED] T6598.203

[GRAPHIC] [TIFF OMITTED] T6598.204

[GRAPHIC] [TIFF OMITTED] T6598.205

[GRAPHIC] [TIFF OMITTED] T6598.206

[GRAPHIC] [TIFF OMITTED] T6598.207


</pre></body></html>
